I                                    IJATE..:. lO-O!il-.2014
                                   T7DQ W7771m!!               !!


I
I   A Review of the FBI's Use of
I   National Security Letters:
I   Assessment of Correcti\re Actio11s m1d
    Exaini11atio11 of NSL Usage ir1 2006 (U)
I
I
I
I
I
I
I
I
I
I                       01l:1ce of the Inspector Cieneral
                                            h1arch 2008
I
I
I
I
I
I
I                                         TABLE OF CONTENTS (U)
    TABLE OF COI'>.ll'ENTS {U) ..................................................................... ,. ... i

I   INDEX OF CHAI<TS AND Tl\BLES fU} ......................................................... v


I   LIST OF ACH.ONYIVIS (U} ....................... , .. ,, .. , .................................. "' ........ vii

    CHl\Ff'ER Or-.i"E: INTRODUCTION (U) ..................................................... ,.. l

I   1.       Provisions of the Patriot Act and Patri<>t Reauthmization Act {U) ...... 2

    IL       Methodology of the OIG Reviev>r {U) .... -.,, .... ,,,.,, .................................                                                 ~i
I   Ill.     Orgr.mization of the Report (U) .............................................. -- ....... , ,, 5

I   fV.      Sum.rnmy of OIG Findings (U) .................. ,,,, .. , ............................... ,, 6

    CHAPTEI~    T\VO: ST!\T1JS OF THB: F'BI'S AND DO.J'S CORHECTIVE
I           ACT'IONS IN RESPONSE TO THE OIG'S FIRST NSL REPORf {U) .,,. 13

    I.       Overv'le\V of the FBI's and                       Department's Corrective Meastffes                                          (tJ} .. ., 14
I   IL       Status of the FBI's Irnplernentation of the OIG's Heeonrrnendations
             in Our First .NSL Report (U} .. ,,,,,.,, .. ,,., .. , ........ ,, .............. , ......... , ..... ,, 19
I   IIL      Other Corrective Measures l:rnplen1ented by the F'BI and Other
             Departn1ent Co111ponents {U), .......... ,, ....... ,,,,,,, ............................... 49
I           A.        TI1e FBfs Otllce of Integrity a.nd Compliance (U} ................... 49
                      1.       Organization St.11J.cture and Operations (U) ................. 50
I                      3.
                               'L'H._~k Ass·"~'s1·.-1e·1·1t
                               I\J.i;:,c      <:..."-o .-.. · ·   . I::tro' c·~s·"'
                                                                              .,. ,. . ~ ·(U) I>"'~>
                                                                                                 I>    ~ ,..~+,. . . .; . . ·+•~+••• ... •""•"~"· ·'"-~.c..~
                                                                                                      I>   I> I> ......



                               OIG .Analysis (0) ........................................................... 5:3
                                                                                                                          ++ ..   ..               t:;'l




             B.       ."Na·u·onal "s·'ecunty   .. .[Y1v1s1on    . •          (Lf) ..................................... ., . ,, ..... ,'.)-:>      r,~ r,•

I                     L            Office of Intelligence (U}., ........ , .. ,, ..... , ....... , .................. 55
                      2.           Oversight....·
                                                  Section (U) ................................ ,' ...................... 57
I
                                                ~

                      3,           C)IG ..i\.n.alysis (lJ}, .............. , .. , .. ,, .. , ................................ 63
                      National Security Letter \Vorking Group (U} .... , ............... , ..... 64

I                     1..
                      2.
                                  .1 na t·•ion o.t·uj.t'
                            r::.-Va
                            t.?'                                     ·~--ontxo Is an dC"
                                                  •.i:'.<X .s J.n5!f•"'
                           Additional Privacy Enhancenwnts Recou1mended by
                                                                                              . .e .lnes {1l.l").• • • . •• ar.:
                                                                                       ...1u1'd·1·                           . ,)



                            the NSL \\forking Group {U) ............. ., .............. ,. .......... 66
I                     8.    Other Enhancements Considered but Not
                            Rec:ormnended (UJ ....................................................... 68

I
I
I
I                  4.        OIG Analysis of the NSL \Vorking Group's Report and
                             Recornrnendations (U} ................................................ , 69
I   IV.   OIG Condusions and Recomn1endations (U) ................................... 72

I   GHAP'l1~H THRF:E: THE fi~BrS 20ff1 RB:VlE\VS OF' NA'T£0NAI,. SECURl'IY
          LKrTEHS IN RESPONSE 'I\) 1TIE GIG'S FTl~ST NSL REPORr fU) .... 75


I   L     The FBI's 2007 Reviews of NaJiona1 Securiiv
          A.
                                                    ... Letters (UJ ................. 77
                   The FBI's 2007 Field Revie\.v of National Security Letters (U) , 77

I                  L
                   2.
                             Methodology of the FBI's 2007 Field Revkw (U} ,. .........
                             The F'BI's Post-Field \Vork Analysis (U} ......... ., ..............
                                                                                                                           78
                                                                                                                           79
                   3.        The FBI's Findings (U) .,,,,,".. "''''"'"""""""'" ....... ,.., ....                           81
I                  4.        Con1pmison of F'indtngs in the FBrs 2007 NSL Field
                             H.evie\.v and the OlG's First NSL Report {U) ..................                               85
                   The FBI's 2007 Headquarters I<eview of NSLs (U). .. ,, ............. 8G
I                   1.       Background (U) .......................................... ,................ 86
                    2.       FBI Methodolog_v (U) .................................................... 87
I         C.
                    3.       The FBI's Headquarters Findings (Ul ............... ., ...... .,,,. 87
                   The FBI's Revkvi of FCHA NSLs Seeking Consumer Full

I                  Credit Reports in Cm:m:terinteUigencc Investigations {U) ........ 89
                    1.       The OIG's Findings on FCHA NSLs in Our F'irst NSL
                             lZeport {U) .................... .,,,,.,,,,. ... ,... , ............................. 89
I                   2..      The F'Bl's 2007 Review of FCRA NSLs (U) .............. ,, ..... 90

    lL    ·r··1·
             . le C         .. a lys1s
                       ~" s An
                  ·-)J l.l          · o r-· tt·le ·i:.'B1·
                                                  .t'.    s.,.,..   I lN"'I
                                                             ')('HJ'.~  ~ _,   n     -
                                                                               r·d:'~\'1ews   1·11)
                                                                                              .                         g· ,.,,
                                                                                                    .. ......................::i

I         A.       The OIG's Verlflcatton of the FBI's 2007 Fidd Revie\v of
                   NSLs (lJ} ..................................................................................,,,. 93

I                   1.
                    2.
                             The OlG 's l\tlethodo:logy (U) .. ., ................ " .... " .............. 94
                             Findings of the OJG's Re-vie\v (U} ......................... ~ ........ 94

I         Et        OIC1- Ar1<::tlysis (TJ) ................... ,,., ..................... , ......................... 98
                    L        111e OlG's Conclusions Regardtng
                                                        ....     <••
                                                                     the F'ield and
                             I-fo.adquarters Reviews (U) ......................................... ,,. 98
I                            The OIG's Conch:isio:ns Concerning the FBrs FCRA
                             I\evie\v (lJ} .................. ,, .... .,. ..................... ., ................ l 01

I   UL    OIG Conclusions and Recomrnendatio:ns (U} ................................. I 02


I
    I.    Metl1odology (LJ) ............................................................................... 1(15
I
I
I
I                                                                                                          ~
    IL     National Security Letter Requests rssued in 2006 (U) ................... 107

I   IIL    'Trends in National                                            S<:~curH.y                              Letter Usage frmn 2003 through 2006 (Ul



I   CH.t\PTEH. FIVE: THE EF'F'ECTfVE::NKSS OF' NA~I10NAL SECUHJ'TY
           LETTERS AS AN INVESTlGA11VE TOOL (OJ ................................. 114

I   CHAPTER SLX: OIG FINDINGS ON THE FBJ'S COMPUANC:E vVITH THE
        PATRIOT .RE/\UTHORIZt'\TION ACTS NON-DISCLOSURI~ AND
        CONFIDENTIALITI.. PROVISIONS fU) ............ " ................ ,, ............ 117
I   L      I3ackground (tJ) ............................................................................. 117
           A,          '111e Patriot Reauthorization Act (U) ..................................... 117
I          B.          The FBI's In1plementatlnn of the Pattiot Reauthorization
                       Act Non-Disclosure and Confidentia:lity Requirements (U) ... 119
I          C.          Methodology of the OlG .Rev'.k:\V (U) ............................ ., .. ,.... 121
                       l.                  :Randon1 San1pk of NSL~ Issued .After lVIarch 9,
                                           2,006 (l1)   Jo;.).",.;.;..~~+++++++++      :0).,.      121
                                                                                                )o).;.                                            ................................................................. ,. ...................................


                       2.                  Other 2006 NSLs Identified Dur1ng the Re.view (UJ ..... 12a

    IL     OH} :Findings and .Analysis (U} ........................... .- . .- .... .," ............. 124
           A.          NSLs That Invoked Non··Dl.sdosure and Con1k1entiallty
                       ()bligations (l.J} ................................................................... , 124
I          B.          NSLs That Did Not Invoke Non- Disclosure and
                       Confldentiality Obligations (U) ............................................ 126
I          c.          "I:H.,,·    ·'l{"'t
                        . :>1..-.tl.1. .:-.. ...
                                              . lN·~r        ·• r.S,.s U.t".. Ci..:I Ul
                                                   ;.,;> ....~                       , • "}l-1()6
                                                                                         ,,~..    c·1-·T} ., , , , , , , • , ...........•••...•.•.•. . • . . . • I 0~·I""

    III.   OIG Conclusions and :Reeorn.mendaUon (U} .................................. 128
I   CHAPTER SEVI~N: IMPROPEH. OH. ILLEGAL USE OF NATIONAL
        SEC URBY LKITERS HEPORTED BY FBI PEHSONNEL IN
I          ?Q1~
           ~ l. l .)   (·lp
                         -.' J   "y   ~ ... ,,. y   y v ... 'f' ..............   ~   ............ '      .. ' ' ' ' . . . . "   • ·"   ~ ~,.,.,.,.,.,."",.,.."
                                                                                                                                        ...                       / ' . " " .. , . , ",.. ......... ..,.., ,. ".., .... y ... .... '   " ' y.., .... y.., ...................   "v...   1~1
                                                                                                                                                                                                                                                                                         ,,._"}




           'The FBI Process for Reporting Possible Violations Involving
I          Intelligence Activities in the United States (ll) .............................. 134
           .A.         The Process for Rep01iJng Possible                                                                                                       l:nteU~gence

I                      V1olatior1s (lJ) ..............
                       f'BI Guidance on Reporting and Adjudicating Possible
                                                                                                                       v.· . . . , . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . , . • . . • • • • • . . •                                                1 ~14

                       Intelligence Vi.olations (lJ) ............ , .. ,., .. , .............................. 135
I                      l.                  Noveu1ber 16, 200(), Guidance on H:ep01ting Possible
                                           IOB Violations to the FBI OGC (0)............................. 13S
I
I                                                                                                          ~.
                                                                                                           ~
I
I                   2.               Nove1nber 30, 2006, Guidance to f!'Bl OGC NSI.J3
                                     Attorneys Adjudicating Possible IOB Violations {lJ} .... 136
I   IL      Possible Intelligence Violations Arising F'rom National Security
            Letters Reported to the FBI OGC in 2006 (U} ......... ,... ,...... " ....... ".... 137
I           A.      Possible NSL-Related IOB Violations Reported to the IOB
                    it1 2(){)6 (CJ) .......................................................................... 139

I           B.      OIG Analvsi.s
                             ,,.:.
                                   Ref!ar<ling
                                     -<::'   "'"
                                                 Possible NSL--Related IOB
                    Violations Reported to the IOB (U} ................................ .,,,,, 145

I           C,      Possible NS:L-Related IOB Violations Not Heport.ed to the
                    IOB in 2006 (U) .......................................................... ., ...... 14-6
            D.      OIG Analysis of P'ossihle NSL-Rdated 108 Violations Not
I                   Reported to the IOB (0) .. ., .................................................. 148
                    C0111pari.son of Possible NSL--H.elated IOB Violations

I                   :Reported to the FBI OGC in 2006 and fron1 2003 through
                    2C}Q5 (t. . .T) ,. >lo,. ,.~~"'"'~ .... ~~, ......... ,,."" ........... .:-- .... .-.i- ........ """" ...(" ( "" ( ("" .... ~ ( .......................... ( ( ....... ...,,,,. ,,.,, ,. ... 152


I   11L     CHG Conclusions and Recommendations (U} ..... ,, ......................... 155

    CHAPT'EH. EIGHT': CONCLUSIONS A!>.i1D RECOMMENDKl10NS {U) ....... 157

I   UNCl...ASSIFHn) APPENDIX (U).,, .. ,., .., ....... ,.,..,,.,,.,,. ... ,, ............. ,, ........... A-1

    CLASSIF1ED .APPENDIX (lJ) ............................................. ,. ..................... .13-1
I
I
I
I
I
I
I
I
I                                                                                              iv
I
I
I                            INDEX OF CHARTS AND TABLES (U)
                                                                                                                                   Page
I   Chart 2.1
    Chart 3.1
                   Organiz,,a:tion of the Office of Intelligence fU)
                   Comparison of Possible NSL··ReJated IOB Violations
                                                                                                                                     56
                                                                                                                                     86
                   Identified in the OICJ.'s First NSL Repmt and the FHrs
I   Chart 3.2
                   2007 Field Revtew· (U)
                   Con:1patison of Possible NSL·· Related IOB Violations                                                             9G

I                  Identified by the FBr and the CHG (by category) in
                   NSI...s Reviewed in Three Field Offices (U)
    Chart 4,1      Relationship between Investigations, NSLs, and NS:L                                                             105
I   Chart 4,2
                   Requests in 2006 (U)
                   NSL Requests (2006) (U)                                                                                         108
    Chart 4.3      NSL Requests Rdatin.g to Investigations of l.LS.                                                                108
I   Chart 4.4
                   Persons m1d non-U.S. Persons (2006) (UJ
                   NSL Requests in Cou.nterterrorism,                                                                              109
                   Cou.nterintelligence, and Foreign Computer Intrusion
I   Chart 4,5
                   Cyber Investigations (2006} {U}
                   NSL Requests {2003 through 200G) (UJ                                                                            110
                      ·--r _, .·F:),equest:s                        · . · , ·tTi 'lJ. ,,_s· , nr ersons. an d. non -- TT
I   Cl::ta1t 4,6   N~                          . . I"'l..el.a t1ng
                   Persons (2003 throuf!h 2006} (U)               l_.,,~·
                                                                                                                            •.._
                                                                                                                      ,_, .:::l.   112

    Chart 4,7      NSL Requests in Counterterrorlsm.
I                  Counte1intelligence, and F'oreign Computer Intrusi-on
                   Cyht.~r lnvestiga.tions (2003 through 200G) (U)
    Chart 6.1      NSLs that ln1posed Non-Disclosure and                                                                           124
I                  Confidentiality Obligations (March 10, 200cl thro1.:igh
                   Deccn1bcr 31, 2006) (U}

I   Chart 7,1      Possible NSL-Related IOB Violations Reported to the
                   FBI OGC (2003 through 2006} {U)
                                                                                                                                    1~38


    Chart 7.2      Tiineliness of 34 FBI Field Reports to the FBI OGC of
I                  Possible NSL--Related lOB Viol.at.tons Reported to the
                   JOB (2006) (OJ
    Table 3.1      NSL-Rclatcd Infractions Identified in the FBI's 2007                                                              81
I                  r."e1f1 ·nP\rie•u
                   .[" .S . . ·. . .t'\. ... ·
                                       .   ~   1. I '<.'lfPI'
                   "/\dtllillfStratiV('. Errors" (U)
                                                    ~}~~ ·. .......
                                                           ....     c·"la<>sJ
                                                                      ....
                                                                      ~    ..
                                                                                1::--1Pd ·t·Jv ·t't1e L'BI -;os
                                                                            :?i,._,:tl   ,.__     J .. ...[" _ .
                                                                                                .•)   .   :-:-~~-




    Table 3.2      Possible NSL--Rela1ed fOB Violations Identitled in the                                                            83
I   Table3.3
                   F'BI's 2007 F'ield H.e-vi.ew (2.0CK~ through 2006} {U}
                   Possi.bk NSL-·Helated tOB Vi.olations Identitled in the                                                           88
I                  F'BTs 2007 Headquarters Review (2003 through
                   2006) (U)


I
I
 I
 I                                                                           Page
     Table 3.4      Possible FCR1\ IOB Vtolat.tons Identified Jn the FBf's     H2
 I                  2007 Review of NSLs Issued in Counterintelligence
                    Investigations (2002 through 2006) (U}
     Table   ~1.5   Possible NSL-Related IOB Violations Identitl.ed by the    95
 I                  OIG Not Ide:ntifled by FBI Inspectors at Three Field
                    Offices During the FBI's .2007 Field Revie\v (U)

 I   'Table 3.6     Cotnpmison of Possible NSL·Related JOB Violati.ons
                    Identified by the FBI and the OIG at Three Field
                    Offices (TJ}
 I   Table 7, I     Su111mary of 84 Possible NSL-Related JOB Violations
                    Heported to the FBI OGC {2006) (U}
                                                                              139

     Table 7 .2     Surnrnary of 34 NSL-Related IOB Violations Reported       140
 I   Table ?.3
                    to the IOB by the FBI OGC (2006} {U)
                    Surnmmy of 50 Possible NSI.,,-Rela:ted IOB Violations     146
                    Not Reported to the IOB (2006) (U)
 I   Table 7,4      Con1partson of Poss.tble NSI.,.-Related lOB Violations
                    Reported to the FBI OGC (2003 Hu-uugh 200S and
ii                  2006) {U}



I
I
I
I
I
I
I
I
I
                                              vi
I                                        ~
I
I
I                         LIST OF ACRONYMS {U)
    ACS        .Automated Case Support System. (U)

I   ADC
    CAU
               Assistant Division C<Junsd (U)
               Con11nurlications Analysis Un.it (U}
    CDC        Chief Di.vision Counsel (U)
I   CTD
    DNl
               Counterterr01isn1 Dtvisi.on (ll)
               Director of National Intelligence (U)
    EAD        Executive Assistant Director (U}
I   EC
    I'.:CP.A
               Electronic Communication (U)
               Electronic Corrnnunications Privacy Act {U)
    FBI        Federal Bureau of rnvestigation
I   FCRA
    F'ISA.
               Fa.Jr Credit .Reporting Act (D)
               Foreign InteUigence Surveillance /\ct of 197'8 (U)
    :n:s       Internal InvestigaUons Section (U)
I   IOB
    ISJ~
               Intelligence Oversight Board {U)
               Internet Service. Provider {U)
    JTTF       .Joint Terrorisnl Task Force (U)
I   NAHi\
    NSB
               National Archives and Records Adn-1inistratton (U)
               National Security Branch {U)
    NSD        National Security Division {U}
I   NSI
    NSL
               Nationa.J Secnti.ty Jnvestfgat:i.ons {U)
               National Security Letter (U)
    NSLB
I   OGC
               National Security Law Branch (U)
               Otllce of the General Counsel (1J)
    OIC        Office of Integrity and Compliance (U)
    ore;
I   OIPR
               Office of the Inspector General {lJ)
               Ofllce of Intelligence Policy and Review' {U}
    OLC        Office of Legal Counsel (U)
I   OPR
    HFPA
               Office of Professional Responsibility (U)
               Rlgbt to Financial Privacy Act (lJ)
    SAC        Special Agent tn Charge {U}
I   TFOS       'Terrorist F'inm1cing Operations Section (U)



I
I
I
I
I
I
I
                                        CHAPTER ONE:
I                                     INTRODUCTION (U)
           Th.e USA PATH/OT bnprouem.ent: and l~em.tth.orization Ac:t qf· 2005
I   (Patriot Reauthorization Act or the Act) directed the Depart:nwnt of .Justice
    (Department or DO...U Offlce of the Inspector General (OIG) to review', a.mong
    other things. "the effectiveness and use, including any improper (Jr illegal use,
I   of national secu1ity letters issued by the Departn1ent of Justtce." 1 The Ad
    required the OIG to conduct :reviews on the Federal Bure~lu of Investi.gation's
    (FBI) use of national security letters (NSL} for two se1xirate time periods.2 {U}
I         T'he OIG's first report on the FBI's use of NSLs, issued on March B,
    2007, covered calendar years 20t13 through 2005,3 This is the OIG's second
I   report on th.e F'.Br's use of NSJ...s. In this report we describe and assess the
    response by the FBT and the Depart.n1ent to the serious misuse of NSL
    authorities that our :tlrst n~port descdbed. In addition, as required by the
I   Patriot Reauthorb~atton Act. this report describes the FBl's use of NSLs in
    calendar year 200H. (UJ

I         Vile a.re also in the process of completing an i.nvesti.gatio.n of the FBrs
    uBe of exigent letters, a practice that \Ve described generally in our first NSL,
    report. This investigation also \.Vilt assess responsibility for U1e in1proper
I   use of these exigent letters. \Ve are neari.ng the end of that investigation on
    the use of exigent letters, and we intend to issue a report covering this
    subject iI1 the near future. (U)
I
             '~ This ri::port includes infonnation that tl.K~ Department of .Justice crmsidered to he

I   dassifkd and therefore C(.Rlkl not bi~~ publicly rekHsed, To create the pubHc: version of the
    report:, the OIG redacted {dekted} the port.tons of the report that th(~ Department: considered
    to be cla.sslfled, and we indicated where those redaetions were nmde, In addition, the OIG

I   has provided copies of the full classified report to the Departrnent. the Director of National
    Intelligence, arid Congress. (U}
            i   USA. PATRIOT Irnprouemen.i: and Reo.uthmization .Act qf 2005, Pub, L. No, 109-177,

I   § 119(al. 120 Stat. 192 {2006}. {lJ!
                ~~ The Pdiiot: Heau thorlzation Act ~ilso din>:c:ted the OlG to conduct reviews on the
    u.Sf-'. a:nd eff(~divene~s (tf St~ction 215 on:fors for business records, mwt.her investigative

I   authority that was e,"'(p;.u:1de<l by the Pat.riut Ad. The results of the OIG's fi:rst. review on
    Section 215 orders are cont:.ainetl in a report issued on March 9, 2007, The OlG's second
    review of Section 215 orders in 2006 is contained in a separate report i.ssul~d i.n conjmwtion
    with this report (U}
I             3 U ,$, Depsrtrnent of.,Ju.stice Office of tlle Inspector General, Reuieiu qf the Federal
    Bureau qf lnvestlga.tion.'s (Jse of Naitonal Security Letters {March 9, 2007) (NSL I}, available

I   at 'IN¥l\v,doJ .gov/ oig. \Ve refer to the undassified version of that. re:port as th<~ first NSL
    repott Alt.hough the Act required the OlG to Inch1de only <:alendar years 200(~ through
    2004 in the frrst report. \Ve ekdx~d w also indude 2005 in that report. {U)

I
                                                     1
I                                             ~
                                              ~
I
I   I.     Provisions of the Patriot Act and Patriot Reauthorization Act {U}

I          ln the Introduction of our first NSL repmi:, we described the expansion
    of the F'BI's national secu1ity letter authorities in the USA PA'ITtlOT' /\ct
    {Patli.otAct) and do not repeat that deseliption here.4 Ho\vever, for this
I   report on the F''.BI's use of NSL authortties in 2006, we first identify the
    is.sues that the Patriot Reauthor.b.::ation Act directed the OIG to revie\.v; (U)

I          {1)       an exan1ination of the use of national sectnity letters by
                     the Department. of .Justice chning calendar year 200G; (U)
           (2)       a description of any note\titorthy facts or circu.tnsta.nces
I                    relating to such i1se, indudtng any ilnproper or illegal use
                     of such autholity; an.d (U)

I          (3)       an exarninaiJon of the effectiveness of national security
                     letters as an investigative tooL induding - (U)
                     {AJ     the importance of the information acquired by the
I                            Depart.n1ent of ,Justice to the :intelligence activities
                             of the Departrnent of ,Justice or to any other
                             departrnent or :agertcy of the Federal Governrnent (U)
I                    (BJ     the nmnner in which such information is collected,
                             retained, analy:z:ed, and disseminated by the
I                            D(~pmi1nent of .Justice, ine:l.uding any direct access
                             to such il'lfbnnation (such as access to "raw data")
                             provided to any other depa.rhnent. agency, or
I                            instru1uentality of Federal. State, local or hibaJ
                             governr:nent.s or any private sector entity: (U}

I                    (C)     \vhethi.:~r. artd how often, the Departrnent of Justice
                             utilized such information to produce an anaJytical
                             intelligence product for distribution within the
I                            Depart.rnent of .Justice, to the intelligence
                             cornmunity ... , or to other Fede.ral, State. local.
                             o.r tribal. government departrnents. agencies or
I                    (DJ
                             instrun1cntalities; (D)
                             tvhether. m1d hmv otlen. the Departrnt~nt of Justice
                             provided such tn:fonnaUon to lmv enforcement.
I                            authorities for use in criminal proceedings; .... fi (UJ

I           4 NSL I. 10<!6, 1he tcn:n ~USA PATRIOT Act" is an acronym for the law entitled the
    Uni.ting o.nd Sm~ngtheni11g .Arn~~n'ca bu Providing .Appropriate Toob Required to Intercept t.md
    Obstruct Terrnrtsm Act qf 2001, Pub. L. No. 107-5() (200 l}. This law :ls cm:nmonly referred to
I   as "Hle Patriot Act." {U:l
           ti   Pattiot Reauth<.)rizatlon Act§ 1 l9fhl-· (U}

I
I
I
I         \Vith respect to national sct-:t..utty letters issued fi1Uow1ng the date of
    ena.ctrnent of the Patriot Heauthorization Act (Mareh 9, 2006). the Act also
I   directed the OIG to exan1ine: {U)

                 (E:)   the nurnber of occasions in which the Departrnent
I                       of Justice, or an ofllcer or ernployee of the
                        Depaxt111ent of .Justice, issued a national security
                        letter \vithout the certification necessary to require
I                       the recipient of such letter to cmnply with the
                        nondisclosure and confidentiality requirements
                        potentially applicable unde.r law. (U)
I
    Il.   Methodology of the OIG Review (U)
I          To describe and assess the status of the FDf's irnplementation of its
    response to the recommendations made in ou.r first NSL repmi:, ad.ditional.
I   con-ective actions taken by the FB1 and other Department components,
    and the FBI's use of national security letters in 2006, the OIG cm1ducted
    interviews of over 30 current and fonner FBI and Departxnent e1nployees.
I   including personnel at FBI 1-Ieadquarters in the Ofilcc of the General
    Counsel (FBI OGC). Counterterrorism Division, Counterintell~gence  ~-·

    Division, and Cyber Division; and personnel in ~3 field oft1ces: Baltimore,
I   tVUarni, a.nd \:Vashington, D,C. \Ve exarnined over 18,000 l<"Lil doeurnents
    and pieces of cligital informatton provided by FBI Headquarters operational
    and support divisions and the ~1 Held divi.stons. /u:nong the docu1nents we
I   analyzed were FBI Headquarters guidance n1emoranda; con-espondence;
    natlon<..u security letters; reports by the FBI's Inspection Division, the FBI
    OGC, and the Department's Office of Professional H.esponsibUtty;
I   tnfonnation posted on the FBI's Intranet; e-rnails; c.uu:l training inaterials
    on the use of NS.Lo:;, (U)

I          To examine the progress of the F'Bl's i1nplernentation of the l l
    :recommendations in our first NSL report. we analyzed the FBl's memoranda
    describing the status of its corrective actions. Vie also intervtewed FBI
I   officials frmn the FBI OGC and Inspection Division, other senior FBI of1kials
    including the FBI Di.rector and Deputy Di.rector, and field personnel

I   responsible fo:r issuing and reviewing NSLs tn.cluding the Special Agents in
    Charge (SAC}. Chief Division Counsels (CDC}, Supervisory Special Agents.,
    and Special Agents, .Additionally, we reviewed all NSL-related guidance
I   issued by the FBI since our first report was isswxl. reviewed the types of
    NSL train.:ing provided and to \Vhom it was provided, and observed a
    deinonstration of the new NSL data system that was designed to manage
I   and track NSLs, (U)



I
I
I
I             \Ve also examined other corrective actions and new overs(ght
      measures irnplernented in 2007 by the FBI. the Departrnent:'s National
I     Securiiy Division (NSD), and the omce of the Deputy Attorney General
      relating to the use of NSLs. These measures included the FBI's
      estal..llish:ment of an Ofike of Integrity and Conq:.1Ua:nce (OIC) and the
I     Nsn·s new cornpUanc.e reviews, called "national security revie\vs,"' which
      revie\V U1e FBI's use of NSL rruthorities and other intelligence techniques in
      nattona1 security tnvestigations. We interviewed NSD and FBI
I     personnel responsible for these revietvs and exarnined relevant documents
      describing the establishment of the OIC and the national security reviews.
      ln addition, \Ve evaluated the August 2007 report and proposal to the
I     .Attorney General by the Departmenfs Chief Privacy and Civil Liberties
      Officer w·hich recomrnended hm:v the FBI should use and retain NSI>detived
      information. (U)
I            The OIG also visited thret: tldd ofllces to assess the accuracy of Hie
      FBI's review of NSLs issued. by these field offices, Jnitiaied after the issuance
I     of our rvlarC:h 2007 report The F'Bt's review assessed a randon1 sm:nple of
      10 percent o.f all national secu1·ity investigations active at any tin1e frorn
      2.00~1 through 200G. \Ve re-exmnined case files that had been reviewed by
I     FBI inspectors durtng the FBI's March 2007 Held review to vertty the
      accuracy of the data collech~d by the FBI's revie\v and compared our

I     findings to the FBI's :llnd1ngs. (U)

            In addiUon. ln response to the statutory d:lrectiVe to identify the
I     number of occasions in \Vhich the Depmi:inent issued national sectnity
      letters \Vithout the applicable certification necessary to require the
      recipients to con1pty \Vith the non-disclosure and confldentiali.ty
I     requirements of the Patriot Reauthorization Act, we reviewed a randon1
      san1ple of all NSLs issued frorn March IO, 2006, through Decen1ber 31,
      2006, to detenntne whether these NSL...:; cmnplied "\>Vith this requtrernenL
I     For purposes of assessing cornpliance \:Vitlt the new legislation, we also
      analyzed 11 so-called "blanket" nationa:l secu1ity letters 1ssued after March
      9, 2006, that were not part of the random sarnple but '\Vhich we identified in
I     the course of another part tif our review and which will be desclibed in our
      forthcorning NS.L report. (li)

I .         Finally, to document the FBl's usage of NSLs in calendar year 2006,
      as required by the Patriot Reauthorization Act~ we ana]yzed data in the FBl
      OGC database. 'We also examined the Department's 'mnual public rep01ts
I     to evaluate NSL requests in 2006 and to analyze trends in NSL usage fro:m
      2003 through 2006. (U)

I
I
I
I
I   III.   Organization of the Report (U)


I          This report is divided into eight chapters. This first chapter contains
    the background to this report, the orgasti.zation iu1d rnethodology of the
    rep01i:. and a summary of the report's 0.ndings. (U)
I          Chapter Two evaluates the FBI's specific responses to the 11
    recornrnendations we rnade in our 11rst NSL report. In this chapter, \Ve also
I   exa.rnine the FBr's new OIC, the NSD's new' procedures for auditing
    cotnpliance vtith NSL authorities and other techniques used .in national
    security investtgations, m1d the report by the Depa.rtrnent's Chief Privac.~y
I   and Civil Libeli:ies Officer regarding the use and retention oftnformat:i.on
    obtained through NSLs. (U}

I         Chapter Three descdbes steps taken by the inn in response to our
    March 2007 repo1i:, including three reviews the F'BI tnttiat:ed follmving
    release of our first NSL report: (U}
I          (1} its revie\v of NSLs issued by F'Bl field offi.ces frou1 a rar1dorn
           san1ple of 10 percent of all national security investigations
                .                                                -
I                      .
           active at anv tirne from 2003 through 2006; (U}
                                                  ~




           (2) a separate revie\V of IO percent of NSL..<.; issued by FBI
           Headquarters divisions during the saine period: a.nd (U)
I          (S) a revie\v of NSL.<:>. issu.ed in f.'BI counterintelligence
                                                                ~   ......
           investigations pursuant. to the Fair Credit H.cporti119 Act {FCRA)
I          from 2002 through 2006. (U)

           Chapter Four presents the data on the FBrs use of national security
I   letters in 2006. This tnfonnation is based on data derived from the FBI
    OGC national sec1uity letter tracking database and the Depmi:ment's.
    semiannual classi:lled reports to Congress on NSL usage, {U)
I          Chapter Fi.vf.; addresses the dkdtveness of naUonaJ security letters in
    2006. fU)
I           Chapter Six presents our findings on the number of occasions in
    '\VhJch the Departrnent issued national security letters \o,.ithout the
I   certtncations necessary to requlre the recipients of such letkrs to co111ply
    \:Vith the non-·dJsclosure and confidentiallty requtren1ents of the Patriot
    Reauthorization Act (U)
I          Chapter Seven describes several instances of fn1proper or Hlegal use
    of national security letter authorities in 2006. These tnelu.de the niatters
I   self-reported hy FBI Headquarters and field personnel to the F'HI OGC in
    2006. fUJ

I
I
I
I              Chapter Eight contains our conclusions and recornrnendations. (U)

I           The Unciasst11ed Appendix to the report contains con1111ent.s on the
     report by the Attorney General. t11e Director of National Int.ellig-ence, the
     Asststant Axtornev
           .      .   .. General
                              .    for the Nation.al Secnritv Division,. and the FBI.
                                          ..       .   .   .                .   .   .



I
                          ~                                    ~-




     111e classified report also contains a Classified Appendix, (U)

               As noted above, the OIG will soon issue another NSL report that \.vill
I    desclibe the results of our investigation of the FEU's·use of exigent letters to
                                               A                        -


     obtain telephone records frort1 three con1tnuni.caUon sen.ice pro'l.iders from
     2002 through 2006, The report, whkh \Vill expand on the general Hndings
I    in our first NSL report on. the use of e.-Yigent letters in 2003 through 2005,
     will examine th.e practice of using exigent lette.rn rather than NSLs or other
     legal process to obtain records front the Urree comrnunk:atkm service
I    providers, the types of investigations for \Vhich records were sought, the
     process used to obtain the :records. and :inaccurate statements in many of
     the letters, 'The report also \Vill describf: the types of records obtained from
I    the three cornn11u:11cation serv:lce providers and how FBl agents cmd analysts
     handled mid used the inforlT1ation obtained in response to these letters.
'I   The report '-Vill describe the FBrs efforts to issue legal process after the fact
     to cover inform.ation previously obtained fron1 the e}..igent letters; the
     issuance of 11 'l.ilanket" NSLs in 2006, and other irnproper NSLs; and the

I    use of less fonnal types of requests to obtain records h·orn the three
     comrnunication sen,ice providers, suc,h as verbal requests, e..:rnails, .:u1d
     telephone calls~~ only some of which were later docun1ented in ex:tgent
I    letters or legal process, In addition, the report will evaluate the
     responsibility of FBr personnel 1.vho signed exigent letters and blanket NSLs
     and the responstbility of their supervisors and FBI o:filcials. Finally, tve ""ill
I    evaluate the processes that led to the issuance of e.-'l::igent letters. improper
     bl.ankct NSLs, and other improper NSL5 and improper requests for
     iufannatio11. (U}
I    IV.       Summary of OIG Finding$ (U)
I           Our review concluded that, since issuance of our :rvtarch 2007 report,
     the F'BI and the Departrnent have rnade signHlcant progress in

I    in1pkmenting tl1e reconunendations from that repo.rt and in adopting other
     corrective acuons to address serious proble111s we identitl.ed in the use of
     national security letters. The FBI has also devoted significant energy, tirne,
I    and resources toward ensuring that its field managers and agents
     understand the seriot.tsness of the FBrs shortconlings in its use of NSLs and
     their responsibility for correcting these deftciencies. (U)
I         Our int:ervie\vs of senior FBI ofilclals, indudtng the Director, the
     Deputy Director, and the General CounseL indicate that the FBI's senJor
I
I
I
I   leadershiJ[) is con1111itted to correctin~ the serious ddlc.ie.ndes in U1e FBI's
                                          '~

    use of NSLs identified in our first report. They have attempted to reinforce
I   throul!,hout
          ...,,
                  all levels of the FBI the necessity"' of adherin~ to the rules
    governing the use of NSL authorittes, (U}
                                                                  '-~~



                                                                     ·

I         For example. among other rneasures the FBI has issued needed
    guidance on the use of NSLs. provided rnm1datory training to FBI en1ployees
    on the proper use of NSLs. and developed a new data. system to facilitate the
I   issuance of N'SU; and irnprove the accuracy of NSL data in required
    congressional reports. The FBI has issued nt..u11erous NSL policies and
    guidance nie1noranda on topics that include the proper usage of NSLs and
I   statutory and procedural authorizations and restrictions; a prohibition. on
    use of exigent letters; the requ.irement fbr suffic.ient and .independent
    supervisory and legal reviews; and the procedures for ident11}1ing and
I   reporting posslbk--:: intelligence violations. {U}

            T'he F'BI has also created a new 011lce of Integtiiy and Con1phance
I    (OIC}, modeled atler private sector cmnpliance progran1s, tu ensure that
    national security investt,gations m1d othes FBI activities are C(mdud.ed. tn a
    maru1er consistent ·with appropriate la\.vs, regulations, and poUci.es, We
I   believe this office can perfonn a valrn.ible function by providing a process for
    identifying complim1ce requtt-ernents a:nd risks, assessing existing control

I   t11echanJsrn.s, and developing and hnplementing better con:l:rnls to ensure
     proper use of NSLs. However, we recornrnend that the F'Bl consider
    rnrovidi:ng tlle OIC , with a lar11er
            ~~                        '"".. . }Jennanent staffing level so that it can
                                      ~                  :t.:.:



I   develop the skill.s; knovlledge, and independence to lead or directly cany out
     the nitica1 ele111ents of th.is new compliance program.. (U}


I         In addition to the FBI's effmi:s to address the OIG·'s recorn.mendations,
    the Department's Nattonal Security D.tvi.ston (NSD) has irnplerner.ited
    additional rneasures to pron10t.e better cornpliance Vlith NSL a.uU1ortUes and
I   to address other issues raised by our first report. For example. in 2007 the
    NSD began revie\:vs to exarnin.e whether the FBI is using various intelligence
    techniques, :including NSLs, in accordance with applicable laws, f,ruidelines,
I   m1d ·pollcies, (U}

          Also, the Departmenfs Oflke of the Ch.ief Privacy m1d Civil Liberties
I   Officer and the Civil Liberties Protection Officer of the Oft1ce of the Director
    of National IntelUgence convened a working group to exarnine hmv NSL--
    derived infornmtton is used and retained by the VBI, \Vith special {-~mphasJs
I   on the protect.ion of privacy interests, and in .August 2007 sent a report and
    proposal to the Attorney General on minilnizatJon procedures with respect
    to NSI,-delived data.. However, after review of thJs proposal., we c(mcluded
I   that the NSL \Vtirking Group's report did not adequately address rueasures
    to label or tag NSL-derived information and to minirnize the retention m1d
    dissemination of such informati.on. In F'ebn.1my 2008, the .Acttng Chief
I
                                               7
I
I
I   Privacy and Civil Liberties Ofl1cer told us that the proposal. ha.ct been
    Vlithdrawn and that he intends to reconvene the NSL \\forking Group to
I   reconsider the August 2007 report and proposal. \Ve exanrtne the August
    2007 report of the NSL \:Vorkjng Group and make reconm1endations fbr the
    NSL vVorking Group to consider as it revises that proposal. (U)
I          In this report, we also exar:nine the three reviews conducted by the
    FBI in 2007 folkn;\tin,1:{ release of our first report. '111e FBI's reviews
I   conftnned that the types of deficiencies identified in our first NSL report had
    occurred throughout the FBI frorn 2003 through 2006. 111e FBT's field
    review was important because it covered a larger, sta.tisUcally valid sample
I   ofNSLs and case tlks. The FBI revie,vs confinned sitnilar types of possible
    intelligence violations in the F'BI's u.se of NSLs that we found. Hm.vever, the
    FBI's Held review found a hi,gher overall possible IOB violation rate
I   (9.43 percent) than the CHG found (7.5 percent} tn the sm11pl.e we examined
    in our first NSL reporL {U)

I          Hmvever, we exmnined in detail the FBI's fi.dd revie\V and detennined
    that it did not capture all NSI.--related poss]ble intelligence violations in the
    mes it reviewed, and therefore did not provide a fully accurate baseline frorn
I   which to rneasure future irnproven1ent in cornpliance \Vith NSL authorities.
    For ex~unple, during our re-exmntnatJon of case files that FBI tnspectors
    detenntned had no NSL--rebted possible intellt,i:;ence violations in three field
I   offices, v.te identified 15 additional NSL-related possible intelligence
    violations. I:n addttio.n, because FBt: inspectors \Vere unable to locate
    infonnat.ion provided in response to a signifkant ntunber of NSI. .s chosen fo.r
I   review in Jts smnple, the results of the l<'BI's ileld revie\v like~y understated
    the rate of possible inteUigence violations. {U)

I           In short despite the significant challenges fa.cing the FBI in
    eliminating fully shortcomings in its use of NSLs. we believe the FBI m1d the

I   Departrnent have evidenced a con1n1ihnent to cotrecting the problen1s v.re
    found in our first NSL report and have umde significant progress in
    addressing the need to lrnprove compliance in the FBfs use of NSLs.
I   However, because only l year has passed since the Olt~'s first NSL rep01t
    was released and son1e measures are not fully irnplen1ented or tested, we
    believe it is too early to ddlnitive~y state \Vhether the new systerns and
I   controls developed by the F'f3I and the Department will elitninate fully tht~
    problems with NSLs that \Ve Jdentilk."t'L \Ve believe the F'BI must irnplernent
    all of our reconnnen.dattons in the first NSL report, demonstrate sustained
I   co1ntnitn1ent to the steps it has taken and cmnrnitted to take to improve
    compliance, irnplernent additional reconunendations described in tlus
    second report consider additional n1easures to enhance privacy protections
I   for NSL-derived infonnation, and re111ain vigiJm1t in holding FBI personnel
    accountable for properly preparing and approving NSLs and for handling
    responsive record.s approp1iatdy.. (U)
I
I
I
I          Finally, as required by the Patriot Reauthorization Act~ this report
    details the FBI's use of nation.a:! security letters in c<:i.]endnr year 2006. It ls
    important to .note that the FBI's use of NSLs in 2006 occt:i.rred. before \Ye
I   issued our first NSL report in March 2007, ·which identified. the serious
    deficiencies in the FBI's use of and oversight of NSLs, and before the FBI
    began to in1plement corrective actions, Therefore, not surprisingly~ this
I   report contains similar findings to our March 2007 report regarding
    deficien.cit:s in the FBFs use of NSLs. (U)

I          As shown in Chart 4,5 1 vve determined that the FBJ's use of national
    sect1rity letters in 2006 continued the upward trend vve identified in ou.r first
    NSL report that covered the period 2003 through 2005. rn 2006, the .FBI
I   . , ···d.· 4··9·. )4·_,.)-
    issue                ..... ::::i N'°I  · '· .·--t·s, d·· <t.
                                      .:; reqt.ies
                                               J
                                                              1
                                                                 ,....,_. pe1
                                                                          · - • cen
                                                                                ., • ·t· 111c1
                                                                                         ·-~ ., .,.,.
                                                                                                 casi;:~·. o\ 1::-1 N·
                                                                                                           · '"'~   . .:::i 1•. n:.q
                                                                                                                       0         ,. ,.~u.., s't,
                                                                                                                                               .s
    issued In 2005. Fo.r the 4--yea.r peliod 200:3 through 2006, the FBI issued a.

I   total of I 92A99 NSL requests. (U)

                                                                                          CHART4.5

I                                             NSL Requests (2003 through 2006) (U)
                                                  [Chart below is Unclassified]

I            60,000
                            ..• ··········T·····················································································································.···.······.··w······"·······.·.························1




                              //
                                          !    ·--·------·--~--
                                                                                                                                                                                                                       !.
I            S0,000
                                         /lL,......,.,,,==~~
             40,000 ,/i
I
I
             20,000       r···
I
I                . iI.
             10.000

                      0    l_.........

                                              2003                                    2004                                         2005                                        2006
I                          Sources: DO.I semiannual classified rqxlrts to
                                                   FBl OGC dataixrne a.s of May 2006 (for 16B.l v NSL
                                                                                                                                           Congrns~                and

                                                   requests L.'1 2003 through 2005) fUl
I
          As shc.ri..v.n in Chart 4.6i the percentage of NSL requests generated frorn.

I   investigations of U.S. persons continued to increast~ significan.t1y, frmn
    approxirnate.ly 39 percent of nll. NSL requests issued in 2003 to
    approx.imatdy 57 percent of c.11! NSL requests issued in 2006. (lJ)

I
I
I
I                                         CHART4 .. 6
                           NSL Requests Relating to U.S. Persons and
                           non°U.S. Persons (2003 through 2006) (U)
I                                           [Chart below is Unclassified]


I                             l.3,000




I                            11,000



I                              9.000



I                              7,000




I                              5,000

         ·····•'··· Non·.·l.U'.i. Pernons                  8,494      8,5.36       8,6()5

I                                              6,.$19      8,943                  11,517

                        Source; DO,J semii:mnua.! d.assified reports to Congress {U}

I          In our interviews, FBI field and Headquarters personnel told us that
    NSLs continued to be an indispensable investigative tool in major terrorism
    and espionage investigations conducted in 2006. They reported that NSLs
I   wen~ used to identify the fina.ndal dealings of investigative subjects, confirm
    the identity of subjects, support the use of sophisticated inte111gence
    techniques, and establish predication for the initiation of prdin1inaxy and
I   fuJl counterterrorism and counterintelligence investigations. (U)

            As directed by the Patriot Reauthorization Act, 1.ve also conducted an
I   audit of the nu111ber of occasions in \vhich NSLs issued after the effective
    date of the Act did not contain the certifications necessatT to require the
    recipients to comply vvith applicable non--disdosure and confide.ntiality
I   requiren1ents, The vast majority of the NSLs and approval. rnen10.randa. we
    exan1ined, \vhich are k:no\:vn as electronic communications (EC),
    substantially c:omplied ,.vith the Patriot Reauthorization Ac.t certificf.1.tion
I   requirement and FBI polic~y. We believe this compliance record was largely
    due to the prompt guidance the ftBJ OGC issued on the date the Act \Vas
    signed, the availability of ne\-v NSL forms on its Intranet \Vebsite, and
I   periodic guidance FBI OGC attorneys provided to the field as questions
    arose. We found that on:ly l 0 NSLs {3 percent: of a random. sa.mple of 375

I   NSLs \Ve exan1ined) were issued -r.vithout the required certifications, Our
    audit al.so determined that 97 percent of the NSLs in the random sample
    i111pos:ed non--disdosLu-e and confidentiality obligations on recipients. (lJ)
I
                                                         10
I                                                       ~
----------------~--~~------




I
I               However, we also detennined that 17 NSL approval memoranda
        (5 percent of the random smnple) contained insufficient explanations to
I       justit}r imposition of these obligations. \Ve identiJled eight NSL..c;; in our
        sarnple that contained recitals about non-cUsdoS'lu-e that were inconsistent
        with the corresponding approval memoranda, signt(~ring that case agents.
I       their supervisors, and Chief Division Counsels \Vere not careful in revie:\Ving
        and approving these docu1ne:nts to ensure consistency. In addition to these.
        non--cornplia:nt NSLs that were part of the random smnple, we identified
I       eight "blanket" NSLs issued by senior Cuunterterrorisn1 Division officials in
        2006 that did not contain the required certifications. (U}

I               To assess any "lrnproper or illegal 11se" of NSL.s in 2006, as required
         by the Pat.riot Hea.uthorization Act, we examined the reports of possible
         intelligence violations involving the use o:f NSLs that were se.nt to the FBI
I        OGC frorn Jmrnmy' 1. 2006, through Decernber 31, 2006. \Ve identified 84
         possible intelligence vi.olations invol\1ng the use of NSL.s, of which the FBI

I        determined that 34 needed to be re.ported to the President's Intelligence
         Oversight Board (rOB).H The :J4 .matters tnduded the same types of errors
         identified in our first NSL report that wt.ls completed in March 2007, such as

I        the issuance of NSL-s without proper authorization, irnproper requests, and
         unauthorized collection of telephone or rnternet c--mail records. Of these a4
         intelligence vi.olat:i.ons, 20 were the result of BTU eITors, \VhJle 14 resulted
I        initially fnn:n nustakes by recipients of the national security letters. \Ve
         generally a,greed \Vi.th tl1e FBI's decisions on which vi.olations needed to be
         reported to the JOB. except fbr six that \V<:; believed should have been
I        reported to the IOB but v.rere not. V•le concluded that the decisions not to
         rep01i these \Yen~ inconsistent with ptior F'BI OGC dee.ts.ions or that the
         reasons for not reporting them to the IOB \Vere unpersuasive. (U}
I                As we did in our first NSL report., \:ve detern1ined \VhetJwr the F'BI
         1.~·ould have been entitled to the in.formation provided t.mder applicable NSI_,

I        statutes, Attorney General Guid<::lines, and internal policies. Wf:~ found
         that of the 84 possible intelligence violations identified a_nd reported to the
         FBI OGC in 200t3, tlie FBI received infr>nnation it \Vas not entitled to
I        receive tn 14 1natters.. In one of the matters the FBI requested infonnation
         it \Vas not entitled to under the applicable NSL statute. In the other Ia
         nmtters, the YBI made proper requests but, due to third party errors,
I        obtained inforrnation it was not entitled to receive under Um pe1i:inent NSL
         statutes. {U)

I               u Of the 84- possible intelligence violations, 52 involved the FBI's a(.,'<p.l..isltion of
         info:rmatton it had not requested in the NSLs {nefened to as ''initi<il Uri:rd party errors").
         Sirn::t~ th(~ FBI OGC has not yet determined w·hdher the FBI compounded the third party

I        en-ors by uslng or uploading the unauthorized information, \ile could not reach a
         conclusion as to whether these 52 matters involved hnprope:r use of NSL-der.lved
         information, fU)

I
I                                                  ~
                                                          11
I
I          'This report niakes 17 recommendations regarding the FBI's continued
    use of NSLs, For exan1ple, t\vo recormuendations are designed to renlind
I   FBI case agents and supervisors to carefully exarnine the circtunsta.nces
    surroundirtg the lssuance. of t~ach NSL to deter:rnine v.rhether there is
    adequate justification for imposing non-disdnsure and confidentiality
I   requirernents on the NSL recip.ient and to ensure that NSL approval
    menmranda. and the associated NSL.,s contain consistent infonnation and
    cetiifieations. (OJ
I          11iree additional reconune:ndations are designed to reinforce the FBI's
    obl:lgat:ion to provide tin1ely reports of possible intellJgence violations, ensure
I   that these reports detaH the precise rernedial measures en1ployed to handle
    unauthorized NSL··derlved tnformat.i.on. and provide case a.gents and
    supervisors \::1,ith examples of cmnrnon errors in the use of NSLs, -we
I   address the last reconnnendation to the Depmirnent regarding: the NSL
    \Vorking Group's proposal to the i\ttorney General {U)

           Finally, as noted above. VJt~ are continuing our investigation of the
    FBI's prevtous use of exigent letters. the blanket NSLs. and other improper
    NSLs and requests for telephone records, The tlndings and
I   recormnendations in th.is NSL report sh.ould be constdered ln conjunction
    \Vith the flndings of that forthcmuing reporL (U)

I
I
I
I
I
I
I
I
I
                                            12
I                                       ~
I
I
                       CHAPTER TWO:
I    STATUS OF THE FBrs AND DOJ~s CORRECTIVE ACTIONS IN
         RESPONSE TO THE OIG'S FIRST NSL REPORT (U)
I           In our H.rst NSL report. \Ve rnade 11 recormnendations to the F'Bl to
     help irnprove its use and oversight. of n.at.tona1 security letters. In a letter to

I    the OIG· dated March 6. 2007, that \::1.ms included as an appendix to that
     report, the FBI stated that it agreed wlth each of the recornrnendations <:md
     wuuld work \Vith the Depruirnent>s National Security Division (NSD) and the

I    Oflke of the Chief P1ivacy m1cl Civil Liberties Oilker (Privacy O:ffker} to
     trnplernent the reconn11ended refonnsJ (U)

I           In M.ay 2007 and Septen1ber 2007, the FDI proviclef..:l rnern.nra11da to
     the OIG describing the status of the FBI's efforts to in1ple.n1ent these
     recon:m1endatkms. T'he F'Bl lnspection Division and the FBI Of:tlce of the

I•   General Counsel (FBI OGC) have also provided updates to the OIG on the
     FBI's progress in implen1enting specific recommendations. Further, the
     Deparb:nent's NSD has hnplernented adcUttonal :measures to address the
I    serious concerns \ve unco\rered regard.lng the use of national security
     letters. (U)

I            Jn this chapter. we assess the progress of the FBI's and the
     Departrnenfs efforts to address the problen1s tllat our first report fiJund
     \~ith the use of national security letters. To assess these efforts, we

I    analyzed the F'BI's rnernoranda describing the status of its corrective
     actions; interviewed FBI offictals from the OGC and Inspection Division;
     tnterviewed other senior VBI offi.cia1s, including the FBI Director and Deputy
I    Dire.ctor; and intervie\ved field personnel responsible for issuing and
     revfe\:v1ng NSL..s such as the Special i\gents in Charge (SAC}, Chtef Di.vi.sion
     Counsels (CDC). Supervisory Special Agents. m1d Special .Agents. In
I    addition, tQ assess the Depart~ment's actions, we reviewed all ne'l.V NSL--
     related gruidm1ce issued by the FBI to the Jleld and :Headquarters divisions
     since our flrst report was issued, reviewed the types of NSL ttaining
I    provided and to whmn it was provided., and observed a denxmstration of the
     new d.ata system that \Vas designed to rnanag<:~ and track NSLs. {U)

I          In Section I of this chapter. we provide an overview of the FBI's and
     the Department's eff01i:& to ilnplement our reeonuuendations and the
     addJtional steps it has taken to promote cnmpUance vV'it11 the NSL statutes,
I    applicable Attorney General Guidelines, and internaJ F~BI poUcies governing
     the use of NSLs. In Section Il, after listing each of our 11 reeommendat:ions
     and the background fur each, we surmnarize the FBI's responses to the
I          " See NSL l, Undassified Appendix. fU)

I
I
     I
     I   reconunendaUons and analyze the FBrs efforts to date to iJnplerne:nt the
         recomnwndations. (U}
     I         ln Section HI of this chapter, \Ve describe other corrective rneasures
         implemented in 2007 by the FBI. the Departn1ent's NSD. an.d th(: P1i.vacy
     I   omcer. V.fe also describe the FBI's creation of a new Office of Integrity and
         Con1p11ance (OIC}, In addition, we assess a proposal. from. a \.vorking group
         led by the Privacy Officer that relates to the retention of NSL-derived
     I   infonnatinn. (tJ)


     I   l.    Overview of the FBI's and. Department's Corrective Measures {U)

                In the year since the CHG issued its first report on NSLs, the FBI and
     I   otlwr Department components have hnplemented a se:ries of rneasures
         desJgned to pro111ote strict.er compliance \Vith NSL statutes, Atton1ey
         (kneral Guidelines. and internal FBI policies goventing use of NSL
'I
't   :   authorlt.k~s. Sorne of these measures directly respond to the OIG's specific
         recornrnendations, while others were additional measures proposed or
         irnplerne:nted by the FBL NSD, or the Attorney GeneraL (UJ
     I         In this follow-up review, we e.x'{unined the FBI's and the Department's
         actions, as of December 2007. in response to the OIG's reconunendaUons,
     I   Sorne of these actions are one--tinw 111ea.sures {such as the FBI's statistical
         reviews of NSLs issued by held and Headquarters divisions in 2003 through
         2006 and the FBI's review of NSLs issued in counterintelligence
     I   investigations pursuant to the Falr Credit Reporting Ad {FCRi\) from 2002
         through 2006). Others are longer--tenn actions that require sustained
         connnthnent by the l•'BI's senior leadership, attorneys., CDCs, and other FBI
     I   and DepartJnent pt~rsonnel to .be fully itnplement:ed, (OJ

               Our reconrmend.ations in our first NSL report fell into fbur broad
     I   categories. (UJ

                  •   Four n.~cornrnendations (nu1nbers l, 2, 3. m1d 6} frJcuscd on
     I                enhancements in FBI recordkeeptng and tnfornmtion technology
                      supporting the use of NSLs. '11'1ese recon11nendations were
                      intended to irnprove the FBI's ability to capture accurate,
     I                complete, and tilnely tnfr)nnaUon on NSLs for congressional and
                      public reportjng; to render NSLs subject to effective tnternal and
                      external reviews; and to identif~r \Vhen NSL-derived infonnation
     I                was used tn analyttcal intelligence products or provided to law
                      enforcement authorities for use in crhninal proceedings. (1J}

     I            •   Three recon1111endations (numbers 4, 7, and 8) addressed the
                      need for additional guidance and training to ensure that F'BI
                      personnel use NSLs. in accordance \Vith pertinent a.uthori:Ues, to
     I
     I
I
I                  reduce or elttninate common mistakes in the issuance of NSLs,
                   to dmi:(.v distinctions arnong the different NSL statutes, to
I                  identify possible Intelligence Oversight Board OOB) violations
                   arising fn:nn the use of NSLs, and to elin1inate the use~ of exigent
                   letters. (U)
I              •   Three recommendations (nunibers 9, 1.0, and 11) focused on the
                   rule of atton1eys in the FBI OGC and the CDCs in providing

I                  advice about NSLs. These recornmenda.tions \Vere designed to
                   pr01note better oversight. hy the FBI OGC's National Secrnit.y
                   I....:uv Branch {NSLB) at FEn Headqumiers. dose and independent
I                  review of NSLs by CDCs, and dear guidance about the use and
                   sequenctng of NS.Ls tn accord<:u1ce \Vith the requirernent in the
                   Attorney General Gu.tdeUnes to use the "'least tntn1sive
I                  co11ectlon techniques feasible." (U}
               • One reccnn1nendation (number 5} suggested that the FBI
                   consider seeking a legislative anwnd111ent to the Electronic
1•                 ()omrnunicattons Privacy .Act: (ECPA} to datify the information
                   the FBI is entitled to obtain t.lll'ough ECPA NSLs, (U)

I    OIG Findings on the FBJ's and Department's Corrective Actions {U)

             Our revtew found that the FBI m1d the Department have n1ade
I    stgntficant progress in implementing ou_r recom1nendations and tn adopting
     other corrective actions to address problems we uncovered in the use of .
     national security letters. \Ve also found that the :FBI has devoted significant
I    e:nerg_y, tirne, mid resou:rces toward ensuting that iL~ field managers and
     agents understand the se.1iousness of the FBI's shortcomings tr1 H.s use of

I    NSLs and their responsibUJty for correcting these deficiencies, Hov;.rever.
     there. are additional steps that the FBI is still couside1ing and needs to take.
     and \Ve believe that ensuring full compUance will require the continual
I    attention, vi.gU.ance, and reinfo.rcem.ent by the FBI and the Department. vVe
     also believe it is too soon to definitively state whether the new syste1ns and
     controls devdoped by the FBI a.nd the Departrnent will eltminate fully the
I    proble111s with the use ofNSLs that "ve and the FBI have identttled. (U)

              It is irnportant to tlrst note that the FBI's leadership has niade it a top

I    priority for the FBI to coffed: t11e se1ious deficiencies in the use of NSLs. In
     our int.enrie\\.-<s \Vith Director .Mueller, Deputy Director Pistok, and General
     Counsel Caprotti, it was dear to us that they apprecJated tht: irnportance of
I    this issue, the signific~mce of the probletns that we had uncnvered, and the
     uitic;;.tl need to corre<:t these problems, (U)

I          For exa:rnpk. Director Mueller said he believes that the FBI's
     shortcornings in con1plying with NSL authorities resulted from the FBI's
     previous lack of focus on the procedures necessary to ensure that all legal
I
                                         15
I                                        ~
I
I   requirements W't'J'"e satisfied. He attributed the problenls to several fa:tctorn,
    including inadequate tnfrastructure at FBI Headquarters to ensure that. all
I   legal require111ents were followed, organizational "stove piping'' under which
    FBI personnel did not fully conm1i.micate across division lines, rotation of

I   FBI 111tddle .management so that they did not alv,m.ys "take o\v11ersh1p" of
    problen1s they encountered, the. significant pressure to respond to m1y
    terrorist threat, and inadequate staffing in the FBI's Counterterrortsrn
I   Division (C'l1)) in the period follo\Ying the Septe:rnber I 1 attacks. (U)

          Director Mueller also emphasized his commitrnent. to address

I   problems in the PBI's use of NSLs, and, as one example, pointed to the
    establishment of the FBl's OIC (discussed in Section III of this chapter). He
    stated that he believes this office will assist h.im and other rnembers of th.e
    FBI's senior leadership in identifying and addressing areas of weakness as
    well as other cornpliance issues. Fie also stated that he believes that he has
    been successful tn di..tvtng down through the orga_ntzation the necessity of
    adhering to NSL authorities and that SACs are "on board" \\':ith the NSL
    con1pllance and training initiatives and axe con1n1tu1icating tl1is 1nessage
    throughout the ranks of the FBI. (U)
            FBI Deputy Director Pistole sunilady told the OIG that the FBI ls
    devoting sfgnifkant time and at.tent.ion to ensuring that SACs understand
I   the: substantive legal requirernents for NS:Ls.. One of the venues he said he
    .is using to reinforce these requirements ts the Strategy Performance
    Sessions he chairs each quarter via teleconfhrence \.V1t.h the SACs in the
I   FBI's 56 field oHlces, Each of the ten sessions is held \Vith approxirnately 6
    SACs each and lasts approxin1ate~v HO n1inutes. TI1e second quarter 2007
    sessions, which also were attended by the F'BI (Jeneral Counsel, were ca]led,
I   "Preserve Civil Liberties," 'I11ese sessions focused on the OlG's findings in
    our fi.rst NSL report and the F'Bl's findings on NSL con1p:l:iance problems
    idenillled in its field oftlce revie\vs (desc1ibed in Chapter Three of this
I   report)., (U}

           Deputy Director Pistole also stated that he .is stressing NSL
I   cotupliance in conjunction \Vith mid-year progress revie\vs and annual
    perfonna.nce appraisals of SACs, During these reviews. he asks the SACs
    individually \Vhat they are doing to ensure ccrmp:liance with NSI.,
I   req:uirernents an.d requires them to clte examples. As the rating ofikial for
    all SACs, he said that he expects SACs to know the substantive legal
    requirements for NSLs and regularly stresses in their progress reviews that
I   they cannot assume that their personnel are folknving .FBI guidm1ce on
    NSLs. {U)

I         FBI G·eneral Counsel CaprntJl stated that she has devoted significant
    time and attention to addressing the OIG's recormnendat:ions and

I   implementing other rncasures to iinpruve NSL complim1ce. Following



I
I
I   release of the OHYs report, Caproni held a conference call in March 2007
    with all CDCs to review the OIG's 1nost sig;ntllcant
                                               .......   findings, describe the                      ..,_.~,




I   FBI's response, c.u1d underscore the role of CDCs in revi.ewing m1d apprm.ing
    NSLs and ensming that any unauthorized infon11ation obtained fron1 NSLs
    is handled appropriately. She also discussed these issues at the CDC
I   conference tn July 2007 and the SAC conference in October 2007. Caproni
    exnphastzed at the CDC conference that it is '"clearly and unequivocally'' the
    duty of CDCs to review predication for NSLs. (U)
I          Caproni also noted that the FBI OGC had issued or was prepcuin,g to
    issue additional guickmce on NSLs based on the OIG's fi.ndlngs and the
I   additional f.indtngs developed fron1 the FBI's reviews in 2007. Anmng the
    ne\V guidance tssued were memoranda directing VBI case agents to review
    NSL-de1ived t:ecords p1ior to uploading them into FBI databases to ensure
I   that they correspond to the NSLs and have not generated unauthmized
    inforrnation; prohibiting the use of exigent letters; reiterating the
    distinctions between the NSL authorities in the Ii'CRA.; clart(ying the role of
I   CDCs in conducting independent reviews of NS.Ls~ and desclibtng
    procedu.res for reda.cting NSL--deiived information that is beyond the scop(~
    of the NSL to prevent unauthorized dissetntnation. In ,June 2007, the :FBI
I   OGC issued a cornprehenstve 24--page rnernorandurn on. the use ofNSL
          .1. .t ~ _,_ .. .-.. 1··11at··
    a·t1tt1-)•·1'-<·1'P«:;
    ~                                     ''O\T'-'t·e,.-l
                                __ <- . _ L... '-· ..-U      __ I:->.~ _. 1··1"'p1'r-•s
                                                            1··1·1·~~-e    -"-'   ,,,_ , 8   ('rr)
                                                                                               t.,




I          Caproni also stated that the FBI OGC has devoted additional
    resources to support the NSL--related acti\-ities of FBI I-Ieadquarte..rs
    divisions, including the n..ssigmnent of additional NSLB atton1eys to either
I   be co--located with or to support alJ the C]1) sections. She believes that
    these additional resources 'hill assist the F'BI OGC in identifvin!f and
                                                                                                               ~   "''
I         ll These memoranda a ..<-e described in mon~ detail in Section II of this ch<otpter in
    coruunction \Vith our <ina~ysis ofthe VBI's implementation of recmn:me.n.daUons 4, 7, 8, and

I   10, {ll}

               Caprnni also noted that il1August2007, the FBI OG-C requested a legal opinion
    fror:n the Department's Office iJf .Legal Counsel (OLC} <n:l three issues that arose in the

I   course of i.h!.'.~ FBrs 2007 NSL revkw(~. The three questions were: 0) \vhether, in response
    to Electronic Cornrnunkniion Privacy Act {ECPA} NSLs, the FBI rnay obta:!n &)Cial Security
    Numbers, dates of hirth. and other information used by the cm:nmunfcation p:rm'ider to
    identit)r or rna.intain a profik of a i:;ustomer or subscriber; {2} whether the term "loll billing
I   records information" in the ECPA NSL statute indudes records of .incoming/outgoing calls
    ti-flC>n \.Vhich a foe could he assessed reg.3rdless of whether a foe is actually- ;:tssessed and
    regardless of whether the tnforn:iation must he cuUe:d fi.·om <.1ggreg<:lt~~ data; <::u:td \3} ·whether
I   the govern:rnent may obhlin l:nfon:n.atton verbally regarding Uw existence of an account .in
    r.:onnection with a gf\ren telephone nmn1xT or person frnm an electronic cornmunication
    service pnwider wiU-10ut additional legal pn_x.'t;;ss, t\,.s of Fehrnary 11. 2008. OLC had not

I   pn:ivided its opinion on these questlons.. Caproni stated that once OLC .issues its opinion,
    the FBI OGC will di.'.'.te11nine \vhat steps it mu~~t take to address the app:mp1iateness nf
    retaintng NSL-deiived infonrnltion in the categ:rnies covered by the opinion. {U}

I
                                                                                        17
I                                                                             ~
I
I   avoiding potential problen1s before they occur. In March 2007, Caproni also
    ordered all NSLB attorneys to pro\•ide live training any time they visit a field
I   office. (U)

           In addition to the fi'Brs effmi.s to address the OlG's reconunendat.ions,
I   the Departn1ent's NSD h~-is irnpleniented ad.ditiona] measures to prornote
    better cornpUance v.ith NSL autl1odties and to address the privacy issues

I   raised by our first report. For example . in 2007 the NSD beg::u-1 nationa]
    se,curity reviews to examine whether the FBI is using various intelHgence
    techniques, including NSL.;;, in accordance ;,,vith applicable laws, guidelines,
I   and policies.· {U}

          Also, the Privacy Officer convened a \.Vorking group to exan1ine hm..v

I   NSLdlerived infonnation is used and retained by the FBI. ·with sp(~dal
    emphasis on the protect.ton of privacy interests, and sent a proposal to the
    Attorney General for review· on. minimization procedures \~tith respect to
I   NSL-derived data. (U)

           Based on our revi<:~t~.r. we believe the FBI and t1le Depaiirnent have
I   taken stgnitkant steps to address the flndings of the OIG's first report on
    NSLs and have made sif,fflificant progress in implementing conective
    actions. However, we also believe it .ls too soon to state v..rith full confidence
I   whether the steps the FBI and the Departrnent have taken ·1.vill elilninate
    fully the problerns we identill.ed in our first report on NSLs. Smne
    rneast.Lres. such as the FBI's ne\v NSL data systen1 and the OIC are positive
I   steps but are not fully trnplemented or tested. Other measures. such as the
    NSIYs reviews and the recent FBI OGC guidance on the responsibility of
    case agents to ensure that infonnation obtained frmn NSLs has not
I   generated uhautho.tize.d collections, have not been in place long enough to
    gauge their eff'ecttveness. (ll)

I         Yet, despite the m1tltip1e challenges facing the f{Bl to elin1inate fully
    problems in the use of NSLs, we believe the FBl and the Departtuent have
    evidenced a conmlit:ment to con·ect:ing the proble.ms \Ve :tbund in our first
I   NSL repm.i: and have nmde significant. progress. in addressing the need to
    itnprove cornpliance in the FBI's use of NSL."', (Ul

I          In the next section of this ch.apter, W'e discuss in greater detail the
    specific steps that have been taken or are planned to address each of the
    OIG's 11 n::com.mendations . .After that, we exm11h1e other .fntti.at:ives
I   irnplernented by the FBI and the Departlnent regarding NSL use. (U)


I
I
I                                      ~
                                            18
I
I   II.    Status of the FBI's Implementation of the OIG·s
           Recommendations .in Our First NSL Report (U)

I         \Ve set forth below ea.ch of our recon:1mendations in our first NSL
    report, desclibe the background for the recornrnendations, sun1n1arize the

I   actions taken bv the FBI to date to address the recmnrnendations, and
                    "
    provide our analysis.  (U)

I    Recommendation No_. 1 ... {U}

          Require all Headquarters ru1d field personnel who are authorized
    to issue national security letters to create a control :file for the purpose
I   of retaining signed copies of all national security letters they issue. (U)

           Background: In our fi.rst NSL report. \Ve found that the FBI did not
I   have policies requiring the n~tention of signed copies of NSL..;; or the
    ·uploading of NSLs into the FBrs prlncipal Jnvestiga.t.tve database, the

I   Aut.01r1ated Case Support {ACS) system. This rneant that the FBI did not
    have a reliable audit trail tracking the issuance of NSLs, \Vhich prevented
    internal and exi.enml reviews of compliance with NSL statutes. applicable
I   Attorney General Guide.lines, and internal FBI policies governing the use of
     NSLs. (U)


I           FBI Actions 'Taken t.o Address the Reconuneudation: '111.e F'BI issued
     three con1n1unicatkms to field and Headqumters divisions to address this
     recommendation, On March 6, 2007, the FBI OGC sent an c-rnail rnessage
I    to all CDCs and SACs directing that copies of stgned NSLs be inaintained
     both in the investiffe!ative file and a. field ofll.ce "drop~ fl.l.e so that all NSLs
     issued ·by each field and I-ieadquarters division are rnaintatned and can be
I    located in one place. Th.is \Vas su.perseded by the FBI Records Manage1nent
     Division's n1en1orandun1 dated March 9, 2007, requiring that signed cQpi<:~s
     of NSLs be retained ln the relevant i.nvest.ig:attve file by the issuing dJviston,
I    This require1nent is reiterated in the FBI OGC's Cornpre.hensive Guidance
     on National Security Letters (Con.1p.reh.ensive ("Tutd:::rnce EC) issued on. June
      1, 2007 (also discussed in connection \\1th Recomrnendatio.n Nos. SA, and 8
I   ·through 11}, {U}

          OIG Analvs:i.s: \Ve believe that the steps taken by the FBI \\-ill help
I   ensure that copies of all issued NSLs are reta:tned in a. Gk cn~ated by field
    mid Headquarters cHvi.si.ons. Matnta.tntng signed copies of the NSLs in the
    pertinent investigative files should. ensure that all NSLs issued by a field
I   oftke or Headquarters division are collected tn one location and are
    available for i.nten1al or extenv.l:I audits or revie\\-'S. (U)

I
I
I
I
I   Recommendation .NQ.!___g__llU

I        In1prove the FBI OGC NSL tracking database to ensure that it
    captures timely, complete, and accurate data on NSLs and NSL
    requests. {U)
I          f?.g~;h:gnn~m.Q: In our first NSL report. we found the FBI OGC NSL
    tracking database (OGC database) did not contain accurate and complete
I   in:fonnat.Jon about NSL requests. This occurred because of fl.a\vs and
    structural problems in the database . In add.ition, s.inee the FBI relied upon
    the OGC database in preparing the Department's seiniannual dassifled
I   reports to Congress, the flaws and structural problen1s in the datalmse
    affo:cted the acc1iracy of the Dcpartnient's reports to Congress. F'or example,
    in the Tl case files we exasnined in 4 fleld ofikes in connecti.on with our first
I   NSL report, \Ve found that for the petiod 2ooa through 2005, the OGC
    database unden·eported the total number of NSLs and NSL requests by 17
    pereent and 22 percent. respecUvi::~ly, (U)
I          \Ve also identified circurnstances in \Vhich certain data fields in the
    OGC database tvere left blank, had typograph1cal errors or other
I   erroneous ent1ies, or contained default settings - all of which resulted in
    euors or understaternents in ·reporting to Congress on NSLs. We also
    found th<.it ddays by FBI field and Headquarters personnel tn ente1ing
I   data into the ACS system contributed to ~:i.dditional discrepancies in the
    data rep()rted to Congtcss, including the fatllure to report aln10st 4,600 NSL

I   requests fbr the period 2003 through 2005. Otl.1er structural problen1s or
    flm:vs in the database resulted in disc.repancies affecting the Departn1ent's
    reporting of the total number of NSL requests, the toh.u number of
I   "investigations of different U.S. persons". and the total number of
    "investigations of difknmt non-U.S. persons.. that were re.ported to
    Congress over the ~i--year period. (U)
I         In light of these fl.a'\V& and structural problerns with the OGC
    database, we ree:omn1ended that the FBI irnprove: its data.base to ensure the
I   collectton of tim.ely. cou1plete. and accurate data on NSL usage for purposes
    of congressional and public reporting: and to facilitate internal and external
    audits or reviews. {U)
I          F'Br Actions Taken tQ Addn~ss thej{ec.:omme.ndation: 111e B'BI OGC
    issued an EC dated JVIarch 19, 2007. mandating that field ofllces conduct
I   monthly counts of NSLs issued by the.ir omces tn order to rec:oncUe NSL
    data contained in the OGC database. In /\ptil 2007, personne:I in the F'Bl
    OGC instituted a process for con1paring these monthly NSL counts to data
I   in the OGC database to check for inaccuracies ln the database. According  '-.·
    to the EC, any discrepancies identifled by the fi~BI OGC are being recondled
    and will be used to improve guidance and training on NSL reporting. "Ille
I
I                                     ~
                                           20
I
I   FBI told the OIG that it \Vill continue requhing these rnonth1y cou.nts and
    reconciliations until t11e new database for tracking NSL data ls
    irnplemente(L This cfatabase, discussed belov;r, know:rt as the NSL sub-
I   system to the Foreign Intelligence Sunrei11ance Act {FISA) JVIanageinent
    Systt~rn (NSL data system), has replaced the OGC database, \\,11He the nev,.r

I   data systen1 does not emTect histmi.C<:)l infonnation, it i.s designed to
    improve the accuracy of NSL data .in the future. {O}

          I•. .B.__ I {·)CrC
                         .-, .-, perso:nne    · ·.·-J ·ct tl· 1at- t.1e
                                         · l repou:e                 l rL~1·s-'A   1 · n r "l
                                                                           . .-.. l_,ntt           . B_'·r <-)c··
                                                                                           1: 1e· 1··'      . .:TC''
I   NSLB developed the NSL data system to facilitate th<:~ approval and issuance
                                                                                                                  .•. s


    of NSLs and support data collection for congressional and public reporting.
I   The NSL dai:a system prornpts the drafter of an NSL to enter information
    about the subject, the predication for the NSL, the type of NSL, the NSL
    recipients, and the specific information sought by the NSL {such as
I   telephone nutnbers or e--rnai.l addresses), The NSL data system will route
    the NSL request through the required levels of review and approval sirnilar
    to the tnanner in which applications for use of Fl&!\ authorities c.tre routed
I   tn the FBL Upon cornpletion of all approvals, the NSL data systern \.Vill
    generate the approval EC and the NSLs for signature by the field or
    Headquarters approving officials. As a result, the accuracy of NSLs and the
I   dilckncy of issuing NSL~ should improve, and there also should be fe\ver
    discrepanci.es between the approval ECs and the NSLs, The FBI established
    m1 autmnatic link bet\veen the NSL data systen1 and the ACS system that
I   factUtates automatic npload.tng of approval ECs and NS[s into the ACS
    system. In additifm. FBI OGC personnel said that all infonnation necessary
    to generate the Department's congressiOna.l m1d public reporting will be
I   coUected as part of the :netv NSL data system. The FBI infonned us that on
    January l, 2008, thts system \Vas deployed throughout the FBI. (U)

I          'fhe Records Ma.nag:e1nent Division's :rvlarch 9, 2007, directive noted
                                '·'
    previously also mandated that NSLs be uploaded into the ACS system as an
    NSL "Docun1ent 'l)tpeH to facilitate recordkeeping and reporting. As a result,
I   NSLs issued after March 9, 2007, can mJW be soxted a:ncl counted by field
    ofilce in the ACS systein, whlch ·wm help verif).r the accuracy of i.nforniation
    used in the Depmi:rnent's congressional and public :reports on NSLs and will
I   assist in facilitating internal and ex.'1.ernal NSL reviews.ft (Ul

         In addition. tn an attempt to correct defi.ciencies In the existing OGC
I   database, the NSLB has modified the database. so that FBI personnel
    making entries about NSI""~ nmst cornplete an fields required for

I            9 'The "Document Types" are Tdephone Subseriber ln:fon:natl.on; Tdepl:wne Toll
    Records; E>n.1ail Suhscdber· Records; E>M<xil Transacti<.inal H.ecnrds; Financial Records,
I   R.iyhi lo Ftm:mciol Prit1oq1 Act (H1'~PAJ § :3414 {<~{S}; Financfol lnsutuUonListings, FCH.A;
    Constuner l<lentii)ring Information; and Full Credit Report. {U)


I
                                                            21
I                                                     ~
I
I   congressional and public reporting. The FBI also changed the default
    setting in the OGC database on the status of the NS:L target. frorn "non-U.S.
I   person" to .. U.S. person'' m1d chm1ged the dd'<..1ult nurnber of NSL requests
    from "ff' to "l,'' 111e FBI told t1s that H: believes these changes should reduce
    eCT"ors caused by the previous defa.ult settings. fU)
I         ·111e F'Bl OGC assigned additional personnel to enter data into the
    OGC database and ccmducted traJning for all personnel who entered NS:L
I   data to ens1J.re they understand the data being entered and recngnize.d when
    incorrect: data had been provided. These n1easures were designed to
    improve the old database before the netv NSL data systern was hnpJernented.
I   Now, all reporting ofNSLs is done through the new systeni. (U)

             f)IG:..~ImlY.§is: \Ve believe that the steps taken by the FBI to create a
I     central database tor generating and approving; NSLs and for collecting data
      peli:inent to congressional and public repmting <Jn. NSL usage should

I     irnprove the coUection of timely, complete, and accurate data. on NSLs. This
      new NSL data systern wH1 enable fldd agents to insert cRst>specifk
    · infbrmatlon into a sh:mdardized NSL request fonn, antotnaUcaUy track the

I     progress of each NSL, i.denti(y delays in the :rn:ocess, send auto1natic
      reminders to advance the revi.e\v and approval process., and faci:lltat.e the
      transmission of NSL documents arnong pati:icipants in the NSL approval
I     process, (tJ)

            Now that the NSL data systen1 is fully operational, it should eUrnina.te
I   the need for :F'.BI OGC personnel to manually re-enter NSL data into the
    antiquated. OGC database after the hlfi)nnation has been uploaded into the
    ACS systen1 by field and Headqu.a.rters personnel. Using the new data
I   systern, FBI field personnel. tvill need to enter NSL data only once·-- when the
    NSL is created - because the data systen1 ·will autmnatlcally upload the
    approval. EC a.nd NSLtnto the ACS system. The FBI stated that aU the
I   ink1rrnation necessa.:ry to produce required congressional reports on NSL'3
    vvil1 be collected a.s part of tl1is process. which should improve the tin1ely,
    cmnplete, ~::i.nd accurate collection of NSL data.. (U)
I          The FBI also stated that the NSL data systern contains controls to
     rnl11in1ize the risk of data entry enors, such as setting the default to tLS.
I   person. proh.lbiting an entry' o:f "O" for the number of requests. and
    preventing the use of consumer full credit reports in counterintelligence
    cases. However. the OIG dtsagrees that changing the defi:1ult setting status
I   frorn a "non-- U.S. person'' to a 'TLS. person" is the best way to ensure
    accurate data entry, As v..re noted in our first NSL report. from 2003 through
    .2005 the OGC database contained a defa.ult setting of "non~U,S. person" for
I   the investigative subject of NSL requests for Right to .Fino.llcial Privac.y A.ct:
    (RFPA) and ECPA to.11 billing/electronic conn11tu1tcation transaction records.
    As a result, knm:vn or presn111ed U.S. persons could be rnisl.dentified if the
I
I
 I
 I   default setting was not corrected {fron1 "non-·U.S. person." to "U.S. person")
     during data e~1try. This resulted in an understatement of the number of
 I   iir;.restigaUons of U.S. persons tv'h.o -vvere the targets of NSI,,s. 'Ille OIG
     believes that an error is just as likely to occur if the default js chm1g(:-:.d to
     *U.S. person" because personnel entering the data rnay fail to correct the
 I   defa.ult setting \vhen the t.<:.U"ge.~t of the investigation is a "non-LLS. person."
     \Ve believe the appropriatx~ ;,.vay to uiinirnize the risk of error would be to
     create a bla.nk mandatory Held and require FBI personnel to n1al;.:e an
 I   afilnnative selection before the data system allows the user to proceed to the
     next entrv. .... fU)

 I          Similarly, as described in our first NSL report, the OGC database \Vas
     progra.rmned to provide a de:fo.ult setting of -"O'. for the nurnber of NSL
     requests. Since e-v--ery NSL generates at least one NSL request. a "O" entry
 I   for NSL req_uests is erroneous. However, since one NSL can generate lllore
     than one request. U'BI personnel may fa.U to c.01-rect the new defrnJ.lt *l"
     setting just as they previously failed to coned the previous default ''O''
rl   setting." According to HK: FBL the new NSL data syste.m corrects this
     deficiency because it assigns the nutnber of NSL requests autornatically. (U}

 I         \Ve bell.eve that the FBI's decision to assigr1
                                                       '-'•
                                                            additional NSLB .I'rwrsonnel
     to enter data into the data.base and provide additional training for these
     personnel should help reduce the frequency of data entry errors. However,
 I   we also believe that the FBI OGC should require periodic reviews of a.
     sample of NSLs in the ne\v NSL data system to ensure that the training
     provided is successfully applied in practice and has reduced or eHrninatJ.xl
 I   data entry errors. {U)

           The OIG also notes that the NSL data system does not capture the
 I   date \Vhen the SAC {or other approving ofi1cial) signs the NSL; rather, it
     includes the date that the SAC electronically certJfies approval of the r:C and
     NSL. Until the f.!~BI inJplements electronic signature capability. this may
 I   create ;:1 possible variance between the two dates. (U)

     Recommendation No. 3 {U}
 I         Improve the FBI OGC ,NSL database to include data reflecting NSL
     requests for information about individuals who are not the
 I   investigative subjects but are the targets of NSL requests. (U)

            Background: \Ve determined in our first NSL rep01i: that. the OGC
 I   database did not. include data on v,.rhethe.r the target of the NSL is the
     subject of the underlying investigation or another indivi.du.al. The target of

 I   a11. NSL is frequently not the san1e person as the subject of the underlying
     investigation. Since the databased.id not di.stinguJsh between the target of
     the NSL and subject of the investigation, the FBI did not know and was

 I
                                               0
                                             2.J
 I                                       ~
I
I   unable to esUrnak the number of NSL requests relating to persons who are
    not investigative sttbjects, In light of the Patriot Act's e.A1Jansion of the FBI's
I   authority  tocollect h1forrnation "on individuals \vho are n~1t subjects of its
    investigations, \Ve recom111ended that the OGC database be rnodi(ied to

I   capture this information from NSL approval ECs so that the infonnati.on is
    subject to internal and external oversight. (U)


I         FBI Actions Taken to Address the Reconunenda:tion: 'I1ie new NSL
    data syste111 "l.;vill prompt the user to enter infonnation about the srubje.ct., the
    predication fbr the NSL. the type of NSL. the NSL recipient, m1d specHlc
I   targets of the NSL; including targets other thm1 the subject of the
    investigation, (U)

I         In 2006, the FBI n1odified .tts NSL g11idance to require, with the
    e.xception of NSLs scektng subscriber information, that agents indicate in the
    NSL approval EC whether the request is fbr a person other than the subject of
I   the investigation or in addition to that subject m1d to state the U.S. person or
    non-U.S. person status of those indh·1dual.s.1° That guidance was reiterated
    in the Comprehensive Guidance E.C issued by the FBI OGC in ,June 2007. (UJ
I            OIG .A..rKuysis: Our review indicates that.the steps taken by the FBI
    '\viJJ he:lp ensure that the new NSL data system contains accurate data about
I    individuals \Vho are not tnvestigattve....   subjects
                                                      •.   but are the ta..rget.s of NSL
     requests, We reviewed a dernonstration of the NSL data systern. which
                                                                              _..,.




     indicated that, 'ivhen fl1Uy implemented. the ne\v data systern should satisfy'
I    our reconunendaUon by capturing data on the l.LS. person/no.n--U.S. person
     status of targets of NSJ,.,_;;;, not Just the status of the invesUgaUve subjects. (U)

I   Recommendation No. 4 (QJ

          Consider issuing additional guidance to field offices that will
I   assist in identifying possible JOB violations arising from use of national
    security letter authorities. such as (a) measures to reduce or eliminate
    typographical and other errors in national security letters so that the
I   FBI does not collect unauthorized information; (b) best practices for
    identifying the receipt of unauthorized information in the response to
    national security letters due to third party errors; (c} clarifying the
I   distinctions between the two NSL authorities in the Fair Credit
    Reporting Act (15 U.S.C. §§ l68lu and 1681v); and (d) reinforcing
    internal FBI policy requiring that NSLs must be issued from
I   investigative filest not from control files. (U)


I          w 'f'.bere is no t~tatutory requkement i.n the RCPA to report the U.S, person Mattw of
    NSL n~quests for subscriber infom1atinn. In inany c.aSt$, thi;.~ identity of the subscriber is
    unknuwn., (Ul

I
I                                           24
                                            ~
I
I            Backgr.ound: Our first NSL re:port. noted that the nmjurity cif the
    possible intelligence violations that were self~reported by .FBI personnel to
I   the FBI OGC by :field offices, 22 of 26, arose frorn FBI errors. Most of these
    involved t.y1)ographical errors or the case agent's good faith but ernmeous
    belief that the information requested related to an investigative su1~jecL
I   l\.'foreovet\ 1nany NSL-relai:ed possible intelligence violations throughout the
    FBI -.vere not identlt1ed or report.ed by F'Bl personnel. (U)

I          Som.e of the possible intelligence violations we identified resulted frorn
    ty-po51Taphica.l errors in the telephone nurnber or e-mafl address in the NSLs,
    \Ve also ch:~termined that the FBI entered unauthorized infonnaUon in an
I   FBI database because agents and intelligence analysts did not ve1i{Y U1at
    the infiJrrnation supplied by the NSL recipients rnatched the infi:.1n1u.:ition
    requested in the NSLs ..Additionally. \Ve found that son1e FBI personnel
I   \Vere cm1:fuse.d about the t\.vo NSL authorities available under FCHA NSL
    statutes and, as a result, either requested or obtained unauthorized
    infonnation. (U)
I           \Ve also identH1ed two circumstances in which the FBl relied
    exclusively on control files rather than lnvestigatJve files to initiate approval
I   for NSLs in violation of internal FBI policy. In one instance, the FBI issued
    at least ~-mo NSLs in connection with a classified special prDject overseen by
    :FBI Headquarters. The second instance involved the issuance of six NSLs
I   by the B:lectronic Surveillann~ Operations and Shaiing: Unit in the
    Counterterrorisn1 Division. In addition to violating FBI policy, when NSLs
    a.re issued exclusively from control files it ls cUfflcult. to detennine if the
I   statutory and Attorney General's Guidelines re.quireinents for issuing NSLs
    have been satisf1ed. (UJ

I         Unl.ess the errors in the use ofNSLs are tdentified by the FBI promptly
    and any improperly obtained infon11aUou is sequestered or returned;
    unauthorized infonnation obtained :ln response to improper NSLs may result
I   in ad.ditional problems. In some .instances, agents and analysts upload
    digital responses to NSL-s into the ACS systeu1 and the Investigative Data
I   V/arehouse, which 1nakes the data available to other agents, Headquarters
    personnel. and other lavv enforcelnent a.nd intelligence agencies.
    Accordingly, we recom1nended that the FBI consider issutng addlt1onal
I   guidance that v.rould assist FBI personnel in .identit)-ing possible intelligence
    violations arising fl-orn tl1ese types of enors. (U)

I         F'Bf Actions 'Taken to Address the Hecon1n1endatinn: 4(a) measures
          -·-·····-·--··--····-··············-··········-·····
    to reduce or eliminate typographical and other errors in nati.onal
                                                                      ------~--




    security: ln a Comprehensive (Juidance EC, the FBI General Counsel
I   mandated that the model NSL approval ECs and model NSLs posted on the
    NSLB \\>~ebsite be used by FBI personnel when drafting the NSLs. The FBI
    bel]eves that rnandatory US(::. of these rnodels w1U help reduce
I
                                                                 25
I
I
I   1ypngraphical errors in NSLs and approval ECs. '111e FBI also provided new
    NSL training to Held and Headquarters personnel that eu1phasized the
I   potential for collection of unautl1orized informatton due to typographical
    errors and the need to ensure that infor:n1ation ts appropriately requested,
    In addition. as described in Chapter Tl-iree of this rep01i, several reviews of
I   the F'BI's use of NSL authorities conducted in 2007 by the FBI's Inspection
    Division and nattonat secu.rity reviews conducted by the NSD \i.rfll asstst the

I   FBI tn developing additional guidance to .reduce these and 0th.er types of
    e1Tors. (U)

             OIG Analysis; 4{a) The OIG believes that the steps taken by the FBI
I   t~.dll help reduce ty-pographical and other errors in NSLs so that the FBI does
    not collect unauthorized infonnation. (U)

I          \Ve believe that 1nandating the use of the n:todel NSL approval ECs
    and model NSLs in    cm~:jnnctton \Ni.th the new NSL data systern (in v..thtch

I   data el.en1ents such as case nurnbers, type of NSL, subject and target
    nmnes, and telephone numbers nmst be typed only once) should help to
    reduce typographical arid other data entry elTors. Once typed, the
I   infiJnnation becornes part of the ekctronkally generated approval EC and
    accompanying NSL. These steps will avoid the electronic "cutttng and
    pasting'' that created errors as we noted in our first NSL report. However.
I   case agents and supervisors \ViU still need to verH~l that the initial data
    entries are made correctly. To veril~v this, we recormnend that the
    inform.anon in the NSL be checked by the case agent or the supervtsor
I   against any serialized sot.tree docu1nent to verify that the data extracted
    fron1 the source document and used in the NSL {such as the telephone
    nu1nber <ff e-mail address) is accurately entered, 1.1 This wou.ld enable FBI
I   personnel and in.terna1 and ex-ten1a1 auditors to cornpare the data in the
    source document witl1 the particulass described in the NSL to ensure
    consistency and accuracy, (U}
I         The OIG also believes that periodic training of VBI personnel
    responsible for generating; reviewing, ru1d approving NSLs that ernphasizes
I   the need to ensure that lnfonnatlon ts appropriately requested in NSLs a.nd
    identiHes the potential k~r unauthorized coUectio:ns due to typographical and
    other errors ts essential to the success of these corrective actions, (U)
I         FBI Actions Taken to Address the Recorrnne:ndat!9q: 4{b) best
    practices for ide.ntifying the receipt of unauthorized information in the
I   response t.o national security letters due to third party errors: On
            11   Under FBI intenrnl proc<::dures, each docmrH.~nt that is plaeed in an investtg~'lttve
I   file mtrn.t he numbered in sequt.~net~. This number ts knfl\:\ln as the serial number, and the
    document is knov,m as the serial. Federal Bureau of investigation, !vfanu<:ll of
    Adrninlstrative Operations ~md Procedures, 2-4- l. l. flJ}

I
I
I
I   January 3, 2007, the FBI OGC issued a 1.nem.orandum (~ntitled. Legal .Advice
    and Opinions: Uploading of NSL Return Infonnation, The rnemorandum
I   directed that infonuatJon obtained in response to NSI..s b(5 revie\~1ed before it
    is uploa.ded into Telephone Applications and other F'Bl databases to ensure
    that the infi:::irmation is responsive to the NSL :request a.:nd that there has
I   been no unauthorized collection. The Cornpreh<::::nsive Guidance EC issued
    on ..June l, 2007, reiterated this policy and st.ates that any irnproper
    in.fi:.u~mation obtained tn response to NSLs inay not be retained or uploaded

I   into any FBI database and inust imrncdiately be sequestered. It further
    stated that a report. to the FBI OGC of a potential intelligence vi.olation rnust
    be prepared by the case agenL The .January 3 i11e1110.randtun also stated
I   that when the NSLB a.ctjudicates the matter, it is to confln11 whether the
    infonTu1tion is relevant. If the lnfonnation is not relevant., the NSLB \Vil1
    direct that the i.nfonna:tion either be retu1T1ed or destroyed. If unautho1ized
I   information ts collected't.hat Js relevant to the .investigation, the
    memorandurn d.irecLi;; that it be sequestered and not uploaded into any FBI
    databat:H.:: or utiUzed in. any rnanner until another NSL has been issued to
I   address the oveq1roduction. {U)

          The Cnmprehensive Guidance EC includes as an attachment. an NSL
I   H.eview Checklist ft1r use by personnel who revie\V or upload NSL-derived
    information. 'l'he checklist has a check box indicating that tl1e case agent
    has contlnned that the .infon:nation is relevant and there has not been an
I   unauthorized collect.ion. There also is a check box indicating that if the
    infonna:tion is not relevant to the i.nvestlgation the user has contacted the
    CDC or the NSLB for advice on hm.v to proceed with a potential IOB report
I   and that the CDC \.Vill sequester the in.1onnation and deterrnine the
    appropriate action. (U)

I          111e C01nprd1ensive Guidance EC also cillforentiated. between twn
    categories of unauthorized collections: production of information not

I   relevant to the investigatton ;;u1d ·'ove1vrodnctJon" of infon:naUon that was
    not requested by the NSL but is relevm1t to the investigation. Infbnnation
    not relev.::mt to the investigation would lnc:lude data on a telephone number

I   other than the telephone nu:mber listed in the NSL due to a typographical
    errnr in tl1e NSL. ln addition, an NSL recipient may generate unauthorized
    collections by providing infonnation on the subscriber associated \\1th the
I   telephone number referenced in the NSL for a ti.me period greater than was
    requested. The Cornprehens;ive Guida.nee EC directs that supervisors are
    required to rnonttor compliance \Vith this policy, recon:n:nending that du.ling
I   qumierly file reviews squad supervisors conduct spot checks of lnfor:rnation
    obta1ned tn response to NSLs to ensure that case agents are following these
    procedures. (UJ
I        The FB:t OGC also issued a 1nemorandum on April 4, 2007, regarding
    procedures for redacting information obtained in response to. but beyond
I
                                           27
I
I
I   the scope of, an NSL and for disse1Jlinating the tnformatton to case agents
    while awatting adjudication of the potential intelligence violation. 'I'he
I   n1ethod of redaction is left to the disc1:etion of the CDC, However, the
    procedures require that no nmtter what inethod is used, the redacted
    inkwrnation should not be vJsible or accessJble. should not be uploaded :Into
I   any FBI database. and should ren1atn sequestered \Vith the CDC.12 (U)

           Ne\vNSL trainin,g a]so addresses the need to review NSL--derived
I   tnfonnation plior to uploading it to FBI databases. In addition, we were
    info.nned that tl)e FBI OGC and the NSLB are revi.e\::ving the findings of the
    Inspection Division's 2007 revk.\v of NSLs to dctennine if additional
I   1neasures or training "\\'Dtdd irnprove compliance on the handling of
    unauthorized information obtained tn response to NSLs. (U}

I         OIG AnaJvsis: 4-(b} \\le believe that the steps thus far tak.en by the
    FBI will assist FBI personnel in identifying possible intelligence violations

I          -
    arlsing frorn use of NSL authorities, The FBI OGC ~guidance menwranda
    dated January :31 2007, and .Aplil 4, 2007, and the Cornprehensive
    Guidance EC prQvide specific instructions fur handling unautbmized
I   records obtained in response tu NSLs <::n1d direct that such records not be
    uploaded into any FBI databases. (U}

I          The new NSL data system. also .requires case agents revtev,,i_n.g NSL--
    de1ived information to identi1}' the receipt of any unautho1ized information.
    \.V1len case agents receive records in response to NSLs, they n:tust cornplete
I   several steps, including entering an electronic certification stating that the
    responsive records have been revie\.ved for unauthorized collection, The
    data syste1n has a co11m1<:~nt field that rnust be completed if an unauthorized
I   collection occurs. If the person entering data does not complete all requJred
    tasks, the data system sends elce:trontc renunders until all required entrJes
    are made. (U}
I          In tts response to our reconn:nendations that address potential errors
    by the FBI or NSI. recipients, the FBr noted its lmplementatJon of new
I   tralntng, issuance of new guJdance, and development of the new NSL data
    system, \Vhi:le \Ve believe these measures are important, we also be:!ieve the
    FBI needs to proactively and regularly scrutinize. national security
I   investigations and the use of NSLs, t:n light of the FBI's increastng reliance
    on NSLs as a p1ilnar_y investigative tedmique eu1ployed in both terrorism
    mld espionage investigations {discussed in Chapter Five of this report), the
I   FBI should exarnine the preparation of NSL~related documents and the


I           12 ·when a portion of NSL--i:krived l:nformation is n,~dacted by a '"strike-though" or by
    "bladrtng out" using a black uuu·ker or other similar maritlng ck·vice, tlw inlhm1atfon must
    not be kgihle through H1e bl.:td;;::em,~d/redaded portion. (0)

I
I                                            ~
                                                   28
I
I   handling of NSL-deriVed infonnation \.Vith periodic reviews and inspec:Uons,
    Any recuning proble111s that suggest eonUnuing confusion or uncertainty

I   about the proper use of NSLs, or inadequate field supenris.io:n and revie\V,
    should be promptly discussed with FBI attorneys and addressed. We also
    believe that tl'1e FBI OGC should establish mechanisms for spot checking
I   entries into the new· NSL data syste1n using resources available frotn the F'Bl
    Inspection Dtvi.sion and the F'BI's new· OlC. rvtoreover. FBI personne:t
    authorized to request information pursuant: to the NSL authorities rnust
I   know that the use of these authorities hnposes requirernents and
    responsibilities for which they \ViU be held accountable. (U)

I         fBI Actions Taken to Address the Heconunendatton; 4(c) clarifying
    the distinctions between the two NSL authorities in the Fair Credit
    Reporting Act: A n1ernorandum dated l\~larch 5; 2007. issued to all field
I   oflkes and the CounterinteHigence Division by the FBI Nati.onal Security
    Branch (NSBL clarifi.ed the <Ustlnction behveen 15 U.S.C, § 1G81u mld
    15 U.S.C, § lGSlv of the FCRA and mandated a review of NSLs .issued under
I   the FCRA. The distinction between the two NSL a.uthmitl..es also is
    highUghted in the Co1npreh.ensive Guidance EC. (U)

I           i\s \Ve describe in Chapter Three of this report, on lVIarch 5. 2-007, the
    F13I's Executive Ass.istant Dtrector for the NSB also directed all 56 field
    offices to review all NSL. .,;;. issued pursuant. to the FCHA in
I   counterintelligence case files frmn 2002 through 2006. The. purpose of the
    rev:ie\v was to detem1ine if any of the.se NSL'"> requested consu.1ner full credit
    reports in violation of 15 U ,S, C. § 1681 v or resulted in the ilnproper
I   collection of such repo1i:s tn response to NSL requests for lll.ruted credit
    information pursuant to 15 u.s..c. § 168lu. ·n1e directive stated that an
    such incidents must be reported to the FBI OGC as potential intelligence
I   violations regardless of \·Vhether the infon:natio.n was requested by the FBI or
    erroneously produced by th(:~ credit. rep<nting agency. The men10randuu1
    directed that any hnp.roperly obtained consurner full. credit reports be
I   rernoved from the files and that any possible intelligence -v"iolations identified
    through the revi.ev,r be reported, \Ve desc1ibe the results of the FCHA review
I   in Chapter Three of this report In s1.un, the review showed that the fl3I
    issued at least 33 NSLs seeking consurner foll credit reports. in
    couutertntelligence eases ln vi.olati.on of the FCRA NSL statute ~-l:nd internal
                  ...._LO    •




I   FBI policy. In 29 of these 8:3 nia.tters, the FBI obtained the consumer full
    credit reports. The una:uthod.zed infnnnation was sequestered in 23
    instances, returned to the third pmty provider in 1 inst.a11ce, and in 5
I   instances the ECs did not state \Vhat was done \vith the tnformation. {U)

          The FBI General c:ounsel also provided tra:lning a.t the
I   counterintelUgence conferences for SACs in January and February 2007
    regarding NSLs. U1e SACs' responsihllities prior to authorizing NSLs, and the

I
                                           29
I
I
I   fact that an NSL for a consu111er full credit repmi: is not authorized in a
    counterint:dUgence investigation absent an international terro1is1n nexus. {U)
I          In addition, nev,r NSL training addresses the distinction beh.~reen the
    t\vo FCRl\ NSL authorities and ernphasizes the ne{~d to idenUf)r a nexus to
I   inte111ational t.errorisn1 before generating an NSL pursum1t to 15 U.S.C.
    § 1(J8 lv in a counterintelligence investigation, (U)

I          OIG .t'\.nalvsi~: 4(c) The FBI's FCH.i\ review revealed that 20 percent of
    the FBrs field offices (11 of 5GJ issued a total of 33 irnproper FCHAv NSLs
    during 2002 through 2006, the 5~year pertod covered by the revtev,,>. ln 29
I   of these insh:mces. the FBI iinproperly obtained consun1er full credit reports.
    The revie\v detennined that. only t\vo of these rnatters had previously been
    reported to the FBI: OGC putsuant to the nianda.tory self:-·reporttng
I   requirement:. 1'he review also shm,ved that 64 percent of the FBI's field
    ofl1ces (:~5 of 56) issued a total of 28:3 NSLs seeking limited cred.it
    infonTmtJon pursuant to 15 U.S.('., § 1681 u du1ing the revie\V period, iI1
I   response to \Vhich the credit reporting agencies i:t:nproperly produc,;ed
    cansu1ner full credit reports. Only G of the 2:3S unauthorized collections

I   had previously been reported to the FBI OGC pursua11t to the mandatory
    self-reporttn,g require111enL Thus, only G percent of the tmprnper requests
    and 3 percent of the unauthorized collections were self-reported to the FBI
I   OGC. (U)

          The results of the FEffs review demonstrated contlnued confusion or
    inadequate knowledge about the statutory requirernents fur FCHA NSLs
    mnong case agents, supervisors., and CDCs throughout 2006. 1V1oreover, the
    results demonstrated the ineffi:"~ctiveness of the FBI's rnandatory sdf-
I   reporting requirements. The case agents, their supervisors, their attorneys.
    and the SACs did not recognize that they had n1ade ilnproper requests
    under the F'CHA. S:tmila:rly, the case agents and analysts \vho reviewed the
I   responsive records dtd not recognize the receipt Qf the unauthorized
    coUections, (U)

I          The OIG believes that the steps thus for taken by the FBl will help
    clartty the cUsHnctJons behveen the t\vn types of F'CRA NSLs. In addition,
    the ne\v NSL data system is prognumned so that FBJ personnel caru1ot
I   generate an NSL request for a consurner full credit report from a
    counterintelligence cast~ file. i\lso, as demonstrated in the ne\v NSL data
    system traintng module, when the statute underwhkh the records are
I   :requested is selected, the language of the statute appears in a textbox, The
    text of the NSL statute in.fonns the requester \Vhat records the FBI is
    authorlzed to obtain under each NSL statute. The results of the FBl's
I   revie\v of F''Cf(A NSLs \Vill also assist the F'BI in developing further trainir~g
    to a.ssist agents and supervisors in distinguishing the two types of FCRA
    NSLs, (U}
I
I                                       ~
                                            30
I
I          Ho\vever, successful implementation of this reconunendation will
    require re\·ie\v by case agents, their supervisors, and CDCs and
I   Headquarters atton1eys of all F'C'.HA.v NSl:,,.-5 to verify the required nex.us to
    intenmtional terrorism exists, To identi(y any unauthorized collection of
    records obtained in response to any type of F'CRA NSL, the responsive
I   records n:1ust be carefully and consistently revievved uponrecetpt Case
    agents and their su.penisnrs must be vigilant to ensure that any

I   unauthorized collections are pn:m1ptly identified and reported in accordance
    \Vith FBI policies, {U)

           FBI Actions Taken to Address the Reco.mmendation: 4{d) reinforcing
I   internal FBI policy requiring that NSLs must be issued from
    investigative files. not from control files: In an EC dated F'ehruaty 23,
I   2007, th<:~ FBI OGC mandates that NSLs be issued fron1 open investigative
    flles m1d that the NSL approval EC must not refer solely to a control flle
    number. TI1e Comprehensive Gu.idance I!;C also prohibits NSLs from. being
I   issued solely from a control ftle, 'rhe J:.:C notes that absent reference to an
    authmized investigation it is difficult for the FBI to ensure for purposes of
    congressional reporting and auditing that the requirements of the NSL
I   statute are rnet. (U)

         The ne\v NSL data systen1 lncorporates the requirements of the
I   I<'e.b1-t1·a:1~r
    ·- ..•~ • . . :( ·...,'t •)•'}
                             ~·J'.C 'J{)i)""1
                                    ~ ...,\.      bv IJl'e,~111cl1'111:>
                                                  L;'f~ i'·1·1 ·1'j·""
                                              .,. 1~~'-._...
    generating an NSL solely frorn a control file. (U)
                                                          ·-·~-· .l   b ca~e
                                                                       -.             "'{)'·~11.tc
                                                                  .·O I)fr1o't''ll'I·1.1111'"lfY
                                                                          '1--~t_-, .("
                                                                         ...<. ~.. .• <"-~b~"
                                                                                         .  .-t-. :;"".:..,   .)   -   ·>..7   ·C::r(Jll'l
                                                                                                                               J~;·




I          OIG Analysis: 4(d) ''I11e steps taken by the FB.J: reinforce i11ten1al
    policy requiring that NSLs be issued only from investigative files, not solely
    :from control flies. The dear guidance contained in the February 23, 2007,
I   EC rnandates that NSLs be issued fron1 open 1nvestigattve cases and further
    states that: (l) the NSL approval EC must refer to the investigative case. file
    or sub-flle number of the investigation to which the NSL relates; (2} NSL..s
I   should. not be issued under control me nun1bers; and (3} investig<.1tive
    activity requirtng an open investigation, such as issuing NSLs, xnay not be
    cunducted solely frmn a control file, This policy was reiterated in the
I   Con1prehensive Guidance EC and also is ref{~renecd in the FBrs rnandatory
    NSL tra.ining provided for field agents assigned to counterterrorism or
    counterintell~gence squads. Additionally, the new· NSL data systen1 \ViU
I   ensure that NSl""'~ are not being requested solely fro111 control or
    administrative files, {U)

I           Both the Atton1ey General's Guidelines for FBI National Security
    Investigations and Foreign lnteUigenee Collection (NSl Guidelines} and FBI
    policy require that an NSL issued in a national security .investigation be
I   issued fron1 an open investigative file. Regular rnonitoring: that includes file
    reviews and periodic reminders t'iiU he:tp ensure that NSLs are issued only
    fr0111 open national secmity .investigation case files, (U}
I
I                                                                                  ~
                                                                                             31
I
I   R~coiµmepdatio!LNQ,~__,Q __ JY1


I         Consider seeking legislative amendment to the Electronic
    Communications Privacy Act to define the phrase .. telephone toll
    billing records information.•; (U)
I          Batl~IQYild:           \Ve found in our first NSL report that F'Bl agents and
    attorneys ft-equently had questions regarding the types of records they could
I   obtain when requesting "toll billing records infurmation," a tern1 that: is not
    deflned in the ECPA NSL statute, 11-w :iinpredsion of the statutory language
    and sparse case lav,r generated n1ultiple inquiries by CDCs to NSLB
I   attorneys and confus.ton on the part of co1nn1u11ication service providers
    \.vho provided ditforent iypes of information in response to the FBrs ECPA
    NSLs. Accordingly, w·e recorrnnended tl1at the FBl consider seeking
I   legislative :revision of the P~CPA NSL statute to cfaffil}'" the records the FBI is
    perrnitted to obtain and ensure consistent .interpretation of the statute. (U)

I          FHl. Action Taks.~ILtfLt1.~t~lrt~§.S the RecmnmendaUon: Based on
    rnconunendations. from the FBI, the Department has drafted a proposed
    a1nendment to clarify the phrase "telephone toll hi11ing records information..
I   in the ECPA, The proposed cunenchnent spedfles the types of infonnation the
    FBI can obtain pursuant to the ECPA NSL statute. 'Il1e proposed an1endm.ent

I   was cleared by the Otf1ce of Managenient and Budget and was sent to
    Congress on ,July 13, 2007. 13 The proposed an1end1nent would authoriz.e the
    F'BI to obtain the following records in response to ECPA NSLs: {U}

I                 •      nan1e; {UJ
                  •      address; (UJ
I                 •      local and lo.n.g di.stance telephone connect.ton recoi·ds, or records
                         of session tirnes and durations; {U)
I                •       length of servtce (including: shu-t date) and types of servtce
                         trtiUzed; (LT)

I                •       telephone or instrum.ent nuinber or other subscriber nu1nber
                         or identiiy, including any temporarily assigned network
                         address; (U)
I                •       means and source of payn1ent frn· such service (including any
                         credit cani or bank account number}; and (U)

I                •       n .>:eords
                            .       identit)ri.ng the origin, routing, or destination of
                         electronic cornrr1unications. (U}

I          ~3    'The FBl OGC bad no additional information on the status of the pn:iposed
    kglslatlon   ;;1s   of Februmy 2008, (U!

I
I
I
I         OIG Ana.lvsis: The OIG agrees that, if enacted, the proposed
    amendment to the ECP.A NSL statute would darifY the meaning of the
I   phrase '"telephone toll billing records tnJotTnaUon" by specilytn,g the cy11es of
    records and information that the FBI can obtain in counterten~or:ism and
    countcrtnt.elligencc investigations from ek~ctronic communication senlfce
I   providers and ren1ote computing services. (U)

    Recomme.ndation No. 6 (JJ)
I         Consider measures that would enable FBI agents and an.alysts to
    (a) label or tag their use of information de.rived from national security

I   letters in analytical intelligence products and (b) identify when and
    how often information derived from NSLs is provided. to law
    enforcetnent authorities for use .in criminal proceedings. (U)
I           Background: \Ve :found in our first NSL report that the FBI generates
    a vmiety of analytical. intelligence products using informatton derived from
I   NSLs, These include a:nalyses of cornrnunication and tln<:u1cial links
    bettveen investigative subjects and others. as weU as analyses of NSL--
    deiived data in relation to information developed from other intelligence
I   techniques that a.re stored in other FBI databases, such as the Investigative
    Data Vvarehouse, NSL-derived data also ls used to generate more fonnal
    intelligence product.st such as Intelligence rnformati.on H.eports, Intelligence
I   Assessrnents, ~md Intelligence Bulletins. ''Ibese products are stored in
    varl.ous FIH data.bases, shared \Vithln the Depattn1ent a.t1d with Joint
    'I'err01isn1 Task F'orces (JTI'F). and dissen1inated to other federal agencies
I   and other n1embers of the Intelligence Comrrruntty. The FBI also provides
    infonnation derived fron1 NSLs to l<:n.v enforcement authorities for use in
    c1i1ninal proceedings. Hmvever, because NSL-derived infonnatlon is not
I   n1arked, tagged. or othen\.:ise identified as coming from NSLs when it is
    entered in FBI. databases or when .it ls shared \Vith law enforcement
    authorities or other Intelligence Conuntu1it~y rnernbers, it is irnposstble to
I   deterrnine \-Vhen and hO\v oft.en the FBI provided NSL-derived information
    to law· enforce1nent authorities for use in crun.inal proceedings {one of the
    topics the Patriot Reauthorization Act directed the OIG to address in our
I    NSL reports). Accordingly, \Ve recommended that the FBJ consider
    measures to labd or tai;t NSL-de.rtved information so that the VBI's use of
                              '·'

I   the inJonnation can be better tracked in intelligence products and in
    cri.rninaI proceedings. (CJ)


I          Ef31 _,6.~Uon~_Jl1Iren to Address the Recomq1endation: At the direction
    of the Attorney General, in .July 2007 the Departrnent's Chief Privacy m1d
    Civil Liberties Ofllcer convened a National Security Letter \\Tor.king Group
I   {NSL ·working Group) to exanrtne issues regarding retention ot NSL-delived
    infonnation. The Attorney General directed the NSL w·o:rking Group to
    evaluate how NSL--deiived tnfonnaUon is used, stored. and disse111tnated,
I
I
I
I   with a particular focus on the retention of NSL-dt~1ived infonnation.1 4 ~n1c
    NSL ·\Vorking Gruup considered tnforrnatton provided to it by the FBI a.bout
I   enhancetnents to the FBI's information technology systems designed to
    support agents when handling NSL-derived data.rn (U)

I         TI1e NSL \'Vorlting Group concluded that tagging of NSL-der:t~,.red
    i:nfonuation \Vas not feasible at the time, but it recmnrnended that the FBJ
    require NSL-derived infon11aUon to be placed in a spectfic suh--111e of the
I   pertinent lnvestigative file. In a draft 1nernorandum. to the .Attorney General,
    dated August 17, 2007 {NSL \Vorking Group August 200'7 Draft}. the NSL
    \Vorkfng Group stated: (U)
I          Because the [FBI's] new s._ystems provide for the structured
           storage of information and NSL infon11ation can be segregated
I          in the database, the Vlorktng Group concluded that the
           individual tagging of NSL-derived data did not provid<::. any

I          measurable value for plivacy protections at this tbne. That
           said, and as e,'{plained in rnore detail in the FBrs proposed
           dJrective, ensuring that Jnfonnation de1ived from NSLs ls

I          approp1iately labeled as such and tied to a specific NSL does
           function as a form of tagging. The benefit to privacy of
           requiring adcHtionaI tagging. such as through n1eta-tags, was
I          dete:nnined to place an undue burden on the operation of sucb.
           an in1portant tool. (U}

I         In brief, the NSL \\forking;.._, Groll{) concluded th.at additional ineasures
    requiring the tagging or labeli11g of NSL-derived inkffnmtion would "place an
    undue burden on the operation [ofNSLs.]" (U)
I          A.>i:;. m1 alternative to taggtng, the NSL \Vorktng Group reconunended
    that the FBI label aJl NSL-delived inforrnation and place the paper copies or
I   electronic medla in an invesUgattve case sub··file specifically desjgnated for
    NSL--de1ived infonnation. The NSL \Vorking Group also recomrnended that
    the FBI i:mplenwnt tniniml.zatton procedures for NSL··delived in:forrnatio.n
I   that '\Vere d.eveloped by the NSL \Vorktng Group. Several of these proposed
    procedures replicated procedun:~s that the FBI had already developed and
    implemented in response to the: OIG's reconunendations in our irrst NSL
I   report. {U)


I          lA \Ve provide further analysis of Uie NSL \Voridng Group's recommendations in
    Section IU of this chapter. (Ul
           15 r1l1e enhmKeillents included improved processes for: {1} approving and


I   authnrizing the tssul:ng of NSLs; (2) revielliri:ng and identifying the n::sponsiveness of records
    prodw:~ed pursuant to NSL requests; and {3} ensuring that only NSL--delived information
    deemed to ha:\te investigative value be uploaded into any FBI database, (Uj

I
I
I
I           The NSL \Vorking Group also concluded that existing controls and
    f~nhanced guidelines established by the FBI on the acquisiti.on and use of

I   NSL-derived infon:nat1m1, if prope1~ly foll.owed. eould protect privacy
    interests. The NSL 'Working Group also stated that the FBJ has n1ade
    sig~nJtlca:nt. progress in respondtng to and rectH\rlng previous concerns about

I   its compliance \Villi. stat:utor_y and guidelines lhnttations regarchng the use of
    NSL.s, has a better mechanism for tracking its use of NSLs. and ls subject to
    additional oversight through the NSD. (U)
I         OIP Analysis; /\s discussed later in this chapter. \vhile \.Ve agree that
    the FBr has made significant progress tn addressing our concen1s a.bout
I   co111pltance \Vith NSL autl101ities, we believe it is too snon to say that the
    FBI ha.s "recttlled" many of the proble1ns we identified in our flrst NSL report
    and too early to fully assess whether the new systen1s and controls wm
I   reduce or dirninate these concerns. (U)

           The OlG believes that the NSL \Vorking Grnup's analysis of the
I   tagging issue does not take into consideration the FBrs existing process for
    labeling NSL--derived information in the ACS system. and Telephone
    Applications data.base, mid whether that process can be adapted-\\i.thout
I   undue burden and cost to follow NSI,,..derived tnformation as tt travels
    through other databases and uses, The OIG recom1nends the FBI and the
    NSL \Vorking Group give additional consideration to \.Vhether the FBI could
I   build upon exJsting databases \vithout undue burden <ff cost to label or tag
    NSL·-de1ived information and to identify \Vhen and how often information
    detived fron1 NSLs is used in analyti.cal intelligence products and provided
I   to la\V enforce1nent ~.luthorities for use in crirninal proceedings, (U)

    Recommendation No. 7 (U]
I        Take steps to ensure that the FBI does not improperly· issue
    exigent letters. (U}
I          I?.r.cJsgtminft: In our first NSL report, we found that on over 7DO
    occaskms the FBI obtained~ telephone toll billing records or subscriber
I   inforn1ation fron1 S cornn111nication service providers \:vtthout flrst issuing
    NSLs or grand jury subpoenas as the statute .requires. Instead, the F13I
    obtained the records with "exigent letters" that were signed by FBI
I   He::1dqum1:ers Count(~rtenorism Division personnel \vho \.Vere not authorh·:ed
    to s.ign NSl,,._.;;. \Ve a:!so found through i.ntervie:ws of the Counterterrorism
    Division's Communications Analysis Unit (CAU) personnel and a review of
I   FBI doeun:ients that there sometirnes \Vere no pending national security
    investigations associated with the requests at the time the exigent letters

I   were sent In addition, we found that due to inadequate .recordkeeping, the
    FBI \Vas unable to provide reliable docurnentation to substantiate that NSLs
    or other legal process was issued to cover the records obtained in response
I
                                           35
I                                      ~
I
I    to a srunple of exigent letters for which we requested such documentati.on,
     \Ve also dctennined that exigent letters son1etimes were used iu non~
I    ei11ergency
           ...._,.
               ....
                   ch'curnstances. (U)

            \Ve identifled additional probkrns with respect to the CAU's efforts to
I    issue after··the·-fact NSLs to cover records obtained fron1 the three
     communication service provjders under contract \.Vith the FBI. Among these
     problerns were that the GAU generally: (1) did not inform field division
I    personnel who they asked to issue the NSLs that the information had
     already been acquired by the .FBI and (2) did not consistently pnwide
     information establishing predication for the requests necessary to satt.sf'.y the
I    ECPA NSL statute, the .Attorney General's NSI GuJdelines, and int.er:nal FBI
     policy. As a result, the approval ECs issued in cmu1ection with the after-
     the-fact NSLs sorneUrnes violated the .Attorney General's NSI guidelines and
I    FBI internal policy. (U)

             \Ve concluded that by issuing exigent letters rather than. NSLs, the
I    l"'BI circun:wented the requ.trements of the ECPA NSL statute and violated
     the Attorney General's NSI Guidelines ;Tnd internal FBI polk.7. \Ve were not
     convinced by the legal jnst.ffleaUons offered by FBI attorneys fcrr acquiring
I    the records throu.gh t~-Ugent. letters: (1) to reconcile the strict requiretnents
     of the :EC:PA NSL statute \.\.1th the FBI's mission to prevent terrmtst attacks
     and {2) that use of exig:ent
                            , ..  letters could be de.fended as a use of the KCPA's
I    emergency voluntary disclosure authmity for acqniling non--co.nteni:
     information (18 U.S.C, § 2702(c)(4J}, Accordingly, we n"icornrnended that the
     FBI take steps to ensure that the FBI does not issue exigent letters. (U)
I            FBI .Actions Taken to Address the Reeonunendation: In m1 EC dated
     March l. 2007, the F'BI OGC issued a directive prohibiting the use of
I    exigent letters that .pro1nise future legal
        ~                                    ,.,. process and reiterated the
     authorized procedures for obtaining telephone records pursuant to the
     e1nergency voluntary disclosure provision of the ECPA. 18 U-5.C. § 2702
I    (c}(4}. The Comprehensive GuJdance EC and mandatory NSL trat.nlng
     provided to field and Headqumters personnel reiterated the prohibit.ion on

I    the ·use of exigent letters, In the course of the FBI's revte\v of held and
     Headquarters NSL-:;. the Inspection Division included questions designed to
     a.scerta:Ln whether exigent letters were used by FBI personnel outside the
I    CAlL T'he inspectors found no instances jn which exigent letters \Vere used
     by the field in the case files they reviewed. (U)


I          The FBI OGC also told us it is meeting regularly \.Vith the NSD to
     address issues previously identified by the OIG in our first NSL report. ln
     addition, as discussed further in H.econunendaUon No. 9, NSLB attorneys
I    regularly attend ope.rational n1eetings of the Headquarters Countert(;~rrorisn1
     units that had p.revi.ously issued exigent lei:t(~rs and ConnterintelUgence
     units to provide legnl advi.ce. spot legal issues, and provide oversight on
I
 I
I
I   national security 1nattets, including issuance of NSLs. The NSLB has also
    assigned two NSLB attorneys, one each to the New York m1d Los Angeles
I   field divisions to provide advice on the use of intdligence techniques,
    including NSLs. authmized by the Attorney General's NSL GuideUnes .
    .Additionally. the f.<~BI OGC said it has added two Senior Executive Service
I   posiUons \vithin the NSLB to oversee national security niatt.ers. (U)

          OIG Arn.tly?is: The OIG agrees with th{:~ FBI's actions to prohibit use of
I   exigent letters~ Since our tln~t NSL report, the FBI OGC has sent several
    co11u11unlcations an.cl reiterated in pe1iodic mandatory NSL training that
    exigent letters promising legal process in the future are prohi.bitect The F'Bl
I   also has ctmified the methods by which it may obtatn ce1iain non-content
    telephone and e-tnail tntnsactional data in emergency eircurnsta.:nces in
    accordance \Vith authmity in the KCPA. 18 U.S.C. § 2702{cl{4). (U}
I          The OIG believes that by issuing two ECs, providtng n1andat.ory NSL
    tra]n]ng prohibiting use of exigent letters, requiring NSLB attorneys to
I   regularly attend counterterrorism and counterintelligence. operational
    rnecti:ngs, plae:U.1,g NSLB attorneys in the Ne\v York and Los Angdes field
    di.vtsions, and adding two Senior B:xecutive Service positions \x.rH:hin NSLB,
I   the. PBI has ta.ken the steps necessary to provide needed oversight of national.
    security letter nmtters. \Vb.ile \Ve have no knowledge of additional exigent

I   letters being issued in 2007 subsequent to the Ma.rch 1, 2007. rrnd June l.
    2007, guidance memoranda, the FBI must continue to eu1phasize in
    :rnandatory NSL training for an personnel assigned to programs overseen by
I   the National Sec1uity Branch and to ft~BI managers the prohibition against
    using e11..igent letters and other circumventions of the NSL statutes. In our
    forthcomtng report. -..ve tvill 1.:irovtde addi:ti(fflal rec:cn11mendations designed to
                        G                                                                         ~




I   address the findings of our investigation <J:f th~: FBI's use of e}..igent letters. (UJ

    Recommendation No, 8 ftU
I        Take steps to ensure thatt where appropriate. the Ji"'BI makes
    requests for information in accordance v.ith the requirements of
I   national security lette.r authorities. {U)

            Backgrg_ttn,_t!_: In the course of our first NSL review, \Ve identified a
I   varietv of instances in. which. the FBI ust;.~d NSL$ conlrarv to statutory
          ./'   .           .                           .   . .              .,:.•


    linritations, Atton-.i.ey General Guidelines, or internal guidance or polieies.
                                                                                     .   . ,,..




    In add.ition to the use of exigent,_, letters (discussed above in connection \\>i:th
I   Recornrnenda1ion No, 7). the instances of trnproper or illegal use of NSL
    authortties In 2003 through 2005 generally fell into the follo\ving
    categories: {U)
I                   •           issuing NSLs a.frer the investtga.tive authority to conduct the
                                underlying investigation lapsed; {U}
I
I
I
I            •    obtaining telephone toll billing records and e--nmH subscriber
                  information concerning the wrong individuals; (U)
I            •    obtaining infbn11ation that \Vas not n~quested in the NSL; {U}
             •    obtaining information beyond the tl1ne period reforcnced in the
I                 NSL; (U)
             •    issuing FCI~\ NSLs seeking records that the FBI was not
I                 authorized to obtain, such as issuing F'CRAv NSLs seeking
                  consurner Jull credit reports for counterint:<::lligence
                  investigations wtth no international terrorisrn nexus; (U)
I            •    issuing an ECPA NSL seeking an investigative sul-~jecfs
                  educational records. including appJJcations fr1r adtnission,

I                 1..':mer,gency contact infunnation; and associations with carnpus
                  orga.ntzaUons; and (U)
              •   issuing: NSLs exclusively out of control files rather than frmn
I                       ~                 y



                  investigative files in violation of FBI policy. {U)

           In our first NSL report \Ve also idenUfkd repealed failures to adhere
I   to internal FBl OGC gutdance regarding the docmnentation necessary for
    approval of NSLs. In our re-vie\v of Tl investigative mes and 2H:3 NSLs in 4 ·
    FBI fidd offices, \Ve found that 00 percent of the investigative files contained
I   one or more of the following infractions: (U}

              •   NSL approval ECs that were not reviewed and initialed by one
I                 or nwre of the required Held supervisors or CDC; (U)
              •   NSL approval ECs that did not contain all of the required
I             •
                  infonnation~ and (U)

                  NSL"' that did not contain the recitals or other infonnatlon
                  required by the authorizing statutes, (U)
I          \Vhile these infractions did not rise to th.e kvel of possible intelligence
    violations, they \Vere violations of the FBI's internal control policies
I   established to ensure the proper revk\V, use. m1d tracking ofNSLs, For
    e.xam.ple, revi.ew of the NSL package is designed to ensure that elTors or

I   inadequate predication are identified and cmrectcd befi.1re an NSL is issued,
    If elements of the approval EC or the NSL a.re r:nissing, the FBI offic1al
    signing the NSL cannot be assured that the required predication,
I   specifications of items sou,ght, and statutory authority are conect. {U)

          P'BI Actions Taken to Address the Reconunendation: (U)
I        New Guidance: The June 2007 Con1prehensive Guidance EC provides
    guidance on the use, requirernents, and reporting of NSLs by reminding FBI
I   personnel of the statutory and procedural authori~~ations and restrictions;



I                                      ~
                                              38
I
I     requiring sufficient and independent superv:lsory and legal reviews;
      requiting that FBI personnel use *model" NSL and approval EC fon:ns posted

I     on the NSLB's website to ensure all statutory requirements are met and
      decrea.se the likelihood of errors: providing checklists for use In drafting the
      approval EC and NSL, for revie\ving responses to NSLr;;., and p1ior to
I     di.ssemi.na:ti:ng NSL·deri.ved information; and idenU1ytng what constitutes a
      possible intelligence violation and sp<:~cifying requ.ired actions in the event a
      possible intelh,ge.nce violation is discovered, (U}
I           The Comprehensive Guidance EC deselibed th.e i:bur NSL statutes and
      the specific types of infonnation that ca.n be obtained frorn third parties
I     using NSLs, It also emphasized that the content of comnrunications cannot
      be obta.tned \Vith an NSL. lt clmoifled that U                                      bl


I    ______....    may tlQt Je requcs-ec ,1roug l an    . as a Ina· er o po icy,
      even though t:hese elenw:nts have not been determined to be "c.ontenC
                                                                                          b3



      under the ECPA NSL statute. ~)
I           'I'he gu.tdance cautioned drafters of approval ECs and NSI""' to re-view
      thern carefully to ensure that the :inforrnat1on requested by the EC (such as
I     telephone. e--rnail, or other account numbers) rnatch those in the NSL .and
      that there are no typographical errors that could result tn. unauthortzed
      collection and a possible inteiligence violaUon. The guidance also directed
I     that aU approval ECs and NSLs n1ust he reviewed for legal suffiden(~y by the
      CDC at the field office or by NSLB attorneys at Headqua.1i:ers before hetng
      forwarded to the approp1iate designated approving offkiaL (U)
I          On lVlarch 5. 2007, the FBI NSB issued a separate guidance
      mernorandum dari(ying the distinctions bebvef.~n the two NSL authoriUes in
I     the F'CR..A... fU)

             Training: The NSLB has developed a new NSL training n10dule
I     incorporating the findings in the OIG's first NSL report and addressing the
      cornrnon. enors discussed in the report such as typographical errors.
      confusion regarding the two FCRA. NSL authmities. and legal review and
I     approval of NSLs. The tra.:lning refi.::rs to the F'BI's March 2007 prohibit.ton
      on the use of exigent letters that promise future legal process and
      establishes procedures for properly' obtaining Jnforrnalion in en1ergency

1•    situaJ:ions in accordance \Villi. 18 U.S.C. § 2702. :FBI OGC of:l:1cta1s told us
      that the FBI OGC and the NSLB will review the findings of the Inspection

!•    Division's revie~v of NSLs in the field and Head.qua1i:ers divisions to
      deterrn.ine if additional procedures or training would in-tprove cornpHance
      with this authority. (U)
I            The FBI OGC has mandated that all NSLB attorneys visiting field
      offices conduct NSL tratntng during their visits. Frrnn March 2007 through

I
I
I
I   .r•eb_ruary :,."'~>off·' ' J n:f t:·11e FBr
                         _8, 4;.:·          .· : .·s. ,Jb
                                                      17,
                                                      ''> .f1e_1ci o.f'•
                                                                      nces.. anc
                                                                              . . j at. least.· 3- ,04')     _' _ fie Id_
                                                                                                      , -:., rBI
     and l:leadquarters personnel involved in preparing and reviev;.ing NS:Ls
I    received live NSL training frmn NSLB attorneys. H:> \:Vhile sonw~ Headquarters
     units had alreadv received NSL trainin~ follov~1ng: the release Clf our flrst NSL
    report. 111.:mdato;y, training for personr;el in the Counterterroris1u,                                       -
I    Counterintelltgence, and Cyber Di.vistons \:Vas conducted tn eaxly May 2007.
    11ie NSLB and the Trairrtng Division developed an ontine virtual acadenry
I    course on NSLs Uiat \\till be required for a:U personnel tnvolvecl in drafting
     and approvi.ng NSL..,;; and \i.ill supplement Uve training. NSL traJning also
     has been provided to non-FBI agents serving on the d'T'J~Fs nat.i.on\:i..ride. (UJ
I            Ou August 21, 2007, the 'FBI stated in a \V1itten response to an OIG
    request frw i.nformatJon. that. all FBI en1ployees iuust. conrplete mandatory

I   training related to NSLs. According to the n1em.orandum. NSL training is
    offered to new profosstonal staff a.nd to all ne"v Special Agents, A mandatory
    2-hour block of instruction is provided during the 17th week of New Agent
I   Training. {U)

          iVlanagement: Meetings. SAC Conferences. and the Annual CDC
I   Conforenc:e: As noted above, the F'BI Deputy Director told us that NSLs
    were a major topic of discuss.ion at quarterly Strateg_y Performance Sessions
    he chaired via teleconference that \Vere attended by SACs from the FBJ's 56
I   Held ofllces, At the second quarter 2007 sessions, the Deputy Director
    discussed the findings from. the OIG's first NSL repmi: and the steps that the
    FBI has ta.ken to resolve the OJG recornrnendations and to im.plernent
I   procedures directed by the Attorney General {U)

          Also, SACs told us that NSL compliance ·was discussed at the annual
I   SAC conference held in October 2007, NSLB attorneys also provided a
    presentation on use ofNSLs at the CDC conference :in ,July 2007, which
    included an overv1e\.v of the findings tn the OIG's first NSL report a
I   discussion of each of the NSL statutes; an overview of the NSLB's guidance
    on standards and approvals for NSLs: and the required eletnents of the
    NSLs, rnodel NSLs. and approval E:Cs. NSLs also were discussed at squad
I   meetings \.Vithin field offices, and field oflke personnel told us that they
    received nurnerous e-rnails front F'EH OGC attonwys and CDCs providing
    guidance on NSLs. {U)
I            Office of Integrity and c:;mnpHance: /\s described ruore fully in Section
    nr of this chapter. the F'BI has created <:~ flC\V Office of Integrity and
I          w Atn::ndees at. tl:tt:'.Se training sessions induded Secreta.ries, Parafogals, InteHigowe
    Analysts, Lir1guists, Special l\gents, Supervisory Special Agents, Section and Unit Chids,
I   non-FBI Task Force Otlkers, Supervisory Resident Agents, Ass1stant Di\r.tsion Counsels and
    Chief Division Counsds, Assistant. Special Agent,.:;-, in Charge, SpeeiaJ .Agents ln Charge., FBI
    OGC att:orne_vs, and Deputy Assistant Directors. (U}

I
I                                                       ~
                                                            40
I
I   Compliance {OIC} that reports to the Deputy Director. The mission of the
    OIC is to develop a.nd oversee a progran1 that develops compliance
I   standards and training progn:uns; identifies cmnpliance risks in F'BI
    operations and rnakes sure that nec(:~ssary audits are per:fr)nned: and
    ensures that national securitv      investigations and other FBI activities are
I                                 .....        '·'
    conducted in a ntcun1er consistent vVith laws. regulations. and policies, The
    OIC is also required to deliver an annual repo1i on comp!Jance issues. 17 (l.J)

I          Enhancements to Infonnation 'fed1no1ogy: As des<::rLbed tn
    connection \Vith Recomn1endations Nos. 2 and 4, the new NSL data systern
    is designed to guide the user to rnore accurately m1d cumpletdy prepare
I   NSLs and route the NSL through the required levels of review. Upon
    coni_pletion of all approvals, the systern will generate approval ECs and NSLs
    for signature by field or Headquarters approvin.g of:ftctals, The new NSL data
I   systen1 also is progran1n1ed to preclude users from prepartng an NSL
    seeking a consu.rner full credit report tri a counterintelligence investtgat:ion
    that lacJrn an international terro:ris1n nexus. :F'or each type of NSL, the data
I   systexn generates a link to the text of the statute to in.fonn the requester
    what records are authorized to be requested. {U)

I          Additional Support for the FBI OGC; The FBI OGC has been
    assigned two ne,v Senior &"\:ecutive Ser\ri.ce positions \Vlthtn the NSLH, One

I   position \\i:ll head a new section overseeing operational aspects of national
    secnti.ty law while the other \\till head a National Secu1~Hy Law Training and
    Policy Section. 111e F'Bl told us that these positions wen~ illled .in February

I   2008. (U)

         FBI OGC ofikials told us that lhev are meeting                     with the NSD
                                                         ...... re.g'UJarlv
                                                         .,/       .....       ~      .....




I   and consul Ung with it on the de.veloprnent of new policy regarding NSLs to
    address issues identified in m.tr first NSL report. In addition, the NSD and
    the NSLB conducted 15 national secuiity reviews in 2007, \Vhieh included a.
I   review of th(>: use of NSL.:;. ~t11ese reviews were acc0111panied by NSL training
    if such training had not recently been given. (U)


I          OIG Ar~?}vsis: These initiatives a.re positive steps that will help the
    FBI ensttre NSLs are issued in accordar1ce with the requlrernents of national
    seculi:ty letter authmittes. The Comprehensive Guidance KC: cmnpikd in
I   one document NSL guidance and rner:noranda that had previoustv been
    lssued piecerneal over several years. T'hi.s guklanee also addressed several
    of the major findings in our first NSL report, clarified the NSL process, and
I   :resolved prior conflicting guidance. vVe frn1nd that the Cnmpn~hensive

             l l Deputy Director's Offi.ce, Federal Bureati of lnwstlgath)n, ('.kctronic


I   communication to Dtn:~ctor's CHlke, Finance IHvi.sion. and Inspection Df\rislon,
    ~Establishrm:-:nt of New FBJ HQ Divisinns; Din.~ctor's Ot1ke Cn.~atiou of the OffiCf..'. of integrity
    ancl Conlpliance, June 5, 2007. {U)

I
I
I
I   Guidance 1:1:c \Vas :favorably received by field personnel. who described lt
    during our interviews as "very con~prehensive," "very helpful." ''a very
I   wortlnvhile n:·source," and "thorough and well done... (U)

          The FBI has also identified additional opportunities mid 1nethods for
I   providing NSL training so an VBI personnel assigned to national seculity
    investigations v-ill be mvare of the contents of the guidance, including the
    requiren1ents of the statutes and the required steps in the NSL preparation
I   and approval process. OJ)

           By issuing the Con1prehensive Guidm1ce EC. providing additional
I   training on NSL procedures to field and Headquarters personnel, adding two
    senior level positions in the FBI OGC to oversee tega1 is.sues arising in
    national security investigations. participating in the NSD's national. security
I   revk\vs. and creating a new' NSL data system_, we believe that the J'-'BI's
    ability to co:nrply \\dth NSL autl101ities -..vm in1prove signifleantly, (U)

I   Recommendation No. 9 (ID

          Implement 1neasures to ensure that th.e FBI OGC is consulted
I   about activities undertaken by FBI Headquarters National Security
    Branch, including its operational support activities, that could
    generate requests for records from third parties that the FBI is
I   authorized to obtain exclusively though the use of its national security
    letter authorities. (U)

I           B±1£I~-grg_und:      In our first NSL report, we noted our concern about the
    abiUty of NSLB attorneys to obtain accurate and cornplete tn:fonnatlon about
    the FBI's use of NSL auth01ities. Our revieiv of the FBI's t1se of exii..1'ent
I   letters used by the CAU and "certiflcate letters" used by the Terro1ist
    Financing Operations Section {TFOS} detennined that FBI OGC attorneys
                                                                           e:>




I   \Vere not consulted in advance about tools used by Headqua1ters C'J])
    units.ls For exarnple. \V-e determined that NSLB attorneys responsible for
    providing gu.ldance cm the FBI's use of NSL authortti.es were unmvare of the
I   CAU's practice of using exigent letters unttl late 2004, although CAU
    personnel. had been using these letters as early as 2003. (U}

I         \Ve also detenntned that the TFOS issu.ed at least 19 certillcate letters
    to a Federal Reserve Bank seeking financial records concern.tng 244 nm11ed
    individuals instea_d o:f issuing NSLs pursuant to the Right to Financial
I            is   Tht.~se
                    certificate letters \Vere us,ed instead of issuing NSL<;> pursum1t to the Right
                                                   c~1niained eertifltations that there were
    to f'inGncicd PrttJacy .Act (RFPA). ·11:1e kttt:-.rs
I   ~spedfic and artkulabk facts giving reason to believe that the customer or entity whose
    records are sought is a fon:~ign po'\Ner or an agent of a foreign power as defined in 50 U.S.C,
    § lSOL" {U)

I
I                                                   ~-
                                                    ~
I
I   Priucwy Act (HFPAJ, \Ve also found that the TFOS continued to issue
    ce1iifl.cate letters despite an Aug,~st. 2004 restiiction on this type of request
I   by the FBI Assistant General CounseL As a matter of policy, the Federal
    Reserve Bank requires that the F'Bl ]ssue HFPA_ NSLs to obtain its records.
    Accordingly, Federal Resenre atton1eys later stated that the Federal Reserv·<:~
I   Bank shnuld not have provided the bank records in response to the
    certifleate letters because they were not duly authorized RFPA NSLs. (U)

I            rn our first NSL report, \Ve also found that FBI Headquarters
    personnel regularly issued NSLs seeking electronic eormnunJcation

I   transactional records exclusively from_ "control files" rather than from
    invest},gative files. a practice not pennitted by F'Bl policy. This practice
    prevents a reviev.rir:ig or approving authority from ch~tennining whether the

I   N$Ls were issued in the course of authorized investigations or whether the
    infonnation sought. in the NSI""'s 'Nas n~levant to those investigations.
    Documentation of this infommiion is necessary to establish con1pliance with
I   NSL statuh~S; the Attorney G-enerars NSI Guidelines; and internal FBI
    po:ti cy. (UJ


I          Accordingly, to ensure that F'Bl OG-C attorneys are consulted about
    acti\1ttes undertaken. by the NSB, \Ve recommended that the FBI implement
    n1easures to promote timely consultation about the NSB's activ:tties,
I   including its operational support. activities, {U)

           FBI Actions Taken to Address the Ree01un1endation: The FBI OGC
I   n1andated in t\prtl 2007 that NSLB ntton1eys involved in national security
    law tnatters regularly attend operational n1eeUngs to provide legal advJce
    and oversight. Attorneys in the two NSLB units that provide legal advice to
I   e:ounterterrorisn1 operations regularly attend rneetings of the CAU; the
    Electronic Surveillance Operations and Shaiing Unit. and the
    Corru:nunication Exploitation Section at Headquarters. The NSLB nttorneys
I   that provide legal advice to counterintelligence operations now also regularly
    attend operational n1eet1ngs to play a nmre active leg~u role. AdcUttonaJJy,
    NSLB Unit Chiefs regularly attend operational meetings and have daily
I   contact with their units to provide legal advice, to spot kg'<-1-l issues, and to
    provide guidance and oversight on n.ationaJ security matters, lnducling
    NS Ls. The NSLB has also assigned an N$LB attorney to each of two large
I   fleld offices. New ·~{ork and Los Angeles, to suppmi: the national security law
    progrmn in those oftkcs. {U)

I         NSLB attorneys also have provided new NSL training to operational
    units Jn the C'TD and the Coun:teiintelligence Dtvi.s-ion. The FBI OGC has
    posted an NSL training presentation on the NSLB's websH:e and has posted
I   online a virtual acaderny training course. (U)


I
I                                      4S
                                       ~
I
I        The Comprehensive (}uidance EC 111andat:es that all NSLs and NSL
    approval ECs issued by Headquarters components be reviewed and
I   approved by NSLB attorneys., Prior to this n1c:mdate, Headquarters oillcials
    authorized to sign NSLs were encouraged but not required to consult \vith
    the NSLB. (UJ
I         OIC~ __fqJ;tlvsi~.: '111e OIG believes that the requirement that all
    Headquarters-issued NSLs be reviewed by NSLB atton1eys, the attendance
I   of NSLB attorneys at meetings of the CTD and the Counterintelligence
    Division sections to \Vhich. they are assigned, and mandatory attendarice by
    NSLB attorn.eys at certain CTD operational n1eet:ings shoul.d help identify
I   use of new intelligence tools or unconventional requests that. rnay irnplicate
    NSL a.uthorittes or other intelligence techniques. In addition. tnandato1y
    quarterly training of perso:nnel frorn the specified CTD units should help to
I   ensure that ·F'BI OGC attornevs are consulted about the C:CD's activities. (U}
                                        ~                                              .




            However, \Ve believe the FBI should also have NSLB attorneys
I   similarly participate in operational meetings of other units in the CTD and
    the Countelintelli~ence Division in. addition to the units that already have
                             '~                                             ~

    been associated \Ylth irnproper use of NSLs. By participating in these
I   operational meettngs, it is xnore Ukely that the FBI OGC will be in a positlo:n
    to identi:(y and address requ.ests for infonm1tion that may be inconsistent
    \\tith the ftBfs obligations under the NSL statutes, applicable Attorney
I   General Guidel:!nes. and internal policies governing the use of NSLs. {U}

    Recommendation No. 10 (ID
I        Ensure that Chief Division Counsel and Assistant Division
    Counsel provide close and independent review of requests to issue
I   national security letters. (U)

            Background: In our first NSL report, we .ident.i.fled ctrclunstances .in
I   \Vhich sorne CDCs and i\ssistant Division Counsels (ADC} were rd11ctm1t to
    provide an unbiased, independent legal review ofNSL.s for fr.~;:u-- of
    <..u1tagonizing or second-guessing their supervisors, the Speeial Agents iI1
I   Charge. \\rho had already approved the underlying investigatio.nv \Vhtle
    reco£tnizing that review of NSLs is onlv one of rmmv issues on \Vhich CDcs·
        1,,,:_.      "-··                       ...         .N


    independent legal advice is critical. we reconunended tliat the FBI consider
I   rneasures to ensure that CDCs and 1\.DCs provide thorough and
    i11dependent oversight of NSL requests_ OJ)

I                 FBI Actions Taken to Address the Re<:<muneJ1dation: The
    Cornprehensive Guidance EC mandates that CDCs a.n.d ADCs provide

I   independent. legaJ revie-w ofNSLs. 111e EC stated that the CDCs; and .ADCs'
    legal reviews c:u~e separate from and independent of the investigative reviews


I
I
I
I   conducted by SACs or Headquaiiers approvtng authoritles, The guJdance
    stated that a legal review should consider whether; (0)

             •   the iniorrnation sought in the NSLis rdevant to an authorized
                 nati.onal security tnvesUgatton (an investigalton to protect
                 against inten1ational terrorism or clandestine intelligence
                 activities); (U)

I            •   there is an open and autholized :WBI pre!Jminary or full
                 investigati.on frnxn which the NSL is being issued~ and {U)
                 there is suflident predication fc1r the underlying investigation
I            •
                 and that predication is sufflciently detailed in the approvaJ
                 EC, (Ul

I          The guidance also stated that if the CDCs, ADCs, or NSLB attorneys
    determine that legal sufficiency does not e,,~isL. they n1us.t return the NSL
                      ~            ~                     ~




I   document to the requesting employee for revision. Similarly, if the attorney
    detennines that less intnisive rnea.ns nf obtaining the infonnation are
    feasible, the NSL \Vi.I:! not be approved. {U)

I          On March 15, 2007, the FBI General Counsel held a conference call
    with al1 CDCs and on March ;50, 2007, sent an e-rna:il to all CDCs and ADCs
I   reminding them of the ne.ed to provide indc~pendent legal revtev,r of NSLs.
    TI1e FBI Director stressed at a eonforence of all SACs the lm.portance o:f
    C DCs i)l·ovidlng tndependent legal advice and stressing the role of the head

I   of the ofike .in creating an environment that would foster such advice. The
    Deputy Director said that at the Octob(~r 2007 SAC co.nference and during
    quarterly Strategy Performance Sessions, he also informed S.ACs o:f the need
I   for the:m to recognize the Jm:lepe11dence of the CDCs and .ADCs. NSL
    training also einphasizes the requlrernent that legal review be conducted by
    CDCs, ADCs, or NSLB attorneys. (U)
I          The FBI General Counsel and the :FBI's senior leadership are st.ff!
    considering 110\~t to address the issues identified in our tlrst NSL report
I   ar.islng frm.11 the current reporting cha.in for CDCs. \Vh.ile CDCs continue to
    report to field division SACs. U1e General Counsel to.Id us that she ls
    conside1in..~ w·hether the CDCs are assigned an unreasonable level of
I   collateral. duties that distract the111 frotn focusing on their legal duties. If
    she concludes this is the case, she vvill discuss the n1atter wtt:h the SACs.
    As we noted in our frrst NSL report. this Issue involves difficult institutinnal
I   questions beyond the issttc of compliance \vi.th NSL authorities. {U)

          OIG Analysis: '111e actions t.alcen by the FBI reinforced that CDCs and
I   ADCs shou:Jd provi.de independent legal reviev•.r of requests to issue NSl..s.
    The Deputy Director of the FBI and the Assistant Director of the CTD both
    told us that they believe CDCs exerc:l.se independent judgment in evaluating
I
I                                      ~
                                           45
I
I   NSLs and could not identity any circumstances in which they had not done
    so. 'The Deputy Director stated that it is in the best interest of the SACs to
I   have the CDCs' best. candid advice - even if such advice is not '.vhat Sl\.Cs.
    \Vant to hear. He said he has discussed this issue \Vi.th SACs during his
    quarterly n1eettngs with thern. (U)
I          Hmvever. further action in response to this recouunendation is still
    being considered by the FBI. We believe H: ts important for the BTH to
I   resolve the factors \·veighing for a.nd against nmdtfication of the CDCs'
    repmting chain v.rithin the F'BL :Review of NSLs is only one of the nKmy
    overs.lght functions exercist:d by CDCs, and the FEn needs the CDCs'
I   independent judgment in ensuring that field agents and supervisors
    scrupulous~)'' observe statutory authorities; .Atton1ey General's Guidelines,
    and FBI polictes governing national security investigations and other
I   authorities, (U)

    Recommendation No. 11 (U)
I         .Provide guidance and training to Special Agents, Chief Division
    Counsel; and all FBl officials authorized to sign NSLs on the meaning
I   and application of the Attorney General's Guidelines· proviso calling
    for use of the "least intrusive collection techniques feasible., to the
    FBrs use of national security letter authorities. {U)
I         Backg:round: 111e Attorney General's NSl (H.lideUnes provide that: (U)

I         Choice of lVlethods. 'The cc.mduct of investigations and other
          activittes authorized by these Guidelines may present choices
          betwee.n the use of information collection rnethods that are
I         rnore or less Intrusive. considering such factors as t11e effect on
          the privacy ofindiv:idua.ls and potential dama.ge to reputation.
          As Executive Order 12333 § 2.4 provides, "the least tntrnsive
I         collection techniques f<:~asibk" are to be used in such
          situations. 111e FBI shall not hesitate to use anv lawful
          .                      -    -   -    --   .   -·   -   --   .1


          techniques consistent \Vith these Guidelines, even if intrusive,
I         \Vhere the degree of intrusiveness ls ·w:arra.nt:ed in light of the
          seriousness of a threat to the national security or the
I         strength of thf: infonnatio.n indicating its existence. This point
          is to be particularly observed in investigations relating to
          terrorisrn. t ~) {U)
I        \1'.le :found that the FBI had not provided clear gu.idance describing
    how case a,,_£.>,ents and supervisors shouJd appJy the Attorney General
I         rn NS.I Guidelim:s. § l{H}(2}, (Ul

I
                                               46
I                                              ~
I
I   Guidelines' requirement to use the '"'least intrusive techniques feasible"
    when deciding hmv to use and sequence NSLs, \Vllik: we recognized that
I   there cannot be one rnodel regarding the use of NSLs in au types of national
    security investigations. and that the .F'Bl cannot issue definitive guidance
    addressing when and what types o{ NSLs should Ix~ issued at each st.age of
I   investigations. we recon1111ended that the FBl provide guidance and train.tng
    on the use and sequencing of NSLs. In providing such gutdance and

I   training, the FBI could highlight and reconcile the .important privacy
    considerations that underlie the Attorney General Guidelinei:/ proviso \Vith
    the FBI's rnission to detect and deter terrorist attacks and espionage
I   threats. (U)

           E13I ~~~~t!9I!§]~'!!ifIL!ELt\QQitl§tLt!1fJkh:m11meggat1on: The
I   Con1prehe:nsive Guidance EC requires that as pati: of their independent legal
    reviews of NSLs for legal sufi1ciency, CDCs, ADCs, or NSLB atton1eys must
    not approve an NSL if a Jess intrusive n1eans of obtaining the infon:natlon is
I   feasible. (U)

           On December 20, 2007. the FBI OGC issued guida.nce to all divisions
I   titled Least Intru.sive Techniques in NationaJ Seculi:ly and CliminaJ
    Investigations that f1.uiher addressed this recorrnnendation. The FBI
    General Counsel told us that a draft of this guidance h.ad JTreviously been
I   provided to civil liberties groups for conunenL (UJ

          OlG .Analvsts: By providing g·utdance on applJcaUon of the Attorney
I   General Guidelines' proviso on the review of NSLs in its C0111prehensive
    Guidance EC, and by  . issuing·~ the Decernber 20, 2007. g·utdance on Least
    Intrusive Techn]ques in National Security and Crirninal Investtgations, the
I   FBI has taken significant steps t(.n,.vard addressing this reco111n1endation.
    However, because the guidance indudes many factors to co.nsider when
    deciding when and how to employ a particular technique, the FBI also needs
I   to provide tratntng on the practical appltcatton of this guidance for a.gents
    and supervisors. (U)

I
           Based on ou.r analysis of the steps that the FBI has taken, as \i.rell as
I   our interviews with FBI leadership, Held ma:nagers, and personnel involved
    in the NSL process, we believe that the FBI has rnade significant progress :in
    addressing the serious problems and defi.ciencies identtfi.ed by the OlG in
I   our first NSL report. The FBI's executive leadership, inducting the D.irector.
    Deputy Director, and General Counsel. have e.x'Pressed their eon1rnitment to
    ensn1ing that Headquarters and field managers, supervisors, agents,
I   analysts. and support staff understand the seli.ousness of the FBI's
    s.hortcornings in its use of NSLs, the proper use of NSLs, and each of their
    responsibilities for correcting the defkiencies. 'The D<::pnty Dil:ector and the
I
I
I
I   General Counsel continue to emphasi.Ze and discuss critical NSL topics at.
    meetings and conferences of executive managers and CDCs. (LT)
I          Since our first NSL report was provided to the F'Bl, the FBI has issued
    approx.imately nine NSL policies and sent numerous other B.:Cs to the field
I   and lieadqt.mrters divisions providing guidance on topics that: include
    proper usage of NSLs and statutory m1d procedural authorizations and
    restrictions; prohibition on the use of exigent letters; review and redaction of
I   NSL~respor1sive information; the requiren1ent for sufficient and independent
    supervisory and legal reviei.vs; and identification of and procedures for
    submitting possible intelligence violations. The FBI also has developed a
I   w:\v NSL data system with model NSL,.; and approval ECs that are required
    to be used when issuing and revie"\:ving NSI"""~· These n1ea.sures should

I   eliminate or reduce the types of typographical errors found in the past To
    reinforce the new policies and guidelines, FBI OGC attorneys provided NSL
    training to 45 F'Bl field offices and at least. a,042 field and Headqna.rters

I   personnel involved in preparing and reviewing NSLs frorn fvlarch through
    Februarv 2008. An online virtual acade:mv course on NSLs has also been
            ~                                       y


    developed and \:1.rtll be mandatmy for all personnel involved in drafting and
I   approving NSLs. (U)

          Beyond responding to the OIG's specific recomn1endations, the FBI
I   has conducted three field revie\vs on NSL usage to make an independent
    assessn1ent of the seriousness of the problen1 and to determ.i.ne w•hat
    additional measures \Vere needed. (These revie\\rs are n1ore fully discussed
I   in Cb.apter "11iree of this n::pnrt.} (U)

          Hm..vever. several actions that are necessary to folly satisl'\r
                                                           ~       ~    - our
I   recornmendations are stm under developrnent or are in need of additional
    work by the FBI or the Department. Specifically, the FBI needs to continue
    to work on; (U}
I               •   providing periodic training to all 56 fi.eld ofllces for those
                    involved in the NSL process. This mandatory training needs to
I                   continue tndefinitelv to address the constant rotation of staff
                    into positions that involve NSL-related work; (U)

I               •   meeting and 1..vorking wtth the Chief Plivacy a:nd Civil Liberties
                    Officer's NSL \V'o.rking Group to give additional consideration to
                    label or tag NSL··de1ived infonnation and to identifv whe.n. and
                              ~                                           J




I                   how often this infonnation is used in a.nalyttcal int.elUgence
                    products and provided to law enforcernent. authorities for use in
                    criJntna1 proceedtngs; {U)
I               •   fully addressing the cutTent reporting chaJn for CDCs; and (U)
                •   providing training on "'least intrusive collect.ton techniques" In
I                   national secutity and c1i:minal invest.igati.ons" to the Held.. (U)


I                                         ~
                                              48
I
I             "\Ve believe it is too soon to conclude whether the new guidance,
    training. and systerns put in place by the FBI in response to our first NSL

I   report \Vill fully elilninate the problerns \Vith the use of NSLs that we
    identifled and that the FBI confirmed tn its o\vn reviews, At the san1e time.
    \Ve be.!leve that the FBI has rnade signtncar1t progress in addressing these
I   issu.es and that the VBI's senior leadership is con1mitted to addressing
    rnisuse of NSLs, Hmvever, to ensure that adherence to NSL authorities
    ren1ains permanently embedded in FBI culture and practice, the FBI - and
I   the Departn1ent ~-must be ag:._$'es.sive and \rlgilant in n10nito.ring compliance
    ·\\rJ.th NSL authorities by rein:fordng the ru.les governing the use of NSL-s,
    i1nplernenttng a sustained process for Hdd and Headquarters vcriflcation
I   that NSLs are being handled properly, and ensurh1g that any violations are
    identilkd and reported in a ttn1ely n1run1er. (U)

I   Ill.     Other Corrective Measures Implemented by the FBI and Other
             Department Co.mponents (U)
I               In this section \Ve describe additional oversight rneasures
    i111plemenh':d in 2007 by the FBI. the NSD. and the Oftlce of the Deputy
I   Attorney       ,,.. General rdattng   .... to the use. of nationa:t securitv
    tlle FBI's establishrnent of a riew· Ofllce of Integrity and Compliance (OIC)
                                                                                        .      ... letters. \1i/e desc1ibe


    and the NSD's ne.vJ compliance revie'\vs, ten11ed natio.nnl secu1i.ty revie\vs,
I   which review cornpliance vvi:th NSL authorities and other intelligence
    techniques used by the FBI in national security investigations, In addition,
    \Ve exarnine an August 2007 proposal to the Attorney General by the

I   Departrnent's Chief Privacy a.nd Civil Liberties Officer that addresses ho-\v
           ·i:~g.1
    tl. Te .1:. J      uses anc1 rei~a.1.ns
                                    ) . · N··s·1·
                                               •'~- . _.,. d.envec . l~on:na t'Jon. c·r"-··l)·
                                                               . l uJ:


I            A.       The FBrs Office of Integrity and Compliance (U)

           On Ju\v 13, 2007. the FBI ~u1nou:nced creation of the orc. 20 The FBI
I   Director stated that. the enc \V3S established to ensure that national
    st~curity i.nvesti.gatkms and other FBI acttvi.i:ies are conducted in a nw.nner
    consistent with appropriate laws, regulations, and policies. According to the
I   FBI's description of the ore, its mission l.s "to develop, i.rnplerne:nt. and
    oversee a prograrn that ensure:S there are processes and procedures in place
    that protnote FBI ccnnpUance -v;rith both the letter and sp.irit of all a.ppl.lcabl.e
I   laws, regulations, and policies. "21 The OIC is charged \\-~l:th developing

           :?.(• Letter from the Attorney Genernl and FBI Director to HJchard B. Cheney,

I   President oJthe Senate. July 13, 2007. (U}
           n Dt~puty Dtredor's OfJice, Federal Bureau. of .Tnvestig'ah<m, electronic

I   communic<:ttion to Din:'.d.or's Office, Fina.nee Division, and Inspection Divisionv
    Establishment t:if Ne.v FBI H9 Divfaions: Director's Offke Cn.~ation of U1e Officf~ of Integrity
    and Compliance, June 5, 2007. flJ}


I
                                                             49
I                                                    ~
I
I   compliance standards, training progra.ms, and risk assessments; ensuring
    that necessaty audits are perfom1ed; and delivering an annual report on
I   con1plianc.e issues. (U)

                 l.    Organization Structure and Operations {U)
I           Under the organization plan, the Head of the OIC reports to the .FBI's
    Deputy Director. Organizationally, the Integrity and Cornpliance Prognun
I   consists of a steering cm1unit.tee (the "FBI Integlity and Cornpliance
    Cm.lncH") that is chaired by the FBI Director mLd includes as nLen1hers the
    Deputy Director; the i\s.sociate Deputy Director; the Executtve Ass.tstant
I   Director (EGAD) of the National Security Branch; the EAD of the CrilninaL
    Cyber, Response, and Services Branch; the .EAD of the Science and
    'Technology Bn.u1ch; the EJ\D uf the Htunan H.esources Branch; the Chief
I   Infonnation Officer: the Head of the OIC; the FBI's Chief Financial. Officer;
    and the General Counsel. '-:!'he Council is supported. by the Executive
     Management Con1n:Uttees that are responsible kff identif~ring cornpltance
I    risks in five different fnnctJona1 an:~as of the FBI's operations: the National
     Seeu1ity Branch, crirninal investigations, investigative support,
     adrninistraUon, a.nd information. teehnotog_y. (U}
I          B:ach l~:xecutive Managen1ent Committee is chaired by the EAD
    responsible for the functional ~ITea a:nd includes as rnernbets the Assistant.
I   Director frorn the funcUonal area; a Deputy (}eneral Counsel from. the FBl
    OClC~ representatives frorn the OIC~ and other rnen1bers as the chair 11.nds
    necessary. The Executive :rv1anagm.nent Co.mmittees are requlred to meet at
I   least four ti.mes a year to analyze the nature of the compliance 1i.sks facing
    their functional areas; identify specific risk areas; and assess and establish
    policies, procedures, and training to mitigate those lisks. "\Vithin 2 days of
I   m1 Executive Management. Conun.ittee meeting, the con1rnittee c;hair is
    required to a.ssess and rank the cmnpliance risks. designate a "risk o'l..vner,"
    and docun1ent the results \Vith the OIC. The lisk 0\\-"'ner is responsible for
I   further assessing the lisk; determining whet.her corrective actions are
    wan-anted, and developtng mitigation plans. {U)

I         To conduct the tisk assessr:nents. the 1nost significant lisles identified
    bythe Executive Management: Co111m.ittees are to be subjected to a detailed
    analysis by a co.mpliance dsk assessment team (caUed a Hed Tean1) created
I   by the risk O\\'l1er with the assistance of the OIC. The Red ']'emus are staffr~d
    With a repr'(:':Sentative frm:n the OIC., two sul:1ect matter e:&JJerts from the

I   organization having priin<.ny responsibility for the risk area, arid a
    representative from the FBI OGC. 'fhe Red Temns v.,111 revi.ew the lm"-', E·~BI
    poUcies, traintng. and monitming requirements related to the issue. The
I   Red Teains were directed to produce \Vithin 60 days of receiving the tasking
    a repmt analyzing the 1isks and developing a ii.sk mitJgatton plan. ~IJ1ose
    reports \Vill be provided to the risk. O\\'l.1er and the peli:inent J:>:x.ecutive
I
                                           50
I                                     ~
I
I   Management Com1nittee chair for revtew and hnplernentation of nwasures to
    m.iti1;a.te the lisks. In addition to reports of individual risks, the FBI
I   planned to .requin~. the OIC to pn::pare a consolldakd annual report on
    cornpliance risks thrnughout the FBL In February 200B, the :FBI informed
    us that it had decided to eliminate the requirements that H.ed 'I'eaJns develop
I   risk rnitigatJon plans {hut cl.id not elinrinate the risk assessrnent report) and
    tliat the Executive Management Corn.nlittees prep~u~e a consolidated annual
    report on cornpliance risks tlu·oughout the FBL In addition. the fB1 stated
I   tl1at the Executive Mm1agement Cornnlit:tees are to provi.de an annual report
    on "the state of the Integrity and Cmnplian:ce prognm1." Although it is not

I   dear t11at the revised annual report will include a consolidated assessment
    of compliance 1isks, \Ve believe that: such a consnlidated a.ssessn1ent listing
    all identified risks will be valuable t.o the FBI a.nd the Attorney GeneraL (U)
I           F'Bl officials told the OIG that they also plan to divide personnel
    assigned to the OIC into t\vo units; the Co:mpliance Operations Unit. and the

I   Cun:tpH.ance Policy 2111d Analysts Unit. According to the FBI. the Con1pliance
    Ope.rations Unit v.rUl suppo1i: itnplen1entation of co.mpliance policy and
    standards v..1thin fi~BI div:lsions, including analyzing operations m1d legal
I   requtrem:e~nts; 1dentif)-""'ing spectfle compliance lisk areas; priorittzing the
    risks; and establishing policies, procedures. and training to ensure
    cornpliance, The OIC's Cornpliance Policy a11d Analysts Unit \vUl establish
I   compliance policy, including a inethodology fo:r assessing 1i.sk (described
    belmvL cornpliant~e standards, and n1onit01ing and auditing procedures.
    The Compliance Policy and .t:\nalysis Unit also ,vm develop and provitk~
I   tra.i.ning and rnonJtor the overall con1plian.ce prograrn. {U}

           The OIC is designed to be independent fro.m. but expected to work
I   closely \Yith, the FEWs Inspection Division to identii'~{ high-risk areas. TI1e
    Head. of the OIC said that the Inspection Division would include monitoring
    of klentified c01npUa:nce risks (which \.Vill be incmvorated into the Inspection
I   Division's inspection protocols) in its :inspections of Headquarters and field
    divisions. AccordJng to OIC documents, the Inspection Dlvi.sion is expected
    to provide the OIC with inspection data gathered dmi.ng its :iJlSfledlons to
I   support the orc·s con1pUanee monitoring and \.Vl.U conduct audits as needed
    to support the compUance oversight prograrn. {U}

I           1\E of January 2008, th.e Attorney General and the Office of
    l\lla.nagem.ent and Budget had approved. the establishment of the OIC,
    Congressional. cornmii:tees we.re notified on Novernber 21, 2007. According
I   to the Head of the OIC, the FBI's Cor_porate Resource Planning Board (\:vhtch
    approves the estabHsh .ment of positions) and the FBI's Position Review
    Board {\vhieh detennines \Vhether positions are staffed \Vith Special .Agents
I   or support staft) authoriZed 12 positions for the OIC. including; a Senior


I
I                                          51
 I
 I   Kxecutive Service position, l Secreta1y. l Special Agent {on a.
     deta.H/rotation}, 5 Attorn.eys, and 4 M;;magernent and Progran1 Analysts,22
 I   In addition, two attorneys fi~orn the .FBI's Ofilce of General Counsel were
     later transfened to the OIC, along with the ethtcs/standards of conduct
     function that they support As of Febn1m.y 2008. the OIC had 12 personnel
 I   on board. The FBl told us that the Ole:. will re-evaluate its stamng and
     organizational stn1<.ture as the prognun continues to rnature. i\.s of

 I   ,Jannary 2008, each of the five Executive Managen1ent Cornrnitt.ees had met
     three times. and Red Temns were conducting reviews to analyze the top
     complim1ce dsks in each of the five h1nctional areas. (U)

I                    2.      Risk Assessment Process (U)
             The procedures describing the OIC's operations \Vere stiU in
I    developtnent during the OlG's rc\1]e\v, However, the :Head of the OlC
     provided tnf(innation to the OIG on the assess111ent tool that the Executive

I    Man~en1e,nt Committees intended to use to assess and rmik identtHed
     risks. "· The assessment tool allows the Executive Management Co111mittees
     to asslgn a nun1erical value to inten1a1 and external factors associated \\ith
I    each risk. including such considerations as the complexity of the progran1
     or activity, environmental factors (such as whether the prograrn is a. n.e\v
     activity or involves new tedu1ology). workforce factors (such as whether
I    training related to the acttvlty is avallable}, and potential privacy and civil
     liberty irrrpacts, The tool also includes "weighting" :factors. such as the
     frequency and potentia.l magnitttde of a.ny potentia.l harrn associated with
I    the iiskJS Using the numerical values assigned to all the fhctors, the
     assessment tool calculates an overall score that enables the Executive
     Managen1ent Comn1ittees to rank the risks, The chair of each conrrnittee
I    provides independent judgment regarding the recommended rankings and
     approves the ordering of the potential risks, 'Ihe: cormnittee Chairs are to
     prnvide the FBI Deputy Director and the OJC \:vi.th their cornrnitt.ee's
I    assessm.ent of the five highest-ra.nked risks, The FBI Director, as chair of
     the fi'BJ Integrity and Cornpliance Council. is responsible for determining
     whether the lisk ldentifi.cation and rankin).1;s are "sound." (U)
I          l\fter the 111ost itt1portant risks have been identifled. H.ed Tearns \Vilt
     use an ore-developed draft compliance checklist to guide their revie..vs, In
I           ;~:;i Initially, the OfC \.Vas. a.uthnrb;<~d to have hvo Special Agent posit.i.<ms, but one of
     the positions ;.\~as subsequently c\"nwerted to a support position, (U)
I            23  NSLs •.viU not be sul~jected tn the risk assessment process. The Head nf the OIC
     told the OrG Uiat the OIC dsk idenUfkatlon process '-'<rill not be used tu asses~~ tis.ks
     assocjatt::d w1th NSLs because the revietv$ conducted by the OlG in 2006 and 2007 and by
I    the FBI Inspection Division in 2007 uln:ar;tv identified those nstrn and corrective achons
     (induding updating policy and guidance and providing training} are being ta.ken in
     response to those reviews, It!)

I
I                                               ~
                                                      52
I.
I    additton. the ore developed a c0111p1iance risk assessment report fonnat for
     cmnpiling the Red TeanJS' findings that addresses specific elernents telated
I    to the risk. The risk assessn1ent report format includes: {U)

              •   a surnn1ary of the risk; (U}
I             •   a review of the legal authorities relevant to the operations being
                  reviewed; (U)
I             •   an assessment of the inten1al policies., procedures. and cost
                  controls i:n place; (U)

I             •   an assess.rnent of the trainlng prm.rided related to the ai:"'risk
                  activity; (U)
              •   a listing and assessment of the existing data that n1anagement
I                 has avaJlable to identH~,r or assess potential cornpltance faHures
                  related to the risk; (U)

I             •   a discussion of potential courpliance fr.tilures that already have
                  been ldentit1ed; and (U)

I             •   a bri.ef assessment of potential correctt1,re actions identified by
                  the Red Temn to mneliorate the risk under review. (U)


I           As noted above, the Red 1'ean1s' reports should he provided to the risk
     m~.rner and the respunsible Executive Manage111ent Cornrnittce v..ithin 60
     days after the initial Red Teatn .meeting. The risk owner is then e:rq1ected to

I    develop and implernent a rnitigaUon plan for a1neliorating the complian.ce
     risks, {U)


I                 3.    OIG Analysis (U)

            \Vhik the OIC is n1 U1e developrnental stages m1d its procedures and

I    expected outcon1es are not yet fully defined, we beUeve ti: can be a valuable
     tool for the FHL .As planned. the OIC c:u1 provide the FBI \Vith a structured
     process 1()1~ identUytn.g cm.npliance require111ents and ii.sks, assessing
I    existing control mechanis:ms, and developing and trnplen:1enting better
     controls to ensu.re compltance \:Vith law. regulations. and polieies, Senior
     FBI m.anagement, including the FBI Dired<ff. told us that they are
I    cornrnitted to supporting the successful t1nplementation of the cornpliance
     prograrn. (0)

I            However, we believe that the O:!C faces signi.ficant challenges in
     foUlllin,g its mission. One challenge for an tnternal con1pliance program ...
     parUcuhu·l:y one staffed \V.i.th technical e;q1e1i.s frmn the program or office
I    under review - is to identif~t unknovv'11 or emerging ti.sks. Consequently.
     such a con1pliance prqgrnJn may unduly :focus on risks that are already
     kI10¥ln and are already being addressed. However, the Head of the OIC told

I
I                                        ~
                                             53
I
I   the OIG that the FBI is atternpting to meet this challenge by involving
    tndi\.1duals at all levels of the progn1m or office in the risk ident11katio.n

I   pTocess, Additionally, the F'Bl stated that the OIC staff. tlu'ough lnterna:t
    and e>.dernal contacts and reviews. provides advice to the Executive
    Managem.ent Cornn1ittees on i.nforrnation it develops concerning possible
I   cornplim1ce concerns. {U)

           vVe also note that a coxnpliance oversight process in which the subject

I   program. or office that "owns'' a set o:f Me:ntifi.ed con1pliru1ce 1isks also rates
    the seve1it:y of the 1isks n:my introduce a tendency or bias tnv,:rard focusing
    on 1isks or acHvities n10st in1portant to the iisk mvner. These activities may
I   be different from those risk-sensitive activities vie\\-~ed as t11ost stgnitlcm1t by
    an independent entity condudJng a cornpliance revie\~.r. \Vhile the OIG
    recognizes that the Executive 1\.tanageinent Comn1i.ttees that identify and
I   prioritize dsks include rnernbers from the FBI OGC and FBI executive
    managernent \Vho are e::sq1ected to provide o~jective co.mpliance expertise fas
    opposed to operational or technical e.xvertise) . the final determination of
I   ho\v risks are ranked lies with the .,rtsk owrrmg" ofllce. According to the
    FBI, having the owning office rank the risks \Vill provide ..bu.y in" on the
    need to address the iisk. H.mvever, we believe that objective ranking of risks
I   for further assessment and remediation ts a critical cornponent of a
    successful compliance prognu:n. Consequently, although the rankings are
    reviewed by the Director and Deputy Dtrector, we believe that the FBI n1ust
I   bt• vigilant to ensure that the nu1king of .risks by the risk owners is
    objective. {U}

I            In addJUon, \Ve note that the OIC currently ha.s a.n authorized
    pen.nanent staffing level of only 14 posWons and \\rill depend on FB:I
    personnel in other offices to eany out tnany functions critical to the success
I   of the new compliance progra.111.24 As presently envisioned, the. OIC appears
    to serve as a coordinator rather than an entity \Vith sufilcient independent
    resources and a capability to ldentH}r and assess compUance Jisks. For
I   exmnple, as desc1ibed above~ the Red Teams responsible for conducting the
    ck:tailed risk assessments are composed primarily of personnel from the
    1i.sk.. owning office and the F'BI OGC, tvhile the OIC's role is to facilitate the
I   assessment process and n-:.ceive the results for the Executive !Vlanagernent
    Conunittees. According to the FBl, this stnu::ture is modeled on corporate

I   practices. Sirnikrrly, to conduct cmnpliasice monitoring, the OIC will rely on
    Inspection Division personnel to conduct the monitoring or inspections.
    However, we believe this ca::n place FBI agents in a difficult position when
I   they are on~y ten1porarily ass~gi1ect the responsibility to inspect and
    potentially e.dticize the actions of r'T3I colleagues and units since after their

I          '.H The number of permanently assigned OIC staff ts much lm.ver th:a.n the number of
    ernployees in the Inspection Dlvl.s:ion, \.Vhieh cu:n~ently is assigned 30 employees. (U)


I
I
I
I   .rotation in the Inspection D.i\1ston, they ott:en return to w'ork alongside the
    FBI en1ployees and supervisors whose actions they reviewed du.ring their
I   rotation. Accordingly, to make the d:ifficuU:judgment cans regarding
    weaknesses anti compliance problems that will ali.se in the course of the
    OIC's work. \Ve believe that the FBI should consider providing the OIC \Vith
I   a substmrtial permanent staillng level so that tt can develop the skills,
    knowledge. and independence to lead or directly carry out the crltJcaI
    elernents of a new cmnpUa.nce prograrn. (U}
I          B.         National Security Division (U)

I           In September 2006 the Department established the National Security
    Division (NSD) to consolidate the supervision of the Deparbnc:nt's pri.maxy
    national security elements v.rithin a single dhision, The NSD \Vas created by
I   cornbining the Office of Intelligence Policy and Revie\v (OIPR) and the
    Counterterrorism and Counterespionag<:~ Sections that were formerly part. of
    the Crtnlina1 Division. In July 2007 the Departinen:t announced that it
I   would reorg'anize the NSD and, as a part of the reorganization, would create
    \Vithin the NSD an Office of Intelligence to replace the OIPR. The mission of
    the omce of IntdliggJlCC is "to <:mst.ire that national secu1ity
I                                ~                                 - investigations
    ~:u·e conducted in a rrn.u1ner consistent with the nation's laws, regulations,
    and policies, induding those designed to protect the privacy interests and
                                                                                       ~




I   civil liberties of fU, S,1 citizens, "25 On September 24, 2007. the As.sistm1t
    Attorney General for the NSD issued a 111e111orandun1 that detailed the
    stntcture ;:u1d operations of the three sections that complise the ne\v OfD.ce
I   of Intelli.gence.::w However, in February 2008, the NSD inforrned the OIG
    that the reorgm1iZaUons announced in September 2007 had not been
    cornpleted, as the omce of Intelligence had not yet been createcL \Ve
I   desc1ibe below the operations of the Office of Intelligence and the roles of
    each of the three sections as they \:>i.7ere announced in September 2007. (U)

I                     1.         Office of Intelligence (U)

            The Oftlce of Intelligence \:i,..1:11 consist of three sections: the Oversight
I   Section, the Operations Section, and the Litigation Section (see Chart 2,.J).
    '11w Oversight Section vrill oversee all aspects of the FBI's nati.onal security
     program and Jts use of inteUigence techniques to support that progn1n1.
I    inducting NS.Ls. The Operations Section \Vill conduct intelligence operations
    tvork, such as representing the government i.n presenting appli.cations to the
    :F'oreign Intelligence Surveillance Court. '111e Litigation Section will
I
           ~.s Letter fron1 the Attorney General ru1d FBl Director to Richard B. Cheney,


I   President of the Senate, duly 13. 2007, 1. !U)
           w Ass.lst<:i.nt Attornt:.~y Genet.al, National Security Division. memonmdum to all
    Nalii:mal   Se<.~udty   Df\riJSlon Eu1ployet:.'.S,   S(~ptcmber   24, 200'7. {U)

I
I                                                        ~
                                                              55
I
I   supervise and coordinate criminal and civil litigation matters related to the
    FISA and other inteUigence issues. (U)

I          Attorney staffing leve.ls for the Office of Intelligence \vill reniain the
    same as its predecessor offices - approximately 85 attorneys - and it was

I   anticipated that the attorneys \Vould rotate among various units and
    sections -vvithin the Office of Intelligence. The majority of the attorneys are
    to be assigned to the Ope.rations Section and m.ay serve on rotating

I   assignments among the three units that comprise that section (the
    Counterterrorism Unit, the Counterintelligence Unit~ and the Special
    Operations unit), In addition, some attorney positions in the Oversight and
I   Litigation Sections will be filled by attorneys from the Operations Section on
    a rotating basis. Attorneys also 'Nill be expected to provide support to other
    sections where appropriate. F'or example, Operations Section attorneys that
I   prepare FISA applications would be expected to prov1de support to the
    Litigation Section if the FISA applications are at issue in related criminal
    trials. (U)
I                                        CHART 2. l        (U)
                   Organization of the Office of Intelligence (U)
I                         [Chart Below is Unclassified]
                              ,...---:----------------------:---------------------•.
                                   National Security 1
I                                              Division                             !

I
I
I
                                                           Counterterrodsm Unit
I
I                                                         Countel'.i:nteiligence Unit



I                                                         Special Operations Unit

I
                 Source: Department of ._h:,1stice, National Security Division (0)
I
                                                  56
I                                           ~
I
I                    2.    Oversight Section (U)

I          According to NSD oflkials, the mission of the Oversight Section \.Vil!
    include functions previous~v exercis(::d by OIPR as well as several new
    oversight functions that represent a. significant e1qxinsion of the
I   Department's oversight of the F'Bl's investigative operations. OlPH.'s
    OV(::rsight was focused primarily on the FBI's use of flSA authmities and
    included "accuracy reviews" to ensure the accuracy of FBI declarations to
I   the Foreign Intelligence Stu-veUlance Court cu1d ~n1in1rnization reviews" to
    ensure that FISA tnformation was handled approp1iatdy. These
    rninimization reviews are conducted tu assess the F'Bfs cornpliance \-Yith
I   the FIS.A requirernent that the FBI hnplen1ent procedures "reasonab~y
    des.ig'ned ... to m.inimize the acquisH.i.on and retent.ion, a.nd prohibit the

I   dissemination, of nonpublidy available informatio:n concerning
    nncnnsenUng United St.at.es ·persons .... "27 OIPR also previously
    conducted revie\vs of :r<~BI notices related to national s.eculitv investigations
                                                                     -        '·
I   to ensure compliance with the Attorney General Gu.idd.ines. {U)

          In April 2007 OrPH. expanded its oversight funcl:ions to include rnost

I   aspects of the F'Brs national security progratn and its use of national
    security tools, including national security lette.rs.28 These oversight
    functions were impleinented under OIPR; the NSD did not wait for the
I   establisl:unent of the Oversight Section. According to the NSD's
    September 24, 2007. reorgnnization memorandum, the Oversight Section
    'Nill take over the respnnsibility of n::vie\ving national security investigation
I   case flies in FBI field offices and Headquarters divisions to provide guidance
    on a \:Vide range of issues. including compUanee '1.:V.lth Attorney Gen.eral
    Guidelines, the use ofNSLs, and the. predication for national security
I   investigations. In 2007, OIPR beJ!an
            ;;:.,.                 '    '·'   revievvi.n~ au FBI referrals to the IOB
                                                               \,,._,


    and \Vill report to the Attorney General an_y recurring problerns or trends. rn
    addition, as a pmi. of the NSD's overall n.1issi.on, Office of Intelligence
I
           :u 50 U.S.C §§ 180lth](l) and 1821(4HA!. Duling the minimi<.ation audits,

I   attorneys from OIPR visited FBI field nHkes to assess the FBI's nlinimization of the results
    of FISA--app:rnved electronic surveillance and physical searches; counsel case agents,
    intelUgence analysts, and H.ngu:i.sts on specific issues: and pru1ride training to those involved

I   in the minimization process, (Ul
              Zf:: According to an NSD Associate Cmms.el, bi:.'.c.ause intelligence i.nvestigatinns
    typicaily focus mo:re on identityi.ng and addressing threats than (lll prosecuting crtm:inals,

I   Department attorneys previously had been less lnvok·ed in the FBI'$ n<:ltio:nal ~•t~curHy
    investig;:..ltions than they had been in tn1ditional criminal investig~•Jions, In traditional
    criminal investigations, Department attorneys approve some im'\::stig~:i.tlve steps. nbtal.n
    search \Varra:nts. and guide tht~ cnndw::t of the investl.gation il"l. preparation for prosecution.
I   Jn contrast. the primary invo1vemi:.'.n.1 of Df..~pari.ment attorneys. in national securH:y
    irivf.~~~ligations resulted from their role ms representatives to the Foreign T.ntdligence
    Surveillance Court. fl.J}

I
I                                             ~
                                                    57
I
I   at:to.rneys. will provide training on legal and regulatory compUa.nce issues.
    Each of these oversight a.ctJvH.ies. \\thich OIPR began conducting Jn 2007, is
I   discussed further in the follrn.vi.ng sections, (U)

                           a.      National Security Reviews (U)
I          ln response to the 01G·s March 2007 report on NSLs, the NSD
    Jnstit:uted what it terms national security reviews to examine whether the
I   FBI is using a variety of intelUgence techniques, including NSLs, in
    accordan.ce with applicable laws, guidelines, and policies.. (U}

I          From the tin1e the revinv proc(~ss was established Jn April 2007
    th.nlugh December 30, 2007, the NSD cornpleted national security reviews
    at 14 FBI tleld oilkes and 1 Headquarters division. TI1e national secu:tity
I   revle\vs focused on the initiation and maintenance of nattona1 security
    investigations to ve1il}r cm:npliancc with knvs. guidelines and policies, as well
    as the FBI's use of NSLs. According to NSD personnel, the scn11e of the
I   revte\vs \Vfll e-..11..1x1nd ove.r Urne. to encon1pa.ss other ele111ents of the national
    security investigative progr·;;.un, such as undercover op<:Tations, and hcrw
    information related to national security              investi~ations has been
I   disseminated outside of the F'BL (U)
                                                     ....        '-·



           The NSD worked \Vith the FBI to select the 15 omces to be revie\ved in
I   2007. The :F'BI OGC selected as the flrst fleld office to be rev:iev.red one that
    had received a pa.ti.tcularly favorable revh.~\v in its last inspection by the
    F'Bfs Inspection Division, The NSD selected the ren1a.ining l~i field o:f11ces
I   and l Headquarters division ·'.vith the FBI OGC's concurrence Lia.sect on
    several consi.derations. To gain experience before revie\ving a lar;ge field
    office, the NSD sC:heduled the re-Yie\vs so that the first .re-Yiews tvere of sn1all
I   and mediun1-sized FBI field offif:::t~s, 'I\vo larger field offices \\/'ere. scheduled
    for revie\\t tn the last qua1ter of 2007, For 2008, the NSD plans to conduct

I   reviews at 14 additional FEH lleld offices and 1 Headquarters' division. In
    2008, the NSD plans to select for national secmiiy .reviews offices that have
    h~~her nurnbers of national security in.vest~gations about which the NSD has

I   had questJons (identtfted in its review of F'BI initiation notices of national
    security investigations} and also to continue to conduct FISA_ n1.tnimization
    and accuracy reviews,2si (U)
I         The national security reviews are co.nducted by tea1ns co.nslsting of
    NSD attorneys \Vith tntdligence <:~'\.:{-H~liencc and representatives frorn the FBI
I   OGC. Personnel fron1 the Office of the Cb.fe:f Privacy and CiVil Libeti:ies
    Officer n1a.y also attend revie\vs but they are not considered part of the

I          ~9   ·n1e FBI is required to provide the NSD -with approval memoranda signifying the
    inHh±Uon of national sequ-tty investigations. (U}

I
                                                  58
I                                            ~
I
I   review tea.in. The tearns conducting the national secmity reviews typically
    consist of six rne111bers: three NSD attorneys., two FBI OGC attorneys, and
I   one F'BI Special Agent. (U)

           During each of the 15 revi.e\VS cmnpleted as of December :31. 2007,
I   the tean1 inemhers worked in pairs to review approxinmtely 25 selected case
    files. The case files were selected to include: (l} case files that had already
    been identified as being: of interest based on OIPR's review' of national
I       .             .        )._~•




    secu1ity investigation notices; (2) case flles generated in both
    countelintelligence and counterterrorism investigations: and (3) case files
    that included NSLs, For nmst case files. the tea111 reviewed each NSL issued
I   since Januaiy l, 2006, but selected only a smuple frorn case files that
    contained a large nmnber of NSLs. (U)

I         To guide the reviews. atton1eys in OIPR developed a checklist that
    identilled the information to be coUected from each case file. The checklist

I   was n1odeled on the data coll.ectf on instn1ment used by the CHG for our first
    NSL report. It contained additional data points to capture il:1forrnation on
    the
      . initiatton and n1aintena11ce of national secmitv investigations and on
            ...   .                    .                         ~          ~




I   the use of other intelligence techniques and procedures. (U)

          According to an NSD Associate Counsel. prior to on-site visits OIPR

I   attorneys provided training to team members on how to condu.ct the reviews
    and record their results, On October 8, 2007, the NSD issued a
    memorandum setting fo1ih details of its process for conducting :future
I   national security reviews and for conlITlunicating results to the NSD's senior
    leadership. {U)

I         At the conclusion of each national security review, the tearn prepared
    a narrative rep01i. of its findings. A sun1mary of these reports follows. {U)


I          The NSD provided the OIG Vlith reports of its reviews of national
    securtty investigations in 13 FBI field and Headquaxters offices that it
    conducted frmn April 2007 through Nove111ber 2007. 30 The reviews focused
I   on three areas: examJnations of the initiations, extensions, and conver.sJons
    of national security investigations; evaluations of an aspects of the use of
    NSLs issued between tJanuary l, 2006, and the date of NSD's review; and
I   determination.s as to whether possible IOB violations had beenrepo1ied to
    the FBI OGC. The NSD generated separate reports for each review that
    included overall observations, along with specific findings regarding each
I   investigation and NSL it reviewed. (U)


I           so The OIG reviewed the first report that was finalized, along with 12 draft reports.
    After completion of our analysis, the NSD t-0ld us that it has finalized all 13 reports. (U)

I
I                                            ~
                                                  59
I
I           Du:dng its reviews, which ranged from. 2 to 5 days in length. the NSD
    reviewed a total of 1,047 NSLs in 276 investtgations. 'The NSD revie\11.red as

I   :few· as 4 NSLs in 2 tnvesttgatfons in I office and as many as 130 NSLs in 23
    investigations in another office. The reviewed investigations included 150
    counterterrorism rnattern and 126 counterintelligence rnatt:ers. \Ve were not
I   able to detr.:Tnrine from the NSD n.:pmts the statute under which all the
    NS.Ls that it revl.e\ved \.Vere issued. However, approXirnately 80 percent of
    the NSL-; for which \Ve were able to identify the statute were issued under
I   ECPA. {U)

           The NSD's ftnclings \Vere consistent v.rtth those identified in our fi.rst
I   NSL report on the FBl's use of national security letters. 111e NSD reviews
    ex··anlined overcoUections, errors in approvaJ ECs m1d NSLs, inconsistencies
    between approval ECs and NSLs, the inability to locate responsive records,
I   failure to i11clude the U.S. person status of the subject of the investigation
    or the targ·et of the NSL. and failure to describe in the approval EC the
    .relevance Qfthe records sought to the invesUgatio:rL 'I11e NSD found
I   that: (U)

                •   The F'Bl obtained infon11ation tt did not request or that it was
I                   not entitled to receive. 'l11e NSD obse1ved that a ntismatch
                    between. the FBI's requested date range and the i11anner in
                    \Vhich third parties rnaintaiI1ed their records often caused the
I                   ove.rcollections. Additionally. there \Vas little docunie.ntation of
                    overco1lections or docurnentation of the disposition of these
                    niatt:e.rs, (U)
I               •   I<:rrors occurred in the NSLs and approval ECs because case
                    agents relied on previously drafted docutnents th~t were
I               •
                    outdated or no 1011,_~er valid. (U)
                    'Hi.ere \Vere "disconnects" be.t\veen the NSL and approval ECs,
                    including approval .ECs that did not specifka.Uy state the
I                   infixrnation being requested or that differed from the records
                    requested in the NSLs. (U}

I               •   The information provided by third parties to the FBI was not
                    alwavs retained h1 the investigati\;re
                         .._,                     .......  case files bt~cause the
                    original docurnents were pro\.1ded to analysts or FBI
I                   Headqua.rters, (U}
                •   The approval ECs did not consistently rekrence the lJ-8. person
I                   status ofindtvi.duals, which Is required for puqmses of
                    cong:ressJonal reporting. (U)
                •   The relevance of inforrnati.on requested in the NSLs to the
I                   underlying investigations was not cons.istently e>,.,'"!)lalned in
                    approval ECs, {U)

I
                                               60
I                                          ~
I
I            In addition to these issues, the NSD reviews identified other
    note\votthy matters. In our first NSL report, \Ve noted that a field otlke
I   reported to the FBI OGC that it had obtained information frmn an asset
    and had not issued an NSL to obtain that information. T'.he FBl OGC did
    not report the matter to th<:~ JOB ~ a decision that \Ve disagreed ·with and the
I   FBI later changed. In its reviews, the NSD found instances in two fi.eld
    omces h1 which assets provided financial records to the FBI. but the FBI did
    not issue NSLs to obtain the records, as required by the R.ight to F'inancial
I   Privacy .Act NSL statute. Neither of these m.at.ters had been reported to the
    F'BI OGC plior to the NSD review. l'he NSD also found i.nstmices in which
    the current Patriot Reauthorization .Act nnn··dJsclosure and confl.dentiaUt:y
I   models \Vere not being used, the required cerUficatfons were rnissing, or
    there was no stated basis in the approval ECs for ilnposi.n,~ these
    obligations. In addition, the NSD identified instances in which NSLs were
I   served during lapses in invest:i.gations, contrary to the NSL statutes and the
    AttonK:y General Guidelines: consurner full credit reports obtained in
    response to Fair Credit: .r~eport .Ad NSLs seeking limited credit i11Jhn:natJon
I   were not successfully redacted and the repmts were fully readable; and a
    fo.:~ld office npl.oaded lnto the /\.CS systern unauthorized information
    obtained in response to NSLs. (U)
I          ']]1e NSD made severa:t recornrnendatf.ons to address issues that it
    determined \.:1.t"'an·anted further e.xarnin.ation. To address unauthorized
I   collections, the NSD recomrrn.:~nded that the FBI d<.".velop guidance th.at more
    sp(~d.tkally provides tnstn.td:io.n on; (U}


I               •   overcoUect.ed tnfonT1ation; {U)
                • sequestration of tnformatton \vith the CDCs; (U}
I               • destruction or other d.tsposiUon of hnproperly obta.ined
                    inforrnation; {U)

I               •
                •
                    uploading of infcrnnation into FBI databases; m1d (tJ)
                    veriflcation of rernoval (of overcollected infor:mation) from FBI

I                   electronic files and databases. {U)

          To prevent the receipt of unauthorized .lnfonnation, the NSD also

I   recornmended that the FBI \.vork rnore closely with NSL recipients by
    revising tl1e standard language. used in NSL.s in desc1ibing the tin1e periods
    for which records <..1.re requested.~U (lJ)
I
           :>t This NSD reeom:mend<.1tion may have already been rn:klressed 'Nhen, In IV1ay

I   2006, the FBI OGC revised the model atta.d1ment for ECPA toll record NSLs, 'lhe NSD
    reviewed NSLs issued on or aft.er ,January 1, 200(). Since Wf.'. am 1-HJ.<:iJ::ile tc1 cktem:iine the
    datts of the NS.Ls tJ1at the NSD reviewed, we m·e unable to deten:ni:ne whether the

I                                                                                                   (Confd.}


                                                      Gl
I                                                ~
I
I          To address enors and inconsistencies bet\veen the NSLs and approval
     ECs, a.s well as missing required language, cert:tfications, or an estahli.sbed
I    nexus behveen the investigation and the records requested, the NSD
     recommended that: (Ll}

I                •   standardized NSL forrns from the F'BI OGC \Vebstte be used; (U)
                 •   case agents be provided JnstrucHon and training to ensure that
I                    the infonm-.1Hon requested in the NSLs tnatches v1bat is
                     requested in the approval E:Cs; and (U)
                 •    case agents l:ie pruvided. instruction and trainh1,__£; on the
I                     irnportance of describing in NSL approvil1 ECs a sufficient
                      nexus or relevm1ce betvveen the investi~ation
                                                               ,_,       <:md the

I                    ·infonnation requested. (U)

          T'o address the F'Bf s inability to locate records received in response to
     NSLs. the NSD recornrnended that: (U)
I                •   case agents keep original results in the investigative case files
1-               •
                     <:md prov.lde copies to analysts and F'BI headquarters; and (U}
                     the FBI OGC initiate a tracking system so case agents can
                     determine \Vhether NSLs havt: been served and whether the NSL
I                    recipients have provided responses to the YBL {U}

           The NSD also recornrnended that UK~ De:parhnent establish a working
I    group of representatives from the NSD, the F'BT, and the OfHce of the Deputy
     Attorney
            . General to review the results. of the NSD's national security  '
     rev1ews. TI1e NSD suggested   that the NSL   vVorki.ng    Group recon1n1end
I                          ·-· ·"                          ·-·
     changes to guidelines, practices, and training to establish clear. concise,
     weH.vdocurnented, and consistent proced1u-es fi::>r im.p1e.rneuting the NSL
     statutes and Attorney General Guidelines. fU)
I                            b.      Reviews of Ji""BI Reports to the IOB (tr)

I          .As directed by the Atton1ey General in March 2007, the NSD also is
     responsible for reviev.rlng all FBI reports of possible intc~ll~g<::nce violations to
     the lOB in order to identify recurring problen1s and assess the ·FBI's
I    response to such v:iolattons. According to NSD oftlcials, the revie\V process
     focuses on whether these reports indicate that a change in policy, training,
     or oversi.ght mechan.lsm.s is wan:antecL The Oversip;ht     SecUon also will
I                ~                                          -
     report to the Attorney General t:\vi.ce a year and infon11 the Department's


I                                                                                     ____                                        __
                                                                                                ...................................

     unauthorized colled:ions t:icci:.trted piior to   ;:w   <1ft:ef the lssmmce of the new' model
     att<:i.chrnenL {Ul

I
I
I
I    Chief Pr1vacy and CivU L.lberties Officer of an.y referrals that
     civil liberties or privacy issues," {U)
                                                                        r~:tlse   "ser.inus


I           .As of Nove.mber ::m, 2,()()7, the NSD had fi:rnvarded its h1it:ia1
     semiannual repnrl to the Attorney General. 'The report provided a statistical
     si.un:ma1y and desc1iption of reports to the IOB fron1 January l, 2007.
I    through June 30, 2007, .::md reported the NSD's observations regarding
     trends and patterns tn the notices of reports to the IOB. Chief arnong these
I    were observations relating to th<:: reporting of national security
     investigations by FBI field offices, cornpliance \Vith Foreign InteUigence
     Surveill.ance Court orders, and nmtntatning current invesugat.fve authority
I    1br ongoing operations. The NSD report recommended that existing policy
     regarding reporting by the FBI to the NSD of the initiation of natio:nal
     security investigations :needed to be m.odifkd. In addition~ the NSD
I    reconunended adclitiona1 gutdance ~:u1d training: to avoid lapses in
     investigative authority .:md to clari-(y the scope of records that nwy be
     obtained through ECPA NSLs.. (U}
I                       c.     Training and Outreach (U)

I          In addition to conducting national security reviews, the NSD plans to
     provide training on legal and regulatory compliance issues for its attorneys
     and for FBI agents and analysts and to conduct outreach to other m.mnbers
I    of the Intelligence Comrnunity. (U}

                  3.    OIG Analysis (U)
I           Based on our revk:\.v of docurnents describing the NSD's national
     security re\-ie\vs, our intenie\:vs of NSD officials, the data collection
I    instrument, and the report of the .results of the ftrst natl.onal secu1ity
     review, \Ve tH~lieve the national security reviews arc irnportant additions to
     other audits and oversight n1easures in1plemented by the FBl (desc1ibed in
I    t.hts chapter and in Chapter Three of this report). In particular, we belJeve
     th.e expe1ience of NSD attorneys and other personnel in the new Offlce of
     Intelligence will bring important. expertise to the oversight of NSLs ;:md other
I    int.eUJgence techniques. (l.J)

            \Ve also belleve that the scope of tht~ NSD's reviev.rs is reasonable.
I    11-1ese reviews exm:nine cmnpliance \vith laws, guidelines, and polides
     rdatin~ 0
               to the FBl's ·use of vmious intelligence tcchnic1ues. inch-tding NSLs.
                                                 ~            ~                     ~

     F\ni:her. the NSIYs plan to shiil the focus of its reviews over ttme to
I    encon1pass other aspects of tlle F'BI's national secu1ity investigations seems
     reasonable and appropriate. (lJ)

I          However, it is iinportant that sufficient resources be allocated. both in
     the FBI and NSD, to keep pace with the plans to cornplete approximately 15
     national security revinvs per year. Moreover, as the results of the VBI's
I
                                            63
 I                                      ~
I
I   three 2007 NSL revie\vs (discussed in Chapter Three of this report) are fully
    evaluated, the NSD should re-evaluate whether adjustments to the scope
I   and focus of the national security revievvs are warranted. {U)

           C.       National Security Letter Working Group (U)
I          In response to a directive in the Patnot Reauthorization Act and our
    first NSL report, the Atton1ey General directed the Department's Pdvacy
I   Officer. working with the Civil Liberties Protection Officer of the Office of the
    Director of National Intelligence {DNI}, to convene a working group (NSL
    Working Group} to examine hmv NSL--deiived infonuation is used and
I   retained by the FBL3 2 In addition to the Privacy Officer and the DNI's Civil
    Li.berUes Protection Officer, the NSL Working Group included the senior
    privacy official of the FBI and representatives from the Departn1ent's Office
I   of Legal Policy, .NSD, mid the Office of the DNI Director. (UJ

           In our ftrst NS:L report, the OIG noted the proviso in the Attorney
I   General's NSI Guidelines that national security investigations should use
    the "least intn1stve c0Uectio11 techn..iques feasible" to carry out the
    investigations. 3 3 TI1e OIG reported that we found no clear guidance on how
I   Special Agents should reconcile the Att.on1ey General Guidelines' limJtations
    with the expansive authority provided in the NSL statutes. Our concerns
    over the lack of formal guidance were n1agnified because of the volun1e of
I   NSLs generated by the FBI each year and because the information collected
    is retained for long pe1iods in databases available to many authorized law
    enforcement personneL To better identify NSL-delived data retained by the
I   FBI. we reconnnended, cu11or1g other things, that the FBI consider n1easures
    to label or tag NSL-derived information in its databases. (U)

I         In August 2007' the NSL Working Group completed a proposal for
    mini:InizatJon and retention of certatn NSLrderived tnfonnation and sent the
    proposal to the Attorney General for approval. 34 The proposed policy and
I
I               Sei:'.tion 119(11 of the Patriot Heauthoriza.tion Act. states: [U}
           32


            Minimization Procedures .F'easihiliiy - Not later than February 1, 2007. or upon
    completion of review oJ the report submitted under subsection (c){l}, whichever is earlier,

I   the Attorney General <.md the Director of National Intelligence shall jointly submit to the
    Committee on the Judiciary and the Permanent Select Committee on Intelligence of the
    House of Representatives and the Committee on the ~Judieiary and the Select Committee on
    Intelligence of the Senate a report on the feasibility of applying minimi2.a1ion procedw·es in
I   the 01ntext of national security letters to ensure the protection of liie constitutional rights
    of United States persons. (U}
                NST GuideHnes, § l{Bj(2) _ (U)
I
           33

           M    The NSL Working Group adopted the de.tlnitton of "minimization procedures" as it
    is used in FISA50 U.S.C. § 1801(11.J: (U)

I                                                                                          (Cont'd.}


                                                     64
I                                                ~
I
I   reco1111nendattons relate to data obtained by the .F'BI in response to NSLs ·
    seeking financial and consun1er credit in:fonnation as weU as data obtained

I   in response to NSL.s seeking tdcphone bilUng records, telephone and e-1naU
    subscdber infonnatlon, and t~1ectronic cornmunication transacUont..U
    records. :>~i Hov,rever. the recon:nnendatio.n.s of the NSL \Vorking: Grou.p were
I   not acted upon by the Attorney General In F'ebruru)' 2008, the Priva('y
    Oflker told the OIG that the propos;;.tl had been \Vithdrawn frmn the OHice of
    the Attorney General m1d that the Privacy Otllcer intended to r'ec.onvene the
I   \Vorking Group. According to the P1ivacy Officer, the \Vorktng Group needs
    to nwke specific enhancernents to both the proposal and related procedures
    to describe more fully the :research, clarity the vVorking Group's flnclings.
I   and potentiaJly strengthen its recornrnendations. BelO\v, \.Ve describe the
    findings., reasoning, and reeorm.nendaUons contained in the proposal
    subrnitted to the i\ttorney General by the NSL \\.T01;king Group, fr.11lmved by
I   our analysis and reconunendatJons, \Ve ofter these comrnents for the NSL
    \V'orking Cxroup to consider as it prepares to re-exan1ine these hnportant
    issues. (U}
I                    1.      Evaluation of Existing Controls and Guidelines (U)

I         The NSL \Vorking Group initial:ly examined existing controls and
    guidelines that protect privacy interests regarding the acquisition and use of
    NSL·dertved information, The report of the NSL \Vorkin.g Group noted that
I   NS:Ls can only be used in connection with national security inves1\~ations,
    nu.wt be approved by a senior FBI offlcial, <.md provide access only to Hrnited
    tnfonna.tton. Further, the report t1oted that NSL-derived infonnation is
I   subject to standard agency records retention rules, n:n1st be dtsse.minated
    and reta.ined only .in accordance \Vit:h applicable Attorney General
    Guidelines, and can only be accesst~d Uffough FBI data.bases by authorized
I           {l) spetifli.;: procedures •. , that an.~ reasonably designed in light of the purpose and
            tedi:nique of !NSLs} to minimh~<:~ the.~ iK'quisition and retention, and prohibit the
I           dissemination, of non-publidy av<:til<:tble information concerning uneom~enUng United
            States persons consistent \Vit.h the~ need of the United States to obtain, produce, and
            disseminate foreign intelll:g~~nce in.formation: 12) procedtfff..'.S th.at teqtiln:.~ that non-

I           publidy available informa.tkm, which ls not foteign irrtelligenn~ information . , , sha.U
            not be disseminated in a rnanner whi.ch identiil.es any United States pers<.m, without
            such person's consent, lmles~'> SU{?h person's identity is necessary to understand
            fore:ign intelligence infornw.tion or assess its importance. (U}
I   Chk'.f Privacy and Civtl Liberties Ofilcer, U.S. Departrmmt of J1.Jstl:ce, uw1uon1.ndrn:n to th<~
    Attorney General. U.S. Depart1nt~nt of,.h.i.stiix\. August l 7, 200"l, 6. (NSL \Vorkl.ng Group
    Memorandum). (Ul
I           % The n:~port stated that the Dep<u·tment pkumed to use U1e flndinJt~~ of the NSL
    \Vor:king G·rnup .in pn.~paring the report to Congrt.$S required by § 119(1) of the Pa.t:riot
    H.e<~uthorlzatlon Act 1::in the "feaslhili:ty of applying n:1l.nlmi2:ation procedur<:~s in the context of
I   national security letters to ensure the protection of the cnnstitutfonal rights of United
    States persomL" NSL Workin,g Group 1\lkmonmdum, L tU)


I
                                                      65
I                                               ~
I
I    individuals for official purposes. Based on this evaluation, the NSL \Vorklng
     Group concluded that "significant limitations already exist goven1ing the
I    proper use o.f NSIAs. ""6
                            0
                               l'U)

            111e NSL Working Group's report concluded that the FBI has made

I    "significant progress in identifying and rectifying concerns about the FBI's
     compliance" \;i,..'.ith NSL authorities.·37 For exan1ple. the NSL \Vorking Group
     cited the FBI OGC;'s ,June 1, 2007, Comprehensive Guidance EC that directs
I    Special Agents to review infonnation received in response to NSL requests;
     iinproveiuents to the FBI's electronic data systei11s: the estabUshrnent of the
     FBI OIC; and the ne\.v overstght acttvtti.es of the NSD. {U)
I           111e NSL Working Group report concluded that controls provided hy
     e:xisting statutes and guidelines, if proper~y follm..ved, effectively miI1i111ize the
I    collection of information on U.S. persons and protect privacy interests.
     However, the NSL- \Vorking Group also stated that further enhancements to
     p1ivacy safeguards, \Nhich vve discuss in the nexi. section, wnuld be
I    appropriate. {U)

                     2.          Additional Privacy Enhancements Recommended by
I                                the NSL \V'orking Group (U)

           To irnprovT privacy safeguards for infom·1ation acquired with NSLs,
I    the NSL \.Vorking Group proposed inttial nli.nirnlzation procedures applicable
     to infonnation derived from HFPA, FCHA, and EC:PA NSLs. Son1e of the
     proposed procedures m11pli.f'.y recentl.y irnplernented requirernents i111posed
I    by the FBI in response to the OIG's first NSL report. 111e NSL \.Vorking
     Group stated that its recom111endations recognized that "information that
     appears to be of little value today" 1nay later become si.gnificant. It also
I    stated that private bustness practices cnll1ng for routine destruction of older
     records helped guide the ,group's recorrunendations.38 {U)

I                                a.   Financial and Credit Information (U)

           According to the NSL vVorking Group's recommendation, NSL-derived
I    financial and credit information should initially be reviewed by the case
     agent or analyst to determine whether the information has "investigative
     value.'' TI1e NSL \.Vorking Group defined information as having
I    "investigative value" if the iirlonnation "contributes to a national secu1ity
     investigation or to an authmized tntelligence coUection requi:re111ent. "39 The

I          36

           37
                Td. at 5. (U)
                Id. at 6, flJ)

 I         38

           39
                Id. at 6-- 7. {U)
                NSL Worktng Group Memon:mdum, Attachment, L (OJ

 I
                                                 66
 I                                           ~
I
I    determination of\vhether information has investigative value is to be rnade
     by "the case agent or other employee fr.uniliar with the scope o:f the
I    investigation and its objectives. "40 (U)

            The NSL \Vorking Group noted that infonnation requested in an NSL

I    1nay be produced in paper or electronic form and therefore established
     slightly different procedures for making the "investigative value"
     determination given the different formats. The NSL \Vorking Group stated
I    that financial or credit infonnation received in electronic form should be
     uploaded onto a desktop computer <:uKl reviewed to identify non-responsive
     data and to detennine if it has tnvesttgative value. Under the proposal, data
I    from responsive financial or credit paper doctn11ents nmy also be
     te1nporarily entered into a desktop computer - but not into an FBI-\vi.de
     database - so that it may be more easily reviewed to detennine if it has
I    investigative value. (U}

            Under the NSL \Vorking Group's proposal, FBI personnel may upload
I    into FBI databases and include in analytical products only financial and
     credit infonnation that is determined to have "current or reasonably
     potential" investigative value. 111e electronic n1edia and paper copies of all
I    responsive documents. \Vhether determined to ha,.re invest~gative value or
     not, are to be .retained in designated sections of the investigative file. (U)

I                          b.   Electronic Con'lmun.icaUon Transactional
                                Data (U)

I            Under the proposal, infonnation de1ived from ECPA NSIB (telephone
     toll billing records, telephone and e-1nail subscriber information, <-u1d
     electronic communication transactional records) need only be detenuined to
I    be responsive to the NSL in order to be uploaded into m1y approp1iate FBI-
     wide database (such as the ACS system or Telephone Applications
     database). Unlike the limitations imposed on NSL-de1ived financial and
I    credit information (requiring an initial determination that the infonnation
     has "investigative value"), the NSL \~lorking Group's proposal would not
     restrict the initial uploading of these records into FBI databases. The NSL
I    Working Group concluded that electronic con1111unication transactional
     inforrnation cm1not be evaluated in isolation, but n1ust be uploaded so that
     link analysis and other analytical n1easures can be used to determine its
I    investigative value. 111e NSL Working Group also stated that it based its
     recomn1endation on reduced p1ivacy interests associated with I-i.:CPA NSL

I    records. As \Vith financial and credit data, the NSL \i\lorking Group's
     proposal requires retention of the electronic rnedia containing the data in
     designated sections of the investigative file. (U)

I          40   Id. [lJ)


I
                                           67
 I                                     ~
I
I                  3.     Other Enhancements Considered but Not
                          Recommended (U)
I         According to its report, the NSL Working Group aJso considered but
    decided not to reconunend additional 1ninirnJzation procedures. The NSL
I   ·working Group also recomrnended against applying any tiine lintltation on
    the retention of NSL-delived inforrnation beyond the. existing routine agency
    data retention protocols relating to .investigatJve fiJes. Instead, the NSL
I   Working Group stated that infonnation found to have investigative value
    should ren1a:in available for unrestricted access by authorized users of the
    ACS syste111 or the Investigative Data \Va.rehouse until it is arc.hived in
I   accordance vvith applicable National Archives and Records Administration
    disposition schedules.4:1 (UJ

I          In addition, the NSL \\Tork.Ing Group recornmended against "tag_g1ng"
    NSL-derived info:n11ation so that it would be identifiable as such if it is used
    :in analytical inte11igence products or transfe!Ted to other lnteLUgence
I   Corrnnunity-wide cornputer systems. concluding this would cause "an
    undue burden on the operation of such an in1portant tooL" Further, the
    NSL Working Group stated that planned enhancernents to the FBI's
I   infonnation technology syste111s will allmv NSL-derived infonnatton to be
    segregated in the FBI OGC's NSL tracking database. Consequently. the NSL
    Working Group concluded that "tag_i;png" NSL··derived data would not
I   provide "m1y measurable value for privacy protections .... " (U)

          11ie NSL \Vorking Group decided against recon1mending that the FBI
I   delete NSL-dertved data from its data systerns when cases are closed,
    According to the NSL \:Vork:ing Group's report, requiring the deletion of NSL-,·
    derived. data upon case dosing would have potential negative impacts. on the
I   investigative process because closing r1 case is not r.i.ecessari~y indicatJve of a
    subject's innocence. For exrunple, the FBI sornetin1es closes

I   counterintemgence cases when the subject leaves the country, but may re--
    open the case if the subject returns, Further, the NSL "\:Vorking Group
    stated that information gathered during an investigation that is closed could
I   have :investigative value .in other cases, (U}
                  ·-·
            41 The le-ngth of time that Ule FBI retains investigative information. whether in



I   paper or electronic fonn.at, depends on several factors, including the case type {for example,
    intelligence or criminal investigations) and other characte1isties of the case {few example, if
    it involved a ~most wanted" suspect}. In general. inforrnati.on related to intelligence
    investigations is retained in the FBI's files (either in the paper case fHe or in the FBI's
I   electronic systems) for 30 years after a case is dosed, and information related to criminal
    investigations ts retajned for 20 yea.rs after a case is dosed. After that time, U1e case
    information is reviewed, and infonnation that is idenU!led for permanent retention is

I   transferred to the National Archives and Records Administration (NARA} for storage. Any
    cases not meeting the ciiteria for permanent retention and transfer to the NARA are
    destroyed. (Ul

I
                                                  68
I                                            ~
I
I               4.     OIG Analysis of the NSL Working Group's Report and
                       Recomn1endations {U)
I          The OfG believes that the NSL vVorking Group should consider further
    whether and how to pruvide additional .privacy safeguards
                                                         -      and measures for
I   rnin.irnizing the retention of NSL-derived information. (U)

           First, the NSL Working Group's conclusion that "significant
I   lim.itations already exist goven1ing the proper use of NSLs" could easily have
    been written in March 2006 when U1e Pat1iot Heauthmization Act directed
    the OIG to review the FBrs use of NSLs. At that time, the NSL statutes,
I   Attorney General Guidelines, and inten1al FBI policies established a highly
    regulated system for controlling the approval process and for identifying
    violations of these statutes, guidelines, and policies. Yet, notwithstanding
I   these controls, \Ve found serious abuses of natfonaJ seculity letter
    autho.ritles, which \Ve described in our first NSL report. 'l11ese included
    in1properly obtaining consurner full credit reports, obtaining information
I   beyond the time pe1iod specified in the NSLs, and issuing improper requests
    under the cited NSLstatutes. Accordingly, contrasy to U1e NSL vVorking
    Group's conclusions, we do not believe that existing controls are a sufficient
I   basis upon which to rely in ew.tluating the need for additional privacy
    protections for NSL-derived information. (U)

I           Second, as we elaborated earlier in this chapter and else,vhere in this
    report, while we agree that the FBI has rnade signiflcant progress in
    address.Ing the findings in our first NSL report, we believe it is too soon to
I   say that the FBI has rectified all of the problems we identified. Moreover, \Ve
    believe it is too early to fully assess whether the new· sys tents and controls

I   developed by the FBI <..u1d the Department (including mandatory NSL
    traJn.tng, the creatton of the new NSL data system, the establishment of the
    OIC. and the NSD's national security revie\vs} '\\'iJl eliminate fuUy the

I   irnproper or illegal uses of NSLs that we and the FBI have identified.
    Therefore. we believe the NSL Working Group should not base its
    recommendations on new and untested measures, some of which have only
I   recently been ilnplerne.nted, smne that m·e not yet irnplemented, and none of
    which have been evaluated by internal or exten1al evaluators. (LT)

I         Third, the NSL \Vorking Group's proposal does not explain the basis
    for two ofits major conclusions. First, it does not explain how the new FBI
    data systen1 for tracking issuance of NSLs relates to the priI1cipal FBI
I   databases that store NSL"·derived lnfonnation. The memoranclurn does not
    explain hm..v the "structured storage of information and NSL information can
    be segregated in the database" and the reasons fbr its conclusion tlmt
I   "tncUv:iduaI tagging, as that tenn .is con1111only uncleTstood ... did not
    pruvide any measurable value for privacy protections at this time.,. Second,
    the rnemorandun1 does not ·explain what options, including use of "rneta
I
                                          69
I                                     ~
I
I    tags," the NSL \.Vorklng Group considered and rejected or the basis for its
     conclusion that such 1neasures \Vould "place an undue burden'' on the
I    operation of NSLs. In later discussions, the P1iv;.:1cy 0111.cer :indicated that
     these matters would be 1nore fully e)l..11lained tn the revi.sed NSL \Voddng
     Group report and r(.~cornmen<lations. (U)
I          J<-ourth, we are concerned th.at the NSL \VorkLng Group's proposed
     standard fbr uploading and retaining NSL-derived financial and credit
I    infbnnation provides no 1neaningil1l constraint and requires no baku1cing of
     privacy int('Tests against genuine investigative needs. The NSL \Vorking
     Group's proposal would aHO\v any infonnation that a Special Agent beHeves
I    "contributes" to an investigation to be uploaded and retatned. As desctibed
     by the NSL Working Group, it is difficult to conceive of responsive
     tnforma:tion that a SpeeiaJ. Agent coul.d not flnd "contributes" to an
I    investigation in some \Vay. Consequently, we believe the standard is so
     broad as to be meaningless.
                             u  .   vVhen. we discussed
                                                     .    the standard with
                                                                          . the
                                                                              .



I    Privacy Officer, the P1ivacy Officer stated that the standard \vas intended to
                .. althou~h he stated that the August 17 .rneu:mrandnn1 did ·not
     be ltmitin?:,
                ~        ~-                        ~-


     provide appropriate darity to ensure that tl1e intended protections were real
I    cu1d not tlluso1y. (U)
             F~tfth. we aTe concerned that the NSL \Vorking Group did not

I    sufficiently assess whether to establish any tin1e hmits on the retention of
     NSL--<.krived data, suftlciently ex.plain its reasoning for its conclusion, or at
     least consider n1ore modest xneasures such as requtring that i:nfonnation
I    de11ved from NSLs be reviewed dtuing annual case reviews, when cases are
     closed, or after a reasonable period following the dosing of investigations
     (for exanrple, 3 or 5 years after closure). \~lh.:ile \Ve understand Ui.e NSL
I    ·vvorki.ng Group's rationale regarding the diffi.culty in predicting at a fixed
     potnt in ttrne the investigative value of celi:ain information, we are not
     convinced frorn the analysis contained in the NSL '.\\»'orking Group's
I    n1en1oraridum that measures short of retention for 30 vE.~ars,,   are not feasible
     or workable. In paii:icular, we do not find the NSL \Vorking Group protocols
     sufficiently protective of the privacy interests of individuals who have been
I    deterrnined not to be of investigattve interest. (U)

           For t~"'\::arn.ple, accurdtng to OlG tntervie\vs with FBI Spf.:Cial Agents,
I    a primary use of NSLs is to dose leads and eli.tninate suspects. Yet,
     informatton from NSLs for which the prirnary investigative value is to
     eliminate a suspect or dose a lead falls within the NSL \Vorking Group's
I    broad definition of information having "investigative value" m1d may be
     uploaded and retained fur n1any years. Under this approad1, infon11ation
     related to individuals determined not to be of interest or concern to Jaw
I    enforcernent also would be rcta.tned on the chance that the information
     could becon1e relevant in the future, Hmvever. the argurnent that large
     an1ounts of data frorn NSLs. that elitninated a suspect or dosed leads should
 I
 I                                       ~
                                             70
I
I   be retained for many years because it may not be available in the future
    should be weighed against the individual's privacy interests, It is not clear
I   that the NSL \.Vorking Group did this, and wt.: do not believe it adequately
    explained its reasoning for rejecting alten1atives other than the FBI's general
    retention policy regarding investigative information. In light of the vast
I   mnounts of digital infom1ation that the FBI can collect on cmnrnunicatton.
    tlnandal, and credit transactions, we believe the NSL \Vorking Group did
    not give su:fficierrt weight to the valid privacy interests that weigh against
I   retention and accessibility of such data. for :30 years. \Ve believe the NSL
    \Vorking Group should reconsider this significant concen1 when it

I   :reconvenes. IU}

           :For the above reasons, we believe the NSL \Vorkir~g Group should

I   reconsider its reasoning and conclusions that there should be :no periodic
    revie\V of data to det.ennine whether the investigative value overcomes
    reasonable privacy .interests. \Vhile we acknmvledge that in many. and
I   perhaps rnost. instances under such a revtew·, the Special Agt~nt or other
    offkia] reviev..ring the case file n1ay deterrnine that the data should be
    retained, we believe that detennin.atlon should be made only after a
I   considered judgment rather than by appltcation of a lm:v standard that
    ahnost ahvays \:vill result in retention. (U)

I         \Ve also believe that the NSL \Vorklng Group shnukl reconsider its
    proposal to allov.r unlirnited uploading ~u1d retention of electronic
    cormuunication transactional data regardless
                                            ~                     -
                                                     of its investigative value. \'Ve
I   understand that inforn1ation de1ived from E:CPA NSL...o;; nu.1st be uploaded
    into approp1iate databases frir link m1alysis and c.rther exarnina:tio:n to
    detennine tr it has investigative value. Hu\.vever. \Ve are concerned that the
I   NSL \Vorktng Group dtd not adequately consider or e:iq)lai.n \vhy .it rejected a
    proposal that the FBI rernove infonnatlon that, upon analysis, ls detennined
    to have no investigative va.lue after some reasonable peliod of tin1e. (U}
I          \Ve also are not convinced by the NSL \Vorking Group·s initial
    assessment that the reduced privacy concerns associated \v.ith electronic
I   connm1nication trar1sa:ctional data, as con1pared >.vith 11nancJal or credit
    data, Justif'.r re.Jection of any limits on uploading all responsive infonna:tion.
    T'o the contrary. \Ve believe that the volurne of electronic cornnrunica.Uon
I   transaetiorn.1J data collected, as well a.s the \Vide accessibility of that data,
    should be given n10re weight in balm1cing the need for additional privacy
    protections. As '-Ve desclibe elsewhere in thts report, the vast inaJority of the
I   FBI's NS:L..;; are requests for electronic comrnunication records under the
    ECPA. Further, rnuch of the infonnaUon in FBI databases is periodically
    trans:forred to the Investigative Data \Varehouse. According to the FBI. the
I   lnvestigative Data \Varehouse contains data from. 53 different sources and is


I
I                                          71
I
I    available to over 13,000 Special Agents, analysts,. and l.a\v enforcement
     partners around the world, 42 Consequently, the \Vorking Group should
I    identifv .... \vays
                      .,. to establish 1nean1.ngful controls to ensure that NSL-,der.ived
                                               ........

     electronic c.ornn1unication transactional data, including infonnation that
     has no identitled investigative value, is not made \vide1y ava.ilable to the
I    \vorkl·-'\~.?ide law enforcement community. (U)

             In sun1, we believe it was premature for the NSL \Vorking Group to
I    conclude that cunent rnechanisms to control the use and retention of NSL--
     derived infr)lnmtion are adequate to protect the privrtey and ctvil Ube1i.tes of
     U.S. citizens. The NSL \Vo1~king Group's preliminary conclusions are
I    based. .in part on con-ective 111easures that have not been fully hnple1nented
     or demonstrated to be eftective. \Ve therefore beheve that the NSL \\forking
     Group's reco11Tmend.ati.ons related to the retention of NSL-de1ived
I    infi.Jrrnation require further examination and explanation regarding how to
     balm1ce the legitlrnate privacy interests of tndividuals against potential
     investigative needs. The NSL \Vorldng Group should constder \Vhether and.
I    how to exi:end addittonal privacy safeguaxds to data obtained in response
     to the thousm1ds of NSL requests issued each year that result in the
     collect.ton of data on ho\V U.S. citizens comrrmnic.ate, hm1k, and spend their
1.   money. (U)


I    IV.       OIG Conclusions and Recommendations (U)

            In conclusion, \Ve believe the FBI a:nd the Deparunent have made
I    stgnt11cant progress tn tmplemenUng the recomnwndations frmn our flrst
     NSL report and in adopting other corrective actions to address problems we
     and the FBI identified in the use of national security :letters. We also found
I    that the FBI has devoted signifi.cm1t energy, time, t.UJ.d re.sources tow'ard
     e.nsurtng that its field n1ru1a,gers and agents understand the seliousness of
     the B'BI's shortcornings in its use of NSLs and their responsibility for
I    con-ec.ting these ddk.iencies. (UJ

           For exarnple, the FBI Director m1d Deputy Director have underscored
I    the signHicance of the OltTs tlndings with senior Headquarters officials,
     SACs, and other personnel througl:wut the ranks of the FBI; stressed that
     compliance with NSL authorities is a t:najor p1imi.ty; and emphasized that
I    personnel. .involved .in drafting., reviewing, and approving NSLs \X..111 be held
     accountable for infractions, rr11e Deputy Directur and the General Counsel
     have reinfbrced these 1nessages      1.:vith SACs and CDCs. The FBI also has
I                                    ,,




I                   Federal Bureau of Investigation. ~By the Numbers ·- FBI Trarrnfomwtion Since
               4Z

     2001. ~   Septembt~r   6, 2006, http:/ /v.'Ww,foLgov/pag(:Z/septeinber 06/mnnbern090606.htm
     {accessed November :30, 2007). {U)


I
I
I
I   generated comprehensive legal guidance on use of NSL,.<:;; provided
    mandato1y NSL training to Assistant Specla1 Agents in Chm-ge, Supervtsory
I   Special Agents, Special A.gents, and Intelligence Analysts; underscored the
    respo.nsibility of CDCs .in reviewing and approving NSLs a11d of case agents
    in ensuring that NSLs do not generate unauthorized records; and developed
I   enh.anced infonnation technology tools that should facilitate the preparation
    of NSLs. reduce or elin1h1ate er:rors, a.nd improve the accuracy of
    congressional and public reporting on NSL usage. \Ve beUeve th.at these and
I   other steps taken in the last year underscore the FBrs comn1ii:rnent to
    addressing the proble1ns we identified in our flrst NSL report:. (U}

I         Th.e FTWs eff01i:s to pr0111ote better compliance \;vith NSL authorities
    also have been enhanced by other FBl initiatives and by the national
    secur1ty re·vif:ws conducted by the NSD and the FBL The tnfonnation
I   developed from the FBfs 200? NSL audits mid the NSD's national security
    reviews is also likely to provide additional insights into proble1n area.sand
    form the basis for additional guidance and compUance n1easures. (U)
I          However, because only a year has passed since the OIG's first NSL
    report \.vas released and so-rne iuea.sures are not fuUy iinplernented, \Ve also
I   believe it is too early to deflnitivdy state whether the new systems and
    controls developed by the FBr and the Deparhnent will eltrninate fully the
    problen1s v....1th the uses of NSLB that\ve and the FBI have identified, \Ve
I   believe the F'BI must in1plem.ent all of Olli' recmnrnendations in the first NSL
    report, den1onstrate sustained co111n1.it1nent to th.e steps it has taken and
    committed to take to improve cQmpli~mce, trnplement additional
I   recorm11endations in this second report, consider additional measures to
    erihance privacy protections for NSL~·derived infrirmation, and re111ain

I   vigilant in ho.lding FBI personnel accountable for properly prepadng and
    approv:Lng NSLs and for handling responsive records appropriately. {U)


I         In acld.tUon to the steps taken to date to address the recon1111endati.ons
    in our flrst NSL report, we reconunend that the .FBI: (U)


I         1. Create blank ntandatory fields in the database supporting the
    NSL data systern for entering tlle U,S, person/rmn-lLS. person status of the
    targets of NS Ls and for ente1ing the number of NSL requests in order to
I   prevent inaccuracies that rnay othenvisc result from the cunent default
       , ·'n,,bt>,
    se.n     ~o·~  ('ll.}
                       _.·


I         2. Irnple1nent xneasures to veri1J-the accuracy of d<:lt.a enhy into the
    new NSL data system by inducting periodic reviews of a sample of NSLs in
    the database to ensure that the training prm..ided on data entry to the
I   support staff of the FBI OGC National Security Lmv Branch (NSLB}, other
    Headquarters divisions. and fldd personnel is successfu:Uy applied in
    practice and has reduced or e!Jrninated data entry errors, These periodic
I
I
 I
 I   revie\vs should also draw upon resources available from the FBI lnspectton
     Division and the FBI's new Office of Integlity m1d Cornpliance (01C). (U}
 I         3.. Implement n1easures to veri:f}' that data requested in NSLs is
     checked against serialized source documents to veri:fy that the data
I    extracted frmn the source document and used tn the NSL (such as the
     telephone number or e-1nail address) is accurately recorded on. the NSL and
     the approval EC. (U)
I          4. Regularly inonitur the preparation of NSL-related docurne.nts and
     the handling of NSL--derived infurmation v.rith periodic reviews and
I    inspections. This includes requiring that du1ing quarterly file review~s.
     squad supervisors conduct, at a rnin.i.1nu1n, spot checks of NSL-related
     documents in investigative files to ensure adherence to NSL auth.01ities,
I    Attorney General Guidelines, and internal F'BI policies governing us(; of NSL
     authorities. (U)

I          5, Assign. NSLB attorneys to participate in perth1ent Ineetings of
     operational and operatJonal. suppoli units in the Counterterrorlsn1 and
     Counterintelligence Divisions, (U)
I          6, Consider increasing the stafilng level of the ore so that tt can
     develop the sufficient skills, knowledge, and independence to lead or directly
I    carry out critical elernents of U1e OIC's work, (U)
            \Ve also :recmnrnend that the Depmtntent; (Ul
I           7, Direct that the NSL \Vorking Group, \Vith the F'BI's and the NSD's
     participation, n>exarnine rneasures for fa} addressing the privacy interests
I    associated ·v.rith NSL-de1ived infonnation, includlng the benefits and
               ... of labdh1g c.ir tag;ging
     feasibility           ........  .....
                                      ...   -.~   '-~
                                                               '··
                                            NSL-derived in.forrnation, and (b) nunimizing
                                                                                        .......
     the retention and dissen1tnati.011 of such information. (U}
I
I
I
I
I
I
I                                                       74

                                                        ~
I
I
                       CHAPTER THREE:
I   THE FBt•s 2007 REVIEWS OF NATIONAL SECURITY LETTERS
       IN RESPONSE TO THE OIGtS FIRST NSL REPORT (U)
I           In th.ts chapter, \~re describe additional effmts undertaken by the FBI
    in response to the Off}'s 2007 report to reviev;.r the FBJ:'s compliance with
    statutes, guidelines, and inten1.al policies goven1ing the use of national
I   ,J.cun}                  " .., \...sc.··
    s-·, ·t· r 1L:..·t·t··..LI:-:>,      ,,.c,t··    "--· __, ·11
                                               .wn 1 C1CSU1         .,, t·1·lrCt
                                                               . .. u~
    2007 in response to the OIG's findings.. These three FBI reviews were
                                                                              . ,,.,..t:'·1:3r  . ,...,.lf.\:\:S
                                                                                         t:. .. IT.\      ""' th · r- N·sr  ..t.(l.l1C!l.1C
                                                                                                                      . ' ..s  , · ~ ,1-"         ··
                                                                                                                                            .CC!~ ill



I   undertaken to assess the extent of the errors in NSL usage. The FBI
    conducted: (1) a review of NSL~ issued bv
                           ~   ~                                                   ,....  FBI field offices from a random
    smnple of 10 percent of all national security investigations active at any
I   tirne fron1 20(X3 through 2006; (2) a separate revl.e\v of I 0 percent of NSL.:;
    issued by Headquarters divisions during the SErn1e period; and (~i) a review o:f
    NSLs issued in counterintelligence investigations pursuant to the Fair Credit
I   Rf~porting .Act {FCRA) frmn 2002 through 2006. {U}

          The OIG analyztxl the results of these three revk~\vs to assess their
I   rnethodology and accuracy. Section II describes the results of the OIG's
    analysis. (U)

I          The FBr's revie\VS '\Vere initiated soon after the issuance of the OIG's
    first NSL report in Macrch 2007, In that report, the OIG had ex:a1nined a.
    Judgment.al sm11ple of 293 NSLs from 77 national security investigation case
I   files. In our sample. we identHled 22 NSL~relatt.'·d possible intelligence
    violations, \Vhlch represented a poss1ble int.ell.igence V'iolation rate of 75
    percent"13 These errors included both improper requests from the F'BI and
I   t.mau:tlmrized collecUons due to third party errors. {U)

           As discussed later in this chapter, the findings of the FBI's three NSL
I   reviews generally confinned the OIG's findings as to the types of errors .made
    by FBI agents in their use of NSL autl1orit:ies as well as the unauthorized
    collect.tons caused by third pmi:ies that provided the FBI with infonnation
I   that was not requestef..:L CtuTent FBI poli.C\Y requires that substantive errors
    in the use of NSL authoritjes by FBr personnel as \:veU as errors caused by
    third parties resulting in overproduction of information to the VBI be reported
I   to t11e FBI OGC and the FBI Inspection Division as potential Intelligence
    Oversight Board {IOB} violations {PIOBs), The FBI OGC reviews these reports
    and detennines if the FBI has reason to believe that such conduct "may be
I   unlawful or contrary to Executive Order or Presidential DirectiVe," the IOffs
    reporting stm1dard under Executive Order 12863. Although the types of

I            'Ute FBI OGC c<.mduded that on.iv 5 of fat.'. 22 rnatters identified bv U1e OIG's first
               4 :>

    NSL report as pnssible !ntdHg(~nce 'lr!olatim;s should be reported to the IOH ... (TJ)

I
                                                                         75
I                                                                ~
I
I   poss.· th. le I.OB. \ .io. h.·1tJons identiflt'.::d by the OIG in o.ur first NSL 1.·eport m.·. 1~S           bl
    :F'BI's NSL rev:ie\vs \Vere sirnilar. the FBI's :field review ot a larger sa1npltL___j                       b3

I   case ilks, found a higher overall possible violation rate {9.43 percent} than
    the OIG found in its smnple (7.5 percent), 44 ~)


I          Ho'\vever, vvhen \Ve analyzed the FBI's l 0-percent field office review,
    the OIG identified ac.klition;;.:tl possible tntdl~gence violations n1issed by the
    FBI. Moreover. inspectors v. n~re u.nable to locate records obtaint~d in
I   response to G.8 percent of the NSLs selected for the fleld review.45
    Consequently, we belk;ve that the rate of possible violations identified by the
                                                                                     .

    FBI in its 2007 field review is stm understated, m1d therefore the FBI's field
I   revievv does not provide a frilly reH.able baseline from which to Ineasure
    improvement. in cornpHance lvith NS:L auth01ities in the ft.1ture, (U)

I         The OIG's review also ·fou.n.d that the FBI reclassified as
    "administrative errors" some issues that initially wer('. reported as possible
    tntemgence violations du1ing the field reviev;. F'or some of these
I   deficiencies, r,,ve are concerned that use of the phrase "ad:ministrative error"
    appears to understate the severity of the possible violation. {U}

I          The F'IJrs 2007 re-vie\vs also identtfled two issues involving the use of
    NSLs that previously had not been fully addressed by the f'BL 111e FBI's
    reviews deterrnined that: {1) FBI field offices received and retaln.ed Social
I   Sennity Numbers and date of birth infbrmation in response to NSLs seeking
    subscriber infonnatlo.n pursuant to the Electronic Cornmwti.cattons .Plivacy
    .Act (ECPA), even though this information \Wls not requested in the NSLs;
I   and (2) field offices and Headquarters operating divisions were often unable
    to locate records obtained in response to NSLs. (U}

I          The F'BI's 200'7 revie\-'ii'S further den1onstrated that the F'Brs
    mechanisn1 for identil)nng and se:lf-reporting possible intelligence. violations
    had. been tnetfoctive in the years since enactrnent. of the Patriot Ad in
I   October 200 I .4B {U)



I                    FBI used a statistically valid sa.Inple that allowed its results to be projected
              44 ']1ic
    to the            of all NSLs issued by the FBI during the 200;3. through 2(}06 :reviev; period.
             unfvers<-~


I   ln m.1:r frrst NSL report, the O!G used a Judgmental sarnple, and the results cm.!ld not be
    statisticaUy projected to the universe of all NSL-$ k>sued during the revtew· period. (TJ)
              '1 ti   'I1R~   problems locating n~~spormive records likewise am..~cted the FBI's other

I   re\ie:v.ts: :recnrds provi<kd in response to .28 percent of NSLs examined. in the
    Headqu<:wters review ·w-ere not initially 1ot.'.<1:ted, aru:L in the FCH.A review, 13 of the 56 held
    offices (2~) percent] reported being unable to locate responsive records for l or more FCHA

I   NSLs. (UI
             'w Tht term "USA PA'l1UOT Ace is an acronym for the Unii:ed and Strengthening
    .Arnerica. hy Providing .Approprtate Tools Required fo Intercept and Obstruct Tem:rrfrmtA.ct qf

I                                                                                                    (Cont'd,}


                                                             76
I                                                       ~
I
I          In stun, we credit the FBI for using a reasonably sound rnethodnlog_y
    in conducting its revie\VS of NS:L activities. for cormnitting signillcant

I   resources to the reviews, and for rnaking the e%-untnation and analysis of
    the results a high. prior1ty. rts revle\:vs confirmed the prohlen1s that the
    OIG's first NSL report identified. Although our .a.na.lysis of the FBI's Held

I   and Headquarters reviews shows that the FBI was not able to a.sceii.ain the
    full extent of the possible 'ri.olations of NSL authortt:ies in national security
    i.nvesUga.tions, the OIG nonetheless b(:lieves that the results of the FBI's
I   reviews can help guide the corrective action that the FBI is implementing to
    enhance cornpliance \\.ith NSL authorities, These reviews again demonstrate
    that the additional remedial rneasures being hnplernented by the FBI are
I   necessary and should re.main a p1iority. (U)

            .tn the foUowi.ng sections, we dlscuss in more detaU the F'BI's 2007
I   rev:ie\vs and our analysis of thern. (U)


I   I.               The FBrs 2007 Reviews of National Security Letters (U}

           In this section. we exarnine the nwthodolog_y and findings of three

I   reviews conducted tn 2007 by the F'Bl's Inspection Dtviston in n .~sponse to
    the OIG's flrst: NSL report: (1.) a review of NSLs issued by FBI field offices
    from a . .randmn sample of I 0 percent of all nationaJ security investigations
I   active .a.t any tin1e :frou-1 2003 through 2006; (2) a sepa.rate revte\v of 10
    percent ofNSL.s issued by Headquarters divisions dnriJ1g the smne period;
    and {~J) a revi.ew of NSLs tssued in alJ countelintelhl!e.nce tnvestig·auons                                                                                       ).,..._~                                  '-'



I   pursuant to the ·FCH.A frmu 2002 Uu-ough 2006.. (U)

                     A.                  The FBrs 2007 Field Revi.ew of National Security Letters
I                                        (U)

           In response to the Of G's first NSL report, the FBl conducted a special
I   review t.o a . ssess whether FBI fkld oillces complied \\.1th NSL statutes,
    Attorney General. Guidelines, and intern.al FBI policies governing the use of
    NSLs and whether cert.a.in field offices had htgher than average PIOB
I   violation rates. The FBI assigned a large rmrnber of senior iilSfH:~ctons to
    conduct the rev:iews quickly, and t11e :f~BI made the re\.1e\v and analysis of
    the results a hig:h pliority. The FBI used a statistka.lly valid smnple and
I   audit n1ethodolog.,y that aJ10\ved its results to be projected beyond the
    san1ple of NSLs it reviewed to the universe of NSLs issued by the FBI during
    the review period. {U)
I
I
         ---·~··' · ' - ' " " - ·- · - - · · · · - ' · · · - · - - · · · · · · " · ' · · - · - - · · · · " " - · - - · · · · - · , _ , , _ .- · - - · · · - · , · , w -............w,,.•~---·--··--•--••••••••••••••••••••--••••••••••••••···--······•····"-




    2001, .Pub. L No, 107--5G, 115 Stat . 272 {2001). H: is commonly :referr\:d to as "the Patliot
    Act'' fUl


I
                                                                                                                          77
I                                                                                                            ~
I
I                                                                                                   1.                             Methodology of the FBl's 2007 Field Review (U)

I                              To conduct its field review, tile FBI selected a randon1 sa.rnple of
                         10 percent of the case. files in the three types of investigations in which
                         NSLs niay lmvfully be issued; counterterrorisrn, counterintelligence. and
I                        foreign cornputer intrusion cyber tnvesttgations. 111e FBI detenntned that
                                                                            ~ t· 1· ·1 · t·' :-·. ~.s ~ · :· t· ·} · rp· · · e· · · s· · ·c · )· 1· · · 1· ·n · ·.v· "' ·<:· "· · s· · 1· · 1· ·h ~.:-. a.'· · t·' · ·i ·t ·).        ~~.
                                                                                                                                                                                                                                                                                           bl
                        January......t.-.·1,
                                          ...      .. ...e
                                                2003.          and Decen1ber 3 Ln. . .2006,           ·.s· ,· · '.·..:ve             a cti····"·'
                                                                                                                       .. , r.. ... a.nd     ra.11do1nly               in. . . 1.e.; . br:-J'uee·n
                                                                                                                                                 t: a.i.. an..y . t....seh:icte             mmmmmmmmuj                                                                                     b3

I            \S)        c:ise Ilk:s fo:r revie;.v. 'fhe FBI assigned 170 :1.I1spectors to review the case
                                                                      47
                        files at 56 tleld offices over a 5--day period (:March 16, 2007, to Iv1m:ch 20,
                        2007). The inspectors were hv;tructed to revie\\r every NSL and related
I                       document ln each selected me. to determine if any possible intelligence
                        violations occurred. \.Vhcn the review \:Vas con1pld.ed, the inspectm·s had
                                 "'l ,. ., , , 86"
                        rt.v1evve<                                                                 ~- ·•.e. t.±· ~;o-e··
                                                                                              .. 6 r1""                                                   . 1 l.oy tl-1·       · e re'\!'.        -!S l\i"}
                                                                                                                       1
                                                           . ·" . .,.,s 1"'su
                                                   ..:> N·S"I"           'c>"·e·cl" .....n··1'11r>
                                                                                . ,..1·,                                     y . . a.rs
                                                                                                                                      .• ,...d.)y··.erec
I
                           > ·'                i:.                                                                                                                                          le\"'.,,  ~                                                       H




                                       Because rnany of the inspectors conducting the field revie\v had no
                         traini.ng or expe1ience in issuing NSLs or wiU1 national security
I                        investigations, the FBI provided training and guidm1ce on conducting the
                         review, Inspection. Division supervisors and FBI OGC attorneys told us that
                         they repeatedly instructed the inspectors to "err on the side of over-
I                        reporting" possible intelligence violations even if they- did not involve an
                                      . ·1 a t·et.i. v..o
                           ,,_· . ..--re
                         iNSI                         ~ lanon:
                                                          .'   - Also, t•:i1e
                                                              ·N          1
                                                                               ........1e:·r· ..r)'lv'1s10n
                                                                              (''h          ,'!       ' .' c,ounse
                                                                                                            .,     ls ('"DC)
                                                                                                                       c. . a.t eac 11
I
                                                                      47        The F.Bl Mmp.k wm~ proportional by case type (counteri.erro:rism.
                   ~·S·t E61..fritedl'.1lell:l.g?lite,··{~itt··cyb~:~··m:e,~~tga~:nns)··ar:d·tleld··offl.tx.'.;···Th~cases induderl .,.
I                {S)
                          investigations- for wh1ch UH.: 1• Bl 0(.i'C NSL tracking database shm~ one or more NSLs
                          '.1ad l:iee11i~_8l:ted a: \v:l~ ~ · v sti~ations in .:'.rh:ich the dat.;base_show•~d no N~Ls. The
                                                                                                                                                                                                                                                                                           bl
                                                                                                                                                                                                                                                                                           b3

           ~S)            1nspectoratoi.n1d N$1,s 1r             ()f t.l1e cas{~flles, 111e numner o.! case files• rev1e•ved at ea.ch
I            tSJ         . fi.'..'.c....~l..t···!··               1.. ~..~.· i:·' l· · .' ·.'...···I·'~ ·"l-J.. ·.~..;.(·'·'···t···i······:fi··········f·,,····i···1·············· · ·1· ·r· · l· · ·t·r··:l···t·"'····· El Pas() and Anchorage fk:ld offices t<:r=--ln the l'>Ie\v York
                                                       ....1.·:.1..
                       ~office, The numlH.:r o"NSLsr{~\dewedinea.chfiddoilkeranio:e<lfrillOi:S'ax.ville to
                                                      t.)



    \S~
          rs )                 the Washington, D, (~. < fi.eld tJffic{:5, }"JH.: fJ3I0.nmdon1 s.a~;pleinclude. ···········cases that
                       L. . . . Jn
             tSt
I                       \Veredestgna.tedi':ls:F'Bl Headquarters 1nvesHgaJions. There were 16 NSLs v.rJt 1m hese case
                        fiks, and these NSI..s tV(~te reviewed <'lS a part of the FBl's Jleld audit, not the l-kadcp.1.<~Jters
                          audit                                   ~}


I                                  etH How'.Cver, the FBI inspectors could nm loe:ate n:x:ords in response to 532 NSLs,
                          <:md l, 175 NSL-.~ {lnduding thest:'. 532) \Vere not fltlly revie'.:ved hec<:tuse the inspectors could
                          not find ;Jll rele:nu1t docti.nlents (~~:pproval electronic i::omrnunica:tfon (EC)), NSL, mid
                          responsive records) or were i;mable to m~tke a detenuin<:(tion as ki whether a p<.lssibk
I                         intdHgerwe viobJion had occurri::d, We did rwt lndude in our calculations Qf tlk
                          unauthod;~ed. collection p-o:rUon of the PIOB error rates NSLs for which respon~~ive records
                          could n.nt be located. (U}

I                         th<.~
                                       ln.specti.un Di.vision personnel supervising the audit told us that they instructed
                                                                      4\l

                               inspectcn:-s not to search case mes for in.fractions unrelated to nation<\l ~;t::curi.ty ktter
                         authorities (for exa.rnple, if investigative activity imrela.ted to NSLs occurred aner
I                        authorization kw the investigation had lapsed), Howt~ver, ifthey encom:rtered sud1
                         -.,.1olations, reforn::d to· as "other" rnportable possible l.nteHlgence violations, they were
                         instrud:(~d to document the possible violations. {U)


I
                                                                                                                                                                                                                                 78
I                                                                                                                                                                                                                 ~
I
I   field office \Vere rnade available to answer questions fron1 the inspectors
    \~\thile
           they were on site at the field offlces. {U}
I          \Vhen. the inspectors noted possible violations du.ring the field review,
    tlley v.tere instructed to give a paper copy of the NSL, the associated
I   approval n1emorandLun (retei-red to as the approval Electronic
    Cormnunicatlon or EC)i and a PIOB violation fixrn to the fidd office's CDC.
    The inspectors also transmitted the results of their reviews. to the Inspection
I   Division on a daily basis. The Inspection Division ag_£._.rregated this
    information into a consolidated database for analysis, (U)

I          For each possible inteUigence violation the FBI inspectors Jdenttfied
    and reported to the rnspecticm Division the CDCs were instructed to n1ake a.
    preliminary decisio.n as to whether the matter should be reported to the FBl
I   OGC as a possible inteUigenee violation based on guidance issued by the
    FBI OGC in November 2006, These preliminary decisions were forwarded to

I   the Inspection Division. Regardless of these initial decisions, the CDCs were
    instructed to then tnakf: a.n "official" dd.ennination in \Vriting m1d fonvard
                                                                     '"
    those decisions, afong ·with all NSL--related documentation, to the FBI

I   OGc.so As ofF'ebn1a.ry 2008, the FBI OGC was in the process of
    adJttdicating \Vhich rnatters in fact \Vere reportable to the FBI OGC and
    deten:11ining.. whtch inatters should be report.ed
                                                .      to the IOB. {U}
I                       2.     The FBl's Post-Field Work Analysis (U)


I         Upon completion of the field review, supervisors in the Inspection
    Division analyzed the results repo1i:ed by the inspectors to identity the
    extent o:f the NSL-related possible intelligence -violations in each FBI field
I   o:mce. Durtn.g their prelirninary revie\v of the results. the supervisors
    discovered that: (U)

I                   •   son1e infonnation e:ntered by tlte inspectors was incomplete or
                        contradictory; (U}
                    •   sorne forms repmted possible intelligence violations that the
I                       supervisors did not believe rose to the level of being reportable;
                        and (U)

I                   •   certain field ofike:s had significantly :lower rates of _p{'jssible
                        intelUJ:{ence violations compared with other fleld offices. (U)

I              50As of nec:etnber 4, 2007, <'ln Inspection Division supervisortokl us that all 56
    C.DCs had forwarded documentation of the :reported possihk intdHgence violations to the
    FBI OGC. Ho\\'°\~ver, some CDCs did not make of'tlcial dete.:n:ninatfl.:ins of whether tli.e
I   matters reported t<.i th(~Jn were possible intelligence vif.)lations: instead, these CDCs n:H.~rdy
    fon1;1an:k-d the facts und doeumt:~nts. related to the potential intelligence violations to the FBl
    OGC for its review and detenni.nation. fU)

I
I
I
I          To resulve cm1tradictions in information submitted by inspectors and
    determine \vhether possible intelligence violations had occl.UTed, Inspection
I   Division supervisors perfonued \vha.t they termed a "scrubbing process"
    during \vhich. they exa1nined each :form to identify and resolve any
    discrepancies, Specifically. the supt~rvisors reviewed the PIOB fmms to
I   determine why some forms ·were sttbmitted without identifying a possible
    intemgence violatton and to resolve contradictions bet\veen possible
I   violations noted m1d the tnspect.ors' c01n1nents. {U)
             SiJnultaneously, the Inspection Division supervisors requested

I   guidance from the FT31 OGC regarding -vi:0lati.ons that the supervisors did not
    believe rose to the level of a possible .intelligence violation, such as instances
    in \vhich h1spectors were unable to locate the signed copy of an NSL.51 'Il1e
I   FBI OG·C agreed \vi.th the snpervi.snrs that eertaln types of errors noted by
    the inspectors did not constitute an NSL--related possible intelligence
    violation, Consequently. the ftBI OG·C atton1e.ys created a list of 11 NSL--
I   related infractions they terrned "adrninistrative enors." Table Et l provides a
    list: of the infract.i.ons the FBI OGC deemed NSL--related adn1inlstrative
    errors. Using the FBI OGC's list, the Inspection Division supervisors re--
I   examined the entries on the PIOB fon11s an.d determlned \Vhether they were
    reportable NSL~r1dated possible intelligence violations or ach11inistrative
    e.rrors.   {U)
I
I
I
I
I
I
           fiJ .As we rq>effted in our first NSL report, FBI policy did not require retention of


I   signed copies of NSI..J~. fa March 2007, .in resp<mse to the OfG's recom1nendat1ons. the FBI
    directed U1at signed copies of NSLs rnust be retained tn the invt~sugative file to \vhich the
    request relates, Sec Records Management Divis.ion, f<'ederal Bureau of lm;rcstigation {F'BI},
    decfronir. comrnunicaUon. to <:"lU Divl.sionB, Ptocedur-nJ and Operational Issuances, March 9,
I   2007. ~A.s desciibed fully in Chapter 1\vo oftllis report, FBI policy now requires that the
    NSL itsdf must be uploaded as an NSL dor.1.-unent into the Automated Case Support {ACS}
    eystem. kt fUl

I
I                                           80
                                            ~
I
I                                                                                         TABLE 3.1
    NSLNRelated Infractions Identified in the FBrs 2007 }'1.eld Review Later
I           Classified by the FBI as ..Administrative Errors.. (U}
                         (Table below is Unclassified)
                                            ---------------------------···-~~~~~:--:;·~~~-~;~~~::--·----------·········--------·--···············~-T··-riumber                                          or ·
I    t-------··--··············-~-------------------------------------------------------------------------------------··--------------------·-----·-······-....J....!~~~~~~~~---
     t__   ~~i;~~;;~!r~~~;:i;~~~~!~i~;·t·:ll~~~{r. ;.i~:.;.~~!ii::~~.~~~.:.~:~;~~;i~r~:~f:~;~:i~-:~~~~~;~~~1·------t·-------.--·-w. · · ··. :~~ -
I    [
     •••~?~?!.~~E~~~~--~~:~~:~~--~~~~~~:~I:~..!~::.!!~:~.~~~~!:mm••••••-'"'""""""""""..m•..                      ••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••.L••••••••""-•••'• _ _ __



     ..~J!E:~~~~!..!~~~--~~~9-..~~~~~--~!~~--~P~~,:~!!~~,~ ta~~~~:~!~l'. au~~-~~~~:~~L~~--~~~~~~~K.!~~~'..:~0.~::... i________________ 13~-

I    ---u;~~;};t~t;-~j:~l~~'.~;;;;~rr~\t?tsr::·~~~~~-;~;~;~~i--···-~---··----------·-····································----------······l···------------ 1~~-
      ·······-----------------------------------------------------------------------··.
                                                                                      -------·--·--·-----~-----------------·--~--------------------······------------------+-------.________   ~---

           Unabk to locate initialed/ approval l<:C requesting issuance of NSL                                                                                              l.               . :n
     ~~~~i~i~i~~:~!-~~~~L!~~~q~i~~~~~~~x~~~~~~~~~--~T~rs~I~~~ke~i--;~rei~i~!~~~:~~~~i~r!~!~:!~!-~~~~---~~T-=~==---·-~·---so--
I          Records requested in approval EC diffored from records reqtu:.'.sted in the
           NSL
                                                                                                                                                                                                          ;3;3
                                                                                                                                                                                                                              ,
           S~•:lt1.:~~ry aui.lKffity ~~Hed                          in the approval EC dilfrred from iht:'. citatlnn in                                                             ········--------~3~1·--1'
I          tht:            NS.t..
             ............................
                                -~............




           Error in lyph1g/n_'.('Ording ofNSL date
                                                                                                                                                                                                 __ .. ____ ,. ............
                                                                                                                                                                                                          20                  i

           E~:~:~ir in typing/n:x:ordl.ng of <lpproval EC date
                                                        ····-------------··""7"]
I     ~'1%TI91~'WA.,~•k~~·'\%'1TI9(wf\~1ti&fa+h\~Bt.a~~J~9111l8!


I           Finally. regarding the variation in PIOB violation ra:b.~s bet\V{~t"'.-n field
    otllces, the Inspection Division supervisors vrere concerned that the
    inspectors who reported lmv PIOB violation rates for the field ofikes to
I   which they "\Vere assigned may have missed possible inteUigence violations.
    To deterrnine whether that had occurred, the Inspection Division conducted
    follow-up visits to six field offices to re--rev1ew the fUes exmnined during the
I   initial inspection. ·n1e superviso:rs' concerns proved correct, During the
    initial field visits, the inspectors had id.entitled one NSL--rel.at.ed possible
    intelligence violation in these six oflkes. Inspectors assi51T1ed to the follo\.v--
I   up VIS.its found Sa additional possible intelligence Violations that '.Vere
    missed by the first inspection teams. (U)

I                                               3.          The FBI•s Findings (U)

           After the Inspection Division supervisors con1pleted the scn1bbing
I   process, they reported to the OIG that as of Novernber 2007, they had
    identitled 640 NSL--re!ated possible intelligence ';1olaUons in 634 NSI.s. 52
    These 640 rnatters included: (U)
I
I           s:oi The d<:lta pn~sented belotv desc-;ribing th<'. G40 NSL violations is a sunnnary of the
    inHfal decisions made by CDCs dmi.ng the FBf s field r(~View m1d does not reflect the final
    ckdsions Umt \-ViU be rnade by                                       UH'.~   F'BI 0<..1-C, As we~ previously noted, as of I<'ebruary 2008

I                                                                                                                                      {Cont'd,}


                                                                                                      81
I                                                                                           ~
I
I                  •    Improper Authorizations. Approximately 6 percent involved
                        violations of internal FBI policy designed to ensure appropriate
I                       supervisory and legal revi.e\v. These included instances in
                        which NSL5. were issued fro111 investigaUons that were tnactiv't:
                        or had not been properly authorized, lacked docun1entation of
I                       predication, Jacked d.ocu111entation of required approvals. or did
                        not docu:rnent the relevance of the requested infon11at:ion to the
                        undedytug; investigation .in the approval ECs. (U)
I                  •    Improper .Requests. .A~pproxJrna:tdy 4 percent involved NSLs
                        that requested inforn1aUon the FBI \Vas not authorized to
I                  •
                        request (TJ)
                        Unauthorized Collections. The majority {90 percent} invDlved
                        the receipt of records not requested in the NSL or the receipt of
I                                                       .   .   .        ... .(TJI
                        infon:nation not relevant to an P'BI investii;[ation.
                                                    .                          .           ~··




           "lJnautho1ized collections" .ls a phrase used by the FBI and the OIG to
I   describe several circu111stances in which the FBI receives infbrrnation in
    response to NSL"> that \Vas not requested or \Vas mistak.enly requested. For

I   example, n1any unauthorized collections occur due to errors on the part of
    NSL recipients when they provide rnore information than vvas requested
    {such as records for a longer period of tirne or records on additional
I   persons). ·n1e FBI s01net1mes also refers to these rnatters as "cp..rer
    collec.tions;; or "overproductions.,, ·\Ve refor to these as '"'initial third party
    enors" beca:use, v.rhile the NSL redpient n1a,y initially have provided rnore
I   inforrnation than n::quested, the FBI may or 111ay not have com.pounded the
    i.ntUal error by using or uploading the infonnation, Other unauthorized
    collections can result frmn FBI errors, such as \vhen a typographical error tn
I   the telephone nun1ber or e--rnail address results in the acquisition of data on
    the ·wrong person or e-mail address. Vv'hen we present data on
    "unauthorized collections" tn this report we note whether the infraction
I   occu1Ted due to initial third party error or FBI eITor. (U)

           Table 3.2 provides more spec.tile infonnation on tl1e types of NSL-
I   n::lated possible intelligence violations identified du1ing the FBl's field review
    arid shmvs hmv niany tirnes each type occu1Ted, ln the. table bdo\v and
    else\vhere in this report. \Ve use the phrase "initial third party enor.. to
I   describe a n1tstake initially attributable to the NSL recipient of ptovidtn,g
    more infonna:ti:011 than requested by the l/BL In some instances, FBr
    employees identified such overproductions and segregated ·the inforrnaiion,
I   ---------,-----------···-------·········-··················------····-"''"'""'""'"""""""""""""""""""""""""""""""""""''"'"'"""
    the FBI OGC had not completed reviewing and acijudlcating aU of the possible intelligence

I   viobtlons identtiled during the FBfs field review. The FBI OGC 'will m;;Jke the
    detennination as to the t~n)es of pnkntlal intelligence violations that the field should report
    to the FBI OGC a;s well as the violations the FBI detennines W«~ n~port<:i_ble to UR~ lOB. (tJl

I
                                                                    82
I                                                           ~
I
I        rather than using it or uploading the inforrnation into FBI databases.
         Ho\vever, w·e found that in all but 1 percent of the instances identified by
I        the FBrs fleld review (4 of 557), FBI personnel
                                                ..
                                                          fi:liled to identify
                                                                             . the
         h11prope:rly provided infon11ation and thereby failed to take required steps
         :for sequestering the infonnation from the case flle m1d ensuring that the
I        inf~)1Tnation \Vas not used or uploaded into F~BI data~bases.f:'3 Because these
         Sfi:3 m.atters were not tdentHled by field agents or supervisors, they were not
         self-reported to the FBI OGC as required, (U)
I                                            TABLE 3.2
                                Possible NSL-Related IOB Violations
I               Identified in the FBI's 2007 Field Review (2003 through 2006} (U)
                                    {Table below is Unclassified]
                                                                                                                                                                               -----------·-·1··--------------------------------
I
    ~
         ------------------------------.,---------------------------------------------------------------------------------------------------------------------------


                                             l                                     Possible NSL-Related                                                                                          !
              Category                      !                                         IOB Violation                                                                           NUm.ber ! Percentage
                                                                    u
         i~;;1~;rn1;~;~~-------T NSi~-i-~s ~;~i--~~~tl~--;~~;-·;;·~~t~i~~-;~i;~;~i-·i;;~~~;~ti·g;ti~;n {;;~--                                                               ----·····2-·1··----------------------------=--
                                            l case ever ()pened)                                                                                                                                 I
I   1    1\uthorlza:Uons
         WBI error)                         l N&L lachx~d predic~1til:m -:~;~~ffl~jenl                                                                                                           5                         ------
    I                                       1 justiJication, or infonnation sought not rdev;:u-il
                                            l to U-w invt.~stigaUon
                                                                                                                                                                                                       I
                                                                                                                                                                                                       t
I   ·1




    :
                                            : NSL isscu·xl in a p1.;el:ii:ni~;~:uy investigation prior
                                            l. to      ~fonuarv
                                                           l 6, 2003
                                                                                                                                                                                         "0!
                                             l NSL issu~l in a prel.in11~~;:11y il~l~'estigaUon under
I   I
    I
                                            I FCRA bet~v~~en .January 16, 2003, and
                                             l~   r·)=c ''nll"f'-·t'              ''0{)~<C..~
                                                                           '31. "'J
                                                                                                                                                                                                 2
                                                                                                                                                                                                      1~                               ·'

    :
                                                  - ~-- •. {. . ..,!~.....
                                                           ....·-----------------------------------------------------------------------------------------
                                                                           ..   . . .:
                                                                                                                                                         .. ·····--------   -------------------- .. .... ..........................
    I                                                                                                                                                                                                 !
                                             ~--·-.-----------                                                                                                                                              ,   ,
                                             j N_'.SL lacked approval ()f Senior Executive Service                                                                                           28
I   ·

    I:
                                             ·
                                             l o~~•,-+--1
                                                 H.h. ...:l
                                             !···----------~--.-------~------~-----.--------------.-----------.----------------···.··----------··
                                            1 N~L   requested before or after authorized period                                                                                                  3    !
                                                                                                                                                                                                       1!
                                                                                                                                                                            ·······----··-····---·-···----..-·-·······--------·····--------
                                                                                                                                                                                                                                       -
                                            : ot investi1taHon                                                                                                                                         l

I   l                    ___                 l,:00:1:.;::.-:0~tjl"1li.m:lgP.111.\ttt.~~D.t1i.)l-;;0···11.-::,1:1' ··:I1:0-·I;;;;i.9I:~.--.-:1:::=01.::•=••i:~~lmi::,•
    ~er                                     1 NSL            isstted timler FCRAv for a consumer full                                                                                         14·     !                                ~
         R(:quest:s                         ! credit report in a cnunJe:rinte11igence case ·\vith                                                                                                     j'
I   l
    1
         (FBI error).         !
                              !
                               '
                                                  no nexus to tnte:rriaiiona1 krr<wism
                                             t··---------------.---------------------·------------~------:---·--------- ------------------ .-------------
                                                  NS.L--n.:q1-H.~skd
                                                                 information lx.~yond the sco1w                                                                                               10       i                               -

                              i                                                                                                                                                                       j
I   lL--------~------·~.-._[iili~m:::;;;;;;;;;.::·••::
                                                  pemiissible by statute
                                                       ;;;;;;tt?1ft~jliR!#P.~t:119ijiis~1,~11
                                                                      •.                                                                             ;;,;;mi··:      ;;;;;I' •!·=· ;::~m:=~~0~;;r;rn:.:1,~1.f~R~1:1

I
I                        153
                   As dfatuss<:.~d jn Chapter Sev('.n. on August l, 2007, U-1<~ lOB di.reeled the FBI
         OGC to report third party <~r-rorn that ~ff<~ cmnpounded by Urn FBL i\.fter this direction, FBI
         OGC oflkials told us that th<T began e..,,·a.luating third party en-m·s t:o determine if the FBI
I        compounded the errors by using the inapprnpriately provided infon:natinn or uploading it
         into FBI databases, If the FBI compounded a third party error, Fm OGC offki<.tls told us
         they would report the matter to U·w IOR (Ul

I
                                                                                                                    83
I                                                                                                        ~
I
I       -----------------------------------------.-------------------------------------------------------------------------------------------------------------·-,--------.----------------------------------.
                                          i                            Possible NSL-Related                                 i                l
               Category                                                        IOB Violation                                I Number l Percentage

I         Umtt:tthor:L~ed                  I
        -----------------------------------------------------------------------------------------------------------------
                                            The NSL rectpient provided cbta in excess of the i
                                                                                                                          . . ..
                                                                                                                                  3G4 l
                                                                                                                                             j ------------
                                                                                                                                                         -
          Collections                     t--~SL l:~~-9ues~__iitlilia.l_~~~!_ JX:l£_~y- ern~!:L ____________________1_______________________                                 J_________________
         ~~~~:~;:~1~~~.;~r                 Ii    [i},e NSI;recipi~nl furn:;sr~e'.1 i;~co~~I or                                                          f            312       j                         ~
I        party· er·ror}                         ---~~~-~~!:~:t;h~;;~~-~~~~~~~~~~~~;;:t
                                                 NSL     issm.~d
                                                                                       _ _~:~------~~~-----=-~~--------------------L-------------t--------------------.-----------
                                                                  with typographical mistake,<:< in                                               10    i·


                                                 names,     addn.~ssc~•,     telephone numbers, account ,
I   i

    i                                      , nu:mbers, ete. (F'Bl errnrl                                                  !
                                            .. Nbt~;-:n;-e--t:~;:t,'11 of"tl:H~ ti;~:;~e r~w:-s_a_b_O_\t_e_r_n_u_st-:_b_e___,.i--(-11_9_·)_,__ __
I   I __ ___•~~li~~i~i~;; !%t :1n\~"!1~mihum'!l!fmlJl
                             ....._.
                                                                                                                                                        1
I
    ~......




I               As sh01-:\:'n in 1'a.ble 3.2, 576 of 640 (90 percent) possible intelligence
         violations were the result of the unauthcnized collection of telephone or
         e-rnail transactional records, financial records; and credit records pursuant
I        to the ECPA, H.FPA. and FCRA NSL statutes. These unauthorized
         collect.ions occurred due to errors made either bv     ,, NSL reciI)lents (initial
         third party en-or) or by the FBL For example., these included instances in
I        \Vhi.ch; (U)

                             1.          TI1e NSL recipient erred by providing data in excess of the NSL
I                                        request, such as providing Information for a full hilling cycle
                                         rather than provi.d.ing records for the sho1i.e:r period requested
                                         in the NSL 0 4, HJ}
I                           2,.          The NSL recipient erred by funtishing records or in:fonnation
                                         not requested in the NSL, such as infonnatJon on. indh·iduals
I                                        who used a particular telephone number or <>n1ail address
                                         chuing- dates before or a_fter the subject of the FBI
                                                                               -
                                         investtgat:ion.ss Certain NSJ, recipients a1so produced Scicial
I                                        Security Nuxnbers and dates of birth h1 response to ECPA NSLs


I
                 ::;,; ln May 2(H)6, the FBl OGC approved use of a revised attachment for ECPA toll
I        record NSLs tJiat included information "tvhich encornpa.sst:>;s the billing cyde that fs used
         with .resp<.xt fo thf~ <1.(:count{s) infonnation reql.u~sted" among the types of records U-mt may
         be considered by the recipients tu be ~h.ill btlUng records." (U}

I               ~·~· FBI OGC attorneys fold us that if the i:fate range in the NSL \Vas reasonable when
         the NSL \Vas Issued, and tht:.'. recni:ds recetved \Vere 'Within the date raxwe of the NSL, the
         FBJ OGC does not consider sud-i records to be unauthorized collection~. (U)               .

I
                                                                                                         84
I                                                                                               ~
I
I                  seeking subscriber information, even though this intbrmation
                   \Vas not requested in the NSL, 56 (U)

I                  'Hie f<~BI erre.d by requesttng information on the wrong telephone
                   ntunbcr, e--rnan account. or Internet Protocol address in the NSL

I                  due to FBI typographical errors, (U)

                   4.      Comparison of Findings in the FBI's 2007 NSL Field

I                          Review and the OIG's First NSL Report (U)

          The ftnd.ings of the ln3rs 2007 NSL field re-vi.e\\t '\:\-'ere generally

I   consistent \t..1ith the OIG's flndi.ngs in our March 2007 NSL report as to the
    types of errors inade by .F'.BI agents in their ·use of NSL authorities.
    Although the types of possible inte11igence violations ide.ntified by the OIG

I   and in the FBI's 2007 Held review were sin1ilar, the FBI's revie\v found a
    higher overall violation rate m1d a higher rate of errors att1ibutable to third
    party unauthmized collecUons than the 01(} found. {1J)
I          In the OIG's judg1nentaJ. sample of 77 national sec11ri.ty investigatton
    case ilks m.aintained by 4 Held oflkes, v;c identified 22 possible ''iolations in
I   the 29:3 NSL<:; we exami.ned that \Ve lx'jlieved should have been reported to
    the FBI OGC. 57 Of those 22 viola.tions, 10 involved unauthorized collections
    due to thtrd party error. In its 2007 field review, FBI inspectors revie\ved
I   6,688 NSLs for \Vhich an rf:levant NSL doctunents were available. (approval
    EC, NSL, and responsive records) and found 634 NSLs that contained 640
    possible violations. Of those 640 vtolattons, 557 involved unauthorized
I   collections att1i.butab:te to initial third party errors. A cornparison of these
    findings for t11e two reporting pe1iods is illustrated in Chart a. L (U)

I
I           ~Ri As discussed in Chapter Two of this report, L'l August 2007 the FBI OGC
    requested a legal opinion from the Department's Oilke of Leg'fil Cmmsd {OLC} on '\.Vhether
    the FBI may lawiiilly retain Social Security Numbers and date of birth information provided
I   to the FBI in response to NSLs seeking subscrilx~r information pursuant to the Electronic
    Communkntfr..ms .Privacy Act (E:CPA}, 18 U.S.C. § 2709!CL As of Febrmuy 2008, the OLC
    had not is;~tH.~d its opinion. (U}

I            'F Foll.oi;ring issuance of our first NSL report,. the FBI OGC instructed pertinent Hdd
    offices to r<~port the 22 potential .!OBs to the FBI OGC. 111e FBl OGC determined that only
    five were reportable to tfa~ lOB. 'l11e five matters that were reported to the IOB we.re

I   .issu.ance of an NSL without obtaining required approval to extend the. investigation:
    .issuance of an NSL for material that argi.rnbly constituted prohibited (:onknl; i:;;suarH.X'. of
    an .NSL dting the ECPA NSL statute that requested the Hight to Financial Privacy Act (RFP.'\,J
    fi.nanciHJ n.~cords associated 'With e-mail accourrts~ and issuance of hvo NSL"'> requesting
I   ennsunH.~r fhll credit repmis pursuant to lf> tLS.C. § 168lv in a wunterintelligence cnse
    'Ni.th no inten1ationaJ terrolism nexi.ls, (U}

I
                                                   85
I                                             ~
I
I                                CHART 3.1
      Comparison of Possible NSL~Related JOB Violations Identified in the
         OIG's First NSL Report and the FBI's 2007 Field Review (U)
I                        [Chart below is Unclassified]


I                                 """""""""""'"""""""'"""'"""""'"""'"""". . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . """"""'"!
                           9%

I
I
I
I
                                                                                                      F81 Field Revie·w
I      IWFBl NSL PIOBs
                                       OIG NSL l {2:003 .. 2005l
                                                                                                         (2003 - 2006)
                                                                                                                L10%)


I      lilThird Party NSL P10Hs
       0 T<}tBl NSL PIOB Rat!')                        7.51 ~·~-'


I         B.      Th.e FBPs 2007 Headquarters Review of NSLs (U)

          As a result of the OIG's findings in our first NSL repoi-t~ the FBI
I   Inspection Division also conducted a special revie1,v of NSLs issued by
    Headquarters divisions to determine the nature and extent of an:y problems
I   assodated ·vdth these NSLs, In this st:ctio.n, we describe the Inspection
    Division's revie\v of NSLs issued by Headquarters. divisions fron1 2003
    through 200(\ including the FBI's methodology, findings, and subsequent
I   recomxnendations. (U)

                  L      Background (U}
I           In our first NSL report, the OIG found that FBI Headquarters
    personnel issued approxlm.ately 300 NSLs exclusively from control files
I   rather than from investigative files. If NSLs are issued exclusively from
    control files, case agents and their s-upervisors cannot determine whether
    the requests a.re tied to substantive investigations. that have established the
I   required evident:iary predicate for issuing NSLs, Issuing NSLs from control
    files is contrary to .lnternaJ FBI pohdes, (U)

I
                                                              86
I
I
I                       2.    FBI Methodology (U)

            To deten11ine the extent of NSL,-related possible intelligence violations
I   in FBI Head.qumi:ers divisions, in April and May 2007 the FBI Inspect.ton
    Division revie\ved a randon1 sample of approximately l 0 percent. of 2A40

I   NSLs (24,9 were selected for review) issued betv;een January 1, 2003. and
    Deeerriber SL, 2006, by FBI Headquarters divisim)s. 53 'T11e FBI searched the
    .Automated Case Support (ACS) systern to identi:(y the universe ofNSLs

I   issued from Headquarters/in Once the universe of NSL.;; \Vas identified and
    the smnple was selected, the process used tu conduct the Headquarters
    revi.ev.r was sin:lilar to that used for the Held review: insp(::ctors u1arrually

I   and electronicaUy (through the ACS systern) revk:\ved docurne-ntation,
    including the approval ECs, the NSLs, m1d infonnation received in response
    to the NSL.<i> fi)r con1plia:nce with NS.L statutes, Attorney General GuideHnes,
I   and internal FBI policies. (U)

                        3.    The FBI's Headquarters Findings {U}
I           The Inspection Division's review of Headquarter~Hssued NSLs
    produced much higher violation rates than those the FBI reported. in the
I   field n::.~vie\v. In total. the FBI inspectors identif:led 165 possible violations in
    the 249 Headquarters NSLs they reviet-ved. The 2-<HJ Headquarters NSL.:;
    \\rere tied to 25 case files, of \Vhid1 15 were investi~ative files a.nd 10 were
I
                                                                          }   ..... ~·

    control fil.es. The Headquarters review also identified a type of error -
    issuance of NSLs solely from control fUes .... that wa.s not tdentifred in the
    FBI's field revie:\Y and that accounted for a significant proportion of the
I   possible intelligence violations. Over 50 percent (125) of the NSLs in the
    FBI's Headquarters revte\.\r sa.rnple were issued ex:dustvdy frorn control files,
    in violation of internal FBI policy.. As a result of these NSLs, the overall
I   PIOB vtola:t:ion rate for Headquarters-Jssued NSL.;;; \vas 7L5 percent~
    cmnpared \Vlth a 9.4-percent "liolation rate in the FBI's field review.~>o (U}

I   ----------·····-·-····
             51§ TlN fo.specUon Division's revie••..- of the Head.qu<:trkrs··issued NSLs consisted of a
I   JO-p<:~r<-:t'::nt
                  sa1npk ofNSts issued fn:u:u Headquartf..'.rs. This \Vas a diffr;rent me:tJmdology
    than that used in the fkhi revie\Y, \v.hidi consisted of a revi~wv of <:ill NSLs containe:d \Vitl1in
    the l 0-·pt;rcent sample of nmdmn.iy s<~kcted national security investigation case files. {U)

I   system to
               5
                   ~
                The Inspection Div:!sinn used a k~<:yv.'ord ::;.eHrch on approwtl EC~~ :tn the ACS
                ide~ntt!}1 Us unl:ver::>t:'. of NSLs. HO>\'(~ver, this seaxch ;vould have nlissed those
    NSLs issued wiUiout approval ECs, AddiUnrmlly. the NSLs ~>elected for the revie'.~v of

I   Headquarters' case mes could not be identified by casf:: .fi.le number through the ACS system
    be<'..ause NSLs :tssu.ed hy Hea.dqu.artern ofilcit\ls did not alwixy:s have a case fik assnciated
    \Vi.th the NSLs. (UJ


I           <>o Tiie FBfs Headquarters revk\:,1,r f<mnd NSL;'::; issut:.'.d fr01n t:":ontrnl fiks b<'.t~:ause the
    FBI lvtd not issued specLfic guich:u:1ct~ <in this issue until 2007, As discussed in our fi:rst
    NSL repmi,. 1u~my of the NSLs issued from Headquarters control files related to dassilled
                                                                                                         (Cnnfd.}
I
I
I
I          Even if the 125 NSL.;; issued from control mes are not :included. the
    resulting violation rate of 22.4 pet-cent would place Headquarters among
I   those fldd ofl1ces having the highest violation rates, Onlv
                                                      {...



    offices had higher violation rates th~m Headqua1ters. (U)
                                                              ,.. 3 of 56 field
                                                                      {..




I          Table 3,3 provides specific information on the types of possible
    vtolations found dtnin,g the FBI's Headquarters revie\.v and identifies how
    many times each violation occurred. (U}
I                                                                           TABLE 3.3
           Possible NSL-Related IOB Violations Identified in the FBI's 2007
I                   Hea.dquarters Review (2003 t11rough 2006) (U}
                            {Table below is Unclassified}

I
                                                                                                                                 1
                                                                                                                             """ 1NumbO~                                          I
                                                             Category                                                             .
                                                                                                                             .....T
    ,__N_S-,L-. s_s_u_e_d_f_n-31_11_c_:t_:u-1t-1·-o-l-fi-1e_·_\\.-'it_h_n_o_o_p_{'-:n-ir-n-re-s-tl_g_a_ti_o_n_!_lfr.:ii~;:-~:)
                                                                                                                                    :!-roi:s
                                                                                                                                   . . . . . . . i25"
                                                                                                                                                                    ::::r    of   t
                                                                                                                                                                    '50:-2s:i:---~l

I
               1.-,




        NSL lacked predicati~;n or sufiieient justific.ation, or inforrnatiou                                                 ·--·r·---·" 5                             2J)(h)
        S(.n.1ght not relevant to the inve~~u~ation (FBI error)                              !
    l   NSL:· reql;~~;!~~d infomw.Uon beyrK;d the scope pen;rlssibl~·i;:;;............- ....                                       j............~.......2...........o:as:i:--1
I                                                                                                                            ......L..

    ~
         :atute (FBI error! ..                        ....          ------------------                                                                                        I
         ::'.i.~l.~, ·.1ss.ued '-Vi.th t·.ypographir..al n..1..lstakes in n>:1:n:ies, addn~s${~s,                                 !                l     l              0.6'K1
    ~--~!ephnne numbers, --~~-~5::oun~-~~-~~~nbersJ!:.~~~I erroi:)                                                               ·l----__,____ ___,!
I   ~l NSL recipient& provh:kd data Jn excess of the NSL request. or
       furnished retords or inforrnation not requested in the NSLs (initial
                                                                            :
                                                                                                                                 I
                                                                                                                                        ~n         j                   17. 9%*'
                                                                                                                                                                                  I.
       third party er:ror}                                                  !                                                              !
I   -~-•~•••!11••m•m1111·••'<•••~~w~'t•m•;Tu\\&~gf
         ~~'%\.-~-ill.. ~     '· x·;;;:;~::..~1% R ~ M't~a'\•1%\m"""~~=~=~=
                                                                                  0

                                                                                       . ~·=-.t~=~=. ._~..,,,-~&:=;::~=-a=s.+r=M=~4=,
                                                        :::;fili,fa,%-&'fu'tk~.::.-:.:a."'''~§®L
    "The rate of third party error is based only on Uxe l 7B NSLs for which lnspech>rs >Vere able
                                                                                                      ,,,., .                     ·r*";.'W
                                                                                                                        £t-,~,:::..<.:«.2F¥>     C.;o.;>:.:...::S


    to locate and n~view :rt.~cords obtained in response to the NSLs. \Vhen :responsive

I   information could nnt he located during the Headquarters revie\v, tbe OJG eliminated thos1~
    NSLs from the third party ern:n- rate calculation, {Ul

                 TI1e FBI inspectors reviev:.1ng Headquarters--issued NSLs 1H1d greater
I   diflkulty locating signed copies of NSLs and records pru1tided by NSL
    recipients than h1spectors who reviewed NSL., duling the field review.

I   Dudng the revie·w of Hea.dquarters--tssued NSLs, i:nspectors were unable to
    locate signed copks of 2.25 of the 24B NSLs ide.ntUJed for the revie\v and
    were unable to locate the records provided by the NSL recipients in response
I   to 70 NSL.<il (28 pereent).61 In addition, the .inspectors found 168 approval
    ECs that did not reference prdil1linary or full inv<:~stigations, \Vhieh nmde it

I   special projects, See NSL I, 98-- 103, The FBI Inspection Division reported that 88 of these
    125 NSLs f70 percent) were generated from these dassiJled spt)Cla1 pmjects. (U)

I                61 At U1e time nfthe Headqumters l'C\'ie\v, :respnnsivt.~ records co11ld not be located,
    Inspection Division personnel told us that these n~cords were latf'..r located ln He;:idquarten;i
    ckmt.~d files and \Vere revk'\ved to detennine if there \Vere overcollection. {U}


I
                                                                                      88
I                                                                           ~
I
I   di.fficult to determine if the NSLs \i.rere issued fron1 authorized investigations
    as reqt1itT~i by the NSL statutes and the Attorney General's Guidelines for
I   FBI National Security Investigations and Foreign Intelligence Collection (NSJ
    Guidelines). (U)

I          'I'·o d-ct<l·"'"'·t·t,,.  i·,,.n~·
                     . It.~s .llt.. ct..      .,.,.."·a"
                                          ne.nu(.s  l en·t··htect
                                                             1~~
                                                                   u1 i·t·'s n·"·······r·r·1···-·ct
                                                                 1 -'

    issued NSLs, the Inspection Division recon11nended that: (1) the Assistant
                                                                                                    -...... ,
                                                                                . \-leW u t.d. quane1s··

    Director for the Counterterrodsrn Division (CTD) perfonn a me review every
I   90 days of all Headquarters national security invest.tgat.ton case files to
    ensure NSL con1pli<.:u1ce, and {2) internal controls should be strengthened to
    ensure that each l:Ieadqua.rt.ers NSL can be verified an.d associated \Vith its
I   responsive records. The Inspection Division also recommended that the
    Assistant Director for the CTD and the FI3I General Counsel provide
    appropriate training to CTD personnel on the proper use of NSLi;;. and that
I   the Assistant D.lrector for the CTD take action to fad.lit.ate the appropriate
    reportirtg of possible NSL-related intelligence violations to the :FBI OGC. As
    of October 2007, a draft e-·mail had been prepared for the sig11ature of the
I   .Assish:mt Director instructing the :FBI Headquarters divisions to review the
    possible intelliger1ce violations identified by the Inspection Division's revkw

I   of Head~p.1aJi.ers-issned NSLs. The Headquarters division personnel were
    also instructed to provide a written response to the Inspection Division \X..1th
    specific in:formation on each possible. intelligence violation, stating whether
I   they a.greed that a posstble vtola.tion ex..i.sted a.nd to report those findings to
    the Internal Ir1ve:st~ga.tion Section, to the CTD, and to the FBI OGC. (UJ

I           C.       The FBI's Review ofFCRA NSLs Seeking Consumer Full
                     Credit Reports in Counterintelligence Investigations (U)

I           In response to the :tlndings of the OIG in the first. NSL report, the FBI:
    recognized that sorne of tts ernployees did not understand that a FCHA. NSL
    could :not be used to obtain a consumer fun credit report in a
I   cou.nteri.ntelllgence
                    ....... investigation.
                                   .....~
                                           that docs not have a nexus to :i.nternationnl
    tetToris:m. Accordingly, to ensure that no such credit reports were in its
    flles, the F'Bl ordered a review of all FCHA NSL..i;; that had been issued in
I   counterintelligence rnatters fron1 January 1, 2002 through Decernber 31,
    2006, .in all 56 field offices. In this section, \ve provide a hrtef summary of
    the OIG's hndings in our first NSL report on the FBfs use of FCR..:.\ NSLs
I   frmn 20CK~ through 2005. \Ve the.n descli.be the results of the FBI's 2007
    revk'.\V of FCRA NSLs issued in counterintelligence investigations during the
    5-year period the FBI revie\vecL (U)
I                    1.      The OIG•s Findings on FCRA NSLs in Our First NSL
                             Report (U)
I          In our first NSL report. the OIG examined the potential intelligence
    violations self~repnrted by FBI personnel to the FBI OGC in 2003 through
I
                                                       89
I                                                 ~
I
I   2005 and found that. only one involved an i1nproper request for a consuu1er
    full credit repmi tn a cmn1teli.ntelligence investigation \Vith no nexus to
    international terrorism. 02 'l11is n1atter subsequently \11.1<1s reported to the
I   IOB,63 However. during our review of investigative case fiJes in four FBI fleld
    oilkes. we identified two (:ldditionaJ improper requests for consumer full
I   credit reports in counterLntdligence investigations, These irnpropn·
    requests \Vere not reported to the FBI OGC pursuant to the rnaudatory self~
    reporting requirement:.f-'~ After exan1tnlng these two addi.Uonal ma.t.ters, the
I   FBI reported both to the IOB in 2007, (Ul

           In addition to noting the potential intclltgence violations involving use
I   of FCHA NSLs surmna:rized above, \Vt found in our first NSL report that FBI
    field personnel son.i.etimes confused the t\vo NSL authorities under the
    FCH.A . .Although the National Security La\v Branch (NSLBJ attorrK:ys sent.
I   periodic guidance and e-mails to all CDCs to dari(y the distinctions between
    the t\VO FCRA NSLs, we found that problerns arid eonfusion persisted.
    Accordingly, we recorn111ended that the F'Bl issue additional guidance to field
I   offices to c:lari(y the two authorities a.nd .improve the identiflcation of
    possible intelligence violations ad.sing from the use of F'C.RA NSIB.as (U}

I                       2.      The FBI's 2007 Review ofFCRA NSLs (U)

                                a.        Directive to the Field (U)
I          On March 5; 2007, the FBI's Executive Assistant Director for the
    Na t:mna
         -  ls         ·t--. P
             . __ ecu_nLf    ::..ranc     . ~,,~f\rJ NSBl
                                 · · 1-i (r          _ ~- .. :t.. clirecte
                                                                    -     d. fl_.1e rnr
                                                                                     ' _.. ·s ,r.::.e
                                                                                               _-, he _, ld.. o.trlees an.d
I   the Counterintelligence Division to nwiev,r all FCRA NSLs issued frmn
    ~January 1. 2002, through December ::n, 2006. in counterintelligence
    investigations, 6•3 111e purpose of the review \Vas to determine whether any Qf
I
            <:::.~ The FCR..'\ was enacted in 1970 to protect personal :infom1ation collected by


I   credit reporting ag·encies. ln 200 l, the Patrtot Ad amended the FCRA tu add a nev
    national security letfr~r authority, referred to as f'(jf{Av NS.Ls< \Vhich. authmizes the FBI fo
    obtain acnxlit repnrting agency's n~pmts .:tn.d "all other" con&t:ml!:".l" inf()n:n;,i.ti(ln in its fik~-~­
    Thus, the FBl can nnw obtain full credit rnporls on Lodtviduab during national st~t:urity
I   investigations upon certillcation that the information Is "necessary for~ the FJ:Jrs
    "investigations of, or :trstdli,gemx~ or counterlnteUigenc<-~ ae:UvHles or ana~'/Sis reb.ted to<
    international terrorisi:n ..•. " Srx~ NSL I, 14· 15. (U}

I            e·~

             !H
                   Id, at ·70-72. [lJ)
                   Id . a.t 79-8 L (O}

I         65 \Ve dl.scuss this guidance in Chapter J\vo of this
    Hecornrnendation 4 in our first NSL report !lJ)
                                                                                rx~port   in connection \Vith

            f:.ti National Security Brc.mch, FBI, electron.it.: cormnunication tu all Fidd. Offices and

I   Cm.interintelligt::'.nce, On:klance on Use oJ Fair Credit Reporting Act NSLs in
    CounterintelHgt:~nce Investigatii;ns; f<evie\v <lf .Fair Credit Reporting Act NSLs Issued in CY
    200G in Countedntdl:lgence Irrvi::~stigaUons, March 5, 2007. In response to the cUrective

I                                                                                                (Cont'd,)


                                                             90
I                                                      ~
I
I   these NSJ.,s requested consumer fuH credit reports or rest.ilted in the receipt.
    of such reports in violation of the NSL statutes, Attorney General
I   Guidelines, or internal FBI policies. 'The dtrective stated that if any such
    reports 'Were requested or obtained in the absence of the required nex"11s to
    international teITorisrn, the incidents \Vere. to be reported t.o the FBl OGC as
I   possible intellig(mce violations regardkss ofwhether the infon11ation was
    requested by the FBI or was erroneously produced by the credit reporting
    agency. 'The dh·eetive also stated that the consun1er full cre:dit reports nrust
I   be sequt:stered \Vith the field oft1ce's CDC pending the issuance of the FBI
    OGC's opinion as to <vvhether the rnatt.er should be sent to the IOB.67 {U)

I                            b.    Summary of Findings (U)
           In response to the directive, 41 VBI fteld offices reported that they had
I   identified one or more :FCRI\. NSLs that constituted lmproper requests or
    resulted in tu1authorized collections. 'The t\vo types of unauthmized
    collections included instances in \Yhich the response tn the FCRA request
I   exceeded the scope of the request by providing the follmving: (U)

                   •   The NSL requested FCRAu(a} tlnanctal instttution.-identit}'ing
I                      infonnatio:n or FCH.Au(b) cons11111er-idenUfying infrffmation but
                       the response included a consumer full credit report (U)

I                  •   The NSL requested FC.Ri\u(b) consumer-ide.ntifying information
                       but the response included t1na.nctal tnsUtution-ident.ilytng
                       infonnation. {U)
I   Titirt.een of the 56 fo~ld otlkes (23 percent) reported being unable t.o locate
    the results of at least l FCHA NSL One office reported being unable to

I   locate the results of 97 FCR.A .NSLs.. 'fo.ble ::t4 summarizes the potential
    violations reported by HH.~ FBI field ofllces to the FBI OGC in response to the
    :F:AD NSH's directive, 1:.:ach type of violation is described Jitrther h1 the
I   following section. (U)



I
I
I   from th<: EAD NSB, each of tlK~ 56 field offiC<$ reported their n~sult.s via EC. These are the
    documents the OIG revk\ved in order to pt~d'orm its analysts of the results of the FHJ's
    FCRA NSL review. The Counterintelligence Divh>io.rt responded that it had not issued any
I   F'CHJ\ NSLs during the revk~v period. lU)
           i;·:   i<L {ll}

I
                                                  Ell
I
I
I
                                                                                                                TABLE 3.4

I                            Possible FCRA JOB Violations Identified in the FBI's 2007
                            Review of NSLs Issued in Counterintelligence Investigations
                                                                                        (2002 duough 2006) (U)

I                                                                                  [Table below is Unclassified}
                                                                                                                       i                                                           No. of
                                                                                                                       !                                          Consumer                              No. of
I                       FCRA PIOBs Reported by
                                   FBI Field Offices
                                                                                                                       l
                                                                                                                       I
                                                                                                                  No, of ,
                                                                                                                                                                  Full Ctedit
                                                                                                                                                                  Reports
                                                                                                                                                                                                        PIOBs
                                                                                                                                                                                                        Previously·
                                                                                                               l Field i No. of i Prn,<ided to Self-
I     NS.L requests for consmner full credit .
                                                                                                               l  Offices ! NSLs ! the FBI
                                                                                                                       !                I                                     I
                                                                                                                                                                                                        Reported
    ....................................................................................................................................l ....................: .........................................                                           -~----..




      reports in counterintdli§~{:nce                                                                          j                        !             '"''-> !
                                                                                                                       :'            11 ::                         .~'-' ::                                                    29                         2

I      investig<.):Uons ·,vit1i no ne::<\iS tn
       internafional terrorism {FBI error}                                                                             !                         !                            i
       ~~;~~~~i~~t~:~~~~~:~~!)t~~:~er·l~---- -·- - - - - -                                                                                       ' . . -11-----------··~·-···--------1·
I      c.redit reports were provided
       !initial th:!nl
    .·.-.-. -.......   ~-"-----·
                                   pa:rty error)
                   ................................. .., ,..-........--.-.-.-.-........._ _ _...........-..·.·..........
                                                  -·~~----.-                                                           ..-·~--·""·-,,
                                                                                                                                     3$

                                                                                                                                     ..............-r..
                                                                                                                                                               2'-l'-3
                                                                                                                                                                   ~"' !
                                                                                                                                                                          !
                                                                                                                                                                                                                         ')W'
                                                                                                                                                                                                                         ...,, ,)
                                                                                                                                                                          -.-.-.:--.. . . . . .- -.. . . . . .-_.·-·-.-...-.. . . . . . . . .+. .
                                                                                                                                                      -·-·""""""""-.-~··-·-                                                                      ~-~-
                                                                                                                                                                                                                                                          6


       NSL recn.iests for c::onsunR~r--ldentifVing                                                                                               i                        !                                                                  !
I      inform.a:uon for which financial                                                      , ..
                                                                                                                                        1
                                                                                                                                                 I                      1
                                                                                                                                                                          !                                             l'~·,. o\            !            0
       instituUor.1-identifyir·. 1g·f. info.rmation \Vas                                                                                                                                                                ~      /
                                                                                                                                                                                                                                   t
                                                                                                                                                                              !
                                                                                                                                                                              I•                                                             I

       provided {initial third party ern:n-)                                                                                                     !                                                                                           I
I                                                                  c.                 Improper Requests (U}

I             Of Uie 56 FBI held offices, 11 reported that th.ey had issued a total of
       83 FCRAv NSL.s tn counterin.tdHgence investtgaJJons with no r1e:x.1.1s t.o
       inten1ationaJ te1roris:r:n.. Gs However. in <)Ue instance. a case a.gent mRi                                         '                                                          '                                            ~




I      supervisor thought that the miginal FCHAv request was justified because
       the investigation later developed a nex11s to international ten-orism. ('i9 In
       another four instances, the requesting field offices did not receive the
I      consu1u.er full credit reports that they had irnpropedy requested.
       Consequently, of the :.13 F'C:RAv NSLs .repm.i:ed by the field offices, ~33 \Ve.re
       irnproper requests and 29 \Vere :iinproper requests for which the FBI
I      obtained unauthoiized infon11at.ion {consumer full credil: reports). Of the 33
       ilnproper F'CRAv NSLs identifi.ed in tlu~ review, only 2 had previously been
       reported. to the FBI OGC pursuant: to the ma.ndat.ory self--:repmi:ing
I           .
       reqmremen    ·I:. ('l..r}



I              11& Three ofthe~e .:33 F'Clv'\v NSLs contain('.d a refr~rem:.\~ to the FCHAu NSL statute,
       but the text of the NSL rt.'.quested "'credit reports" or "all information in the file." 1l1e FBI
       ca:te,gonzed these a.s improper requests. {U}
I      t~jst
                           M FBI OGC att:<.lrneys told the OIG U1at the nex11s to inh~n:iational terrnris1n
                         at th<.~ Urn<.! the NSL i.s tssuecL (U}
                                                                                                                                                                                                                                                        mm~t




I
                                                                                                                                92
I
I
I                                                       d.        Unauthorized CoUections (U}

I                                                    Thirty-five of the FBI's 56 field offices reported that they had obtained
                      unauthorized coUections tn response to NSLs seeking limited credit
                      inforrnation pursuant to 15 lLS.C, § 1G8lu(a). These field offices had
I                     issued a total of 233 FCRAu NSLs requesting lirnited credit infonnation; in
                      response to which credit reporting agencies had produced consun1er full
    1~ 1     r-<.;::;.;:.r;:...;<;;.;~d;;:.:;i:.;;;.,t_reports,70 During the revie\v period. the FBI had issued a total. of
I
          .........


             .__..,.....___,...f_r_C_:R.....A_1_'1····_N
                                                   :,,,_s_.·_·_ _ 1_s_1_ c_tfwhi(.?.:t~}vere issued in com."lte1i.m.·:eih_'gence c.ases.                bl
                                                                                                                                                        b3
     \S) f51         Thus                                   percent      -oft1i.esel=.=jNSLs resulted in unauthorized               .
                      collections. Of these 233 unauthorized collections, only 6 {3 percent} had
I                     previously been repOii'.ed to the FHI OGC pursuant to the 111andatory self-
                      reporting requirernent, ~

I                            ln <'.u1other type of lUKmthorized collection, one FBI field office
                      .reported that it had obtained financial instituttonvide.ntil\ring infonnauon                 .I   ~-

                      (perrnissible in ·response to 15 U.S.C. § 168lu(a) NSLs) tn response to an
I                     NSL seeking consunier-identt£)ring information pursuant to 15 U.S.C.
                      § 168lu(b).n (Ul

I                     II.       The OIG's Analysis of the FBl's 2007 NSL Reviews {U)

I                            rn thjs section, Wt~ provide the Of G's analysis of the three NSL revie\VS
                      conclucte.d. by the FBI in 200'7, described above. (U)

I                               A.        The OIG's Verification of the FBrs 2007 Field. Review of
                                          NSLs (U)

I                               ~, . ,,.~,t·1'
                            To asst.t->S     .11c,,,,.,.
                                                   c.Lc__tn
                                                          . ···-:>»"<;f
                                                              <'<t'J a.t"t't1"-';'f:->J"'.·t··-1~1··f'>r'
                      Held offices and re-examined case fik:cs that had been reviewed by F'Bl
                                                                                                                 . 1e·ore·•',
                                                                          .1. c 1' .) . s . 1e. c 1 ...-v .tew, t·l     1. ~ v 1s1'.t·;o-~t
                                                                                                                                           1
                                                                                                                                    .cu .1.u• u.,."..

                      tnsped.ors during the field review. \Ve found that the FBI's field review used
I                     a sound sarnpling inethodology but that FBI inspectors missed a sign.meant
                      nun"lber of NSL-·rela.ted possible intelhgf-:nce violations as they ,:vere
                                                                                     "'-•                                     ;.

                      reviewing the case files, thereby understating the actual rate of possible
I                                '?o Au1ong the 2:33 unauthorized collei::tions \>;J<":i.s one inst~mc.(~ in -v.'hkh the case
                      <c'!.gent cm.1ld easily n.~a. d thr:: te&i. of the con~H.i.tner fuU credit report, even though U1e credit
I                     r('._porti:ng agency attempted to redact this i.nfhrrna.Uon. Moreover, the case agf.~rrt relied o:n
                      the poorly redacted information received from the credit reporting agency to h1ter issue n.vo
                      NSLs seeking flnnn:dal fnfonnat.ion pur:sua:nt to the Hight to .F'i.111..tncial Prioaq1 Act {.RF'Pi\J
I                     NSL statute, (U}
                              ?l Th(~ FCHAti{a.} NSL statute, 15 U.S.C § 168lu{a}, authorizes U1e F.Hl to nbtain the
                      rn:unes and addresses of all finam:::ial institutions at. which a consumer rnafn.tains or has
I                     maintained an account. Tis.e FCHAu(bJ NSL statute, 15 U.S.C. § 1G8lu{h), authi)rlzt::s the
                      FBI to obtain the consumer's n;:n:ne. address, fonnet add.res,.~e.s, phtce,s of em.pfoyment, or
                      forrner pk1ces of en1ploy1nent. (IJ)

I
I
I
I    lntemgence violations. In thts section, we describe the methoclology of our
     review, our findings, and our anaJysis. (U)

I                     1.      The OIG's Methodology (U}

             The OIG reviewed a judgn1enta.1 smnple of the case mes e.xa.m]ned by
I    FBI inspectors at three fidd offices du1ing the. FBI's ·March 2007 Held
     revte1.v. The OIG's revie\v was not designed to quest.ton the judgments of the
     CDCs or the Inspection Division detennjnations regarding ·whether
I    violations identHkd by the inspectors 'iNere reportable to the IOB, Instead,
     our objective was to detenni..ne if the inspectors had identified all of the

I    NSL-related possible intelUgence violations in the files, Therefore, in
     selecting our sample for review, the OIG dld not include any NSLs that were
     previously identified by the F'BI's inspectors as containing possible NSL-
I    related intelligence violations, (U}

                The three fidd offices 1.:ve selected t{)r ouT reVie\\r had an average NSL

I    \.iolatlon i·ate below· the FBI field n~vicw's overall 9.4.."3-percent violation
     rate.n Just as the Inspection Division did \Vhen selecting its field offices for
     re-visits; the OIG selected Held offices \Vith NSL violation rates belo\v the
I    over.:,-i.11 average to test the assun1ption that these ln\ver--than--average rates
     were U1e result of FBI inspectors tntsslng violations in sorne of the NSL.s they
     revie:\.vecL (U}
I            Using ajudgrnental smnple, the OIG selected 15 case Jiles in each of
     the 3 field offices. and from. those fil.es identified up to 60 NSLs in each fleld
I    ofl.l.ce to review, 73 The OIG selected case files that f:ontatned possible
     intelligence vfolations previously identified by the F'Bl inspectors during
     their reviev.r (and later contlrtned by the CDCs), as well as case mes in '\Vhich
I    no possible intellig<::nce violations \Vere identified by the inspectors, \1../e
     reviewed the NSLs using the sanw criteria that the FBr insp<::ctors 'Nere
     instructed to use during the FBI fkld review, (U)
I                     2-.     Findings of the OIG·s Review (UJ

I           The OlG's review found that the FBI's field revi.ew did not identify a
     significant number ofNSL-rdated possible intelligence violationK ln the 42

I            7 ~!
                A.t the 3 fidd offices ".Ve visited, the FBI inspectorn had previ()Usly revit:.'.\-Ved a total
     of 1.114 NSL1'~ and h:knti11ed ~~::1 NSL--related possible intelligence violations in those Ns1:.._~,
     for a PIOB violation rate of 2,96 percent for the 3 offlces, Indi\i.dually, the PIOB violation
I    rates for the three offic•~s were 2.SG percent 2.47 percent and 6.::10 percent. {U)
             ;·a 'l11e OIG selected sufficient samples to allow for cases that vlere not .::i.vailabk frir.
     revit:'.\V. We u.ltimately reviewed 13 fiks in Field Office l, 14 fiks ln Fidd O.ft1ce 2, and 15
I    files In Field Office 3. for
     di1forent NSI.-s. (U)
                                    ;:t   total of 42 files" Fr01n those 42 files, we reviewed a wtal of l 0~)



 I
 I
I
I   case files re-exarnined by the OIG-, the FBI's inspectors had previously
    reviewed ;J96 NSLs and identitled 13 possible intelligence violations, for a
I   violation rate of ;:).28 percent. '111e OIG- re-examined 169 of the NSIB in
    which the FBI inspectors had identified no possible intelligence violations.
    and we identified an additional 15 possible intelli.gence violations. for a
I   violation rate of 8.88 percent..' 4 Overall, the violation rate identified by the
    OIG was almost 2~ times higher than the violation rate found by the FBI in
    these 42 case files. Table 3.fi desc1ibes the type and number of violations
I   identified by the OIG in these case tiles. As noted above, we use U1e phrase
    "initial third party etTor" to desclibe instances ln which the NSL recipient
    provided records beyond those requested in the NSLs. However. the FBI
I   may at thnes have compounded the initial third party error by using or
    uploading the improperly provided infonnation. (U)

I                                   TABLE3.5.
         Possible NSL-Related IOB Violations Identified by the OlG Not

I      Identified by FBI Inspectors at Three Field Offices During the FBl's
                              2007 Field Review (U)
                           [Table below is Unclassified]

I      Improper         NSL lacked predication, sufi'icientjusti:fica.tion, or              2
       AuthiJrization   documentation of relevance to the investigation

I      Unauthoriz,ed
                        (FBI error)
                                  ,.,,,.,.,,==~~~~~""""~""""'=""'==




                        NSL Issued with typographical mistakes in narnes, addresses,        2
       c.o.llectlon     telephone nurnbers, accmm:t numbers, etc,
I                       l}'BI errnr)
                        NSL resulted in collection of data requested in the NSL but for a   6
                        longer (or dtffi:.>rent) period than was designated in the NSL

I                       (initial third party error)
                                                                                            5



I
I          Chart 3.2 cornpares the error rates identilled in the 42 case files at
    the 3 field offices -visited by both the FBI and the OIG. The chart lUustrates
    the rate of en:ors att1ibutahle to the FBI: or ini.tia] th.ird party error. (U}
I
I
I           n The OIG was unable to locate records responsive to 15 of the 169 NSLs we
    revievved. The 8.88 percent violation rate therefore did not include possible inteUigence
    violations that may have resulted from records obtairn::d in response to these 15 NSLs, {U)

I
                                                     95
I                                              ~
I
I                                             CHART 3.2
                         Comparison of Possible NSL-Related JOB Violations
                       Identified by the FBI and the OIG (by category) in NSLs
I                                Reviewed in Three Field Offices (U)
                                     [Chart below is Uncla.ssified]

I                                                     ·10%           ~------~----~---------------------H-••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••••




                                                                                                                                                                                 --------1
I                                                      8{/ii   -i--------                                       ·- - - - - - ·-
                                                                                                                     OlG Sample: 169 NSLs
                                                                                                                           ·---------t                                                          ni          .

                                                        ·1·>,;, _______. _ _ _                                                                                                                  E··:,,,i
I                                                      6~;:a

                                                       .5%
                                                               -i------------------
                                                               -i---~F=BI_s~_~a=1x='·=le~:~3<~x~;N~TS=L=s-----~

                                                                                                                                                                                                I           i
I
I
                                                                                                                                                                                               Fl
I     ____________,_______
        Im Pl OB Rate Due to FfJl R:rror
                                                                                             FBJ

                                                                                           0.76'%
                                                                                                        ~--·-----------·--l------------1
                                                                                                                                                                    OiG




I
        il§PIOB Rate Due to lnltia1 Third
             Parts Error
                                                                                                                                                                  8.88%


I          Table 3.6 illustrates the number of NSLs revie'i.ved> the number of
    possible intelligence violations found in the 42 case files revie'i-ved by the FBI
I   and re-checked by the OIG, and the rate (occurrence of errors) at which the
    FBI and the OIG found possible intelligence violations 'i.vithin the smnple

I   reviev.red. (U)

                                                                                TABLE 3.6

I            Comparison of Possible NSL~Related JOB Violations Identified by
                     the FBI a.nd the OIG at Three Field Offices (U)
                              [Table below is Unclassified]
I
I
     :::- ~;::'9~;;; ~!~ii ::;.:d ~1:~~~; ~::~!~: ,
     j Office             by FBI                 i   by FBI
                                                                            i
                                                                            ~ Rate
     1-·-#i········ ····················2i·6··'····························5··;·············2~·35%
                                                                                                     .......    !JI..g!<:!
                                                                                                                                   57
                                                                                                                                           I
                                                                                                                                            j  by OIG
                                                                                                                                                                             !
                                                                                                                                                                             j Rate            . j
                                                                                                                                            f............................2..-r-----------3~-si~~---i
     r----   #2                         121 .                          ;3   j         ···2~·48o/~··            . ..............    56·r··························j···:·············5:·3(j~;~···;


I    ';;;~----~
I
                                                                                            96
I                                                                               ~
I
I           Most of the possible inteUigenee violations identified by the OIG·
     should have been identifkd by FBI inspectors if the inspect.ors cmnpared the
I    data. provided by the NSL recipient. \Vith the data requested in the NSL and
     determined ·whether the data provided \vas relevant. to the investigation.
     The vtolations \:\.rere readily apparent to the OIG npo.n a review of the case
I    files, For example, we identified instances in which the dai:t~s on the
     information provided by the NSL recipients did not tnatch the dates
     requested o.n the NSLs. (U}
I         TlH:: five n1ost serious possible intelligence violations identi:Hed by the
     OIG that \Vere inissed by the FBrs inspectors \vere: IU)
I                   •   'The receipt of telephone ton bUHng .records fr)r tJ.u; "famUy plan"
                         (multiple telephone numbers) of individuals who were not
I                       relevant to an authoriZed investigation; these telephone toll
                        billing records were not sequestered and wen~ rnaintained in
                        an FBI case tlle. They were not uploaded into FBl data
I                       systems, 75 (UJ
                    •   'I11e NSL requested data on a \Yrong telephone rmrnher due to an
I                        FBI typographical error in the area code; these telephone tuU
                         bn:ting records were not sequestered and were maintained in a.t1
                        FBI case file. 'Hiey \Vere not uploaded into FBI data systerns. (U}
I                   • TI1e NSL recipient provided telephone toll billing records for 1
                      year earlier thm1 the ttme period requested by the FBI. (U)
I                   • Two instances in v.rhich cloctunents reflecting receipt of
                      responsive records specifically incorporated Social Secu1iiy
                      Nun1bers and date of birth infonnation on individuals who were
I                     not relevant to the t1nderlying investigation: the error was
                      con1pounded when these doctunents were electronically
                      uploaded into the ACS systen1 by the field office that served the
I                       NSLW {U)


I            7 :0 The records obtatm-::.d from the prnvider 1:.howed that. the ind:tvidual '\\."ho was
     relevant to an authorttt:~d investigation -~vas associated \'i.'ltb: the tekph(}nt~ number for tht::
     last 21 days (}f the 7 ~rnonth pedod reqw:.'.s1x~d by HH.: NSL. Th(~ Fm received additional

I    ti;'.lephone re<xn·ds related to two previous subsciilX'.rS of the Vdephone nmnbe:r identified in
     the NSL There was no indication that either of the previous ~~ubscribern \Vere subJects of,
     or relevant to, any FBI investigation, The records of.one of the previous subserihers
     included t.ol.l hnling records f()f the tekphzme number liskd ln tht~ NSL a::; well as 1nulttple
 I   "frunily phm'' lines for a period nf :2!11 months within the ?~month period. During its review
     of the case flle, the OIG identified these records for the hvo prim' subs<.T!bers mQre than a
     yem- after th<~ records \Vere ·pn:wided to the ca.se <:1ge.nt. fU)

 I           n; The case agent in the f.idd ofllce that issued the NSL had noted on the responsive
     re:cords: "individual account. records not relevant to th.ts matter.. New- suhscr:tber not
     related to suhj<.~et. Dl>n't upload," (U}

 I
 I                                                ~
                                                       97
I
I           The 01G's re-examination of case files .in three FBI field offices
    demonstrated that the procedures hnplemented by the FBI :for reviewing
I   case tlles \Vere not effoctive ln ensuring that all NSL-related possible
    lnt.elligence violations were tdenttfi.ecL ¥Vhile the OIG is unable to calculate a
    revised NSL-related PIOB vtolatton rate for all field offices, our determination
I   that the F'BTs possible intelligence violation totals are understated ls also
    suppcnied by additional data from the FBrs fleld review. Specifka.Uy. in the
    FBrs follow-up reviews of NSLs in G field offices in which FBI inspectors had
I   initially identified only l possible intelligence violaUon du.ting the field
    revtew·, th.e FBI identified 83 additional NSL--related possibk intelligence
    violations, {U)
I         B.       OIG Analysis (U}

I                  1.    The OIG's Conch1sions Regarding the Field and
                         Headquarters Reviews (U}

I          Despite the sh01i period of Uxne that the FBI devoted to plarming and
    conducting its nation\.vide NS.L field rev:ie\v, \Ve believe the FBI used a
    reas(inable methodology in conducttr1<._~ the review, comn1itted significant
I   resources to the etlorL and Jnade exan.1inatJon and <.:n1alvsis
                             ,.             .                     .,. of the results a
    high p1i.or:ity, The FBI's 2007 t1eld and Headquarters NSL revie\vs confirrned
    that the types of clefk:iendes ident.ltled by the Of G tn our flrst NSL report
I   occurred throughout the FBI front 2oo;j through 2006. Moreover, the BTWs
    2007 reviews demonstrated Ui.at these deficiencies occun-ed in even g;reater
    n1u11bers than the OIG found in our flrst NSL report (U)                   "
I          However, we a]so concluded t11at the FBI's field review did not provide
    a fully reliable baseline frmn which to rneasure futttre ir11prove1nent in.
I   compliance with NSL authorities. 'The OIG's re-exaJnination of case files in
    three fi.el.d offkes that were included in the FBrs March 2007 field revletv
    dernonstl'ated that the FBI's review missed a signiflcant number of possible
I   intelligence violations and therefr)re understated the percentage of possible
    violations. \Ve believe thiS occurred because of: (0)

I              •   the shcnt time pe1iod devoted to plannlng the review, (U)
               •   the inspectors' lack of prior experience in conducting national
I              •
                   security investigations or handling NSLs, and {U}
                   the Inspection Division's inabHi:ty to conduct effective quality
I                  control during·
                                 ,, the review at the field offices due to time
                   constraints it i1nposed on the revie\v, {U)

I         In addition, vve believe the resuJts of the FBI's field review Hkely
    understated the rate of possible intelligence violations because of the extent
    to which the FBrs inspectors 'vere unable to locate infbrmation provided in
I
                                                98
I                                       ~
I
I    response to NSLs. The lnspectors were unable to locate or properly analyze
     the responsive records {such as :financial n".cords, credit reports, or
I    telephone toll bilHng records) frJr alt:nost 15 percent of the F'BI's sample of
     NSLs. is.sued within the 2003 to 2006 review period. 77 \Vithout. finding or
     fully revievJing the :responsive records, FBI inspectors could not determine
I    whether an unauthorized coll<~ction had occurred, 7B Given that
     unauthorized colkc:tions represented the substantial 11mjority (576 of 640,
     or 90 percent) of N.SL-related possible intelligence violations identified
I    during the FTffs field revie·v..r. tt is likely that :rnore possible intellJgence
     -violations would have been identified if all the responsive data for the NSLs
     n::vie\ved by the FBI inspectors had been located and revie,vedJS (lJ)
I          Also, we note the FBI's categoriz..qtion of 557 of the 576 instances of
     unauthorized collectkms (fl7 percent} as third party errors rather than FBr
I    errors, so \\ll1He the initial nnstakes may be attributable to NSL recipients
     who provided more information than was requested in the NSLs, the FBI

I    cornpounded the errors by the rmrrm.er in \Vhich it handled the infonnation.
     Signtftcantly, upon receiving unauthorized information frotn third parties,
     case agents did not consistently recognize that they had recetved

I    unauthorized infbnna:tion or, if they did, they did not take. appropriate steps
     to sequester the 1nfonnatton and self--report the violations to the FBI OGC. ~u

I            ~7 ,n,s noted ptT'Viously, the FBI inspectors could not locate records in response to
     532 NSLs, and 1.175 NSLs (includl:ng the 5;32) Wf.'.ff~ not fully n:·:v'lewed tx~ca.use the
     inspectors could not Hnd all rdevant 1:foc111nt.~nts (approval KC, NSL, and responsht<.~
I    records) or were unable to make detenninations as to v,ihether a possible intelligence
     violation had occurrncL (Ul
            rn 'I1rn FBI >va~> able to identify only one instance of urmuthnriZed c.oUecti<.m without
I    reviewing tlle NSL--responsive records, fU)
              79 In light of the OI<Ys :0.ndings in m. u- flrst NSL report that NSL·-deri.ved information

     could not considenll,_v be. located in tile four field offices Vite visited, tJie F.Bl OGC issued
I    guidanct~ in .January 2007 requiring that NSL-der:ived records he reviewed before uploading
     in.to FBI data.bases. This !T:quirem.ent was re:!terated a.nd t~\1)a11ded in the ,Jane 1, 2007,
     Comprehensive Guidance EC requiring that case agents ensure the NSL--de:ri•,,-ed

I    infonnation is :respon~~ive to U1e request and stored in the appropriate investigati.w~ Hie, and
     Uiat r:ce.::~ipt i!.s docmn(~nted, This and other recent NSL guidance are described in Chapter
     Two of this report. (Ul

I             so As ~fa)\vn in Ta.bk~ ;3.2, FBI inspt~{~torn kkntifie:d fTl6 third party errnrs (th.est:'.
     math::rs arc indudfxi in the ::364 and 312 l"<.)talsL I-fo-;..,·ever, in 117 inst.:mces, the s.<.um~
     violati(ln was reported in b<ith third pa:rty error l.mauU10rized c.ollecti<m totals and, in 2
     additional instances. were also reported as FBI typographical t.~m:.ffs, \Vhen the duplicate
I    e~ntrles are removed, the bahmce is 557 violaUun:s due to initial third party <.~1-rors. {U)

               in Gui.dance to the field issued by the FBI OGC on Novern!Y~r 16, 2006, stated that


I    if the tlt:~ld unprnpedy or muntentionally acquires information through an NSL, th<.~ case
     agent should sequester the information wtth the CDC pending resnlution of tbe potential
     intelligence violation by the .FBI OGC, The FBI OGC thereaih~r adv·ises the field wht::ther the
     information rnay be used or whethe:r the. infon:ll<).tion must be :return<.~d to the c;:uTier or be
I                                                                                                {Cont'd,)



 I                                               ~
                                                       99
I
I    As .noted above, of the 557 ident.iJied possible intelligence violations that
     resulted initially fro:m thtrd party errors. case agents sdf~repmted onl~:r 4.-

I    (less th;:u1 1 percent}.82 \Ve determ.tned in our field offlce revie\vs that
     because the unauthorized i.nfi)rmation was not identified and sequestered,
     FBI agents incorporated the infonnatton into their case files. Additionally,
I    in some cases, according to an FBI JnspecUon Division supervisor, this
     inforrnation was uploaded into the FBI's Ttkphone Applications data.base,
     -;..:vhtch in turn is shared. with otb.er m.ernbers of th(~ lntelligenee Cmnn1uni.fy.
I    Pursuant to the IOB's August l, 2007, d:irectivc, the FB1 OGC \Vill be
     a.ssesstn![ wh(':ther the FBI conmounded irdtial third 1'nartv
               ~...:~                       1.                     :"' "'
                                                                          errors in the
     r.natters reported to it fron1 the FBI's 2007 reviev.rs. (U)
I            The OIG also is cm1cer:ned v,1th the F.BI's characterization of various
     infractions as "administrative errors." Many of these matters involved
I    viol.at.ions of tnternal controls designed to ensure appropriate supervisory
     m1d legal revtew of the use o:f NSL authoritJes, As we noted in our first NSL
     repmi:, adherence to these internal controls is necf~ssmy to ensure that the
I    FBI's NSL authorities are used appropriately and to facilitate appropriate.
     supervlso1)' and legal reviev/ of NSLs. B:3 By calling these "adminJstratJve
     errors,,. the FBI di111inishes their seriousness and fosters a perception. that
I    compliance \\ith FBI po.Hci.es goven1i.ng the FBI's use of its NSL authorities
     is annoy1ng papenvork 'vVe lx~lieve that proper supenrisory and legal revie\V
     of all NSL~rclated documents are required to ensure cou1pliruJc(.': \Vi.th NSL
 I   statutes, the Attorney General's NSI Guidelines, as well as internal FBI
     policies, \\Te discussed this issue \Vith senior FBI officials durtng the course
     of our re-view, and they agreed that the adrninistraUve error labe.1 could send
 I   the \Vrong n1essage regarding the seliousness of violations of statutes,
     guidelines. or policies governing the use of NSLs, These ofllcials agreed to
     constder using a different label, such as "lapses in internal controls," to
 I   desclibe these types of deficiencies. (UJ


 I
     destroyed with appropriate documentation to the file. On November 30. 2006, the FBI OGC

 I   issued in.tenw.l guidance stating that case agents a:re requ:ln.~d to report to the FBI OGC the
     unauthorized <:ollection of infrlrmation obtained in n.~sponse to NSLs, but that U:i.es(~ matkrs
     are not reportable to the JOEL National Security La>v Branch \NSLB}, Fedenu Bu.n:.~au of
     Investigation, memornndur:n to NSLB Attorneys, Guidance for Drafting IOB Opinions,
 I   Novernber 30, 2006, H- 7, Hm.vever. on .August 1, 2007, the IOB directed the FBI to report
     instances in which the FRI "(~ompounds a third pariy error by utilizing the inapprnp1. .lately
     provickd in:forrnation or uploading the ln.forrnat.ion into Bt.treau databnses , ... " (0)

 I           H-:l T'he FBI's failure to self. . report viob.tinns \Vas not HmHed to urmuthoriz.ed
     collections. Only 2 of the other 64 possible intelligence viobtions {640 1nlnus 57G)
     determined to be improper requests or improperly authorized NSLs had previously been

 I   reported to the FBI OOC through 1nandat01y self-reptH~ting. (U}
            Ha NSL I, 1.03-107, (U)



 I
                                                   100
 I                                               ~
I
I                    2.      The OIG ·s Conclusions Concerning the FBI's FCRA
                             Review (U]

I           rn our first NSL report the OIG identified instances iJ1 which
     consun1er full credit reports \Vere obtained or requested through an NSL

I    issued pursuant to the F'CRAv NSL authority in counterintelligence
     investigations unrelated to :international t<::rrmisrn, a violation of the FCR'\v
     NSL statute. The l<'_Bl responded by unclertaJi:lng a comprehensive review~ of

I    all such FCHA NSLs issued fro111 ~hmttar:f l, 2002. through December ~31.
     2006, to dd.enni.ne \Vhether these NSLs ilnproperly :requested 1681 v
     consumer full credit reports or resulted in the receipt of unauthorized
I    collections of consumer full credit reports in the absence of an int.er:national
     terrorism nexu~L The revie\v confinned that such violations of the FCRA.
     statutory requiretuents had occurred. For example, the FBI review
I    identtlled 33 improper re.quests seeking consurner full credit reports and
     2S3 unauthcirized collections of these reports. (U}

I          To put these violations of the FCRA in perspective, we calculated the
     n.un1ber of violations identified in the FBI's 2007 FCRA revie\:v in relation to
     the total nutnber of FCRA. NSLs issued i:n counterintelligence investigations
I    during the 2002 through 2006 rcvie"\.v period: (U)

                 •   The :33 irnprope.r FCl~:v requests r:_p,resent, ~n _error rate             01Q S             bl

I                    percent slnce the FBI 1sstiedr--l"CR«\vNSLsm
                     counte1intellig<:-:nce investiga~dming the 5--yem: :revie\v
                                                                                                            l,S
                                                                                                                  b3



                     period. M ~)
I                •   The 233 unauthorized collections obtained in ~~~pg11seto \S
                     FCH.Au NS· ' - ·~· 1 -;sent: an error rate       ofl
                                                                     percent s.lnce the                           bl
                                                                                                                  b3
I                    FBI issu.e             CR.Au NSh~tn cuutlt('rinteUigenc<:~ S
                     investigaH011s c u1ing the review period.Bl~ ~


I          The results of the FBJ's FCHA review demonstrate that confusion or
     lack of kno\vledge of the statutory requirements \Vas present ainong case
     agents, supervisors. and CDCs throughout 2006, Consequently, the FBl's
I            "'"i. Thfa <~alcubtion is based nn dat;:t \Ve rn:wlyzed from the FBr OG·C's NSL tnu::k!ng
     database. {U}

 I           85 'i"le compared the 13 posstble FCRAv .tntdligence violations identified in the field
     review to foe :3~! possible FCHAv intelligence violations th;:i.t the FBI identified in its
      100--percent review of <:nu:nte:rtntelligence investigations bd:w-een 2002 and 2006 in which

 I   I<'CRAv .NSLs \Vere .issued v~ithout a ne-x·us to international terrorism. W<..~ as~a.m:ied that all
     13 FCRAv inatters -.;vould be arnong the 33 fCRAv identified in the 100--percent review. \Ve
     had sufficient information to defrnitely match 11 of the l~J. We could. not makh the other
     ttvo matters., In one, the fleld offke reporting in the 100,percent revl<~'-'\r did not include
 I   sufficient kkntifying infr.1rm<:lti<m, In tht.~ other matter, the fidd review reported that a
     FCRAv NSL was issm~d but the responsive records <~O\lld not bt: located, !U)


 I
                                                     101
 I                                              ~
                                              --------~-------------------
                  ·············--··~~~~~---




I
                                                                                                   s
I    rnandatory self-reporttng rnechanism \Vas not effective:
     FCRA NSLs issued in counte1intelligence investigations that were either
                                                                                  onl;Orthd.___ _. s
                                                                                                           bl
                                                                                                           b3


     ilnproper requests or resulted in una.uthortzed collections - 3 percent- were
I    self-reported to the FBI OGc.<=m It appears that ease agents, their
     supervisors, the CDCs, a.nd the Special .Agents in Charge did not recogn.ize

I    that they rnade hnproper requests under the FCFV\. Sirnilarly. neither the
     case agents nor the analysts \Vho n.;viewed rec.orcb responsive to these NSL-~
     recognized that they had received unauthoriZed tnfbrrnation in response to
I    FCH.A NSLs. For the most part, FBI field offices offi..~red no expJanation for
     the results they reported to the FBI OGC. ~}

I    III.    OIG Conclusions and Recommendations (U)


I           In conclusion, \:\:T fuund that the violations identified during the FBI's
     2007 u:eadquarters :::md field revie,:vs, as \Vdl as the OIG's 200G m1d 2007
     field reviews, demonstrate that the additional rernedial rneasures being

I    impletnented by the FBI are necessary and should rernain a pliority, These
     measures are requin:d to ensure that: (1) the B~Bl adheres to national
     security letter aut.ho1ities, Attorney G1:::neral GuideUnes, a.ncl internal FBI
I    policies: (2} supervi.sors and CDCs provide dose and tndependent re-v~ie'\vs of
     NSLs; and (:3) possible inteUigence violations arising from the use of NS:L
     authorities are prornptly identiiled and accurately reported to the FBI OGC
I    m1d, \Vhen n:.quired, to the IOB. Based on the results of the FBrs F'CRA
     NSL review and other i.n.fr:innat1on about FCHA NSLs discussed elsew.here in
     this report, and the high percentage of instances in which the NSL-derived
I    infonnation could not be located by FBl and OIG inspectors, we belleve the
     FBI 1T1.ust continue to reinforce the distinctions anmng the FBl'.s FCR/\ NSL
     autJ.10.rities and ensure that m1y improperly obtained intonnation is
I    identified, sequestered, and reported as appropriate. and develop guidelines
     to improve the ability to locate NSL-derived infonnaUon. (U}

I            Vve therefore reconu:nend that the FBI: (U)

           1. Reinforce 1he distinction between the FBI's NSL authorities
I    pursuant to the .F'air Credit' Reporting lkt (FCRA) throughout all levels of the
     FBrs National Security Branch at FBI Headquarters. in new agent training,
     in advanced training provided to agents and supervisors assigned to
I    count:erterrorism and counterl.ntelligence progra1ns, and in tratntng
     provided to .Assistant Special Agents in Charge and Special Agents in
     Chm·ge, (U)
I
I            l:'.<J '111(~ 2G6 total .is composed (~f ~33 improp<x requc~ts plus 2;3;3
     collections. {Ol
                                                                                         unauthori~~(~'d




 I
                                                       102
 I                                                 ~
I
I         2. Add procedures to include reviews ofFCRA. NSLs issued in
    counterintelligence investigations in the FBI Inspection Division's peri.odic
I   reviews and in the National Security Division's national seculity reviews
    (described in Chapter Two of this report}. (U)

I         3. Reiterate in its continuing discussions with major credit reporting
    agencies that the agencies should not provide consun1er full credit reports
    in response to FCRAu NSLs and should ensure that they provide only
I   requested infonnation in response to aJl FCHA NSLs. (U)

          4. Ensure that guidance and training continue to identify the
I   circu1nstances l1nder \VhJch F'CRA NSL matters mu st be reported to the FBI
    OGC as possible intelligence. violations. (U)

I          5. Issue additional guidance addressing the filing and retention of
    NSL-derived information that will irnprove the ability to locate N.SL-de1ived
    infonnation. The guidance should require that all NSL-derived inforlnation
I   be approp1iately docu111ented, stored. easily identified, and readily available
    for internal and external review. (U)

I           6. Include in its routine case fi1e reviews and the National Secu1ity
    Division's national security reviews an analysis of the FBI's compliance
    \Vi.th requirements goveniing the filing and retention of NSL--derived
I   inforrnaHon, (U)


I
I
I
I
I
I
I
I
I                                   ~
                                          103
I
I                          CHAPTER FOUR:
I                NATIONAL SECURITY LETTER REQUESTS
                     ISSUED BY THE FBI IN 2006 (U)

I          In this chapter, v.te dt.,=::scrlbe the F'BI's data on the use of national
    security... letters durin~ calendar year
                          {..               ...  2000. Hm.vever.. for reasons discussed
    in our previous report on NSLs, we believe that the data provided by the FBI
I   from. the Departrnenrs senHannual classified reports to Congress and the
    FBI Of!1.ce of the General Counsel (FBI OGC} national senuity letter tracking
    database (OGC database} do not accurately rellect the tot.al number of NSL
I   requests is.sued in 200G, (U)

            In our flrst NSL report \'Vt:.:. docnrnented various technlcal and
I   structural problems with the OGC database that resulted ln inaccuracies
    and a signifi.cant understatement of NSL requests in the Department's
    reports to Congress., \Vhile. noting the lin1i:tations of the OG·C database, we
I   provided in our frrst NSL report a surmnary and analysis of data. derived in
    la.rge pmi:. from the dahtbase because that database was the only centralized
    reposito1y of data refkctiug the fi'Bf s use of national seeur.lty letter
I   autb.ortttes. fU)

           Moreover, in our :investigation of the F'Bfs use of exjgent letters, which
I   will be desc1ibed in our forthcmning NSL report. \Ve found additional
    inaccurades in the De.part:n1enrs semfa~.nnua1 cl.assi:tled n~ports to Congress
    a.nd the OGC database. vVe deter:tnined that the :FBI sou¢,ht. or obtained
I   records or other infor.matinn. on thousands of telephone nrnnbers outside
    the normal approval process. sorne of which \Vere associated \.Vith hnproper
    NSLs, e.:'tlgent letters, or other inkrnnal requests. Atnong these non~routine
I   NSLs were 11 ..bl;:.u1ket" NSL..."' that sought telephone data on approxin1ately
    3,860 telephone nun1bers (8 percent of an NSL requests captured by the

I   OGC database in 2006), These NSLs were issued in an atte1npt to vaUdate
    the FBI's earlier acquisition of data from three conununieatinn service
    provi.ders pursuant to contracts with the FBI. '111e requests contained in
I   these NSLs were not uploaded into the OG·C database because they 1.:vere not
    docun1ented by electronic co1mnunications {EC) with leads sent to F'BI OGC
    for puq:mses of con1piling data for congressional reporting. Tl:H,~ FBI told us
I   that, after eU.ntlnating duplicates. there were 2., 196 unique telephone
    numbers in the 11 blanket NSL~. (OJ

I         Our forthcmni.ng NSL report wi:U describe in rnore detail the
    circun1stances surrounding; issuance of these NSLs, indudtng; the fr1d. that
                                ~                          '         ~


    the FBI did not generate a.pproval ECs before these NSLs \.Vere signed by
I   senior FBI officials; some of the NSLs ,;v~ere signed by FBI personnel who were
    not authorized to sign NSLs; and some NSL...:; did not comply \vlth the Pat1iot
    Rea.uthor.ization Act requirernents regarding non-disclosure provi.sions, (U)
I
                                           104
I                                      ~
I
I                 With these caveats, we disc1J.ss in the balance of this chapter the data
            on NSL usage that \.vas contained in the OGC database and in the 2006
            semiannual dassified reports to Congress. In Section I we discuss the
I           methodology ,:1,re used to collect and analyze the FBI data on NSL use in
            2006. In Section II we report on the number of NSLrequests issued in

I           2006. In Section III we prese.nt data on overall trends in the FBI's NSL
            usage from 2003 through 2006. (U)


I           I.      Methodology (U)

                   For this review, the CHG ana]yzed data in the FBI OGC database
I           related to NSLs issued during calendar year 2006. 87 The FBI used this
            database to collect the data it needed to prepare the Department's annual
            public reports and semiannual classified reports to Congress on NSL usage.
I           We also examined these annual public reports to evaluate NSL requests in
            2006 and to analyze trends in NSL usage from 2003 through 2006, (U)

I                 We examined the NSLs and NSL
            requests issued during the three types of
                                                                                           CHART4,l
                                                              Relatkmship between Investigations,
                                                              NSLs, and NSL Requests in 2006 {U}
                                                                     fChart below is~
I           investigations in w·hich NSLs are
            authorized: counterterrorism,
            counte1intelligence, and foreign               50,000


I           computer intrusion cyber
            investigations. In our analysis,
                                                           30,000
            we refer to the number of
I           national security letter requests
            rather than the number of
                                                           20.000

                                                           l0.000
            national security letters
I           because one NSL may include
            more than one request. For
                                                                  (J
                                                                                CY 2006


            example, one NSL to a                §§il:Tnvesligations             4,897

I           telephone company may
            request information on many
                                                                                 18,499
                                                                                48, 106
            telephone numbers. The data
I           presented in the Department's
                                                      Scmn:e: FBI OGC database ;~s of Mt~Y 2007 (U)

            semiannual classified reports to Congress and in its annual public reports
            are the numbers of requests made, not the number of letters issued. In this
I                      --------------------·---
                    87 After \Ve completed our analysis of the FBI OGC NSL database, the FBI provided

I     fS)
            the OTG \'Vi.th an updated database in ,January 2008 that included a small amount of
                                                                                            d.isifijt
            ~.dditional data ~o:· the thirci ;:i.11df9t1r~~1 cp..lill.-ters of tl1e se.n1ian ri. ua. 1. r: p.ort s to
            Congress for 2006. The January ::lOOl::l vers10n of the databasemclnde ············· O.::i percent)         bl
            moreNSLsanor-==14 percent) more NSL requests than the May 2007 database that we                             b3
I   fS)     ctsed for our an~ We determined that this small amount of additional NS Ls and NSL
            requests would n~t materially change 01.:tr analyses. (XJ


I
                                                           105
I                                                          ~
I
I     tepmt \Ve follo1,v that same approach. Cha1i. 4.1 sho\.vs the relatlonship
      bet:\veen the numbers of investigations, NSL~. and NSL requests in
      2006. {U)
I            \Ve used the OGC database for this information because it \Vas the
      on1y centralized source on the Departrnent's use of NSLs du.ting 2006. As
I     noted above, our first NSL report docu.mented t1a\vs in the tnternal reporting
      of NSL,..;:; and stn1ctural probleu1s \Vith the OGC database th.at affected the

I     accuracy and reliability of the Departrnent's sen1ia.11nual classified reports to
      Congress
          ,,        ..ss Since the OIG issued its tlrst NSL re1Jort. the FBI has ta.ken
      steps to upgrade the technology it uses to generate NSLs and related

I     docu111ents.B~)    (U)

            The Depmi:rnent \Vas required to file se1niannual classtfi.ed reports to

I     Congress describing the total number of NSL requests issued purst.ta.nt to
      four of the five NSL auth.01ities: Right to F'irwncial. Privacy Act (financial
      records). Blectronie Cornrnu.nir..ntians Pri.vacy Act. (telephone toll hi.Hing
I     records, electronic conununication transactional records and subscriber
      infonnation (telephone or e··rnail)), and two F"o.ir ()reclit ReporUng .A.ct
      authorities (jbr consun1er and flnanda:I instttuUon -.identifying infonnation
I     and consumer hill credit reports}.\:10 In addition. beginning in lVIarch 2006
      pursuant to <.UTl.endm.ents to the NSL autlmrl.ties in the Patriot
      H.eaut.ho1ization Act, U1e Department was required to provide annual public
 I    repents on certain aspects of its NSL usage. (U)

              In its dassilled reports, the Departrnent described: {U)
 I            (l} the number of investigation.s. of different persons or
              organizations that generated NSL requests and {U)
 I            (2) the 111.nnber of requests m.ade in those invest.fgaUons, {U}

 I
 I            B·~ ln. Ch<.1pter "1\vo of this :report. >Ve provide a descliption and our analysis of Ule
      FBr's efforts to l.mprove the acci.m1cy of the OGC <fa.talx1se .;1nd the public and dassl.tkd
      reports to Cou.~ress
                       .      that are gi:.'.Ht:.'.r.:ttt:.'.d using this data. (li)

 I            9n Prior to the Patriot H.eautbortzation Act. the Depa:rtn1ent was required to provide
      reports to Cnn.gress only on its use of its NSL authorities unde:r the Right to Firu:mdal
      PrivnqJ Act {RF'PA}, the Electronic Co:mm:un.fentions PrWaq; A.ct f.£.CP/\), .,m.d tmde.r the Fair

 I    Credit Reporting Ad (FCRA) for consumer and financial i:nstitution-identif}ing information.
      The .Patriot Heauthorlzntton Act requires the Department also to report on use of its NSL
      autlxirt~y pursuant to the FC'.RA for consume:r full credit reportsv See § 11 B{b} of the Pat.riot
      Reauthor.iz:at:ion Act. The Department is not required to report the nnmbe:r ofNSL requests
 I    issued pursuant to the National Security Act NSL statutes (authorizing the FBI to obtain
      financial reci:it·ds, oth~"'r :financial i:nfonnat!nn, and t:'.onsurm:-:r reports)< {Ul


  I
                                                      IOG
  I                                               ~
I
I         Based on data uploackd into the OGC database and the semiannual
          classified rep01ts. to Con,gress, we sepaxated these totals tnto different
I         ( •···-1te('')J,..,PR
            ..'( ·"bf,._ : J. .... fi'Jr
                                    l
                                  w .•.  i'nvP~t1'o""'f1',c)·11"'·
                                         ...... ,_,1,-_, "t::/~- ·-.


          U.S. persons or organiz:<:.1Hons:•n1 {tJ}
                                                                     :.~-,   o·l". "l·- ;~ ,...')....~,.
                                                                                              S            t)'"'l""'-CJD"'
                                                                                                           .t ~.· "-~ .. ...."7   01·
                                                                                                                                  ._, "'rcra11·•·..,:·~1·1·
                                                                                                                                      l.I. 5"-                      ')11"'"
                                                                                                                                                  J.. .... (.l. . .{.  . >~ '"tld
                                                                                                                                                                            f.';5.. ~-. "11·C}"l·'
                                                                                                                                                                                             .I.




I         U.            National Security Letter Requests Issued in 2006 (U)

I                       rn th.ts secti.on, we describe the FBrs use of NSLs in 2006 as
          docun1ented in the OGC database, \Ve describe the total nurnber of NSL
          requests as 'vVell as NSL requests relating to investigations of LLS. persons
I         and non-U.S. persons, \Ve: also include a breakdo\:V'11 of the proportion of
          NSL requests issued during co1J.nterterrorism, counterint.elltgence, and
          foreign co111puter intn.tsion cyber investigations, (U)
I                 In 2006; the FBI issued a total of 48, I 06 NSL requests pursuant to
          four of the five national securit)' letter autlmrities. 82 As shown in Cha.rt 4.2,
I         the ovenvheln1ing 111ajm.ity of these requests sought telephone toll billing
          .records infonnation. subsCJiber infrlfmation {telephone or e ..mail.}, or
          electronic cornrnunica:tion transacti.onal records under the Electronic
I          Communications Privo.nJ Act (ECPA) NSL statute. 9:3 The set.xajlil...rq.ost
          frt~ql1e11tly.11se,Ci . N·SL.a1.1thority, . . aceounting . for . apprnxirnatel)'L.=_Percent ot
                                                                                                                                                                                                     bl
                                                                                                                                                                                                     b3
          the total, sought records from tlna.ndaJ .institutions. such as ·banks, credit
I         card companies,. and finance cornpau:ies under the Right to F'inancial Pr£vacy
          .Act (RFPA} authority, TI1ese records include open and dosed checkir1g ..:u1d
          savings accotmts., Tlleren1aininBercent of the NSL rt-~quests were issued
I   {St
          pursuant. to the two F'nfr Credit Reporting Act {FCRi'\) NSL authorities and
          sought either financial tnstitution-- o.r consume.r-identifyi.ng infonnation or
          consumer full credit repotts.94 ~
I
I                       m. 50 lJ.S.C. § 1801(1) ddlnes a "United States Person" as: (Ul
                        a citizen of the United States, an alien la\.vfully admitted for permanent
I                       residence., , ., an unincorporated assodation. a snbsta:nti.a.l mi.mher of
                        mt::mbers of which are citl:zens of the United States or a.Hens hHvfully
                        ~idmitted. for perrn<U-lent l"('sidence, or a corporation x.vhid1 is incoi:>porated ln
                        the United States .... ~ fU)
I                g-z FBI rt:cords shi:n;v that no national security letters were issued pnrsuax~t to the
          N<.iti~mQJ&:-n1rityAcLNSL statute in 2000. ~
    \U)
I                       ::.>::>   Ek.ctronlc c.omnmnicatl:on trai:rnw:tionaI records (e.. ma.lls} rr1.ay indw:k e-maJ.l
          addn.'.$8('.S ~msociated >Nith          the <.\cci:.iun.t, S('.reen names, and billing req:.irds and method of
          p<tyment for the account. (O}

I                 w A detailed desc1iption of the nmuber of NSL requests for each of the four types of
          NSLs in counterterrorism and counterintelligence investigations is :induded in tlw
          Classified Appendix to this report, (U)

I
I                                                                                             ~
                                                                                                           107
I                                                                 ~:u.1
I                                                                CHART 4.2
                                                     NSL Requests (2006) (U)

I                                                                                                                          ·31
                                                                                                                                        bl
                                                                                                                                        b3



I
I
I
I
                                        Source: FBI OGC NSL database as of May 2007 (U)
I                   As shmvn in Chart 4.3, the majority of NSL requests issued in 2006
             \Vere generated from investigations. of U'8, persons. (U)
I                                                               CHART4.3
                                      NSL Requests Relating to Investigations
I                                 of U.S. Persons and non,.u.s. Persons (2006) (U)
                                            [Chart below is Unclas$Uied]

I
                                       non-US
I                                      Persons
                                        19,279

I                                                                                                  us
I                                                                                              Persons
                                                                                               28,827


I                                       Source: FBI OGC NSL database as of May 2007 (U)

I      ··S:1································FBl··data··shm:ved··that··in·2006··approximate1Rercent of all NSL
           ,.!E.9.uests were issued during counterterrorism invd"STrgltions, approxim;::,i.te1y
                                                                                                                                        bl
                                                                                                                                        b3


I   '31 t=.J.)ercent \Vere issued in counterinte11igence investigations, and
      1s+.a.P··.p·1.·o···x·i·m..·.a.tel:f=b.·········.···.···.. ·.e. -.·.rcen·. t were·".- issued in foreign computer intrusion cyber
             investigation~1Tc'iiart 4.4).              £$)
I
                                                                       108
I                                                                 ~.U1
I
I                                          CHART 4.4
                NSL Requests in Counterterrorism, Counterintelligence, and Foreign

I                      Computer Intrusion Cyber Investigations (2006) (U)
                                                                                                                   bl
                                                                                                                   b3

I
I
I
I
I
I                                  Source: FBI OGC NSL database as of Mav 2007 (lJ)

                                   FBJ data showed that on average approximately one third of all
        fS)                 counterterrorism~ countt:.Tinte;llig~11C:~~ ~r1cl cyb~~ i!1~t~stigation~ t~~t v.;ere
I   \S)
      (Su)
                            openuaLanyutiµ1e-el11ri;1ffu~???u11~:~m:~·s1:s. ~SLsu\~/ere used .inj
                            ff             countermtelhgence invest1gat10ns8ercent) tnan m
                                                                                                        .  I       bl
                                                                                                                   b3

     , ... ,..... ········· c:qq,r1cexce1Jo~ism investigationsEJx~rcent) .°~ cyber _inve~~~gations           ,
I                fS/ EJJercent) m 2006, as shmvn m more deta1I in the Classified Appendix to
                            this report. ~

I             III.   Trends in National Security Letter Usage from 2003 through
                     2006 (U)
I                   In this section; we describe the general levels and trends in the FBrs
              NSL requests fr01n 2003 through 2006 as documented in the Department's
I             semiannual ch::"3.ssified reports to Congress and the OGC database, \Vhen
              applicable, {U)

I                   According to the Department's semiannual classified reports to
              Congress from 2003 through 2006 and information in the OGC database,
              the FBI issued a. total of 192,499 NSL requests pursuant. to its RFPAj ECPA.
I             and FCRA NSL authorities during this 4-year period. 95 The total num.ber of

       \Su)          9:lmAsuWemtej:l6l'tedu1flutmtufirstuNSLTeport,uthisutotahndude4    jNsL requests for          bl
I             eo:nsu:mer full credit reports issued from 2003 through 2005 that the .Depaxtrn.ent ¥Vas not
              required to include in its reports to Congress. See NSL I, 36. ~
                                                                                                                   b3




I
                                                             109
I                                                        ~
I
I       NSL requests issued by the FBI rose slightly {approximately 5 percent} in
        2006 over     2005 levels, Chart 4.5 illustrates the total number of NSL

I       requests issued during each of the       from. 2003 through 2006. (U)

                                                              CHART 4.5

I                                                 Nsi Requests (2003 through 2006} (U)
                                                                (Chart below is Unclassified]


I                            60,000


I                             50,000


                             40,000
I                             30,000

I                            2t),t)t)O



I                             10;000




I                                                       2003
                         Stit:irccs: DIX!· St~tniannual dassifie<l
                                                                                     2004
                                                                         tD Congress and          d<1tab<\se
                                                                                                                  2005                          2006

                                     as of      2006 (for 15 U.S,C. § l 681v NSL requests in 2003 through 2005) (U)

I              FBI dataa~;;ed that from 2003 through 2006, the overwhelming
                                                                                                                                                                                             bl
    IS} maj:ority(abou ············· · ercent) of the FBI's NSLrequests sought telephone toll
                                                                                                                                                                                             b3
I   ' · billing records m. on11atio11, subscriber information (telephone or e~mail), or
        electronic communication transactional records unde.r the ECPA NSL
        statute. The. second most frequently used type ofNSL request, accounting
I   {SJ fbta.pp.roximateIRoetcent of the total, sought
        example,
                                                                records {for
                        a;1~losed checking and savings accounts} fron1 financial
                                                                                   .c.·r_._e<.Ht·c.a.-.-~.d. ········· .>ercenta.. 1.1~l
                                                                                                     ,co.{prn.ies,.
I       instit.·l·l·t·i()n_._
        under                          ·.· · .a.· ·s· ·. ·.ba·1.:_ k.•.·.s_-_•·._, Thererna1n1n,
                              s.. . _·.aurhonty;
                       the RFPA
        \Vere issued pursuant to the two FCRA NS authorities and sought either
                                                                                                                                         .fina_n_
                                                                                                                                   o.f the     NSLce_·. c·o.1n·.
                                                                                                                                                        requests p_ a_._·. n
                                                                                                                                                                           _ ._··1··.e."'s

        financial institution- or consun1er-identifying information or consumer fuH
I       credit reports,96 ~

                NSL Requests .Relatir1g ta US. Persons and non-U.S. Persons,- FBI data
I       a.lso showe.d tha.tthe percentage of NSL requests generated from


I              9'" We         a more detailed
        types of NSLs over the 4--year period in
                                                                                                 oftremis in the FBI's use of each of the four
                                                                                              Classified Appendhi: to this report< fU)


I
                                                                                               110
I                                                                                     ~
I
I         investigations of U.S. persons versus non-U .S. persons shift.eel over the
          4--yeax period. In 2003, rrpproximately 89 percent of NSL requests \Ven:--;

I         generated in the course of investigations of U.S. persons. However, the
          nurnber of NSL requests generated frorn investigations of U.S. persons
          almost c.krubled frorn G.519 in 2003 to 1 L517 in 2006, \Vhich represented
I         57 percent of all NSL requests in that year. During the sarne period, the
          number of NSL requests generated fr0111 investigations of non- U.S. persons
               •. d f>·IOlU. 1·0
          d eclllle.             ')>:1'),.
                              . •"'-'d- .111""    ,:) t·,0 8- ,b
                                            '),()Qn            '·"()f:: •' ')(-}'-)~'
                                                                     ,} 111""'  Cb. (TT)
                                                                                      tU


I               The E.xecuU'/e Assistant Director of the F'BI's Na.tfonal Seculi:ty
          Branch tNSB} provided several reasons for the increase in NSLs involving
I         U.S. persons over the 4~year period, He stated that as the FBI has rnoved
          forward fron1 the investigations of the Septe1nber 11 attacks, it has focused
          on investigations of possible sleeper cells in the United States and
I         conducted follow-up investigations of teffmist activities in the United
          Ringdom and else\vhere to detenni.ne if there ls a U.S. nex1Js to those
          events, He also pointed to the FBI's interactions \Vith state and local la.w
I         enforcen1ent agents, the work of the FEH's :r<1eld Intelligence Groups, and the
          investigations conducted by .Joint Te1ro1isin Task Forces, all of which have
                  ~                              ~


          generated leads involving U.S. persons that result in the. initiation of
I         national securitv investhtations and the issum1ce of NSLs. {U}
                              .}          "--•




                 Chart 4,6 depicts th<:: nun1ber of NSL requests generated :frnm
I         investig~ltions of U.S, persons and non--l.LS, persons frmn 2003 through
          2006,97 {U)

I
I
I
I                  H"l Chart 4.6 do-es not contain the smne totals as Chart 4.5 because the FBI .is not
          required to report the U .S, person status of hirgets of subscnl:wr NSLs. SpecHl.calty,
          117, l. 11 NSL 1·equests seid\.tng so.bscnber i:nfon:natli)n for telephi:m<~ nurnbe.rs ;md Intern.et
I         e-nmil accounts .in 2CHX3 through 2006 did not id.entt(y the subjt.~d's status as a U.S. pN'son
          or nnn-U.S, person. Sirnilarly., \Vhile the FBI <.:aptured data on th(~ status of persons ;vho
          >Vere t.he targets of consumer full credit reports issued. in 2003 through 2005, the

I         Department was nnt required to tndude this data in its reporis, 13eginrung in 2006, the
          Patriot H.eauthoriz~xtion Act required the Depmtnwnt to report to Congress the status of
          targets ofits NSL n"'ouests for consumer full credit reports. Thus, \Ve do not includ.<~ in
    fS)   Cha.rt4J:.H:h.4         ~L reque·,,
                                         ·,       *· ·- t th1;: OGC database identified as having been issued     bl
I   fS)   in200$t.hnJug:h2005andth ························ SL rt.':quests reported to Congn::ss in 20013 fi:n·
          c:f.msumer frill credit reports p . , , . , to l 5 U.S.C. § 1681 v. {~
                                                                                                                  b3



I
                                                          Ill
I                                                     ~
I
I                                                                NSL Requests Relating to U.S. Persons and
                                                                                                                            CHART4~6



I                                                                non~u.s. Persons (2003 through 2006) (U)
                                                                        [Chart below is Unclassified]


I
I                                                     in
                                                     """u
                                                      fJj
                                                                          Ll,000

                                                      ;.
I                                                    ~
                                                                               9,000


                                                     ~
I                                                                              7,000



I
                                                --··Nort:-1J.S, Perso:tlS                                  10,232                                                         8,494                                        8,$36

I                                                                                                                           19                                            8,943                                        9,475



I
                            N.SERequests Issued Du.ring Countertenori.sm; Counterintelligence) and
I                    Foreign Cornputer b1tntsion Cyberlnvest.igations; Chart 4.7 shows the
                     distribution of NSL requests issued from the three types of investigations
                      during the 4-year period. Overall, NSL requests issued in counterterrorism
I                     investigations accol.:mted fnr a substantial majority of all requests. The

              ·~                                                                                                                  ·.e· · d·m· · ·i · ·.2003,
                                                                                                                                                       1 ~~ ·.c. . . 200:,,·t·e··l·and2006
                                                                                                                                                                                    1·ig~.n. c.e in.'(rnngmgtroB
                                                                                                                                                                                                     .· cs. ti. ~".1. tio.,1.·1.s.~. W'as
                                                                                                                                                                                                                               1

                                                      · ·1· · · · ·o·f· N.'S·····L··· berfnt)
                  . . . . . . . . ·. · ·i· ·o· ·.· · 120041
             ISl===Jn                                                  ·1···          ..e,q···.u.· e· · ·s. ·.··t.. s·· ·. ·•. than
                                                                                                 is·,····s·.····l·.···1•.        .•.......   ·.·.O·····..···.t·.····l···.1·1····.·t·.··e·.·,···r··.··.··i·_·1···1·_·           .            bl

I   {51       '~ip~rGenurL2003t                                                                4.... ··········· .erccntm   2006), 9S                 The data also shO\ved that the                                                        b3


                                                                              o. f.· .N· ·S· · L·...·-~
                                                                                                      ~. :. ?1wsr.·. i~sued i. 1.·.·1· f. .·0·1.·e·i·g•·.n···_co·t.npi:ter. in.t~w.s. 1.·o.n cyb.·~r.·.
              1
              1
          (.·.S.. ·"· · · · ·'· ·.P· · .· 1· .·.·.·. op. '.o· · · ·.r· .;t.i.
             1.·s: m~e:[}stra~~1~s wa ·····.·························· m 2006[]percentl than 1n previous years {less
                                           0.1;..

I              1
             ·~·
            t.:ir
                      tha . . . e1c.ent).


I
I
I                           •JB. ln    the FBI issued 9 NSLs seeking subsctibet irrform<:ltioh on l l, 100
                     teleph9ne num hers in connection ·with a     in:liestigation, (U)


I
                                                                                                                                       112
I                                                                                                                           ~·.
-------------------
                                     CHART 4.7
         NSL Requests in Counterterrorism, Counte.rintelligence, and
   Foreign Computer Intrusion Cyber Investigations (2003 through 2006) (U)
                                                                                  bl
                                                                             \S   b3




             Source: FBI OGC NSL database as of Mav 2006 and Mav 2007 (lJ)




                                          113
I
I                           CHAPTER FIVE:
I              THE EFFECTIVENESS OF NATIONAL SECURITY
                 LETTERS AS AN INVESTIGATIVE TOOL (U)

I          In our first NSL n~port we examlned the effectiveness of national
    security let.ten~ in different types of national security investigations
    conducted between 2003 and 2005. Based on our irltervie\vs ()f
I   IfoadquJtrters and field personnel and our exarnii1aUon ofcase fik~s :il1 four
    FBI field offices. we described the value ofeael1type. bf NSL as. well as the
    analyses developed from NSL.~. that enable, the F'BI to identify
I   (:ommunlcation and financial linlts between subjects of its investtgattons
    aixd   others.~~9   (U)

I          Our first NSL report also described the principal uses of NSI..s: to
    develop evidence to support applications for F'oreign Intelligence
    Surveillance Act orders; assess comn1un.ica.Uon or financial links between
I   investigative subjects or others; collect. tnfonuation sufficient to fully develop
    national seeu1ity investigations; generate leads for other field divislons.
    men1bers of Joint Terrorism. Task Fon:.'.es (JTDl'L or other federal agencies, or
I   to pass to foreign govern1ne11ts; develop analytical produ.cts for disb.ibution
    yvitlun the FBI, other Department components, otber federal ageneies, and
    the intelligence comm.unity; develop inforrnation that provided to law
I   enforcement autl10rittes for use in c1in1tnal proceedings; collect inforrnation
    svftlci.ent to dh11it1ate concen1s about investigative subjects and thereby
I   close national security investigations; and corroborate information derived
    frorn other investigative techniques. (U)

I         \Ve reported that the FBI uses information derived from NSL.s (and
    other .investigative tools) to generate .a variety of analytical intelligence
    products, including Intelligence lnfonnation Reports. Intelligence
I   Assessments, and Int.e111gence Bulletins. Infon.11<lttor1 derived from NSLs is
    stored hl various FBI databa$es, shared within the Departrnent and tvith
    .JITFs, m1d disseminated to other federal agencies and the intelligence
I   comrnunity. The FBl also provides information de1ived fro111 NSLs to law
    enforcement authoriUes for use in criminal proceedings. (U)

I          In this review. our examination of case files and interviews of FBI
    Headquarters officials and pers01u1el in three FBI field offices confirn1ed that
    NSLs continued to be i.tnpmiant tools in the F'BI's national securi.1y
I   investtgaU.ons c011ducted in 2006. Many FBI personnel told us that NSLs
    are an essential and indispensable lntelltgence tool {U}

I           oo Sec NSL I, 45-65. (UJ


I                                          114,
                                       ~·
I
I
I         FBI personnel provided the follmving exarnples of the value of NSLs
    issued pursuant to the Right toF'(nancial Privacy Act (RFPA), the Fair Credit
I   Reporting Act (FCRA), and the Electronic Communications Privacy Act {ECPA)
    in advancing national secu1i.ty investigations they conducted in 2006: (U}

I            •   A fleld otllce reported that information from national security
                 letters enabled case agents to identify pertinent e-tnail
                 addresses, telephone nurnbers, and bank accounts that were
I                used to support a subject's terrmist activities. 111e investigators
                 used information delived fr0111 the ECPA and RFPA NSLs to
                 identify the extent of a subject's circle of associates and his
I                linandal network Case agents stated that i.nfonnatlon on the
                 subject's financial network \Vas essential in developing the
                 money laundering portion of the case. (U)
I            •   In 2006, while investigating a plot to conduct terrmist activities,
                 a field office served E:CPA and RFPA NSLs to obtain financial.
I                telephone subsciiber, and telephone toll records for the sultjects
                 and the1r associates. Using this information, investigators
                 identified the :financial associates of seventl of the
I                investigation's subjects \Vhile ruling out the possibility that a
                 larger ten-01ist organJ:zation was financing the plot. (U)
             •   A field office opened a counterterrorisrn investigation in the
I                spring of 2006 and issued numerous ECPA and RFPA NSLs to
                 comn1unications providers and financial institutions. These

I                NSL'3 assisted the investigators in conflrn1ing the identities of
                 the subjects and were used in support of an application for
                 authority to use add.it.tonal :investigative techniques. NSI,,..:;;. also

I                identified financial institutions that the subjects used, which in
                 turn led to the disc(lve1y of ce1i:ain purchases. (lJ)
             •   In the summer of 2005, U1e FBI received information suggeslli1g
I                that individuals associated with hvo e-nmH addresses were in
                 contact with knmvn extremists. The FBI issued ECPA NSLs to
                 two Internet service providers (ISP) associated vvith these e--mail
I                addresses to determine the identity of the users. ·Tufo
                 information was insufficient to positively identify the users of
                 the e-mail accounts. HO\vever. t1rformation received indicated
I                that the 111ajo1ity of log-ins for both e-mail accounts could be
                 traced to two different lSPs. ~l11e FBI served ECPA NSLs on

I                these ISPs. Responsive records enabled the FBI to deterrnine
                 where the users of the e-n1ai1 addresses were located. (U)
             •   In ..June 2006. the lJ .S.:...n::.;:;:u=·1=1.:;;.;t=--_._______________............   bl

I                                                                                                      b3




I                                               115

I                                           ~
---------------------------------------


 I
 I                                                             ~ecause   of the
                                                                                          bl
                                                                                          b3
                    po en Y    irea , t 1e .~ :. InLta ec pre mnary i.trvestigatlons on
 I                  the U.S.-based subsclibers of two telephone nun1bers and
                    issued ECPA NSLs to identify the subsc1ibers. ]be investigation
                    is continuing. ~}

 I              •   1\vo individua]s in possession of weapons were stopped by law
                    e11forcen1ent off1cials and m1 FBI national sectnity investigation
                    \.vas initiated. Over the next kw rnonths a source reported that
 I                  one of the subjects was planning to travel abroad to engage in
                    anned jihad against U.S. and Coalition troops. A number of

 I                  RF'PA and ECPA NSIB were issued seeking financial.
                    infonnation, credit repmis, toll records. and e-rnail account
                    infon1mtton on the p1im.ary subjects in. this group. (U)
 I              •   The FBI is investigating the foreign intelligence activities of a
                    subject involved with a foreign goven11nenL An NSL has been
                    se1ved to assist the FBI in investigating a net\vork for procuring
 I                  illicit dual"·use technology for use in a weapons of mass
                    destruction prograrn, (U)

 I              •   In an B~BI national secu1ity investigation, tbe FBI has issued
                    NSLs that have helped to identify two FBI assets \vho were in
                    contact 1.:vith the su~ject of the investigatton .... contacts
 I                  previously unknown to the F'Bl. The NSLs identified the
                    subject's e-mail accounts, which in turr1 led to the issuance of
                    additional NSLs . FBI counterintelligence personnel said that
 I                  the imposition of the non-·disdosure provisions in the NSLs has
                    been c1itical in keeping the FBI's interest in the subject frorn
                    corning to the attention of the foreign g0\rern1neut involved in
 I                  the n1atter. (U)


 I
 I
 I
 I
 I
 I                                           116
                                         ~
 I
I
I
I                      CHAPTER SIX:
      OIG FINDINGS ON THE FBrs COMPLIANCE WITH THE
    PATRIOT REAUTHORIZATION ACT'S NON-DISCLOSURE AND
I             CONFIDENTIALITY PROVISIONS {U)
           Section l 19(b}(3){E} of the Patriot Reauthortzation Act directed the
I   OIG to pe1ion.11 an audit of national security letters issued after the Act
    became eftective in March 2006 to deten11ine the nu1nber of occasions in
    which NSLs were issued "without the certification necessary to require the
I   recipient of such letter to coruply with the :nondisclosure and c:onfidentiatity
    require111errts potentially applicable under lmv." (0)

I          fn Section I of this chapter we describe the new certiflcation
    requirement in the Patriot Reauthorization Act, the steps taken by the FBI
    to imple1nent the new rneasuTes, and the inethodology of the OIG's audit o:f
I   the F'BI's cmnpUance with the ceti:ifica.tion requiren1ents. Section II provides
    our flndings and analysis. and Section III contains our conclusions and

I   reconnnendation. (U)


    I.     Background (U)
I          A.      The Patriot Reauthorization Act {U)

I          As initially drafted. the NSL statutes hnposed non-disclosure and
    confidentiality obUgati.ons on aJl NSL recipi.ents.100 The national security
    letter provisions of the Right to Financial Privacy A.ct {RFPA), Electronic
I   Communications Privacy Act (ECPA), and the ..Fair Credit Heporting Act
    (FCRA) authorized the FBI to advise recipients that they were prohibited by
    statute frorn disclosing to anyone that the FBI had sought or obtained
I   access to the requested records. l0 1 {U)

          ]11e non-disclosure and confidentiality provisions of the three NSL
I   statutes pTovoked significant public controversy and generated the first


I           wo Throughout U1e national security letter statutes and Sections 116 arn:! 1l7 of
    the Patriot Reauthorization Act, the tem1s "non~disclosure" and "confidentialitytt are used
    interchangeably. (U)

I           .uH Prior to the Patriot Act, U1e ECPA mld the RF'PA provided that no ·w·ire or
    electronic communication st::rv:ice provider or financial institution "shall disclose to any
    person that the Federal Bureau of Investigatlon has sought or obtained access to
    infommtion or records." 18 TJ.S.C. § 2709{c)(2000); 12 U,S,C. § 3414(a)(3}(2000). The
I   FCRA authorized disclosure only to "those officers, employees, or agents of a consumer
    reporting agency necessary tc.i fulfHl the requirement to disclose informatirm to the Federal
    Bmeau oflnvestigation .... " 15 U.S.C § 168lu(d)(2000), {l:J)

I
                                                 117'

I
I
I   judicial challenge to any of the Pahiot Act an1end111ents to the NSL statutes.
    See Dor,.;> v. ilshcrqft; 334 F. Supp. 2d 471 (S.D.N.Y 2004}, vacated by Doe v.
I   Gonzales, 449 F.3d 415 (2d Cir. 2006} Doe v. Gonzales, 386 F, Supp. 2d 669
    (D. Conn. 2005), disrnissed as rnoot. Dof~V. Gonzales, 44£) F.3d 415 {2d Cir.
    2006), upon remand Doc v. Gonza.l.es, 500 F. Supp. 2d 379 {SJ).N.Y. 2007)
I   (holding non-disclosure. proviskm in the Pabiot Reauthmizatlon Act.
     18 lLS.C. § 2709, to be unconstitutional under the First .i\rnendu1ent}. (U)

I          The Patriot Reauthorization .Act modified the non-disclosure and
    confidentiality obligations on NSL recipients. The Act authoriz:.ed the FBI to
    impose these obligations on~v upon certification of spedfled hann that rnig;ht
I   arise in the underlying JnvestigaHon tf a disclosure occurred. Specifically.
    after March 9, 2006, if the FBl seeks to impose non-disclosure and
    confidentialtty disclosure requi.rernents on Rn NSL recipient. the Patr:i.ot
I   Reauthorization Act requires the FBI Director or his designee to certi('{ that
    disclosure of the FBI's demand for infonnation nlight result. in: (U)

I               •   danger to the rn.ttional security of the United             States~     {U)
                •   interference \.Vith crtn1tnal, cotu1terterrorisn1, or
I               •
                    counte1intelligence investigations; [U)
                    interference with di.plo1r1.atic relations; or (U}

I               •   danger to the      lifr~   or physical   safr~ty   of any person, 102 (U)

           If the certi~ling ofi:kial detern1ines that confidentiEtllty is necessary,
I   Section 116 of the Patriot Heaut.hnrizat.ion Act requires that recipients be
    notifled of three spec.tile obUgations: {U)

I           (l} that receipt of the NSL rnust. remain confidential and cannot be
                dJsdosed except as requin.~d to comply with the NSL. or to obtain
                leg<..-tl. advice frorn an attorney·; (U)
I           (2) if the recipients disclose the existence of the request to a.nyone
                (e:lther to cotnply \.vith the request or to obtain legaJ advice fron1 an
                attorney). they must inform those individuals of the non--disclosure
I               <:.rr1d confklentiality requirernents; and (U)
            {3} upon request of the FBI Director or his designees, the recipients
I               must reveal the identities of the individuals to \Vhmn they disclosed
                the L'Xist.ence of the NSL5, rn3 (U)

I
I            wz Patriot ReauthorLm.tt.on Ad. § 1J6 {2006). The .Act prnv:ii:k.~ tha.t tht;'. :Otr\':ctor's
    design.ee .must not be tn a position low{~t th<:m a I·k'.adquarters l)('.puty Assishmt Director or
    field divisiDn Special Agent in Charge des\~nated by the Director. kL {lJ)

I                                                    118

I                                                 ~
I
I            B.          The FBrs Implementation of the Patriot Reauthorization
                         Act Non~Disclosure and Confidentiality Requirements (U)
I          On March 9, 2006, the date the President signed the Patdot
     Reauthorlzation Act the FBI OGC notUled all Special Agents in Charge
I    (SAC} and Chief Division Counsels (CDC) that the NSL nmdels that had been
     posted on FBI OGC's National Si..~eurity L.:1w Branch {NSLB) Intranet website
     could no longer be used to generate NSLs. The FBI OClC advised FBI
I    personnel that all NSLs that had been prepared but not yet served would
     have to be redrafted tn confrxnn to the nt:\v requirement in the law. (U}

I           To implement the ne\.v law, on Ma.rch 9, 2006, the FBI: Director
     delegated certifleation authority to all SACs and other desi&"l1ated senior
     ofllcials,HH ln the delegation rnen1orandu.m, th.e FBI OGC advtsed that
I    non-disclosure ce1i:ifications "should not and may not be inade in a
     perfunctory manner." The delegation also stated that. the individual signing
     the NSL n1ust n1ake an assesmnent that there is "a '-··g:enuine need for non~
I    disclosure;· based on one of the possible d.:mgers liste.d in the statute that
     could result frmn disclosure. ior; {U}

I           The F'BI OGC concurrently dissen1inated 5tuk'kmce on the provisions
     of the new law to FBI Headquarters and field divisions. Also on IVlarch 9.
     the FBI OGC distributed revised NSL approval £.Cs .:u1d NSL models to all
I    SACs and CDCs and posted the ne\v models on the FBI OGC's Intranet
     website. WG The F'BJ OGC acJ:vi.sed that the non--dtsdosure provision could no

I             H:i<l   NSL recipients are not required to divulge to the FBI that they intend to consult
     m1 atf()nv~y to obtain legal advice cir kgal ass:istance about the NSL Patriot
     Rt:::auth<irization Act,§ 116 f2D06}, ftJ)
I             104In add:ition to the SACs, tl·i('. Directoi- delegated i::ertiflc<:ttion signnture authorit)',
     non~1:lisdost1re ci:.~rtifl.eatton
                                      anthodty, and non-dlsdostfft: n:x_x-:;·tl:fication ai.rthority for NSL.s:
     to the following :FBJ senior officials: fk:puty Director; ExecutiV('. Assishmt Director rmd             ·

I    i\ssistant Executive Assistant Director for the National Security Branch; .Assisl<mt Ditettors
     and all Deputy Assistant Din.~ctors of the Counterterrorism, C.i:mnterintellig't!ni:~e., and Cyber
     Divisions; G<~nernl Comlt.>t;'.l and Deputy Genern1 Counsel for U1e N;1Uonal Security Law

 I   Branch: and Assistant Din.~c:tors in Ch;:i.rge of the New York. Vhtshingtcm, D.C .. and
     Los An,gdes f:kld offices. (!Jl
          iO'<> Offl.ce of the General Counsd, Federal Bureau of Investl.,gation, dectn1nic
     communication to an D:ivisions, Ddeg'ation of Non~Disclosure Certlfication Authonty,
 I   :March £*; 2006, at 4, fU)
            irn; FBI policy requires Umt all NSL<>- and approval EC& contain certain inform.ation,


 I   NSL approv;,11 ECs must provide "predicath:m" for the NSL by explaining \Vhy the
     infonuation sought is rek~vRnt to an autl'.l<Jrized investigation; document appn:wal of the
     NSL by apprnp1iate }X!r.sonnel; certii}" the nen::ssl.ty for non--disdostire ruxd eonfldenUaHt.y
     when applicable; include infonnat1cm needed to fulfill congress.ional reporting reql..tire1:nents;
 I   and do<.:urne:nt transmittal infonmltion for th<~ NSLB, the responsible Headquarters div:lsi.on,
     and the divis.ion that is <'tskt.~d to St-::rve the NSL. The NSL must kk:ntif~/ the statutory
     authority fi:n- the request and types of records requested: contatn l.de~ntiiYing in:formatinn for

 I                                                      I lSl
                                                                                                 (Cont'd,)



 I                                                 ~
I
I   longer automatically be included in NSLs and explained the certification
    process. TI1e FBI OGC repeatedly emphasized through e--1nails to all CDCs,
I   connnunications with individual CDCs, a_ncl the new models U generated
    that certJflcations for il11poslng- the non-disclosure obUgation were not to be
                                     -,                                 ~



    perfunctory or automatic. (U)
I          On March 15, 2006, the FBI OGC issued further g1.1idance reiterating
    that the non-disclosure provision was "no longer automatically included in
I   the NSL" and that the FBI inust ensure that there is a "genuine need" for
    non-di.sdosure piior to use. To mnplify the statutory directive noted above.
    the F'Bl OGC guidance explained that when the non-disclosure provision ts
I   sought, the approval. EC must provide a factual predicate tojustify
    imposition of the provision. w 7 The guidance listed the 4- potential ha.n.ns
    noted in tl1e Act (quoted above) <:md suggested the following 13 adverse
I   consequences tl-iat case agents should consider in articulating the factual
    predicate justtfying non-disclosure: (U)

I                                                                                                  bl
                                                                                                   b3

                                                          x
I          2. Disclosure :ma

I
                         x
I          3. Disclosure     111a.



I
                                          x
I          4. Disclosure ma


I                                                                             x
I
I   the targeted individual or account; certify tl1at the n~cords are relevant to m1 authorized
    investigation; certify, when applicable. that disclosure may result in an adverse
    cc1nst:.:quence; and provide the notifications listed abOVf.'. to the recipient. F01~ a more
    detailed description of these requirements, see NSL I. 22-27, {Ul
I          107 According to the NSLB Intranet website, "[if} a non-disclosure provision is
    sought, the EC must set forth a factual predicate to require such a pro-vision." {U)

I                                                 120

I                                             ~
I
I                  5, Disclosure may.~                                                 bl
                                                                                       b3
      \Stml                               X
I                  6. Disclosure rna\~

I     l1" I
      \loll

                                                         x
I      j(I\
                   7. Disclosure      nm.J
       \loll
                                                             x
I                  R Disrln:e::11n:~ rn;::i~
                                                                          ~
        ll"I

                                                     x
I
        1,..i11
               I

                   9, Disclosure rna~

I      ll"I
       \loll
                                               x
I      JI"
                   10. Disclosure ·mavl                                       I
       1iJ
                                          x
I                  l L Disclosure may                                         I

I                                                    x
I                  13. Disclosure rnay

I
     ·-i11e . J   ~ ,. • so ac v1sec case agen s J) Ken· m t 1etr approva : ~s any
I     other reasons for in1posing non--dtsclosure and confi.dentiauty requirements
     tf they \:Vere not on the list. (U)

 I                 C.      Methodology of the OIG Review (U)

                            1.      Random Sample of NSLs Issued After March 9, 2006
 I                                  (U)

            To pe:rfonn our audit of the FBrs co111pliance with the non-disclosure
 I   and confidentiality provisions of the Patli.ot Heauthorization Act, we
     identified a statistically valid random sample of all NSLs issu.ed fron1

 I
     lVIarch JO, 2006, tlirot1QJ1Decernber31,
                               ~                        -             -
                                               2006, By reviewing those NSLs to

                                                   121
                                                   ~
 I
I
I         detennine the nutnber of NSLs that ituposed non-disclosure and
          con:fo:.tentialHy obligaUons, \Ve could pro:ject hm.\r n1any NSLs issued
          throughout the BTU during that pe1i.od imposed these conditions. (U)
I                The FBI provided us with the FBI OGC NSL tracking database for
          calend;;u· year 2006, which vve used to detennine the universe of national
I         security letters issued during the relevant time pe1iod. 'The database
          contained 15, 187 records, each representing one national security letter

I         issued from. Ma.rch 10, ~.2.006, through Decernber ::J 1, 2006. V·le deten.nined
          that a. san1ple size of 375 NSLs \vould perrnH: us to project fron1 the sample
          to the universe of all NSLs issued frmn Man~h 10. 2006, through
I         December SL 2.006. at a 95 percent confidence level. \Ve then sequentially
          ntunbcred the 15, 187 records and used a rando1n n1u-riber generator to
          produce a list of 500 n1u:nbers {to eI1su.re an adequate Ust of NSLs if the FBI
I         was unable to produce every NSL \Ve requested). Vile used the first 375
          random nlnnbers to locate the corresponding NSL in the OGC database. and
          we obtained copks of the NSL':) m1d corresponding approval ECs. 108 (U)
I                   Our randorn sm11ple included NSLs from 51 different FBI field
           o:ffi.ces and Headquarters divisions, ·The number of NSLs f:rorn each office
I          ranged :frc.nn l to 37, 10!-:1 Counte1ierroris111 tuvestigations generated 24:3 of
           the ~..175 NSlA"'; in the sarnp:le, counterintelligence tnvestigat:ions generated
           12'7 NSLs, and fordgn cmnputer intrusion cyber investigations generated
 I         5 NSL.s. 1 E 1 {U)



 I                 ms As \Ve noted in our first NSL rep<:irt, during the period 2003 through 2005
           FBI did not reqoJre case agents or others to retain eopies of sl.gned NS.Ls. As described in
          Chapter Three of this report, the directive to retain signed copies of NSLs ·was issued tn
                                                                                                              th(~



          March 2007 tn conformity \.Vith one of our recommendations in our tl:rst N'SL report.
 I        .Accordingly, to perform thi.s audit tve had to use unsi&ined copies of NSLs that we obtained
          frorn a query of the FBI Automated Case Support. {ACS) system. {Ul


 I                For n v<:1.rl.ety of reasons, the :FBI was unable to provii:k 5fi NSL approval ECs and
           corresponding NSJ.,s from. rn.u- m·igl:nal Hst in n.~spnnst::. to out rcqw:.~st. These reasons
           induded instances in "''hich NSLs '>Vere not ekdronlcally uploaded into the FBI ACS
           system, the requested documents were subject to access restrictions or had been
 I         pennanently "chargf,.:d out" or removed from the database, or the case file or sedal numhf..~rs
           did not exist. \Vhen thts occurred, tve requested replacement records bas-txi on the random
           nt.unhers vte had genen1ted. {U)

 I                 WH
           files. (U}
                        nu·ee NSLs in our randorn sarnple ·wen:~      isM1t.~d   from FBI I-:!eadquarters case

                    LB) The distl'ibution of NSLs arnong the counteiierrorisrn, counterintdHgenc<.\ and
 I         cybe:r :investigative progr~lr11~~ h1 t}t1rra1ltiort1 sa,mpk \V<l .                 o th~; distribution
      {S) recon:led in the FBI NSL tracking i:!atahast;. for NSL:s issue( )roug :wut :WOO, an issue we
                                                                                                                        bl
                                                                                                                        b3
           ~~d~~~suirim<;rapter Fom of tl:u.·s repm~t. Our analysis of the OGC database found that ..
      ~S)f
 I                        _of all NSLs issued
           C:Ol111tfrt~rrPii.MJltnvestigation.:
      \S) 3 penx~nt from cyber investigations, T us is
                                                      · ·     ., · ·1r ye-l'tr 2006 were generated frnm
                                                                    fro1n countetintdli sence investJgations, and
                                                                                          to the distril:nrtinn \Ve
                                                                                                            (O:infd.)
 I                                                            122
                                                        ~
  I
I
I                    For purposes of evaluating cmnphc.uwe with applicable non-'disdosure
               and confidentiality requirements in the Act and other ft'BI polides, we
I              reviewed both the NSL approval ECs and the NSLs. \Ve examined the
               approval ECs to determine whether they: (lJ)

I                              •     identified a national security investigation or foreign computer
                                     intn1sion cyber .investigation file number; and (U}

I                               •    contained either a certification that disclosure that the FBI
                                     sought the requested .infonnation would result in the adverse
                                     consequences listed in the statute or a detennination that tht:
I                                    case did not warrant activation of the non--disclosure
                                     proviston.111 (tr)

I                       V\Te then detennined whether the approval EC included a Justification
               for non·{lisclosure and conJidentiality, If a j ustillcation 1vas included, vle
               rn::xi: determined \Vhether that justification referenced any of the 13 possible
I              adverse consequences Hsted on the FBI OGC Intranet website or ident1Jied
               other adverse consequences. \Ve also exatn.ined the NSLs to detenntne
               \vhether they included non~disdosure and confidentiality obligations. (U)
I                                    2.         Other 2006 NSLs Identified During the Review (U}

I                      In addition to our analysis of the randmn sa.rnple of 37.5 NSLs, we
               identi:!Jed 8 "blanket" NSL'".:; issued afi:er March 9, 200H, that we found <ltd
               not cornply '\Vlth the Patrtot Reauthorizatlon Act non-disclosure a:nd
I              confidentiality requirements. V•/e identified these blanket NSLs in our
               1.nvestigatlon of the FBI's use of exigent letters, In that investigation, \Ve
               learned that the FBI's Counterterrmi.sn1 Dhiiston issued at least 11 follow¥
I              up blanket NSL~ to ''cover" infonuation obtained by personnel in the FBI's
               Con:nnunicationst\nalysis Unit at FBI Headquarters in response to extgent
               letters or other infonnal requests. These NSLs sought telcph011(~ toll billing
I              records for 3,860 telephone numbers {which coffesponded to approx1mately
               2, H36 unique telephone n1unbers} pursuant to the ECPA NSL statute, None
               of these NSLs was accompanied by approval ECs, a violation of FHI policy.
I     \S'i     ----~-~===--=-.======::;,-----·------------------                                               ........................................................
                   foLtJ:l<i irtfJllT nmdom ~~l;Ilplduuuuuuuuuuuuuuuuuuuuuuu.kenerat.ed from mi 1nVTte1Tnrism inv·e~;tlgai.ions.
                                                                                                                                                                      ~-~

                                                                                                                                                                            bl
    \S}
             ........................_ _ _koil1 ..Col!nte.rtntdllgen<..-e.. investigaUons,. ,;m~ ....... ·································Jrorn cyber                       b3
I    \S)           liive::lHgations. ~
                        tu The Attorney General's Guidelin<.~s fbr FBI Natl.onal f:kcurity lnve&Ugations and

I              :Fore:tgn lntel1lgence Collection require that NSLs be issued only .in connection with national
               security investigations. FBI policy requi.res that NSLs be issued from investigative mes, not
               from control Jiles. See NSL I. 100-104. \Ve revfew-ed the approval E:Cs aec•Jmpanying the
               ;175 NSLs to detenntnt:'. whether they complied with this requirement Of foe 375 apprnval
I              EC$. ·we ex:amined, we found 1 instance in \Vhich <:m approval EC indlcav:d that the FBI
               relied exdusivdy on an F.HI .Headquarters control Hle rather than an investigative 1Ue to
               initiate apprnval for the isswJnce. of an NSL {OJ

I
                                                                               123

I                                                                        ~
I
I   As a result) we were unable to determine '>vhether the senior FBI officials
    who signed these NSLs considered whether there was adequate predication
    to impose the non-disclosure and confidentiality obligations that \'..rere
I
                                                                                              1


    referenced in 8 of the 11 NSLs. We will provide more detafls and our
    analysis of these NSLs in our forthcoming NSL report. (U)

I   U.     OIG Findings and Analysis (U)

I          A.         NSLs That Invoked Non-Disclosure and. Confidentiality
                      Obligations (U)

I         Of the 375 NSLs \Ve examined in our random sample, 365, or
    97 percent imposed the non-disclosure and confidentiality obligation
    established in the Patriot Reauthorization Act. Based on that result, \ve
I   projected that of the 15,187 NSLs the FBI issued fro1n March 10, 2006,
    through December 31, 2006, 14,782 NSLs imposed the non-disclosure and
    confidentiality obligations. {U)
I                                                    CHART 6.1
         NSLs that Imposed             Non~Disclosure             and Confidentiality Obligations
I                     (March 10, 2006 through December 31, 2006) (U)
                                     [Charts below are Unclassified]

I                         QIG Sample
                          365
                                                                             Projected

                  ·'\---'-'"'""""""'"'""""""""'""""""""'~




I          400
           300
                 /l                                     j
                                                        ~


                                                                  10,000
           200
I          100
                                                                   5.000


I                      Yes                 No                               Yes          No

           As noted above, \.ve examined approval ECs to determine whether tl1e
I   recitals required to be made when seeking to impose the non-disclosure and
    confidentiality obligations matched the text of the NSLs. We found that the
    language of the approval ECs was not consistent vv1th the corresponding
I   NSI.,s in only 2 of the 365 instances. In one instance, the approval EC did
    not include the SAC's certification of the need for the requirements, and in
    the other the approval EC contained internally inconsistent recitals about
I   the necessity for invoking the provisions. (U)

           Of the 364 NSL approval ECs that included justifications for imposing
I   the obligations, 225 1 or 62 percent, included 1 of the 13 justifications listed
    in the FBI OGC's March 15, 2006, guidance discussed above. Of these 225
    approval EGs} 184~ or 82 percent, stated that disclosu.re could prematurely
I                                                           124
                                                     ~
I
I
I         reveal a national securtty investigation to the target or persons affiliated
          vrith the target or the subject matter of the nati.onal security investigation
I         and cause them to change the.fr behavior patten1s and circLm1vent
          detection. Th.ts justJficaUon also was cited h1 23 additional approval ECs in
          conjunction \Vii:h 7 other justifications fr0111 F'Bl OGC's list. The ren1aining
I         18 approval ECs cited other justifications suggested by the F'BI OGC. (U)

                The balance of the approval ECs (139 of 364, or 38 percent) refeITed
I         to adverse consequences from preinature disclosures that were not
          specifically referenced on the FBI OOC's li.sL The adverse consequences
          described in the certiflcations ranged frmn perfunctory justifications to
I         detailed descriptions of the specific consequences that might result from
          disclosure. The detailed descriptions included how disclosure would affect
          the behavior of suspects or the eftectiveness of the FBI's invest~gattve
I         techniques and overall investigations. (U}

                Of the 364 approval ECs we exarnined that sought approval to impose
I         the non-·disclosure and confidentiality obligations. all but 17 (5 percent)
          contained justificaUons :for imposing the non--dtsdosure and confidentf.alH:y
          obligations that complied with the FBI OOC's guidance. ··111e remaining
I         approval ECs contained justifications for irnposi.ng the obligations that were
          case-specific. Exa111ples of these Justifications were that disclosure: (U)

I                    \Vill have a detrim.ental effect on the tnstant investigation for a
                \S) ·:nurnberofreasons;mFirst,f                ~-u1d his associates.would                                                                                   bl
                                                                                                                                                                            b3
                     likely conceaJ their activities froin the FBI and therefore
I             (S) frustra .e FBI effor .s .o collect evidence of terrorist. activity.
                             '1------&r..:o~.w...i~rain fron1 using the telephone to
                                                      matters which would undermine
I                                                                                                                     hird, preniature
                   L---e-1....--.P. . .-o-s-t1-r-.(3-0....,····r"'"a-n-.. ."""'.~...ro:• ..,.. J1_1,...e-;1-·e-.s-:-t"""'i1-_f______,,_,,___,_...-lw01:lld jeopardize the
I
                                                                                         .........

            \S)          teIToristfina.ncint.{ iI1y<;~tigt:ttip119                                                                                        , :id possible
            \S)            FBirecruitn1e:rttefforts. (~
I   \·S·/·······•{S)       .Due••tn•J                                bon1munications .                          With.·snbjeets··b.~
                                                                                                          ...- - - -
                                                                                                                                                                            bl
                                                                                                                                                                            b3

I         {S1          I
                          who've been detained on teITortsrn related charges since
                                                         land hi.s com.municatJon and association vJith
                       -s-u"'""6"""'1-ec-·t,...s_o_f,_s-.,e-'vera1 [full investigations], d.iselosure of this
I         \S)
                          request 1nay detri1nentally t~ffoct [sic} the outcmne of the foreign
                          prosec1..1tbtial. effotts··nf·charged·ten-orists··i                             ind
                          ongoing intra-divisional counterterrorisrn inves :1 __ a ·ions. ($)
I               Exaxnples of perfunctory justifications that we found to be insufficient
          were: (U)
I                                                                                             125
                                                                                      ~
I
I
                                                   ~
I           You should remincd                            lthat it ls prohibited from
            disclosing that the FBI has made this request since it. m.ay
                                                                                                           b7D


            interti~re.\\.1tl1 . an . fsicl . enuntertern)risrn . invest:i.gatinn., ~
I   \U)


I           A Prehn1ilmry· int.er:naUonal terr01i.s111 lnvesUgatton of subject, a
            Non~U-5. Person, \Vas authorized in accordance '\Vith Attornev                 y'



            G·eneral GuldeUnes because the sul~ject ts or n1ay be engaging,
I           or ha.s or n1ay have engaged. in activities constituting a threat
            to the national security for or OJl beh.alf of a foreign power. T'h.e
            subject may or may not be involved with international terrorist
I           actH·1t.Jes,. or knov,.ringly conspiTed tvith or aids m1d abets such a
            person in su.ch activities. (U)

I            B.        NSLs That Did Not Invoke Non»Disc.losure and
                       Confidentiality Obligations (U)

I           Our revie\.V determined that 10 of the 375 NSI...s ·we exc.unined, or ~'3
     percent. \Ve.re issued '\.vithout the certification necessa.ry to require the
     recipient of such lel:ter[s] to comply '\:Vi.th the n.ondisdosnre and
I    confidentiality requirements potentially appltcahle under law. "l 12 \Ve
     revie\ved the approval ECs associated with these. l 0 NSLs and found that 4
     of these approval ECs contained representations that the facts of the cases
I    did not warrant irnposition of the rinn-tUsclosure and confidentiality
     obligations under the appl.icable NSL statute. 'Therefore, it appea.rs that the
     absence of the non-disclosure and confldentialti~V provislons in the NSl,s
I    was deliberate in these four cases and not an oversight. (U)

           In contnl,...:;t. 6 of the 10 approval ECs \Vere inconsistent \.Yith the
I    corn~sponding     NSLs. In Jive 1nsta.nces, the iwn-d.lsdosure tu1d
     confidentiality provisions were not included in the NSL despite the fact that
     the SAC had certitled the need for the requJre.ments in the approval ECs.JI~'l
I    In one instance, the approval EC failed to address the basis for the SAC's


I
I            112   Patriot Reauthorization Act,.§ J 19 (b){::-J)(F.;}, (U)


I            n:i \Ve detenntnt".'.d that In three of the five tnstnnees the approval ECs contained the
     ce1-Uficatlons Jnstl~y!n,g impositkm of tht.'. rnm--disdosure and CtJnfi.denhn.lHy obligations, but
     the case agents used outdated NSL modds that did not contain the apprnpriate proviSknv.>,
     In two other .lnshmces, the approv,;:ll ECs eontained the certif}cations justifying; imposition
I    of the non--disdosure m1d C{)nfidentiality obligations, but the provisions tvere missing from
     the u.ssociak~d NSLs. {Ul


I                                                        126
                                                     ~
I
I
I   deten11infl'.ticm
                                              ~·.
                        the focts did not warrrult ttnpositlon of the non-
    disclosure ru1d cortlidentiality obligations. 114 fU)
I        Based on ol.lr smnple, we project that, in total~ the FBI issued "-105
    NSLs from March 10. 2006, through Decen1be1~ 31, 2006, that did not
I   impose    non-disclosure and confide11tiality obUga.tiOJ}$, (U)

           C.      ..Blanket•• NSLs Issued in 2006 (U)
I         A.<; noted above, in the course of our e;>.igentletters investigatton we
    e~xamined 11 NSLs issued by F'BI Beadqnarters officials hi the
I   C:ounterterrorisr:n Division in connectiot1 \.vith efforts to issue legal process
    to coverinforn1ation already acquired through exigent letters and other
    infmmal requests. (U)
I           Eight of these 11 irnpruper NSLs h11posed non,,disclosure and
    confidentiality requtrern.ents on the reGipients thatdid not cornply with the
I   Pahiot .Reauthortzati.onAct cerUficationrequirernent for invoking these
    provisiOns.11° The individuals who prepared these NSLs appear to have
    relied. npon outdated NSL .tnodels that did not i11dude the required
I   certification. These eight NSLs included the pre-Patriot Reauthorization Act
    language to the effect tl)at the reciptent was prohibited under 18 U.s.c:.

I   § 2709(cJ frq1n disclosing that the FBI had sought or obta]ned access to
    infonnation or records under the ECPA.116 (U)

          In addition,, none of these 11 blanket NSLs cotnplled \<v).th mten1a1 FBI
I   policy requiring the preparation and approval of tnelnoranda establishing
    the existence of an open investigation and the relevance of the inforrnatfo:n

I   ~ought to the 11nderlying investigation, FBI policy requires that such




I            lH We determined .that the tase agent        i;in outdated approval           did not
    prnvide options. fot including or omitting the rn:m-disclosure and cmificlentia]ity ptovisions
    .in the NSL, {U)

I            us The other t:hree blanket NSLs            a non~djsdo,•:<11re r~qi;~irernent on the
    :r<tdpfents that complied :with the Patriot Reauthor:izat:ton Act certification requiremrn1t for
    :invokl:ng thc$e provisions. (U)


I            i\s we will describe in detail in our next NSL report \Ve determir.n::tl thaLfive of the
    eight NSLs that failed to contain the required ECPAcertl.fication violated the gcPA NSL
    statute for t:\vo acldtttonal reasons: h'ilo of the flve NSLs w~re signed by FBipetso:nnel \;vho
    v1f.re not authortz,ed to sign NSLs and at least four of t:he five sought records that
I   n:::levant to <:m investigation international tt.:rrqri.sm. {U}
            HG The F131           who signed these NSLs         an Assistant Director, a Deputy
    Assisk1.nt Dtrector, two Acting Deputy Assistant Directors, and a SAC. In addition tu being
I   non-co:m.pli.ant w1.th the mm-disdmmre and confidenti~Uity requirements, these NSLs were
    \mprnper for other reasons that 1,-yill be discussed in the Om's forthcoming NSL report We
    determined that            these NSLs was             by FBI OGC attorneys. (Ul

I
                                                   127
I                                             ~··
I
I    rnernoranda accornpany the submission of NSLs for approval; be approved
     by the squad supervisor a.nd Assistant Special Agent in Cha.rge; and contain
I    a statem.ent by the o:ffidal signing the NSL that non-disclosure is necessary,
     together \:\>ith facts to justif)v the non-disclosure and confldentiality
     obligations . Since November 28. 2001, FBI policy stated that NSLs should
I    also be reVie\ved by CDCs to ensure legal suftkieney.1n (TJ)


I    III.   OlG Conclusions and Recommendation (UJ

            The vast rnajority of the NSLs and approval KCs we examined in our
I    random sanrpl.e substantially cmnp:lied with the Pahiot Rea.uthor:tzation Act
     ce:rtu1caUon requ.iretnent and. FBI policy related tn non-disclosure and
     confidentia1it.y requiren1ents, vVe believe this compliance record was largely
I    due to the prompt guidan.ce the FBI OGC issued on the date the Act was
     signed, the availability of new NSL fom1s on its lntrm1et website. and
     periodic guidance FBI OGC attorneys provided to the field as questions
I    arose. (U)

                Our analysis also showed that at least 97 percent of the NSLs \Ve
I    examined in the random sarnple b:nposed the non-disclosure and
     confidentiality obligations on recipients, The 1uajority of the approval ECs
     supporting these NSLs referenced the assertion that disclosure of the NSL
I    cou.ld
                                                                                 ~ase agents
                                                                                                         bl
                                                                                                         b3
                                                                                       '"
     "· .,e \.. b ,                                                   , &'5 -~-- ions by the
I    FBI OGC as to the possible a.dvetse consequences that could result frorn
     disclosure. :tS}:::

I          In general. FBI e111ployees corn.plied \Vith the requirernent to provide
     substantive Justifications for the non-disclosure certifications. We found
     that only 5 percent of the approval ECs in the randon1 smnple contaJned
I
             u. 7 The Novemb<~r 28, 2001, FBI OGC        memonu1durn states that w[p}Iior to
 I   certifkation, every NSL and cover EC issued by the fidd division should be reviewed by . , .
     the Office of the Chief D:tvisl.on Counsel , , . ," The memorandum provides that ~{i]a\V}'ern
     revie·;Ning NSL pack.:lg;t::s should use the i:::heddist:s pr<ivlded tvith this communk'.ation to

 I   ensure legal sufilciency." Office of General Counsel, Nation<i:.1 Security Law Unit, Federa.1
     Bureau of hw<~st:fgatiun (FBI), ekdronic emnmunication to all Field Offices, National
     Security Letter lVIat.tt:Ts, Novembt::r 28, 200L The FBI Dinx:tor's Man.;h 9, 2006, delegation
     memorandtnn authorized the NSLB to issue guidance :regarding the rt~isions of the
 I   national security letter srntute:~. NSLffs Intranet website stated in 2006 that "NSLs ate
     rt.~viewt~d hy CDCs at the field ofn.ce .leveL" On ,Jum.~ l, 2(}07, t.he FBI OGC issued a
     cornpn.~hensive guidance EC tt:i an divisions for the first tl:me stating that "all Field Offlce


 I   NSfa~ must b<~ revie1.ved by CDCs or ADCs for legal sufficiency" prior tu fonvarding the NSLs
     to the SAC for approval. The comprehensive guidance EC is described in Chapter Two of
     thts report. {l.J)

 I                                                 128
                                              ~
 I
I
I                                              ~
     ped'unctory justifications for invoking the requirements, ln these instances,
     the case agents appm·ent1y :failed to read or to follnw FBI guidance plainly
I    stating that such perfunctory reasons '\vere not satisfactory·. In add:ition, the
     case agents• squad supervisors, CDCs, and SACs accepted and approved
     these insufnctentjustHkations. \Vhile the number of non-comp11ant NSLs
I    in our random sample was small, we are con.cerned that sorne case agents
     and their supervisors failed to adhere to FB1 policy requiring sufllcient
     justillcation for hnpostng non .. disclosnre and confidentiality requtren1ents
I    on NSL recipients, (lJ)

            l\.lthough \Ve did not seek: to ve1ify whether the facts cited to suppo1i:
I    hnpos:ition of the non-disdosure and confklentlaltty obligations '\Vere
     accurate, \Ve note that many of the approval ECs seeking to ilnposc these
     obligations recited one of the FBI OGC:'s rationales without providing
I    additional supporting detafis. 11s The FBI's cornprehensive guidance EC
     dated .June 1, 2007, directed that "FBI oft1dals rnust niake a case by case

I    detennination \Vhether disclosure of the NSL" may cause one of the
     enumerated dangers to arise. \Ve recorrnnend that the YBI reiterate that
     case agents and supervisors rnust grve individualized scrutiny to the
I    circumstances of each case before seeking to invoke the non-disclosure and
     confidentiality requirements m1d that the B~Brs Inspection Division m1d the
     Departrnent's National Security Divis.ion. consider including whether these
I    justifications are factually supported in tll.ei.r pe1iodic audits. 119 (ffl

            \Ve found that a sin.all number of NSLs and approval ECs in our

I    random sarnple (8 of 375) contained inconsistent recitals v..ith respect tu the
     need for invoking the no:nwdisdosure and confklenUality obl:igations. Case
     agents and their supervisors, as \\.tell as CDCs, tilikd to identify and correct
I    these errors. T'o address this and other data. entry discrepancies, the F'Bl
     has implernented several corrective lneasures,. tncluding a ne\v NSL data
     system that FBI oflkials believe \Vill elirninate this and other data entry
I    errors tn the creation of NSL.s and approval ECs, 120 (U)

           More troubUng,. 11 blanket NSI....s issued by Headquarters
                                                             .        otllcials in.
 I   200G that sought telephone data on 3,8HO telephone numbers did not

             iw \Ve believe the justifkation required by FBI policy should be described ln the

 I   app:roval EC and thal it is not sufficient that the justification is documented dse>.vhe:re in
     the invesUgative file, Squad supervisors and C.DCs {or tnknwl and e:idernal <Hld!tnrs)
     should nnt he eq:H.:cted to search through multi~volumc i11ve~1tiganve mes to locate reasons

 I   for invoking :non.. i:Hsck•sure and confklentiality obllgauons. In light of the FBl OGC's
     June L 2007, comprehensive guidm1ce EC. appnwul ECs nn.ls.t nov/ contain facts
     supporting imposition nf these obllgatimm. (U}

 I          lrn   These periodic audits are desc.dbed in Chapter 1\vo of this .report, (U}
            i 2o Th<~ corrective measures implement<~d by the FBl ln response lo our first NSL
     report m·e described i:n Chapter '1\vo of this report, (U}

 I                                                  l ')C)

 I                                             ~
I
I   comply \Vith the Patriot Reauthorization Act requirements respecting these
    provisinns. inte1nal FBI policy, or both. \Ve are concerned by the failure of
I   senior Counterterrorism Diyision ofilcials to comply \vlth statutory
    requiren1ents and inten1al. policy regarding the issuance of NSLs and their
    failure to consult legal counsel. As noted previously, we wtU exarnlne the
I   circumstances that led to the issum1ce of these blanket NSLs in the OIG's
    forthcoming NSL report. (U)

I         Based on our review and to ensure that non-disclosure and
    confidentiality provisions are in.tposed only \Vhen appropriate, we
    recornrnend that the FBI: (UJ
I          1. Periodical.ly reissue guidance and training materials reminding
    case agents and supE;:rvisors assigned to national security .investigations
I   that they must carefully exmntne the circumstances surrounding the
    issuance of each NSL to detennine whether there is adequate justification
    for trnposing non-disclosure and contldentiality requiren1ents on the NSL
I   recipient. (U)


I
I
I
I
I
I
I
I
I
I                                    130
                                     ~
I
I
I                         CHAPTER SEVEN:
I               IMPROPER OR ILLEGAL USE OF NATIONAL
            SECURITY LETTERS REPORTED BY FBI PERSONNEL
                            IN 2006 (U)
I           111e Patriot Reauthorization Act directed the OIG to describe
     "1mproper or illegal uses"' of the NSL authorities in 2006. similar to the
I    requirernent In our first NSL report. In this chapter. \V"f.': report sorne of our
     findings on improper or illegal use of NSL authmities that. were identified
     and reported to the FBI Offlcc of the GeneraJ Counsel {FBI OGC) by FDI
I    personnel in 2006. Hmvever, our nmin flndings on the n1ost serious
     improper or illegal uses of NSI,. autholities \Vill be described tn our nex:t NSL

I    report. \Vbich \Vill include the .results of our detailed. investigation of the
     .FBI's use of exigent letters. That investigation expanded on the results of
     our exigent letter revie\v tn our first NSL report by examining, among other
I    topics. the scope of the practice; the FBI's efforts to issue legal process after
     the fact to cover the information obtained fron1 the eXigent letters and other
     improper requests; our ass.ess111ent of the accountability of FBI persunnel,
I    including agents who s~g:ned exigent letters and their supervisors. for the
     iinproper use of exigent letters; and the results of our exanllnatlon of
     improper NSLs served on three con1n1unication service providers. (U)
I           As \Ve wiJl fully desclibe in our nt>. Js:t NSL report, from 2002 through
     200G, we frmnd that the FBI obtained teleplmne data on approximately
I    3. 764 dornestic and international telephone nurnhers (which correspond to
     approximately 2;032 unique telephone numbers) pursu.a:nt to t~~gent letters
     and other informal requests rather than through NSLs fff other legal process
 I   served in advance of obtaining the records. V./e also found that the FBI
                                            ~-
     issued 11 "blankt~r· NSLs in 2006 that sought retroactively to Justify the
     FBrs acquisttion of data through the ex~gent letters or other informa.l
 I   requests. All I I of these blanket NSLs "\Vere irnproper for one or 1110re
     reasons. Some sought records that the FBI was not authodzed to obtain
     through the Electronic Communications Priuacy Act (ECPAJ NSL statute;
 I   many were issued tn violation of the .Attorney General's Guidelines for FBI
     National Seeurity lnvest.igHtions and Foreign £ntelli.gence Collection (NSI
     Guidelines); and all \ve1·e issued in Violation o:f internal FBI policy. Following
 I   consultation \vith J.i'.BI OGC attorneys. the F'Bl issued n(~\.v NSLs in 2007 to
     correct smne of the in1proper blanket NSL~ and also generated for the first
     time docun1entatlon ex.plaining the predication for these NSLs. 121 In light of
 I   our fin.dings of signHkant hnproper or illegal use of NSL.s in 2006 through


 I            m \Vf..~ ·will de'Scxibe and ev~.iluate in ()U:r forthcoming NSL repnrt Uv.~ FBI OGC's
     <'Kijudkation of any possible intelligence <;;iolahons that \Vere reported as a n~sult ~of e-s.i.gent:
     letters, blank.et NSLs. and other improper requests. [U}

 I
 I
I
I   the use of exigent letters, other informal requests, hnproper blanket NSLs,
    and other hnproper NSL. s, our findtngs in this chapter s.hould be considered
I   in cnnjunction with our forthcoming NSL report {U}

           Chapter 'Three of this report describes additional improper NSLs
I   identitled through three n:\.1e\:vs conducted by the FBI in 2007 in response
    to the OIG's first NSL repmt (U}

I             (l) a review of NSLs issued by FBI field offi.ces fron1 a random
              sarnple of 10 percent of all national security investigations
              active at any time fron1 2ooa through 2006; (Ul
I             {2) a review of a nu1dorn sample of l 0 percent of all NSLs issued
              by Headqumters di-vi.stons during the sai11e period; and fU)
I             (3) a revtmv of all NSI.s issued pursuant to the Fair Credit
              Reporting Act (.F'CHA) in counterintelligence investigations frmn
              2002 through 2006, (U)
I          In this chapter, v.re address the matters that were self. repoti.ed.by FBI
    field personnel in 2006 to the I''BI OGC as possible tnt:emgence vio.lations,
I   These violations occurred beti.:>n) the OIG issued its flrst NSL report m1d
    before the FBI began taktng; corrective action in response to our report
    (described ln Chapter T\:vo of this report), It ·is therefore not surpdslng that
I   we found possible NSL-related intelligence violations .in 2006 co:rnparable to
    our findings in ottr first NSL report, :rvforeover. con1pared \Vitl1 the m. unber
    of possible intelligence violations associated \1'1th the FBI's 2007 revie\vs,
I   exigent letters and other inJor:mal requests, and the 11 blanket NSLs mH..i
    other hnprope:r NSLs issued in 2006, the number of rnattcrs dtscussed in
I   this chapter is relatively snm:IL (U}

            rt is important to note, ho\vcver, as desc1ihed in Chapter 111ree of this
I   repo1t, that the overwhi.:~lrning rnajori(v of possible NSL-rda.ted intelligence
    vi.olattons that occurred since the Pahi.ot Act signiflcant.ly expanded the
    F'BI's NSL authorities were not reported by !::<'BI personnel to the FBI OGC
I   throug;h the self.·reportJng med:w1.nts111 established 25 yea.rs ago to identify
    anci au.-la. ress
                   · sue.h v10
                            · 1a1·mns, i·-.,)
                                         "'-· c·l1)·

I         As described in Chapter Twn of this report. the FBI Is in the process of
    iinpkmenting the recon:unendaUons in our first NSL report that were
    intended to ilnprove its compliance \Vith NSL statutes, Attoniey General
I   Guidelines, ~md internal FBl policy, 1V1oreover. the FBI and other
    components of the Departrne:nt are taking additional steps to pron1ote
    ···-·-----------------------------·----~-




I            i.22 Possible intelligence viobtlmm can lx~ reported by case agents, the case agents'
     supen.risors >vho appi·mre the issuance of the NSLs, or the Chief DiVisi<H1 C1)unsels (CDCJ,
    '11iey also t::<ln be repo:rted as a. n~~n.i.lt of <:t supi::':rvbor's file review or an audiL {U)

I
I
I
I     compliance \Vith NSL statutes and policies g<.rverning other investigative
      techniques used in nattonal security investigations, Once irnpleme.nted, the

I     FBI believes that 1nany of the etrors categ01ized as possible intelligence
      violations in our first NSL report, in the FBI's 2007 reviews, and in thts
      chapter \V:iH be significantly reduced. (U}
I            In Section I of this chapter, \Ve describe the FBJ's procedures for
      reporting possible I:ntelli,gence Oversight Board (JOB} violations to the FBI
I     OGC and the FBI OGC's process for deciding whether to report the vi.olation
      to the IOB. In Section IL we discuss vi.olations triggered by the use of NSLs
      that \Vere reported in 2006 by case agents to the FBI OGC as possible
I     violations that should be reported to the IOB. In Section Ill, we summarize
      our conclusion and provide our recommendations. (Ul

I                     As \.Ve did in our first NSL report, we deten11ined whether the FBI
      would have been entitled to the infon:natJon under applicable NSL statutes,
      Attorney General Guidefu1es, and internal. policies, Y.le found that of the 84
I     possible intelligence violations identified }.fild reported to the FBI OGC in
      2006, the FBI recetwxl infonnation it was not e.n.tttled to receive in 14
      matters. In one of the n1atters the VBI requested inforrnation i.t \va.s not
I     entitled to under the applicabk NSL statute. In this rnatter the case agent
      modifted the standard lcmguage used for requesting infonnation pursuant to
      the ECPA NSL statute by requesting publicly available content tn:formatton,
I     The FBI OGC concluded that the alteration of t11e ECPA NSL statutory
      la.nguage to request and obtclin the infonna.Uon was beyond the scope of the
      l'.;~c:·o  ~ 12::1 1·u)
      .I~; . J. f'-.,      ,

I           In the othe1~ 18 111atters. the F'BI rnade proper requests but, due to
      third patty errors, obtained Jnfonnation it was not entitled to receive under
I     the pertinent NSL statutes. (U)


I
 I              ~.2J· \\le (:t)t1lcl riot con.cl11d.e \i..rl1etl1er tb.e I--""£31 Cfttnpot1J1(let:l tl1e er:rc~rs Jn~.rol\red. i11 5·.2
      matters in whl.ch it ren.'.iVt:.'.d tm.autho:rized infon:n<ltion as a result of third party errors
 I    because t.hf~ FBI OG{.~ has not yet adjudicated \Vhethe:r the FBI used the inapprnp:riately
      obtained information or up.loaded it info FBI databases, Piior to Novernber 1~3, ZOOG, ca.s(~
      ;::igents were requin~d to report to the FBI OGC unauthorized colkctions fro-:m third pa:riy

 I    z~r:rors. Rffectlvt:: Ni:1vernber 1;3, 2006., tl:w IOB agreed that such third party G'.rors did not
      have to be reported to the JOB. However, as discussed later in this chapter, on August 1,
      2007, the JOB directed that the FBI report tmauthortzed collections due to third party
      errors if the :F'BI c.ompounded the errors by using infonnation inapprnpdatdy provided or
 I    uploading it into FBI databases, \Ve consider rnatk:rs in v,rh:!ch the FBI compounded third.
      pa:rty errors to be an "improper~ use of NSL-delived tnformath:m. {U)


 I.
 I
I
I    I.         The FBI Process for Reporting Possible Violations Involvh.lg
               Intelligence Activities in the United States (U)
I           In this section we briefly sun:mmri.ze the FBTs procedures for re.porting
     possible intelligence violaUons to the FBI OGC and the manne.r in which the
I    FBI OGC decides whether to report possible intelligence violations to the
     IOB. \Ve then describe the November 2006 FBI OGC guidance to the tl.eld
     on reporting possible intelligence violations to the FBI OGC and separate
I    guidance to the FBI OGC attorneys assigned to evaluate possible
     intelligence vtolations. {U)

I              A.         The Process for Reporting Possible Intelligence
                          Violations (U)

I    th<~
             I~xecutive Order 12863 d<:~stgnates the IOB as a standing cornrnittce of
          President's Foreign rntdltgence Adv:iso1y Board and directs the IOB to
     inform the President of <:.my activities that "may be unla\vful or contrary to
I    Executive Order or Presidential Dtrective," 124 TI1Js directive 11as been
     ini:eq:ireted by the Departlnent and the 1013 dining the period covered by our
     review to include tepmi.s of possible violations of provis.i.ons of Attorney
I    General's NSI Guidelines or other guidelines or regulations approved by the
     Att.on1ey Gen_eral in accordance \r.tUh Executive Order 123~)3, elated
     December 4, 1981, if the provision wa.s designed to ensure the protection of
I    individual rights. (U}

                 To comply- "\.vith the Executive Ord.er 12863 directive, the F':BI has
I    developed an internal process for reportJng possible lntellig<.::nee violatim1s to
     the FBJ OGC that begins with the duty of FBI personnel to self~repci:rt to the

I    FBI OGC possible intemgence vinlatJuns within 14 days of discovery, These
     reports rnust include the idenUfication of the substantive investigation in
     whkh the questionable activity occurred, the nan1es of the relevant FBI

I    personnel, the identification of the investigation's $Ubject's status as a lLS.
     person or non-U.S. person, the legal autho.rity for the investigation, a
     cornplete <-U1d thorough explanation of the error believed to have be<~n
I    comn1itted, and th.e date of the incident. FBI OGC attorneys revie\v the
     reports, prepcu·e a written opinion as to whether the matter should be
     reported to the IOB, and draft the wli.tten comn1u.nication to the IOB for
I    those rnat.ters the B'BI OGC detennines meet the reporting: requirements of
                    c {)rd·"r
     I"X"'('t1·L··1'v"
      ~'~ ,,. ,. .     ' c ·1°35·-:i.
                              . ·"'-' -.), (TT}
                                            I..>




I
 I             UH
     lnspi:~:t:o:r
                      For a more defa:iled description of the JOB reporting process, se.-e Otlk:e of the
                     General, R.eport. to Congress on Jn-~plementotr.'on <fSection 1001 qf Uu~ Ut'.:U\
     PATRIOT iki. (March 8, 2006). fU}

 I
 I
I
I          In Nove1nber 2006, the FBI OGC issued guidance to the ildd on the
                                                                <,·~·




     types of infractions involving the use of NSLs that rnust. be reported to the

I    FBI OGC as possible intelligence violations, The FBI OGC also issued
     revised guidance 1br attorneys assigned to its National Security Law Branch
     (NSLB) who evaluate possible intelligence violations. These guidance
I    memoranda. are described bdmv, (U)

            B.       FBI Guidance on Reporting and. Adjudicating Possible
I                    Intelligence Violations (U)
                     1.     November 16~ 2006~ Guidance on Reporting Possible
I                           JOB Violations to the FBI OGC (U)

            On November 16, 2006, the FBI OGC issued a memorandum to all

I    FBI divisions regarding revised procedures for reporting possible intelligence
     violatlons. 125 Although the FBr OGC previously had issued general
     guidance on reporUng possible intelligence violations and responded
I    tnfonnally to quest.tons that arose from the field about inatten') that should
     be reported, it had not previously identttled in a co1nprehens1ve manner
     tvhat infi:'cH:.ttons relating to the use and approval of NSLs (or other
I    tnvesUgative techniques) were required t:o be reported to the FBI OGC and
                                               ..                  .

     the Inspection Division's Internal Investigations Section as possible
     intelligence viola.ti.ons . l2B 'The November I 6, 2006. guidance also addressed
I    the FBI's retention practices for hcu1dting itnprope.rly or unintentionally
     acquired inforn1ation and reporting such m.at.tern to the FBI OGC. As \Ve
     noted in our first NSL report.. prior to the 20013 guidance, .F'BI practices
I    regarding these lssnes were .not un.llon11, and the guidance for FBr
     en1ployees was not dearly articulated. 121 (U)

I           The memorandum identifled the following types of NSL-rdated
     incidents that 1nust be reported to the FBJ OGC as possible intelligence
     violations and cautioned that the Hst \Vas not exhaustive: {l.J)
I           Serving a National Security Letter {NSL1 that contains a
            substantive typographical error that results in the acquisition of
I
            125 OHke of thi:~ Gene:ral Counsd. National Secu.rily Law Branch fNS.LB), F<~deral
I    Bureau of Jnvesti.ga:tion, electronic communicatkm to aU division&, Revised Procedures .for
     the Submission of Heports of Potenttal lntelligen('.e Oversi_~ht Board Matters, Novernbi:'.f 16.
     2006. {ll)

 I           i:-.w On AprH 7. 2006, the FBI OGC sent an e-mail to .all CDCs Mi,d NSLB attomey:o;
     stating that unauthor!zed collections due to third party errors should be reporkd to ttw FBI
     OGC as posslbk: intelligen(:e \'iolations. That policy was fonn.alized and disseminated to all

 I   FBI divisions on November lG, 200G, (U}
            l~?   Sec NSL L 29. (UJ

 I
 I
I
I             data that is not relevant to an authorized investie:ation {Le ..              >~-~             •

              nun1bers in telephone nurnber transposed). (U)
I             Serving an NSL that requests infonnation that is beyond the
              scope permissible by statute (Le,, content information), (U)
I             Hecelving infon11ation from a canier beyond the scope of an
              NSL resulting in the uninti:::ntional acquisition of data, (U)

I          The memoranclun1 also directed FBI personnd to sequester with each
    field division's Chief Divisim.l Counse.l (CDC} any information irnproperly
    received or unintentionaHy acquired using m1 NSL 128 The men10randum
I   stated that as part of its JOB adjud.ic<JUon
                                       .          .process, the National Security
    Law Branch (NSLB) \\ill advise the fleld \Vhether the information r:nay be
    used or whether it rnust be returned to the carrier or be destroved \.\ -Uh
I
                                                                                                                  1
                     ·-                 .     -   -                     -           -                    ~




    appropriate documentation to the flle, {U}

                          ....•>   November 30. 2006, Guidance to FBI OGC NSLB
I                                  Attorneys Adjudicating Possible IOB Violations (U)

                .·mren1· l)el·· •..
           () n N               ·3n., , ""    •J, t·l
                                        ~>()Qt:'      "' .1•·1··)r
                                                   . 1c       :> ("\(.'·(·., . · I gu
                                                                   _, .1 _, 1.ssnec . · id<=   · '" t.t)· .J?f31.
                                                                                         ....:i.ncc           . . (1("
                                                                                                                   .. :r ("...

I   attorneys assigned to draft opinions based on reports of possible intelligence
    violations, lW The rnernorandtun described whether certain rnatters

I   reportable to the J:t13I OGC in turn should be reported to the IOB. ~l11e
                                                  -
    cate~o1ies addressed in the g-uidance were certain violations of the Attorney
          ~                                                                                                                    .
    General's NSI Guidelines, conduct involving NSLs, mistakes involving
I   information obtained pursuant to orders of the Foreign Intell:lgence
    Surveillance Court, and conduct pertaining to other investigative techniques
    authorized by the Attorney General's NSI Guidelines. (U)
I         W'lth respect to the use of NSI.....s,, the guidance directed FBI OGC
    attorneys to review the attaeJunent to the NSL to deterrn:Ln.e vrhether there
I   had been an unauthorized collection. I~'>o ''111e guidance further stated that if
    the infonnation obtained in response to an NSL \~-ts rek~renced tn the
    attachment to the NS:L, it was not necessary for the field to report the
I            i.~~ National S!'-~eurit~y Lav1r Bn:u:ich, electronic communication to all divisions.
    Novernher 16, 2006. The FBI OGC fodher directed that information tmlntentionaHy
I   acquired u:nder the Poreign InteH(qence SuroeWa.nce Act he seq1.v~stered, sealed, and
    delivered to the responsible FBl .Headquarten:; unit to be submitted to the Foreign
    Intelligence Su:rveHlance Court for appn:ipr:iate disposition. Id. (ll}

I          i:<:::> Julie 'Thornas, Depu~'{ Gene.rat Counsel, NSLB, Federal Bureau nf lnvestig<:ttion,
    memorandum to NSLB Attorneys, Guidance for Drafting IOB Opinh:ins, Nnvernbe:r 30,
    2006. {U}

I           t:~n FBl pr-adice is to list <Hi m1 att.:1<.:hment to the NSL - rather than in the body of
    the NSL itself - the tn)es of records that the recipient may consider tn be v.rit.h:in the scope
    oft.he statute. {U)

I
I
I
I   matter to the FBI OGC and the InspecUcm Division. If the information was
    not referenced in the attachrnent but \Vas rdeva.nt to the Invesugauon, the
I   CDCs in the field ofllce that issued the NSL \Vere directed to sequester the
    information until a new NSL was issued for the iu.f{)nnat.ion, However, the
    guidance directed that such rnatt.ers were to be rep01i:ed to the FBI OGC and
I   the Inspection Division as possible intelligence violations, (U)

          111e 1nost significant issue addressed in the guidar1ce memorandum
I   \Vaswhether infonnatlon obtained by the FBI that was beyond th(:~ scope of
    the NSL due to third party error .... refoned to as "unauthorized collections" -
    had to be reported to.the IOR The men1orandum advised that "if the FBI
I   properly issues an NSL, and the earlier prmided the information outside the
    scope of the NSL, the n1atter is not reportable to the IOB. "l~n How'(.;ver, the
    rnen1orandun1 did not address whether the FBI's handling of the
I   unauthorized infonn;:"l.tion could in so1ne ctrcu111stances t~igger the need to
    report to the IOB. f.i'or exarnple, guidance di.d not address "\;\.rhether, if case
    agents received and u.p.loaded unauthorized infurmation prnvided to the FBI
I   due to th:ird party error, the mishandling of such inforn1ation should be
    reported to the IOB. {U)

I          On August 1, 2007, the JOB directed th.e FBI OGC to report third
    pmty errors that are co1npoundcd by the FBL rn2 Upon such direction, FBI
    OGC officials told us that they began evaluating third party errors to
I   det(:rmtne if the FBI corn.pounded the errors by using the inappropriately
    provided infom1ation or uploading it into flil databases. As a result of the
    rie\v directive, the FBI OGC said it V•.rouJd reevaluate reports of urn1uthorized
I   collections to deternlinc if the FBI compoundtxl the initial third party errors.
    If so. FBI OGC ofilcials told us they \Vou:td report the matters to the IOB. (U)

I   IL     Possible Intelligence Violations Arising From National Security
           Letters Reported to the FBI OGC in 2006 (U)
I          \Ve determ.ined that in 2006 FBI field divisions reported 84 poss1ble
    intelligence violations to the FBI OGC arising fron1 the use of NSL
I   a.uthorJties in 75 different national sec11rH:y investigations. lJ~~ As shxn.i..rn tn


I           HI The November 30, 200G, memorandum noted that the IOB had agreed that U-rird
    party errors that resulted in the unauthortzecl collection of information pursuant to .an NSL
    must be reported to the :F'Bl OGC but were not required to be repnrh.~d to tlu~ IOB, See
    General Counsel, lntelitgencl'~ Oversight Hoard, ktter to ~Juhe F, '111omas, Deputy General
I   Counsel NSLB, Federal Bureau of lnvesugation. November L3, 2001'.:t (lJ}
           rn?. See General Counsel, Intdligence Overs.ight Board, .letter to ,Julie F, Thomas,

I   Depuly Gem~ral Counset NSLJ3. Federal Bureau ofinvestJgation. August l. 2007, fU)
           lJ::i \Ve considered the univm\% of possible NSL--related intelligence violations in
    2006 fo include aU matters n:~porkd to the FBI OGC between ,Jm1uary 1, 200G, and

I                                                137
                                                                                           {Cont'd.)


                                              ~
I
I
I   Chart 7, 1 1 this compares \vi th 26 possible intelligence violations reported to
    the FBI OGC over a 3-year period (200:3 through 2005) as we reported in our

I   first NSL reportJ34 (U)

           \Ve bdieve the overall increase in the reports of possible inte11igence

I   violations may be explained in large part by the .attention that our first NSL
    review focused on the FBI 's ob.ligation to examine .in.formation obta.ined in
    response to NSLs and report possible intelligence violations and closer

I   scrutiny of NSLs and NSL-derived information by case age.nts, supervisors,
    and CDCs, {U}

I                                  CHART 7.1
           Possible NSL-Related IOB Violations Reported to the FBI OGC
                                       (2003 through 2006) (U)

I                                 [Chart below is Unclassified]



I
I
I                                       2003        2004       2005           2006
                                               Source; FBI {U)

I          FBI Headquarters divisions_, which issued approximately 450 NSLs in
    2006, reported~ in conjunction \Vith a field office, one possible NSL-related

I   intelligence violation to the FBI OGC in 2006. 135 Headquarters divisions did
    not report any such violations from 200~3 through 2005. (U)


I
    December 31,. 2006. We reviewed all such matters for which        \Ve   received docun1entation by

I   August l i 2007. (U)
            i;H   See NSL 1, 70. (U}
            i:iii BHsed on the results of the FBI Insp~~dkm Diviskm'~~ n~view of 10 percent of lht~

I   NSLs issued by Headquarters d:ut!ng the pn·iod 2003 through 2006, described in Chapt<~r
    Three of this report, we be1kve that FBI Headq<rn.rters divisions were not recognizing or
    reporting possible NSL--rel<~ted intelligence vio1adons throughout this per:io<l. The

I   inspection Division review identified, based on guidance provided by the FBI OGC .• at least
    130 possible NSL-related intelligence violations from FBI Headqua:rte:rs divisions in
    investigations open frnrn 2003 through 2006. Tbese included NSLs that exceeded statuto:ty
    authoriiy, NSLs issued solely· out of control fik&, NSLs iss\.l('.d tfospite the lack of
I   pn~dication in th{~ approval m(~tnt)r.:O:lda, .:md NSLs that resulted in 1mauth<Jrized colkctions
    due to FBI or third party (orrons. {U}


I                                                   138
                                                ~
I
I
I          In th.is section we describe the possible intelltgence violations
    regarding the use of NSL authmities that 'v.rere reported to the FBI OGC in
I   2006, the number and nature of the possible intelligence violations. and our
    analysis of these matters con1pared \vith the 26 possible intelligence
    violations reported by the FBI: from 200:3 through 2005 and desc1ibed in our
I   first NSL report. Table 7. 1 lists the categories of the possible intelligence
    violations reported in 2006 and whether they initially resulted fro111 FBI or
    third party eITors. I3f3 {U)
I                                                    TABLE 7.1
                                  Summary of 84 Possible NSL-Related JOB Violations
I                                      Reported to the FBI OGC (2006) (U)
                                            [Table below is Unclassified)

I
    ~---------------------------
                                                                                     I,                        -------------]
                                                             Possible IOB
                                                             Violations Reported     I IOB Violations                       I
                               Category of Possible
                                 IOB Violations
                                                             to the FBI OGC          I Reported to the JOB
I    _______________________________________,   ________
                                                             FBI     Initial Third
                                                             Error Party ~~~~----
                                                                                          FBI       Initial Thlrd
                                                                                          --~~?!_____!_~rly   Error
       Improper authorization                                      3            0               3                       0

I      Improper r·equest
       Unauthorized investigative activity
                                                                   3
                                                                   8
                                                                                0
                                                                                0
                                                                                                1
                                                                                                1
                                                                                                                        0
                                                                                                                        0
       during klp se in invesUgation




                                                                                          ~
I
I
                     A.                Possible NSL-Related IOB Violations Reported to the IOB in

I                                       2006 (U)

           In 2006. the FBI OGC reported 34 of the 84 possible intelligence
    violations to the IOB, or 40 percent of the total.138 1\.venty of the possible
I
            1:>0 In Table 7.1 and elsewhere in this chapter we use the phrase ~initial third parly
I   enor;, because, as noted above, the FBI OGC has not yet determined whether the FBI
    cm:npounded tbe NSL recipients' etTol·s by using tile information or uploading it into FBI
    databases. {U)
I           137 One matter included an initl.al third party error that resulted in both an
    unautl:mrized collection and an improper request by the FBL Both possible intelligence
    violations are reflected in Table 7. L {U)
I              Possible inteJUgence violations reported to the FBI OGC are also reported to the
                     138

    Inspection Division's Internal Investigations Section UIS}, If US detennines that the
    conduct of an F'BI employee is more than a performance issw~. the FBI OGC refers the
I   matter to the FBI's Office of Professional R.esponsihility {FBI OPR). The ll'Bl Inspection
    Division reported that it did not refer miy reports of these possible violations to tJ1e .F:Bl QPR
    in 200G- (U}

I
                                                             13B

I                                                          ~
I
I       intelligeru.:.~e
                  violations reported to the lOB were att1ibutable to FBI errors,
       while 14 were initJally attributable to th.ird party errors. {U)

I                         Table 7.2 provides additional details on these rnatters . (U)

                                                                                                                                   TABLE7.2
I        Summary of 34 NSL-Related lOB Violations Reported to the IOB by the
                                FBI OGC (2006) fO)

I    ~--·'''''"'"'"'"'""-,-
                           [Table below is Unclassified}
                                  . . . . . . . . . . . . . . . . . . . . . ._   -----"'"'"'"'"-·"-·•-•••-••••••••~----------••••••••••••••••••••••••••••••••••••••••••••·------------HH•------------------------------   -----------··•••••••••••••••••••••••••1

                                                                                                                                                                                                                            Numberof '
                                                                                                  C          f OB Vi i i                                                                                                    Violations                         I
I                                                                                                 . ategory o I     oiat ons                                                                                                Reported to i
                                                                                                                                                                                                                            theIOB
      ____________________________________________________!~~~~P~:~-~~!!!~!!~ati~;!!--~~!-~tt_·._:n_r_)________- + - - - - - - - - i
I       Issuing ECPA NSL v.1thout obtaining required Special Agent in Charge
      --~~:~~~~~:~t!?::~~!:!~:~~~--~~--'.::~~5'.!~:?.:.J?.~:'.::'.~!:~~~£~:~~~y-~1ve:~tiR~~-g'.:'.~~:-~tt-'"t_·e_r_6_xi_1t_:11_1_t1_1s_'-------1-----------1
                                                                                                                                                                                                                                                  l

       Issuing Hight to Financial P:rivrn:~y Act (RFP.A} NSL \V:lthout obtatning                                                                                                                                        1                          l
       reqttired Hio:'.adquartf..'.ts. author:tzation to extend prdi.rntnary invct~Ugation                                                                                                                                                                     !
I      aner ~-~~~~-                                                                                           --------------------------------------------------------------- _______________________________!


I
     ,__  __
       Serving !<:CPA. NSLs b<..'.f<.lre preliminm·y i:nve::stig<:ttion 'Nas pr<Yf.wrly
       reauthorized.................................... by Special i\gt.~nt
                                                                      .......................... .in Charge
                                                                                                                                                                                                                        l
                                                                                                          ...................... __________________________________________________________________________________________,,_._,.__..........,.,.
      _______________________________________________ __!mP.~P.~!-~~questJ!!!!..~~-o_r)_ _ _ _ _ _ _ _ _+ - - - - - - - - - !


                                                                                                                                                                                                                                                ll!
        Issuing ECPA NSL to an lnterrwt service provfdt:~r in a imumer that was                                                                                                                                                                   l
        deemed an hnproper reqw::st under pertinent NSL statute
I     ---------------~:-~~~==~~~~~~!!~:~:t~;:\,~::=:: 1-1:1-s~:-er:i_g_(;a-,B-i-E-~-rr-o~)
        t..)bt~.·:tlnlng mld <l-1.lal)"Zln,_~ .HFP.A tecm.·ds \V:itlm.ut obtain.ing r.t~<.1uired Fi.31                                                                                                                                            l
I       Headquarters authorization to extend prdiniinmy investigation after
     _i_x~~~~:~-~::           ___________________________________________________________________________________· ·-.- - - - - -.-.- .-. -.-.-. .-.-.-.-.-.-.-. .--------------------------- ______________________________J
                      U_n_au_t_l_m_rlzed Collectio~J~~I Error) --------------------------------------- _____________
     ,_____ _ _ _ _ _ _                                                                                                                                                                                                                                        !
I       Obtaining ECPA telephoi:w subscriber info.n:nuUon not t-elevant to
     ---~:~~~~~~~~:~?::~'.~~:_£~'.~!:!~~~:~:~--~~~~~E~:~L!~~Y.~:::!:~~~!~_01:~---------------------
                                                                                                                                                                                             ;;u1
                                                                                                                                                                                               ______,_______________: ______:__J
                                                                                                                                                                                                                                                 •3            !
        Obtaining ECP.A tekphone toll billing information not relevant tc• an                                                                                                                                                                 10               !!
I      .a1Jtt1cu-'izt:~cl ~1atiot1al st:~ct11itv· htVt)Sti~altor1                                                                                                                                                                                               ~


                                                                                                                                                                                                                                            I
      ---------········••HH••••••••••••••••••••••••••·················•H••-::•H•••••••••••••••••~•-••••••••••••••••••••••••""o"""""""                                                                                                                 -"""-·-,

        Obt:l.inJng ECPA e-mai.l subseriber informntion not relevant to m1 authorized                                                                                                                                                             l             I
        national securtty u1v-estigaticin

 I      Obtaining .KCPA electronic eomnnmication trans~lctiorntl re~~;~:d~~--~~~rt
        relev<:<rlt to .an authorized nnJ:lonal security in<lt~stigatlon
                                                                                                                                                                                                                          ----------------i-
                                                                                                                                                                                                                                                                :.
     l'·'.~~~~~1z~~~::~-,:~:~~~:;:~:~:~?~~Pr\~·~\lt~~~~s~•1,~r~g-;~:~~~:.·:.,.,\~l:h~:1tmm:]]]]~i]if,:~~=rn:rnm1::;,:]:;;nml0~m1010:::*~~1~~li!
 I             n-o; Jn Novembt~r 2007, U1e FBI OG·C ad\'i.:':'<ed the OIG that it intends to ls&ue <.l
       carrected .adjudication men:iorandum stating that this violation is not reportable to the
 I     IOB. (OJ
               MO The four possible NSL-:n~lated intelligern::e violations in 'fable 7.2 that are
       categorized as improper authorizations and irnpropt:r requests also resu.lted in
 I     unauthotiz(~d collections. However, \Ve did not "double count" thes;e matters ·by in.cludLng
       them ln the "unauthorized colkctton'' category. (U)


 I
                                                                                                                                  ~
                                                                                                                                  ~
 I
I
I    -------···--······--·--·············--··----····----·-···----··------··········----·..--···--------·········..
     1
                                                                                                                      ··------------------------········----····----······------------··---------------------·--N~b~;~I




I    l _____ ~:t~:=~~~i::ti~~----- ---~Ei~~j
     !                           Unauthorized Collection {Initial Third Party Er:ror)Hl
     ~--·······················-----..............................................................................................................................................................__________ --···························--------<
                                                                                                                                                                                                                                                   i
                                                                                                                                                                                                                                               2 !
I    ' Obtaining ECPA telephone subscriber infonnation not relevant to an
        authort~~ed naUonal security investigation
      -~····'··-----···--··········-----------------·--·····················-------
        Obtaining ECPA telephone toll billing infonnation not relevant to an
                                                                                                               --··--------------------------------············································· ··········--·-····---------------..-.-!
                                                                                                                                                                                                                                               4~
                                                                                                                                                                                                                                                   I

        authorized national securHv investigation
I    !-------······························--······························-''················---''·······-································································································· ·····························------
     ! Obtaining E;CPA telephone toll billing informat.km outside the tirne frnme
     ! reque~>ttd in the NSL
                                                                                                                                                                                                                                               2 !
                                                                                                                                                                                                                                                   ,
     i--Ol;tah~i~;g··~-~~bj;·~t ll.11~:··~;·~-f~~~-ii·~~;;~;t~~;t·t·;~--~;~p~;~;·~~;··t;··~n el(X'.trti~:~;;;:·-          1.   -----------··········----3··1
I      comrntuli(~<:rlion transactii:mal record ECPA NSL
       Obtaining l:<:CPA tH1Wll subscriber infonna:tion not relevant to an authorized
                                                                                                        ................. ·----------                      !
       natii~~:_~~--~!~~urity irnrestig~~~2~!:______

I                                                                                                                                                                                                                                           2



I
I              Nature qfJOB Violations.: The 34 intelligence violations reported by the
         FBI to the IOB .in 2006 .involved the fr:i:llm.:ving categnrtes of violations. (U)

I                                   •        In three matters NSL...;;; \Vere signed by appropriate fie:!d officials
                                             but the underlying investigations had not been approved or
                                             eJ<...-tended by the appropriate Headqm:.-trters or Held
I                                   •
                                             .supervisors. (U)
                                             In one nmtter an NSL was served on an Inten1et service provider

I                                            (ISP} in a manner that that was deen1ed m1 improper request
                                             under the pertinent NSL statute, (U}

 I
                         As noted previously, "unauthorized colkct1ons is a phrase u.sed by thf'. FBT and
                           lA·l
                                                                                                                                                        0




 I       the OTG to describe several circumstancr:s in which the FBI n::cel.ves informauon. in
         response to NSL>5 that \.v:-.as not requt:'.Sted or was mlstaken1y reqw-::sh:~d, Fo:r example, r.mmy
         unauthorized ci)Ued:ions occur due to erron~ on the part of NSL reeiplents \.vhen they

 I       provide more inJ!Jrmauon th<:tn '~n'l.s requestJ.'.d (mlch as records for a longer ·perind of Urne or
         records on additional persons}, ·111e Fbl svnietimes .also refe.rs. ti:.i these r.naUen~ <:ls '\lV('.t'
         collections" or "owrpn.x:h.ictiom~," \Ve n.~fer to these as "initial third party errnrs~ because,
         while the NSL recipient may tnitially have provided more infornrntion tha.n requesh'.':d, the
 I       FBI may or may not have compounded Hie initial error by using or uploading the
         infornrnJion, Other unauthorized colledions can result from .FBf errors, sucJt as '"''hen a
         typographic~1.I error Ln the tek~ph:one nmnbet or e-niail address results in the acquisitkm of


 I       data on the ·wrong J..>erson or e,mail address. When we present data on "unauthorized
         t.--olle:ctions" .in this report we note •.vhe:ther the infraction occun-ed due to initial th!rd party
         en-or or F'.BI t:JTOL fU)

 I                                                                                                                      141
                                                                                                           ~
 I
1.
I                 •   In one matter the NSL was appropriately issued but the NSL
                      recipient provided the records afler the preliminary
I                 •
                      investigation had lapsed. (U)
                      In 29 matters the NSL recipient provided infr)n11ation that was
                      not requested in tlH:~ NSL or provided infonnaUon on the \Vrong
I                     person due either to FBI typographical errors or initial errors by
                      the NSL recipients.1.·12 {U}

I           Three of the 14 initial third party euors noted in Table 7.2 resulted in
     the F'Hl's acquisition of eiilier JhU e-rna.il content (two rnat:te.rs} or e-n1ail.
     subject line content (one matter) frmn ISPs in response to ECPA electronic.
I    c01nn1unicatlon transactional record NSLs. In the two inatters that resulted
     in acquisition of full e-mail content, an ISP mistakenly p1·ovided on the same
     disk the full message content of the 1.>m.ails for the requested account a.nd
I    for the account of an assod..:1ted subscriber in the smne investigation \Vhose
     records had been .requested in another NS:L On instruction frorn the FBI

I    OGC, the disk and paper copies of the records were sealed and sequestered
     by the field division's CDC, and a ne\v NSL was issued. In response, the ISP
     irnproperly sent the smne full content infom1ation, \Vhich was therea:fter
I    again sequestered, (U)

             In the matter involving acquisition of e-Inail subject line content, the
I    ISP included the su~jeet field for each e··nmil transaction along \:vith the
     e-·maU header infor:rr:mtion for the requested 2-year time period. -·n1e NSL
     specif'.ically directed that the ISP not include su~ject fldds in its response.
I    The FBI OGC dn·ected that the informati.on that exceeded the scope of the
     NSL be sealed a.nd sequestered a.nd a\vaH. ft.ni.her dJrection frorn the FBI
     OGC. (U)
I           Status qf Investigative      Sul~.tect and   Tcu:qet <..?.f NSI..:. We also attempted
     to detenntne whether the stfbject of the investigation in these ~34 matters
 I   was a U.S. person and if the investigative subject was the same as the target
     of the NSL. 143 (U)

 I           HZ Of the 15 1.rnauthorlzed collections resulting from FBI errors, 1Z \>lere due fo
     typogr;;tphieal enurn, 2 were due to inadvertent rn.isidentiflcation of telephone numbers, and
 I   1 was drn:-: to <:t computer $Oftwa.re rnist~ke. (U)
            H<1   50 lLS.C, § 1801{1) defines a "United States Person" as: (U}

 I          a eitizen of the United States, ml alien la:\VfoHy admitu.~d for permarH~nt
            n:~side:nce . , .. an trnincorpnrated assod;:>Hon a substantb:il nuJnbcr of :members of
            which are citizens of the United States or a.liens lawfully admitted for permanent

 I          rf:$fdence, or a <Xll"porn.tion \Vhich Is incorporated in the United States ... ," (OJ
              On June I, 2007, the FBI OGC issued c:.on.lprehensive guidarux~ that reiterated
     ea:rlier guidance instruding a.gents tn identify i:n NSL approval. documents. the status <Yf

 I                                                 142
                                                                                            (Cont'd,}



                                              ~
 I
I
I               •   In 2fi of the 34 rnatters, the subject of the investigation \Vas a
                    lLS, person, in 8 matters the subject was a non-U.S. person,
I                   and in I matter the status of the subject could not be
                    detenn:Lned. (U)

I               •   In 27 of the matters, the NSL..<:> sought tnforn1aUon about the
                    subject of the underlying national security investig;ation, 3 NSLs
                    sought information on a person other than the subject, 1 NSL
I                   sought information on both the subject and a non-subject; and
                    3 NSL targets could not be deterrn.inecL fUJ

I         -
           Tfrneliness qf He.porting,~ \Ve determined that 19 of the 34 possible
    intelli~ence  violaUons reported to th£~ IOB (56 percent} \Vere reported
                                     .                            .



    \VithJn 14 days of discovery to the FBI OGC in accordance with FBI policy.
I   Hm.:vever, 12 (35 percent} '\Vere not reported in a tirnel.y fatshion, 14't Seven
    of these 12 took between 17 and 46 days to report and t5 took lJetw'eeu
    145 and 418 clays. In hvo of these llve matters, the agents dJd imt realize
I   the matters were reportable as possible intelligence violations until they
    attended NSL training a year after the violations occurred, 14 5 In the
    other three, no reason was given for the dela.y in reporting. \Ve could
I   not detennine how lorig tt took to report the ren1aining 3 of the ::\4
    violations, (U)

I
I
I
I
I
I   persons assoc'.i.ated \\>ith all NSL requests, See NaJ:i(mal Security La>v hifa~y and Training
    Un:!t, F'edera.l Bureau of Investigation, electronic communication to an df\rtsinns,
    Conrpreb.ensrve Guidance on NMl.on<:tl Security Letters, .June 1, 200?, at 1a, which we

I   described fn detail In Chapter '1\vo of this report. (U!
             H 4 'Il.1:is cm:npares i,.vith 6 of the 26 poss.ibk intelligence violation::> {2;3 lx~rcent)
    reported in 200:3 through 2,005 that \Vere not reported to the FBI OG·C within 14 days of

I   discO\'\~ry, described in our first NSL re1x)lt. See NSL I. 74. !U)
           14s Jn both matters, the agents made t}1X\~raphical errors in the NSLs and

    discovered the en-ors when they received the records frurn the NSL recipients, !Ul

I
                                                      148
I                                                 ~
I
I
I
I
I
I                     ()
                                                          145 to 418         lJnkt10\1T.t



I                                 Nuutlwr of d<iys b{~!:ween possible .!OB
                                   viq!at.ion and report to the FHl OGZ~
                                         Source:   H~l   !Ul


I          We also calculated the time it took for FBI personnel to identify
    possible intelligence vio:latio:ns. From our examination of reports to the FBI
    OGC, \Ve determined that 26 of the 34 violations \Vere discovered within

I   approximately 2 months of the occurrence, Five of the possible inteUigence
    violations were discovered beh:veen approximately 2 rnonths and 8 months
    after they OCCUlTed. fn one instance; discovery \VHS delayed because the
I   case agent mistakenly believed the underlying prel.ir:ninary investigation had
    been extended. In the second case, discfYvery did. not occt.lf until the data
    \Vas being uploaded into an FBI database. In the thfrdj the case \va.s
I   reassigned and the violation not discovered until the new cri.se agent took
    over. In the two remaining cases~ field reports to the FBI OGC did not
    specify reasons for the delay. We could not determine how long it took for
I   FBr personnel to discover the rernaining three possible violations. (U)

          Re1nedia.l Actions:   T\venty~ni.ne  of the 34 possible NSL-.related
I   intelligence violations reported to the 10B in 2006 involved unauthorized
    coll.ections. We exa:mined the 29 matters to determine \vhether case agents
    handled the unauthorized information in conformity witb FBI guida.nce. FBI
I   field and FBI OGC docunwntation stated that the inappropriately obtained
    records received in response to 20 of these 29 matters were sealed and
    seqtH.~stered while the_:y \:Vere awaiting final dispositions by the field offices or
I   fu.rther instructions from the NSLB, In field reports to the FBI OGC for the
    remaining nine ma.ttersi documentation indicated that a variety of remed.ial
    steps \Vere taken: issuing a new NSL for the records; fonvarding the
I   unauthorized material to FBI Headquarters for appropriate action; offering
    the records back to the NSL recipient.; rernoving telephone data from
    Telephone Applications, the FBrs principal database fo.r storing telephone
I   .recordsi a.nd from. other FBI records; and destroying the records. {U)


I                                              144
                                         ~
I
-------·--·--···········


 I
 I                     1\venty-one of the 29 matters reported to th<::: FBI OGC involving
                 unauthorized collections resulted :hi the FBI's acquisition of telephone

 I               subscliber or toll btUing records, \Ve examined the held reports to the FBI
                 OGC to detennine \..vhether the inappropriately obtained data was uploaded
                 into FBI databases. While 17 of the 21 repo1i:s stated that the information
 I               \Vas not uploaded, we found that field reports for 4 .matters did not address
                 the issue. (U)


 I                         B.    OIG Analysis Regarding Possible NSL-Related lOB Violations
                                 Reported. to the IOB (U)

 I                         A.~
                           we found in our Hrst NSL report. the severity of the possible
                 intellig~nce violations reported to the IOB varied. \Ve believe the most
                 serious \Vere tl1ose in which the FBI obtained full e-rnail content, In 2 of the
 I               14 instances in \.Vhieh the unauthorized col:tection. was initiall.y attributable
                 to third party errors, the FBI received full content i.:>tnail tnforrnation. 146
                 Axnong the l 5 matters in which the FBI c0Hecte<l unauth01ized infonnation
 I               due to FBI eITor, 10 were due to typographical eITors or rnisidentiilcation of
                 telephone nttmbers that resulted in the FBI collecting telephone toll records
                 on the wrong person. (U)
 I                       Our e .~amination
                                .             of the 34 possible NSL-related intelligence violations
                 repmted by the FBI to the IOB tn. 2006 did not evidence deliberate or
 I               intentional violations of NSL statutes,. Attor:nev General Guidelines,. or
                                                                         ~




                 internal FBI polk~y. Although the .majori(y of the possible intel.Ugence
                 v:iolati.ons - 2.0 of ;34, or 59 percent- arose from. :F'Br errors, most were a
  I              consequence of errors in the telephone nurnber listed in the NSL, In all but
                 one instance, the FBI would have been entitled to obtain the infrinnation
                  un<kr the NSL statutes had it followed the requirernents of those statutes,
  I              .Att.orne:y General Guidelines. and internal FBI policies. In one 111atter, the
                 case agent 1nochfi.ed the standard l.ang11age used for requesting tnformation
                 pursuant to the ECPA NSL statute by requesting publicly availabk content
  I              information. The FBl OGC conduded that the alteration of the ECPA NSL
                 statutory langu.age to request and obtain the infonna.tion was be.ynn<l the
                 scope of the ECPA. The FBI OGC concluded that the matter should be
  I              reported to the IOB because the ECPA. "does not have a 'catch··all' authority,
                 nor does tt a.now for f:ontent as requested in the NSL."" (U)

  I                    Howeve1\ although the 14 unauthorized collections were reported to
                 the lOB. the FBI OGC has not yet adjudicated \vhether case agents

  I
  I                      l 4 B According to FBI records, FBI personnel did not compound the third party t.~rrors
                 in either of these matters, {Ul

  I                                                           145
                                                         ~
  I
I
I    cornpouncled the errors by using the Inappropriately provided infonnation or
     uplo a ding it into F'Bl databases. 147 (U)

I                       C.                Possible NSL-Related IOB Violations Not Reported to the
                                          IOB in 2006 (U)

I           In 2006, FBI field offlces reported 50 possible intelligence violations to
     the F BI OGC that \Vere not reported to the IOB. Of these 50 that were not

I    report ed to the IOB, 13 resulted from F'BI errors and 38 resulted fron1 int.Hal
     third·party errors. 148 (U}


I          Table 7. 3 provides additional details on the nature and source of
     these possible intelligence violations; (U)


I                                                       TABLE 7.3
                                     Summary .of 50 Possible NSL-Related IOB Violations
                                                                Not Reported to the IOB (2006) (U)

I   ---------------------
                                                                            [Table below is Unclas.sifiedJ
                            --------------------------------------------------------------------------------·----------~------~


                                                                                                                                                                                                     Number of
                                                                                                                                                                                                     Possible
I                                                  Category of Possible IOB Violations                                                                                                               Violations



I   ~--unaut~.S~                                             -    .                                                                                                                              1;:;~~ -
      Durln
     Revie\.vi
                                           0
              ~~::~-(~: _:~;1~!~~7: :~~~~~~ !;::~1~:~:~~~r~~~~~i}----                                                                                                                               _ _ _ _ _ _ _ _ _ _"] _ _ _ _
I    invest:igatwn 11.:~'.:!._l~~P~~g________________________________________________________________________________________________________
     Reques ti.ng {but not issuing or serving) an NSL after the national sectirify
     investigatlon had lapsed
                                                                                                                                                                                      --------------------------
                                                                                                                                                                                                            l

     Allmving the national security investigations to lapse before records                                                                                                                                  3
I    sought_:in     the NSLs were re(~eived
              -----------------------------------------------.--.--."'---.-----------------------------------------------------.-·"'-""""""""""'-"'-"'-"'-"'-"'-------"'-""'-"'-"'-"'-"'"'--------+------------.. . . . . . . . . _. _. _. _. _"
     Allmving the national security investigations to lapse before analyzing                                                                                                                                2
     reclJrds obtained from .RFPA m· ECPA NSLs
I             ----------------------------------------------- ---·-------!
                                           Improper Request (FBI Error)
     Issuing ECPA NSL without language regarding ntJrHlisdosure and                                                                                                                                         1
     confidet1Hality requirernents pursuant to the Pat1iot Reauthorization Ad
I    lssuing ECPA NSLs based on an unauthixized collection                                                                                                                                                  l



I
I
                        -----------------------------------~------



                        147      The FBI OGC has been adjudicating over 1 ,200 possible lOB violations reported
     to it as a result of the three reviews the FBI conducted in response to the OIG's first NSL
     report. These reviews are described in Chapter Three of this report. (U}
I                       14 :;1
               One of the 50 violations included both an initial third party error and a
     subseq uent F'BI enor. [UJ


I                                                                                                                  146

I                                                                                                         ~
I
I                                                                                                                      Number of
                                                                                                                       Possible

I                                 Category of Possible IOB Violations                                                 Violations
                                                                                                                      Reported to
                                                                                                                      the FBI OGC

I   I
                         Unauthorized Collection (FBI Error)
        Obtaining ECPA telephone subscriber information not relevant to an
        authortzed national security investigation
                                                                                                                                      1

        Obtaining                                                     not
I                  ECPA telephone toll information
        national security        investigation          relevant to .om authorized

                      Unauthorized Dissemination (FBI Error)
                                                                                                                                      2


        Providing
    1-------------~---------------------.-------~---~---------------r-----




I                 E.CPA telephone suhsc;riber and toll information to a third party ·
            authorized lo receive such information



I                     Unauthorized Collection {Initial Third Party Error)

    I   ~l~:~~1:~~:~~~~:~~:~;~~~~;~;-~i;~;~;~~;~~~~~;::::~~::~'._:::_:~:-~-:~:~~-·'-_'a_r_1t_t_o_a_1]---+-------------------------~----------j-
I       Obta:in:tng ECPA telephone subscriber infonnation outside the time frame
        or not requested in t~~2:--~~~~-----------------"______,____________________________________________. . .,. . ____
        Obtaining ECPA telephone toll information not relevant to an authoriZed
                                                                                                                               2

                                                                                                                           ---12-----------l
        national security investigation
I       Obtaining   ECPA telephone toll inforrnation outside the
        requested in the NSL
                                                                                        time frarne or not                     4

        Obtaining ECPA telephone toli information when subscriber information
I       was requested c.md ob!~~~~~~K:~.9!!__E!:~~E~:;:-~~:!~~~!~--~1e time foune requested
        Obtmning subject line or full content in response to ECPA electronic
        communication transaciion;:tl records NSL
I
I
I
I
I              \Ve determined that 30 of the 50 possible intelligence violations that
        were not reported to the 108 (60 percent) were rep01i:ed to the FBI OGC
        within 14 days of discovery in accordance with FBI policy. \Ve could not
I       deten:nine hnw long it took to report. 4 of the 50 possible intelligence
        violations. However, the remaining l G possible intelligence violations

I              r49 One matter i:nduded both an unauthorized collection error by the .NSL recipient and
        a subsequet1t improper request error by the FBI. BoH1 errors are reflected in Table 7.3. (UJ

I
                                                                       147

I                                                                 ~
I
I                                                                         ~
    (32 percent) \\rere not reported to the FBI OGC in a timely fashion. Kight of
    these 1H took between I (i and 5 I days to report. and 8 took bet\veen 71 and
I   268 days to report (UJ

          In 12 of the 16 n1atters that were not reported on a ttmelv  "' basis,
                                                                             . . no


I   reason vvas given for the delay in reporting. In 3 of the 16, the reason for
    the deJay was that the case agents d.id not rea]ize the rnatters \Vere
    reportabk~ as possible intelligence violations until they were informed later

I   or until they attended NSL training, H:>o In the final tnstmlce, the case agent
    stated that he could not ask about the possible intelligence violation until
    the CDC returned to the office, (UJ
I                D.           OIG Analysis of Possible NSL-Related IOB Violations Not
                              Reported to the IOB (U)
I           Sirnihff to possible intelligence violations reported to the lOB in 2006,
    the matte:rs not repmi.ed to the IOB tn 2006 va.:ried in seriousness, /\xnong
I   the three possible intdHgence violations not repmied to the !:OB in \Vhich
    the J:?BI collected in.ibnna.tlon not associated \~rith an i.nvestJgatitm
                                                                      <••
                                                                              due to FBI
    errors, hvo \Vere xnatters in which the FBI :ln good faith requested tel.ephone
I   records on persons they bel.i.eved \Vere associated with the telephone
    numbers. However, after the records were received, the case agent
    cUscovered that the two sources had provided the wrong numbers. T'he
I   third possible intelltgence vi.olation \Vas the result of a mistranslation of a
    foreign naxne. In 6 of the 38 instances in '>Vhich the unauthoriz;ed collection
    initially \v~1s attii.butahle to thtrd pa1i:y errors, the NSL reeipients sent the
I   F'Bl subject Une or full content e·-n1RU inforn1ation, which. ts prohibited by
    the ECPA NSL statute, In three 111attr:rs the NSL recipients sent the FBI
    information well beyond the thne frarne requested in the NSL, which
I   resulted in collection of records 1 year, :3 years, and 4 years outs.tde the
    requested thne frarne, (U}

I                    In ou.r exantlnatton of FBI OGC decisions that resulted in
    detem1inaUons not to repmt possible intelUgence violations to the IOB, we
    agreed with the FBI OGC's reasoning for not reporting 44 of the 50 rnatters.
I   A:mor~g the six other rnatters, we identified four FBI OGC decisions in \Vhich
    the rationa:le for not repoii.irig the possible intelligence v:tolattm.1 to the IOB
    \Vas inconsistent \Vith prior FBI OGC dec.isions and two F'Br OGC decisions
I   t..!..il'"t
            <.>.... wt"l-
             'tH          " 11·11-J.-''--L.u,.._s
                       .. t.                           .. 1L1 re
                                                   ., •'J'
                                   ~ -~ ·.:> 'l'\rt.,             " o·f:i ·j·l·. lcSC
                                                               ...e.

    attributable to FBI errur, two resulted frorn third party errors, and one
                                                                                  '" ., ~ .pOSSllJ:
                                                                                              "'. -, ··t- I'"e. 111.t.
                                                                                                            v   • t. >ll'lbCllCt.
                                                                                                                          (J > . .• \,r'101..-a t··'101) S··. ~•-"t.lC
                                                                                                                                   :>   .                       ;
                                                                                                                                                               :> - ,,




I   involved both a third party error and nn .FBI error. (U)



I                •~ 0
                ln each of these three instances, t.he NSL recipient provided records not
    reqnesn::d tn the NSL. whl.ch th:e case agenh> disowered when they received the records
    fo:m1 thf.', NSL recipk~nt, (U)


I                                                                                 148
                                                                           ~
I
I
I         ·-vve. concluded that the FBI: OGC's de.cis10.I1 .not. to report the follo\·vtng
    four matters to the IOB was inconsistent with other :F'BI OGC decisions in
I   2006 that invulvcd siinilar facts, 'fi1e :four rnatters \Ve.re.:. (t.J)

                •   two third party errors in \Vhich properly served NSLs for ECPA.
I                   telephone subscriber and electronic con1111unication
                    transactional records resulted in the acquisition of records
                    outside the tilne peliod requested (in one tnsta.:nee resulting in
I                   the acquisition of records 4 years prior to the initial. date noted
                    in the NSL); is1 nnd {U)

I               •   two F'BJ errors .in whldJ the records obtained froru properly
                    i.ssued NSLs (B~CPA an.d another statute not identiiled) \Vere
                    received and analyzed ptior to an authorized extension of the
I                   investigation, CU)

        each of these four possible intelligence violations, the OIG found at least
    Ji(ff

I   one nearly identical n1atter that the fo~BI OC.i-C decided to report to the IOB tn
    2006, W'J The FBI OGC decision memoranda did not identity any facts or
    circumstances that distinguished
                              ._.       these rnatters from sirnilar rnatters that
I   the FBI repmi.ed to the IOB in 200G. (U}

          \Ve also iclent.U1ed two other ·matters that \Ve believe should have been
I   reported to the IOB under the app:licable reporting standard: (U)


I             '~·' Although, as nott.x! abnve, third party errors did not havt'.'. to be reported to the
    JOB fron1 November l.3, 2000, to Augl1st 1, 2007, The twn possibk~ intdJigemx~ vinhxtinns
    involvl..n.g third party (~1-rors w:eri;,'. adjudicati:~d prio.r to those dates {October ;.1, 2006, and

I   October 7, 2006}. Therefore, \.Ve bt.~.lievt~ bnt.h of tbt:se should have been reportt:'.d to the IOB
    in accordance with applicable ~~tandards at the time, The FBI OGC advi.sed the OfG in
    Decembt~r 200'7 that it is re-evaluating these twQ opi:nions in accordance \Vith the IOB's
    November 1::1, 2006, letter and the August l, 2007, directive. Under the new standa:rd, one
I   of these hvo matters would be report.a.bk to file IOB because the FBI corn.pounded the
    e:rnn~. and the FBI OGC told us that it \ovill Jssue a corrected opinion. ('U}

            1
               ~'~ Similar matters that were reported to the IOB included receiving: records outside

I   the titl'le period requested and analyzing :rea:m:ls prior to a re.quired {~Xkns.km of tht:
    irrvestigaunn. Jn November 2007. FBI OGC offiei;1Js advised H·.1~'. CHG that it reconsidered
    one of H.~; prior decisions to rerx:irt ;:t violation to the IOB that the OIG used to contrast FBI
I   OGC decisions not to report similar u1<.ttt(~Js t:<J the IOB. The FBI OGC stated tl1at it had
    (~t-runeously analyzed mid reported a matter to Uie fOB in ·which investigative ae:Uvily
    (speciikally, analyzing records! was performed after the prdiminmy l:nveMlgntion had
    ~\.1)in:d, In contrast to the n~asonin,g Qf a ,June 2006 dectsion, the FBI OGC reasoned that
I   investigative activity undertaken ci.ih.".r t.he <expiration of a prdhninary invesug~'ttion is
    perruissible if that activity is pc~r:rnissible under a threat assessrnent pursuant to the
    Attorney General's NS! Guidelines, FHI OGC officials told us that they consider the NSL-·
I   derived information to he F'BI records because the Jidd office had n:·,cei:V('!d the n::cords ln
    response to a properly :issued .NSL The FBI OGC's ratlon~~k is n~fle:<:ted in the
    November 30, 2006, guidance t.o NSLB attornz~ys. (U)

I
                                                     149

I                                                ~
I
I                  •   tn1p.ropedy disseminating records to a con:ununlcation service
                       provider received in response to an ECPA NSL seeking
I                      telephone toll billing records; and (UJ
                   •   using data obtained through an unauthorized collection to
I                      ilnproperly generate ECPA NSLs for telephone toll billing and
                       electronic con:ununication subscriber records. (U)

I           Jn the first rnattec an FBI field ofike obtained ECPA teleph.one toll
    billing records \Vith the intent. of sending the records to the fldd office that
    issued the NSL Instead, the FBI Held o:ffi.ce inadvertently disserninated the
I   records to another cornn1unication service provider rather than the field
    o:fl1ce that initiated the NSL. Docrunentatton of the incident states that the
    co1nrnun.icatton service provider that received the records recognized the
I   enor <:md contacted the original cmnmunication service provider. wb.tch
    then contacted the FBL The FBI OGC reasoned that h11proper
    dissemination to a private corn1nunication service provider did not darnage
I   national security and had no lmpact on the rights of the subscriber. fU)

            Although the <.lissen11nation was inadvertent and the cormnu.nication
I   service provider did not further diSS('rninate the infonnation, we believe any
    disserntnatJon to a. par!:y not auth01ized to receive the records, absent the
    consent of the person 1.vho the records concern or in specified etnergency
I   sltuaUons., should be reported to the ron. u53 The ECPA states that: the FBl
    u1ay dissen1ina.te inforrnation only as specified in the Attorney General's NSI
    Guidelines. TI1e Attorney General's NSI GutdeUnes provide standards and
I   procedures fix the sharing and dissemination of infi-y.rmati.on obtained in
    nattona:l security investigations. The dissemination that took place in this
    matter was not m:nong the spedfk<l types of dissernination pennittecl by the
I   Attorney Generars NSI Guidelines. and the. matter should have been
    report<::<l to the IOB.154 (U)

I   ·----------------------------------------------·----
                  l5J The Electmni1: Commun.icotions Privacy A.ct, 18 U.S,C.§ 2709[d}, provides: !U)


I           The F·ederal Bureau of lnvt.~sligation rnay disseminate infon.nation m1d
            records obtained un,k:r this sechon only as provided in guidelines approvt.~d
            hy the Attorney General for fordgn intd.ltgenct:: colkct!on arid fore:lgn
            i::(n1nt~tirintelligerHX'. inv<'.stigatlon,s co:nchi.ch:~d by the F<:ider<"ll Hu.re<'lu of
            Investigation, <.rnd. ·with re,>:;pect to dbserntrmUon to an agency of the Unlt('.d
            States, only if such information is dearly relevant to the autl'lmized
            responsibilities of such agenc.v. {U}

I           J.54   The Attorney   General'~~   NSl Guidelines p:rm.ide: fU]
           a. Information may he disseminated \Vith the consent of the pc'.f$On \Vhorn

I          the info:nnation concerns, or "\Vhere necessary to protect life or prnpe1iy from
           threatened force or violence, otherwise necessary for the ~•afety or see1nity of
           persons or property or for the prevention of crime. or nec(~ss;;uy to ohtaJn
           inforn:iatlon for th<:: co:nduct of<); lawful irwestigaUon by the FBL HJ)
I                                                                                          (Cont'd.)

                                                        150
I                                                   ~
I
I           Lu the second rnatter. the FBI properly served an NSL for electronic
     conu:nu.nlcat.ion (e--m.ail} subscriber records. 1.n response, the NSL recipient
I    provided the subsc1iber records and, in addition, electronic conununication
     transactional records that were not requested in the NSL. Using
     in.formation contained tn the records that were not requested in the NSL rmd
I    to \Vhich It therefore \Vas. not entitled. the FBI issued NSLs for ECPA
     telephone toll billing and electronic comrnunication subscriber records
     (e-mail records) to two other NSL rec~pien:ts. The first NSL recipient
I    responded that it had no information, and the second NSL recipient
     furnished subscriber inforrnation. The FBI realized the en-or and .issued two
     new NSLs to cover the in:forrnation provided in response to the NSLs based
I    on the inappropriately collected information. TI1e field ofllce reported tlit~
     unauthorized collection m1d the i.ssum1ce of the NSLs to tlw FBl OGC. (CJ)

I            However. in its decision u1en1orandurn the FBI OGC addressed only
     the third party urn:u.rl:ho.rized collection, st.":1ting that the field office should
     contact the ISP and ask whd.her uni.ntentional~y acquired information
I    should he returned or destroyed or, alte1T1atively, issue a nev.r NSL for the
     e:!ectronic communication transactional records. 'I11e VBI OGC reasoned
     that the original NS:L \Vas properly served, but that the provider fun1ished
I    records that were not requested. Yet, the FBI OGC decision did not address
     the FBI's issuance of the b.vo ECPA NSLs based on e,·mail address
     infonnati.on that the FBI had not requested in the originaJ NSL, hut that \Vas
I    pro.d _ucecI a.s a_ resu li: Cht' t'l1e. .N·,._S'I      . • . t'· s error. Srnce
                                                     __, rec1p1en
     auth01ized to obtain the electronic communication transactional records in
                                                                                '"'   tl1e ·pXf:)l"     . . nor'
                                                                                             · :).. ·v;las


I    response to the initial NSL, we believe that the FBI's use of these records to
     generate additional NSLs should have been reported to the IOB as irnproper
     requests. \Ve also believe the FI3I's issuance of the NSLs that were based on
 I   the unauthorized infr:irmation shouJd also have been reported to the FBI
     OGC and in tun1 to the JOB as itnpror,er requests because the FBI
     cornpot.mtk~d the thtrd party error by using the information in its

 I   investi~ation. rn~'> (U)




 I            b. lnforrnaUon that is publicly available or does not idenW)r United States
              person.s may be disseminated for any lav.>fhl purpose. {lJj
 I            c. Dl.sten1inattcin nf inform<:t.tion providc'.d to the FIH by <ither- lnlel1l.genc.e
              Comn.u.mity ag"<.~ncies is subject Lo applic;;ible agreements and
              understandings \dth such agencies concerning the dissemination o.f sud1
 I   NSI
              in.fi:.n-mation, (U}
           Guiddirn.~s,   § Vlf(B}(l). fU)


 I            l2> 5
     May 200G, (U)
                      The FBI improperly reqtt{$led the l'\vo ECPA NSLs bet\veen March 2006 and



 I                                                151
                                                                                                      !('.onfd,)



                                                  ~
 I
I
I          Jn a.dditiot1 to the matter described above, there \Vere 37 other
     possible intelligence: violations for a total of ~18 matters that involved
I    unauthor1zed collection due tu third party errors in which the case agents
     may have compounded the etTors. As noted in the previous section on
     possible intelJigen<.:e violations repmted to the IOB, the FBI OGC has not yet
I    determined 'Whether case ag<::nts compounded the third prui.y errors in these
     38 tu1auU10rized collections. (U}

I           \Ve also examined the rernedia.l actions taken regarding the
     unauthorlzed collections that took place in the rnatters that \Vere not
     reported to the lOB. similar to our examination of the u:nauthodzed
I    collections tlrnt took place in the rnatt:ers that were repQrt.ed to the IOB. \Ve
     found that the Held reports of unaut11orized collections that were not
     reported to the IOB did not consistently address \Vhether telephone toll
I    biUing records were uploaded into F'Bl da.tabases. Of the 41 tk-:ld reports of
     unauthfn~i.zed collections that were not reported to the IOB, 19 involved
     receipt of telephone ton bi11.ing records, \.VhHe 12 of these 19 reports
I    in.dicaled that records were not uploaded into FBI databases, 7 of the
     reports did not address whether inforrnation inappropriately obtained \VHS
     uploaded into FBI databases, .no (U}
I             E.       Comparison of Possible NSL~Related IOU Violations Reported
                       to the FBI OGC in 2006 and from 2003 through 2005 (U)
I          'l'o detem1ine whether there were note.:vmthy trends in the repo1i.i.ng of
     possible NSL-related intelligence violations to the FBI OGC frorr1 2003
I    tlU'ough 2006, we compared the 84 possible: inteUigence vi.olations reported
     to the FIH OGC in 2006 with the 26 possible violations reported to the FBI
     OGC frorn 2003 through 2005, which tve described in our flrst NSL
 I   report)5 7 Table 7.4 cornpares the data in both peliods, (U)


 I
                   As noted above, prior to August. 1, 2-007, the FBI OGC was not required to report to
 I   the IOB instances l.n ».vhich the Fl31 compounded third paiiy errors such as l.n thl.s 1:n..-iJter.
     ln light of the new reporting standard. the FBI OGC is in U1e process of reviewing prevfous
     ;:idJudications of matters involving third. party effurs to dett::rmine l.ftlx~ FBI cqmpounded
 I   these errors. In <Jarnrn.ry 2008, tht:: FB.I OGC decl:ded. to ~rewrite" l.ts tnltial <kdsion in th.is
     rnat.ter, and the re\ro'J'ite conc.luded. that the matte:r tV::lS rr:.portahle to the IOB under thr:'. new
     l'.l'.'.portl:ng :::>Wn.(brd bt'.C;:111se the ag<.nlt had "in~tdvf..'.tti:'.ntly compounded the third pmty (~IT(H"

 I   by issuing NSLs based <in infonna,tl<m delived from over-p:roduced data," fU)

           U:-.6 'I11e FBI OGC November 16, 2006, gHidmlCe Ul{~morn.ndum required Un.t
     improperly obtained iufonnat.ion be st~queskred pending the FBI OGC's i:kterrninatl.on of
 I   whether the nmterial tan be used, {U)
              im' St-e NSL I, 70, !U)


 I                                                           >'.')
                                                           l .) .....

                                                      ~
 I
I
I                                   TABLE 7.4
            Comparison of Possible NSL-Related IOB Violations Reported
I              to the FBI OGC (2003 through 2005 and. 2006) {U)
                           [Table below is Unclassified]

I                                        Possible !OB
                                         Violations
                                                      2003 tlu::o h 2005                       ~~---2000_·
                                                                                      PoSSlble IOB
                                                                                      Violations
                                                                                                        -'-'-.-,_ _ _ _......,


                                         Reported to the                              Reported to the

I                                        FBI OGC
                                       ....................fiftitfaf"" Possible
                                                   !1 Third        Violations
                                                                                  i

                                                                                  !
                                                                                      FfU OC:tC
                                                                                  r.....................'j.'initiat.....
                                                                                                         l Third
                                                                                                                           Possible
                                                                                                                           Vfohl.tions
          Cat('!gory of Possible        FBI          Party         Reported       ! FBI                  l Party           Reported

I            IOB Violation              E:trnr       Error         to the !OB     ! Error l E:tror                         to the !OD




I
I
I           As shown in 'Table 7.4. t11e number of possible intelligence violations
     reported to the FBI OGC rose dramatically in 2006 cornpaxed \Vith n1atters
I    re.ported in 2003 through 2005. from 26 for the ~3 yearn to 84 in l year
     {2006), The data also shnws a rnm·ked tncrease in rnatters reported
     involvtng unantho1ized co:Uectton, (U)
I           Ouf.~rall Number       qj' Violations: The fact that the field reported to the
     FBI OGC over three ttn1es the nu1nber of possible intelligence violations in
I    2006 that it reported for the :.~-year period from 20CX3 through 2005 appears
     prirnarUy due to a significantly ltlgher incidence of reported third pa.rty
     errors involving unauthorized collection. It also is likdy that case a,_~ents,
 I   supervisors. and. CDCs began to nmr:e closely scrutinize NSLs and NSL·
     derived infon:nation when tl1e OIG was conducting its first NSLn~view frmn
     Decetnber 2005 until March 2007. (U}
 I          Nature qf \liolati.ons: rn 200fi, the possible intelligence violations
     resulting frorn unauthorized collections \Vere similar to those v.re reported in
 I   our first NSL report, hut in 2006. a n1uch higher nurnber of these nmtters
     W'ere reported {19 in 2003 through 2005 compared with 70 in 200131. \Ve

 I   beheve the higher incidence of such reports is attributable to the FBI's
     closer scrutiny of records obtained in response to NSLs to verify that the


 I            1513 One matter induded an initial third party enor that resulted in both a:n
     unauthorlzed eollecUon, and an il:npro:ixx request by the FBL Both possible inteU:i,genee
     violath:mH are rdlected in Tnbk 7 .4. fU}

 I
 I
I
I    responsive data matched the NSL requests, \Ve believe that th.is heightened
     scrutinv of adherence to NSL authorities 'was likelv attributable to the FBI's
I
            ~                                            ~



     appropriate response to the OIG's first NSL revievv. (UJ

           Source qf Errors: The increase in the number of reported rnatters
I    involving third patiy errors was particularly stTikrng:. Froin 2003 through
     2005, FBI enors accou.nted for 85 percent of the errors, \Vltile in 2006 FBI
     errors accounted for only :39 percent of the errors. With regard to the
I    soun::e of the enTffS in just the unauthorized collections, from zooa through
     2005, the FBI was responsible for 79 percent of una.uthorized collections,
     while in 2006 the FBI \\l<-1.S .responsible for only 27 percent of the
I    unauthorized collections. As noted above, this trnnd suggests that F'HI
     agents, their supervisors. and CDCs were scrutinizing NSL'S and NSL~
     de1ived infonnation inore closely tn 2006 than in the past. (lJ)
I         l\Jatters Reported to the JOB; \Vhile F'HI field personnel reported to the
     FBI OGC in 2006 over three tin1(:s the m1n1ber of possible intelligence
I    violations that ~vere reported frorn 2003 through 200S, the percentage of
     matters reported to the IOB in 2006 was snm1ler. Fro1n 2003 thrnugh 2005.
     the F'BI reported 73 percent of possible :intelligence violations to the IOB. In
I    2006, only 40 percent of the matters reported to the FBl OGC \Vere reported
     to the IOB, The lmver percentage reported to the IOB in 2006 is attributable
     to the signmcant inn.Tiber of 1natters lnvotvtng i..mautt1nrized collections
I    resulting from initial third patty errors that the FBr OGC adjudicated after
     November 13, 2006, After November 13, 2006, under agreen1ent with thf..~

I    IOB, these n1atters were no longer required to be reported to tl1\~ IOB. (U)

             However, follmving con1n1unicatinns betl.¥een the F'BI OGC ru1d the
     lOB in Au.gust 2007, these matters are now reported to the IOB \Vhen the
I    FBI compounds the initial. third party error by irnproperly utilizing the
     unauthmized infonnatJon or uploading the unauthmized information into

I    FBI data.bases. The FBI OGC instructed all CDCs to address whether the
     in:iUal third party errors were compounded by the FBI when repmi:ing
     possible intelligence violations to the FBI OGC, 11ie NSLB Deputy General

 I   Counsel also advised the lOB's General Counsel that the BTU OGC \Vould
     review its previous decisions on possible intelligence violations arising from
     thtrd party errors to determine whether application nf the August 2007
 I   dtrective required further reporting to the HJB, The NSLB's Deputy General
     Counsel told the OIG that the FBI OGC will adjudicate these rnatters after
     the FBI OGC has cmnpleted its acijudJcations of niatters arising fron1 the
 I   VBrs three 2007 NSL revi.ews (desc1.;.ibed in Chapter Three of this repnrtJ, In
     light of the increased reporting of initial third party errors, \.Ve believe the
     FBI inust take aggressive steps to ensure that when it obtains ink>rmation
 I   not requested in NSLs discrepm1cies are proxnptly identified: that records
     are sequestered. returned, or othe_rwise handled in confonnHy \Vith the FBI

 I                                         154
                                       ~
 I
I
I                                     ~
    OGC's guidance: and that the FBI does not compound the error by using: or
    uploading U1e ilnproperly proVided information. (U)
I
    m.    OIG Conclusions and Recommendations (U}
I          FBI field reports of possible intelligence v1olations arising from the use
    of NSLs in 2006 were similar to the reports we examined in our first NSL
I   report covering 2003 through 2005. vVhile there \Vas a notable increase in
    reports of unauth01ized collections in 200G, the percentage of reports of
    possible intelligence violations attributable to FBI error decreased in 2006.
I   However, in August 2007 the IOB's General Counsel notified the F'HI that it
    would require third party errors to be reported as possible intelligence
    violations when the FBI cmnpounds such third party errors by utilizing the
I   inappropriately provided infonnation or uploading the information into FBI
    databases. (U)

I          \Ve believe the overall increase in the reports of possible intelligence
    violations rnay be explained in large pati by the attention that our first NSL
    review focused on the FBfs obligation tn examine information obtained ln
I   I'esponse to NSLs and report possible intelligence violations and to increased
    scrutiny of NSL..5 and NSL~de1ived infon11ation by case agents, supervisors,

I   and CDCs. (U}

           As discussed in Chapter Two of this report, after the issuance of our
    first NSL report in March 2007. the FBI and other Departinent components
I   took a variety of steps to promote con1pllance with NSL authorities. 1r1ese
    include n1andatory training of FBI personnel on statutes and rules

I   governing the use of NSLs, as well as several reviews conducted by the FBI's
    Inspection Division and the National Security Division in conjunction 'Nith
    NSLB attorneys, The FBI also is incorporating technological 1Inprove111ents
I   designed to simplify the preparation of NSL documents and minimize errors
    iI1 generating these documents. \Vhile these efforts are ongo111g, we
    recommend that the F'Bl: (U)
I          1. Periodically reinforce in training and guidance provided to case
    a~ents and supervisors
     ~             .          assigned to national security investigations the FBI
                                 ~                        .        ~




I   QGC directive to report on a llinely basis to the FBI OGC possible
    intelligence violations arising fron1 the use of NSL authorities. (U)

I          2. Require case agents and supervisors assign.eel to national secrnity
    .investigations to specif)' in any reports to the FBI OGC the precise remedial
    measures employed to handle any unauthorized inforn1ation they obtain in
I   response to NSLs and to address whether the inappropriately provided
    infonnation was used or uploaded into FBI databases. (U)

I
                                           155
I                                      ~
I
I           3. Periodically provide case agents and supervisors assigned to
    national security investigations \:\>ith. exarnples of comrnon errors in the use
I   of NSLs, such as the exarnples used in the November 30. 2006, FBI OGC
    guidance memorandum regarding posstble NSJ.,-.re:lated intelligence

I   v:Iolattons. (U)



I
I
I
I
I
I
I
I
I
I
I
I
I
I
                                       156
I                                      ~
I
I
                               CHAPTER EIGHT:
I                    CONCLUSIONS AND RECOMMENDATIONS (U)
           \Ve believe the FBI and the De1nu-trrn::nt have n1ade significant
I    progress hl impleu1enting the reco111n1endatJons fron:i our first NSL report
     and in adopting other corrective actions to address problems we identified
     in the use ofnationat security letters. ·v..re found that the :F'BI has devoted
I    s1gnil1cnnttime.• energy. and resources toward ensuring that its field
     mana:t!ers and         nnck~rstand the se1iousness of the F'BI's
           ~,.:-




I    shortcmnings in      use of NSLs and thelr respo11stbility for correcting
     these deficiencies. (U}


I            For exan1pk\ the FBI Director and Deputy Director have underscon.~d
     the sig:nlficance of the Ol:G's findfng:s ,.v:ith senior Headquarters officials,
     Special Agents in Charge (SAC), and other personnelth.roug:twut the ra:n:ks
I    of the FBI; stressed that cornpliance with NSL authoritk$iS a n1aJor prinrity;
     and emphasized that personnel. involved in drafting, reviewing. and
     approvtngNS:Ls ivill be held accountable for 111fi:·acUons, The Deputy
I    Dtre.ctot and the General Counsel have reinforced these messages 1;\tith
     SACs and Chief DiVision Counsels (CDC). The FBI also has generated
                                                                       '"
     coru.prehensiveJegal gutdance on use of NSLs; provided. n1and;,1to.ryNSL
I    .tralnlng to SACs, Ass.istant Spec:ial 1\ge.r1ts in Charge, Supervisory Special
     Agents, Specia] Agents, Intelligence Analysts, and Headquarters personnel;
     u:nd<:~rs(;ored the responsihiUty of CDCs in revie\vtng and approving NSl...5

I    .:.u1d of case agents in ensuring that NSI,,s do not generate unauthorized
     records; and developed enhanced Info:nnation technology tools that shoiild
     frtciUtate the preparation of NSLs, reduce o.r eHnlina.te errors, a.nd improve
I    the accuracy of congresskmal and public ntportlng on NSL usage,, \Ve
     believe that these and other steps taken in. the last year tndica.te that the
     :FBI is coinmitted to addressing the problerns we idenUfied in 01.tr first NSL
I    report (U)         ·

             ~r·he   FBrs efforts to promote better cornpliance with NSL authorities
I    nlso have been enhanced by other FBI iniii.attves and by the national
     security reviews conducted by the National Security Division {NSD} r:md the
     .F'BL 'I11e FBI has also created a new Office of Integrity and Cmnpliance
 I   (OlC), modeled after private sector con1plian.ce programs, to ensnre that
     national security investigations and other FBI activities an~ conducted in a
     rna.ntier consistent \¥1th appropriate laws, regulatic.n1s, and polieies, \!le
 I   believe thts office can pe.r:fo.rm a. valuable function by providing a process- for
     identtlying; cornpUance re.quirernents and lisks. a.ssesstng existing contro:l

 I   n1echanisn1s, and developing and in1plement.ing better coutrnls to f::nsure
     proper use of NSLs, Hmvever, we reconm1end that the FBI consider
     prmrid1ng the OIC with a larger pettnanent stafllng level so that it can
 I
 I
I
I                                      ~
    develop the skills, knowledge, aI1d independence to lead or directly carry out
    the critical elements of tllis new compliance program. (U)
I         In addition to the F'Bfs efforts to address the OIG's recornmendations.
    the Department's NSD has irnplernented additional rneasures to prornote
I   better conlpliance with NSL authorities and to address other issues raised
    by our first report. Fm" example, in 2007 the NSD began reviews to ex:arnine
    whether the FBI ls using various intelligence techniques, including NSLs; in
I   accorda.nce with applicable laws, guidelines, and policies. (U)

           In this repmi:, we. a:tso exa:mined the F'BJ's 2007 field and
I   Headquarters NSL reviews, which confirmed that the types of deficiencies
    identified in our flrst NSL report had occurred tlffoughout the FBr from
    200:3 through 2006, The FBI's field review \Vas in1portant because it
I   covered a largtT, statistically valid sarnple of NS Ls and case files. TI1e FBI
    reviews confirmed similar types of possible intelligence Vi.olations in the

I   FBI's use of NSl.-.s. However the I<'Brs field review found a higher overall
    violation rate (9.43 percent) th.an the OIG found (7.5 percent) in the sample
    we examined in our flrst NSL report. (U)

I           However, \Ve exarnlned in detail the FBI's reviews and detennJned
    that they did not capture a:IJ NSL violations in the files they reviewed and

I   therefbre did not provide a fully accurate baseline from which to measure
    future in1provernent in compliance \o.rlth NSL authortties. F'or exmnple,
    during ou.r re--exmnina.tion of case tlles that FBI inspectors determined had

I   no intelligence violations in three field otnces, we discovered 15 NSL-related
    possible intelligence violations. In addition, because FBI inspectors were
    unable to locate inforn1ation provided in response to a significant nurnber of
I   NS Ls chosen for review in the FBI's random san1ple, the results of the FBI's
    field review likely understated the rate of possible intelli.gence violations. (U)

I           In its review, the FBI categmized most instances of unauthorized
    collections as third party e1Tors rather than as .F'BI errors, Yet, while the
    initial mistake niay have been attributable to NSL recipients who provided
I   inore infurmation than was requested in the NSLs, the VBI may have
    compounded the recipients' error by not taking appropriate steps to identify
    the overproduction, sequester the infor:mattcm, and report the violation to
I   the :F'BI Office of the General Counsel (FBI OGC). vVe also noted that of the
    557 idenWled possible intelligence violations tlmt resulted initially fro111
    thtrd party errors. case agents self-reported only 4 (less than l percent}. (U)
I         Finally, as required by the Patriot Reauthortzation Act, this OIG
    review exarnined the FBI's use of national security letters in calendar year
I   2006. (U)


I
                                           158
I                                      ~
I
I                        Our review found that the F'BT's use of national secu1ity letter
                  requests in 2006 continued the upward trend we identified in our first NSL
I                 report, "\Vhich covered the period 2003 through 2005. In 2006, the FBI
                  issued 49,425 NSL requests, a 4 ..7 percent increase over NSL requests
                  issued in 2005. For the 4-year period, 2003 through 2006, the FBI issued a
I                 total of 192,499 NSL requests. (U)

                             MostNSLusage{abou8ercent of a11 NSL requests) in 2006                                                                          bl

I     {S)
    \S)         . .-.>· c· '· c·...~t· · ·1· · ·1· ·T· · ·. ·. .~e.·.L·'i·. . . cltllng c~unterte~~mi.sn1i1.1vest:ig.atic.)ns (con. . 1pa.:red
                <
                2005). Abou ..... ·········· -ercent of all 2006 NSL requesta-fvere issued during
                                                                                                                            tB.···             Jercent in
                                                                                                                                                            b3


        1,S1    counterintelliger1c~ it.T\t~~tigaj:i()I1§~ m1dJessthanepereent of the requests
I           {Sr were generated during foreign computer intnISion cyber investigations. In
                addition, the use of NSLs in FBI counterterrorisrn investigati.ons increased
        fS) fronTa1?proxio·                                                           ·· el []Percent of invest~gaum:s o~ened :iu~ng 2003 to
I     \S)
                appr.oxim.at.el ..... ············· _ercent of the counterterronsn1 investigat10ns opened
                during 2006.

I                            Vv~e
                            also found that the percentage ofNSL requests related to
                  investigations of "U.S. persons" increased tn 2006 compared with the
                  corresponding percentage of such requests in 2005, fron1 5~3 percent to 57
I                 percent. \Ve also found that the percentage of NSL requests related to
                  investigations ofnon-U.S. persons decreased from approxirnately 4.7 percent

I                 of all NSL requests issued in 2005 to approxiniately 4:3 percent of all NSL
                  requests issued in 2006. (U)


I                        ·with respect to tl1e effectiveness of national security letters, F'Bl
                  Headquarters and field personnel repmied that they continue to believe
                  national security letters are indispensable investigative tools that serve as
I                 building blocks in many counterterrorism and counte1intelhgence
                  investigations, Nattona1 security letters have various uses, including
                  obtaining evidence to support Foreign Intelligence Surveillance Act
I                 applications for electronic sun,,,eillar1ce. pen register/trap and trace devices,
                  or physical searcb.es; developing com.municaUon or financial links between
                  subjects of FBI investigations and bet\veen those sultjects and others~
I                 providing evidence to initiate new investigations, expand investigations, ol'
                  enable agents to close investigations; providing investigative leads; and
                  corroborating infonnation obtained by other investigative techniques. FBI
I                 officials told us that infom1ation derived from NSL,_5 \Vas a signillcant factor
                  that contributed to the progress of n:mjor terrorism and espionage
                  investigations conducted in 2006. (U)
I                       In addition, as required by the Patriot Reauthorization Act, we
                 exan1ined national secu1ity letters issued fron1 March 10, 2006. through
I                December 31, 2006, to detennine if they \Vere issued without the
                 certjfication necessary to require the recipients to comply with potentially
                 applicable non-disclosure and confidentiality requirements. The vast
I                                                                                  159

I                                                                           ~
I
I   majmity of the NSLs and approval KCs \Ve exru11ined substantially complied
    with the certification requirement and F'BI policy. \Ve believe this
I   coxnphance record \Vas largely due to the prompt guida.nce the FBI OGC
    issued on the date the .Act was signedi the availabUJty of new NSL forms on
    its Intranet website, and periodic guidance F'BI OGC attorneys provided to
I   the Held as questions arose. (U)

           Our analysis showed that at least 97 percent of the NSLs we
I   examined in a randon1 smnple irnposed the non-disclosure and.
    confidentiality obligations on recipients. The majority of the approval
    t11e1110randa supporting these NSLs asserted that disdosure of the NSLs
I   could prernaturely reveal a national seculily investigation to the targets,
    persons affiliated with the targets, or the investigative subjects. Vie found

I   that only 1 7 of 364 (5 percent) NSL approV<:tl memoranda in the randon1
    smnple contained peliunctmy or conclusory justlilcations forinvoking the
    non-disclosure and confidentiality requirements. \Vhile the nun1ber of non-
I   compliant NSIB in our rand0111 sample was small. \Ve a:n~ concerned that
    some case agents ru1d their supervisors did not follow FBI policy that
    requires suffi.cient.justtficat.ion for imposing non-di.sdosure and
I   confidentiali.ty requirements on NS:L recipients. (U)

            A srnall nun1ber of NSLs and approval tnernoranda in our random
I   san1ple (8 of ~175) a.I.so contained inconsistent recitals \Vith respect to the
    need for invoking the non-disclosure and confidentiaJity obligations. and
    case agt~nts and their supervisors, as \Vell as CDCs, 13.iled to identify and
I   correct these errors. FBI oillcials believe that a ne\v NSL data system.
    ilnplemented in 2007 \\>'ill elhninate this rmcl other data entry discrepancies.
    Hmvever. apart from the random sai11ple, we identified 8 (of the 11) blanket
I   NSLs issued by Counterterrorism Division officiaJs in 2006 that did not
    con1ply with the Patiiot Reauthorization Act requirernents respecting these
    provistons. ~I11ese eight NSLs included the pre-·Patriot Reautho1ization Act
I   language to the eflect that thereciptent was prohibited fron1 disclos-tng that
    the :fi'BI had sought or obtained access to infor:rnation or records under the
    Eiect.ronic Communications Ptivo.cy Act. The senior Counterterrorisrn
I   Division officials who signed these NSJ-"-<; failed to ensure that the NSLs
    cornplied \Vi th statutory requirements and that the NSLs and related
    documents were reviewed by FBI attorneys prior to signing. (U)
I          As required by the Patriot Reauthorization Act, our re-view also
    exanrined instances of improper or illegal use of national security letters in
I   2006. First. our review analyzed possible NSL--related intelligence violations
    that the FBI was required to report to the President's Intelltgence Oversight.
    Board (IOBJ. \Ve identified 84 possible intelligence violations involving the
I   use of national sectnity letter authorities that were reported to the FBI OGC
    fro1n January I, 200G, through Dece1nber 31, 2006, of which 34 \Vere

I   reported to the IOB. These 34 111atters included the saine types of

                                          160
I                                     ~·
I
I   intelligence violations reported to the tOB in 200~) through 2005, including
    NSL.s without proper authorization, improper requests, .and unauthorized
I   co!Jection of telephone or Internet e--t:nail records. Of these 34 intelligence
    violatkms, 20 were the result of FBI elTors. while 14 resulted initially from
    n:Iistak1::~s by recipients of the national security letters. Of the 84 possible
I   intelligence violations involving the use of NSL authorities identifled mKl
    reported to the FBI OGC in 2006, the I"'Bl received infonnation it was not

I   entitled to receive in 14 matters. In one of th.e nmtters the FBI requested
    inforrnation it \Vas not entitled to under the applicable NSL statute, In the
    other 13 rna.tters, the FBI 111ade proper requests but, due to third party
I   en-ors, obtained .infonnation it \va.s not entH.led to receive under the
    pertirn:~nt NSL statutes. fU)



I          In sum, despite the signiJlcant challenges facing the FBI to elimina.te
    fully shortcomings in its use of NSLs, we believe the :F'BI and the
    Departrne.nt have evidenced a cmnmitment to correcting the problems. we
I   found in our first. NSL report and have 111ade si.gnifi.cant progress in
    addressin.g the need to irnprove ctrrnpliance in the FBI's use ofNSLs. ·111e
    FBrs executive leadership, includtn.g the Director, Deputy Director. arid
I   General Counsel. ex.pressed their cunun.itment to ensure that Headquarters
    and Held personnel understand the serioi1sness of the FBI's shortc.ornings in
    its use of NSLs, the proper use of NSLs. and their individual responsibilities
I   for correcting the deficiencies, (U)

           However. because only 1 year has passed since the OIG's first NSL
I   report \vas released and smne n1easures are not fully irnp1ernente(.t we
    believe it is too early to detlnitively sta.te whether the ne:w systems and
    controls developed by the F'BI and the Department \vi.U eliminate fully the
I   problems \Vith NSLs that we identified. 'VVe believe the F'BI tnust implement
    au of our recon1111endations in the first NSL repmi. de.monstrate susta.frted
    comrnitnient to the steps it has taken and c0111mitted to ta.ke to ilnprove
I   compliance, in1ple1nent add:iUonal .recommendatio.ns described in this
    second report. consider additional measun~s to enhance privacy protections
    for NSl...-derived infm::rnation, and remain. vigilant in holding FBI personnel
I   accountable for prop(:rly preparing and approving NSL~ and for handling
    responsive records appropriate~y. {U)

I          A'i a. result in tltis report we rnake 17 additJona1 recom111endations to
    the FBI to further improve its oversight and use of national secu1ity letters,
    \Ve rec0111111end that the f'BI: (lJ)
I          l. Create blank rnandatory tlelds tn the data. base supporting the NSL
    data system for enteling the U.S. person/non--U.S, person status of the
I   target of NSLs a.nd for entering the nurnher of NSL requests in order to
    prevent inaccuracies that 1na:y othenvisc result h·om the current default

I   settings. (U)



I
I
I                2. Implement :rneasun.'$ to vertfy the accuracy of data entry tnto the
    new NSL data systet:n by :including periodic reviews of a san1ple of NSLs in
I   the database to ensure that the tra:ln.ing prm.>ided on data. entry to the
    ·~··1p.-)
    ~t         )rt
       . .. .t C . .. :s.t'·a      .t .of the
                       -. . . '( .IT                L"B'I
                                          . _ .... .1'      ~ ,..)'\...__.. N'
                                                       J".. t')(.,,..,      . "'tl'('1·1·,.·1
                                                                              {:x ~ I'    ,_;i_. 0t..1t..   . . -~' I......r·a\f·'
                                                                                                 c, .,,,11·n·1·,t            . .. ~"' .B1·
                                                                                                                                   0             . •. . t . (N
                                                                                                                                        . <...{ 11c·i1
                                                                                                                                                    1        . . S"I  ·B'J c"tl·1°1·
                                                                                                                                                                 ~- ........
                                                                                                                                                                ·lo'   .1   .   .\.,. .




I   Headquarters divisions, and Held personnel is successfully applied in
    praeti.ce and has reduced or elirninated data entry et.Tm-s. These periodic
    reviews should also draw upon resources available from the FBI Inspection
I   Division and the FBI's new Ofllce of Integrity and Corrtpliance (OIC). (lJ)

          3. Implernent Jneasurcs to verii)r that data reqw:~sted in NSLs is
I   checked a,~alnst ser.ial.ized source documents to verify tl1at the data
    extracted from U1e source document and used in the NSL (such as the
    tekphune number or e-rnail address} is accurately recorded on the NSL and
I   the approval EC, (U}

          4, Regularly rnonitor the preparation o:f NSL-related docurnents and
I   the handllng of NSL-derived information \.vith periodic n~vtews and
    inspections. This includes requiring that during quarterly fi1e reviews,
    squad supervisors conduct, at a. rnintn1n111, spot checks of NSL--related.
I   documents in investigative files to en.sure adherence to NSL antholities,
    Attorney C~eneral Guidelines, and internal FBI policies governing use of NSL
    authorities. (Uj
I                 5. Assign NSLB attorneys to p<.u·Ucipate in pertinent rneetings of
    operational and operational support units in the Counterterrorisrn and
I   Cuu.n terin tellig;ence Divisions. {U)

          6. Consider increasing; the staffing;""
                                                  level of the OIC so that it can
I
                                                                      '-~'-


    develop the sufficient skills, kno\vledge; and indepenc.knce to lead or directly
    cany out critical elements of the OIC's work. (U}

I          7, Reinforce the distinction between the ff BJ's b.vo NSL autholi.ties
    pursuant to the Fair Credit R.eporti'.ng .Act throughout all levels of the F:BI's
    National Security Branch at YBI Headquarters, in new agent training. in
I   advm1ced training provided to agents and supervisors ass(~ned to
    counterterrorisn1 and ccmntc-:rinteUigence prograrns. and ir1 training
    provi.ded to Assistant Special Agents in Charge and Special Agents in
I   Charge. (O)

          8 . .l\dd procedures to include revie1'vs of FCHA NSLs tn
I   counterintelligence in.v(~sttgattons in the FBI Inspection Division's perlodle
    reviews and in the NSD's .national security reviews. (U}

I         9- Reiterate in its continuing discussions with major credit reporting
    agencies that the agencies should not provide consurner full credit reports
    in response to FCRAu NSLs and should ensure that they provide only
I   requ.ested tnJonJ1ation in response to all FCRA NSLs. (U)
                                                                                          162
I                                                                                   ~
-------------------~                      -
                    .. ... - - - - - - - - - - - - - - - - - - - - - - - - - - -




 I
                                               ~··
 I                10,         that guidance and training coTltitrue to identify the
            circumstances under Wh.ich FCHA         matters n1ust he reported to tl1e FBI
 I          OGC as possible intelligence violations. (UJ

                   11. Issue additional guidance addressing the filing arid retention of
 I          NSL'."derived infonnatir:m that v.111 irnprove the abilityto locate NSL,·.delived
            lnfonnation. yfllt~ guidance should require that all NSL-derived iuform;ltion
            be appropriately docurr1e:nte:d, $tored, easily identified, andreadUy 9-Vailable
 I          for.i11tcnutl and external review. (U}


 I                12. Include in lts routtne e.ase file revie\VS m1d the NSD's nati<::mal
            security reviews an analysis of the F'BI's complim1ce \>\rtth requirements
            govern1ng the filing and retention of NSLNderived infonnation. (U}

 I                 13, PeriodJcally reissue guidance and train]ng n1ate.iials reminding
            case agents and supervisors assigned to national security investigations

 I          that they x11ust carefully exa:minethe circumstances surrounding the
            l.ssuance of each NSL to determine whether tl'lere is adequate justtilcat1Qll
            for imposiI1g non-disclosure and confidentiality reql11ren1ents on theNSL
 I          recipient. {U}

                   14. Pc:.riodically reinforce in training and guidance provided to

 I          agents and supeJ'Yisors assigned to national security inve.stigations th.e FBI
            Ot1C dlrective timely·report to tlle .FBI OGC pOSE¥ible intelligence
            violations arisiqg fron1 the use of NSL autho1ities.. (U)

 I                15. Require        agents and supervisor$ assigned to national security
            investigations to specify in any reports to th(;~ FBI OGC the precise re1nedial
 I                     employed tQ handle any unauthorized infonnation they obtain in
            response to NSLs and to address whether the inapprop1iately provided
            informaticm was used or uploaded into FBI databases. {U)
 I                 1f.t P(".Jiodically proVide case agents and supervisors assigned to
            national security i:nvestigaUons With exmnples of con1mon errors in the use
 I          of NSLs, such atS the examples used in the November 30, 2006, FBI OGC
            guidance memorandun1 regarding possible NSL·-related intelligence
            \iolations. (U)
 I                \Ve also· reccn11rnend ·that the Departn1ent: {U}


 I                 I?. Direct that       NSLWorking Group, with the FBfs q.nd the NSD's
            parti.dpation, re..,exmnine measures for (a) addressing the privacy interests
            associated iNith NSL-dertved information, including the benefits and
 I          feasibility of labeling or tagging NSL~derived information, and {b) 1ninim.izing
            the retention and disse:minatlon of such information~. (U)

  I
                                                   163
  I                                            ~!Ill
I
I          .1'1nally. our fmi:hcot:n1ng report.will describe 1i1 detail the FBI's use of
    exigent letters, the issuance of n improper "blanket'' NSL.s and other
I   irnproper NS:Ls, and other inlproper requests for telephone .tt>cords. and tvill
    include addition.al recommendations., The:rdbre, the FBI should consl<k~r

I   the findings and recomt:nendatrons in our forthcoming NSL :report together
    \Vith the recomrnendations in this report in addressil1g measures to
    continne Ul i.t11prove the FBI's cornplim1ce \¥ith NSL authodties. (U}

I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I
I   UNOLASSIFIBD APPENDIX
I
I
I
I
I
I
I
I
I
-------------"·········
I
I               .:.•.'.                      The Attornev General
                                                                 "'
                                                    Vvashingt:on, D.C
I                                                February 29,         2ooa

I        The Honorable Glenn A. .. fine
         Inspector General

I        United States Department of Justice
         950 Penmylvania A venue, NW
         Washington, DC 20530

 I       Dear Mr. Fine:


 I               Thank you for your report entitled "A Review of the FBI's Use of Nation.al Security
         Letters: Corre(:frve Action.sand Use in 2006."


 I                 When you issued your report last year kfonti(ying concerns about the fe,deral Bureau of
         lnvestigationts use of national security letters during the years 2003<.W05, Attorney General
         Gonzales and Director Mndler directed that significant resources he dedicated to improving
         oversight of this important national security tooL I appreciate your positive as...-:;essment of the
  I      Department's and the Bureau's efforts in th.is area, including your conclusion that the Department
         has made "'signific..ant progress" in implementing the recommendations outlined in your report.
         In particular, I am pleased that. your report highlights the Bureau's important work in establishing
  I      an Office oflntegrity and Compliance and the significant efforts of the National Security
         Division. to create an Oversight Section \:Vithin the Office of Intelligence, as \veli asthdr \Vork ti)
         jointly complete 15 national security reviews in FBl field offices and headquarters i:.:omponents in
  I      2007. Yciur report also correctly emphasizes the need for sustained focus on the Bureau~s use of
         national security letters, and the institutkinal changes the Department ha.s put in place v.dU help
         ensure that we continue to devote sufficient resources to the oversight of our national security
   I     i nve.stigations,

                  I appreciate your continued recognition that national security letters are an important
   I     inve:stigative tm)!, and that they,have contributed to many cou.nterterrorism and
         counterintelligence investigations. As the substantial efforts of the past year should make dear,
         the Department is connnitted to using this critical tool responsibly and in a maimer consistent
   I     \Vith the law.

                 A.gain, my thanks to you and to )'i)Ur staff for your e.fnnis in preparing this repim.
   I
    I
    I
    I
     I                                                         A-1
                                                                                         ..... ---··"_. ..   ~-----------
I
I                                    DiRECTOR OF NATWNAL iNTELLli~ffNCE
                                             WA'.~1cHNG1\"JN, DC W5U


I
I
      TI1e Honorable Glenn A Fine

I     Inspe.ctor General
      United State,s Department of Justice
      950 Pennsybrnnfa. Averme, N.V/,
      Washington, nc 20530
I     De.ar Mr. Fine;

I               (U) Thank you for providing tis a copy of your draft report dated Fchrtuuy 14, 2008
      titled, *'A Review of the Federal Burit..au of hlvestigatlon's Use of National Security Letters:

 I    Assessment of Corrective Actiorn;: and Examination of NSL t.faag~ in 2006, ,; \Ve have reviewed
      your .mport and appreciate tlw oppmtonity to prnvide etJmme.nL


 I            (0) As your report makes clenr, Natio1rn.1 Security Letters are a..n irrvaluable tno1 the
      Peden! Bureau of Investigation (PB}) uses tt:1 obtain. infonnation in mrtio11al :§ecmify
      investigations, Vle thank you for the exten:sive revim~/ )'NH' office ha.'i< i:xmdu;;::ted, and Junk
      fonvard to receiving the forthcom.ing additional re.commendations, \Ve believe your repon
 I    demonstrntes the many J:rnprove:rnents the FB1 and Dcpa....-.trnent of Justice have rnude to e,rnmre
      compliance with Natinnd Security Letter b:\~'s, and ~ipplicahle guidelines and procedures; \Vhile
      iris critical that our int~Uigeface prnfossion.ais have the authorities tht':y need to <lett~.ct and
 I    prevent threats to the natfonal s.;.x:urity. it is equ~tlly imperative that d.K~se atlthorities be cx~::z~t.ited
      with due C'MC, to tl1e protectfon of civil Utxwties and ·with effoct.ivz~ compliance imd OV(~rnghl
      nwchanisms in plaa.~,
 I                                                                         Sin.<.x:rdy,

 I                                                             c:r!W//~
 I
 I
 I
 I
  I                                                UNCL..~S!FIED


  I                                                          A-2
I
I                                                              U.S. Department oJ Justice
                                                               National Security Division
I                                                              JVi:w'1i'ngum. D,C 20530


I                                                              February 29, 2008

 I      The Honorable Glenn A., Fine

 I      Inspector General
        lJnite<l States Department of Justice
        950 Pem1sylvania Avenue, NW

 I      Washington~   DC 20530

       Dear Mr.   Fine~

 I             Thank you for the oppt1rtunity to provide the views of the National Security Division on
       vour reo,. ort entitled "A Review of the FBrs Use of National Securitv Letters~ Corrective Actions
       ~                                                                          ~




 I     and Use in 2006."

               As you kt1ow~. following the issuance of your initial report identifying concerns about the

 I     Federal Bureau oflnvestig-atiou's (FBl) use of national security letters (NSLs) in 2003·:·2005;
       Attorney Genera! Gonzales and Director 1\'.faeUer directed the implementation of a series of
       corrective actions, including implementation of all of the rec01nme11dations in y0t1r initial repmi~

  I    1n addition, the Attorney General directed the National Security Division (NSD) and the
       Departrnent's Privacy and Civil Libe.rties Office to work with the FBI to implement these
       corrective actions. These efforts were aimed at ensuring that the FBI uses NS Ls in an
  I    appropriate manner in compliance \Vith all applicable law'S and policy requirements.

               This direction and tlle actions taken pursuant to it, as \~·en as the continuing ~£forts of the
  I    Department, demonstrate the commitment of senior Department leadership to addressing the
       serious issues identified in yom earlier repmt. As your report notes, the Departn1(:nt has made
       significant progress and continues to devote significant energy, time, and resources to this effort
  I            For example, as your report states, the FBI has issued comprehensive guidance
       conceming the proper use ofNSLs and has conducted training in field ot1ices acmss the country.
  I    The FBI has also taken steps to hnpmve the accuracy ofits reporting ofNSL statistics to
       Congress by developing a ne\V NSL tracking data.bas\~ that is now available across the FBI.
       Further, with respect to the use of so-called ''exigent letters," the FBI issued a Bureau-wide
  I    directive prohibiting the use of the type of letters described in your reports. In addition, in March
       2007, the FBI Director ordered a onewtime .review nf ten percem of all national security cases in
       the 56 FBr field offices and headquarters. This revie\v was a substantial undertakfog~ requiring
  I    the deployment of over l 00 inspectors and the review oftho11sands ofinvest.igative files, Finally.
       as you discuss in your .report, the Attorney Gene.rat requested the Department of Justice's Chief
       Privacy and Civil Liberties Officer and the Office of the Dl\TJ to convene a working group to
   I
   I                                                 A-3
------------------····--···········
I
            cxamim~ how NSlAforived information is used. and retained. by the FBL 111e working group has

I           made important progress in this. area ·aimed ai the protection ofpriva(;)' and civil liberties, and the
            Attorney General has directed the group to c-ontinue its efto1ts. As part of this process, the
            'vorking group \Vill take inw account the reconunendations made in your mn~l report.
I                   I also want to lugWight the progress of the Department's significant new national se~mrity
            oversight and C{lmpliance effort that was publicly announced in July 2007, Th.is effort
I           encompasses substantial changes ·within. the Department of Justice to improve the Department's
            cnntrols over its national security activities. The effort includes the implementation of a
            dedicated Overnight Se.ct.ion with.in NSD and the e-stablishment of an Office of Integrity and
 I          Compliance w1.thin tlle FBL The oversight and cqmpliance program.s run by these om~.es a:re at
            the forefront of the Department's ongoing eft<.Jrt to ensure that national security investigations are
            conducted in a manner consistent \Vith our faw-s, regulations~ and policies~ including those
 I          designed to protect the privacy and civil liberties of our citizens,

                     For foe first time, DOJ attorneys have be.en given the clear mandate t-0 examine an
 I           aspects of the FBrs national security program for wmpliance ·with law, regulations~ and policies,
            As part of this eSfort, the N SD is conducting regular National Security Investigation reviews at
            FBI field oint;es and headquatiers units, ·working \Vith the helpful input .ofthe FBL These
 I          reviews, which were developed in consultation with representatives .of the omce ofthe Inspector
             General, represent a substantial new· level and type nf overnight of national security

 I          investigations by career Justk.-.e Department la\.vyers ·v.rith ye-ars .of intelligence experience. The
            revie\VS are not limited to areas where shortcomings have already been identified; instead, they
            are intended 1o enha11c:e compliance across the national security investigative spectn.m1, NSD

 I          completed 15 such review"S in 2007 and plans to conduct a similar number on ru1 annual basis. Iu
            ndditk)n~ the Attomey General directed NSD to review all violations th.at the F.Bl refors to the
            Intelligence Oversight .Board (IOB) in order to identify recurring prnblems and to assess the
            FBl's response to such violations. NSD is reporting regularly to the Attorney General ouits
  I         revie•N in this area.


  I                 The innovations and corrective actions described above reflect a new level of oversight
            and an appreciation of the need for stmng im.~ures to improve compliance in our national
            security investig·atfons. We appreciate the very fine work that went into thiS NSL review, and we

  I         look forw·ard to working \"vith you as we implement aU of the recommendatio11s in. your report
            As your .repo.rts have noted, NS.Ls are an indispensib!e investigative tool and have contributed
            significantly to many cuuntertemxism and C(1unterintdligence investigations. We are committed

  I         to using thfa critical tool in an appropriate maimer that protects the privacy and civil liberties of
            all Americans,


  I                                                                Sincerely,


  I                                                                Ke1meth L \V a:instei:n

  I                                                                Assistant Attorney General



  I
   I                                                      AA
I                                                                 U.S. Department of Justice


I                                                                 Federal Bureau of Investigation


I
        . Office of the Director


I                                                                 February 28. 2008


 I       Honorable Glenn A. Fine
         Inspector General
         United States Department nf Justice
 I       Sriite 4706
         950 PerUlsylvania Avenue, N, V/,
         \Vashington, DC 20530
 I                                 Re: US. Department of Justice, Office of Inspecwr General
                                       "A Review offhe Federal Bureau ofinvestigation's Use ofNatlonal

 I                                      Security Letters; Czlrrective Actions and Use in 2006"

         Dear Mr. Fine:

  I                     The FBI appreciates this opportunity to respond to the findings and
         recommemfations made in the Oflice of the Inspector General's e'OlG's") review of corrective

  I      actions taken by the FBI in response to an OIG repmt published last year regarding the FBI's
         usage of Nation.al Security Letters CNSLs")("NSL l ")and yot1r review· of the FBI's usage of
         NSLs in2006 e'NSL 2'' or ..Reporf') as re.quired by the USA PATRIOT Improvement and
         Re.authori:t.atk)n Act of 2005 ("Patriot Reauthorization Acf~). This letter conveys our response,
  I      and l request that it be appended to the Report


  I                     The Report begins \Vith the first external revie•n that has been conducted of the
         extensive actions taken by the FBI following the publication of NSL 1 in March 2007 and. notes
         that FBI executive leadership has made correcting the problems identified in NSL l a «top
         pdority" (Report at 15), \Ve appreciate the Report's finding that by devoting ~'significant time,
   I     energy and resourc,es," we have made ••significant progress1' in correcting the deficiencies
        discu&<>ed in NSL l (ld, at 6), As detailed in the Report, these actions include policy changes,
         increased mandatory training and the creation of a new NSL automated workt1ow system that
   I    \vill help ensure compliance \vith laws, guidellnes and policies and \\fill improve the ai:.icura!::y of
        our Congressfonal reporting regarding NSL usage. In addiiion to the actions recommended in
        NSL I, we have conducted extensive intetmd reviews to ascertain fully the scope and nature of
   I    our compliance problem.s an<l to guide corrective action, Moreover, we have -in what may be
        unique viithin a federal government agency-- created a ne\v Ot1ice oflntegrity and Compliance
        ("OIC"),. which is modeled after private sector compliance programs. Further, in cn.njunction
   I    with the I:kpartment (if Justice c~oorys National Security Division ("NSD"), we have
        instiwted a prog.ra.m of systernatic reviews of FBI national security investigations as a w-ay both
        to ensure c.ornpliance with statutory schemes like those that govern NS Ls and w ~-e.rve as a
   I    warning syste.m ifthere are other areas in which our compliance efforts can be strengthened.


    I
    I
I         l-kmarahk Gleim A Fine

I         Although ive have rnade substantiat progress, we concur that we must -- and wiU •• sustain our
          c.omn1itme:nt to ensuring compliance with the laws and polic.ies g1:>verning usage ofNSLs.
I                         In addition to providing a review of corrective actions taken in response to NSL 1,
          the Report ~11so responds to u1e Congressional mandate that the OIG exarnine the use ofNSLs in
 I        2006, We appreciate the Report rec-0gnizi11g ''that the FBI's use ofNSLs in 2006 [discussed in
          the Report] oci:mrred be.fore·~ NSL I and befrJre extensive FBI corrective actions were
          impkmented (Report at 8). Therefore, it is "not surprisingt]" that NSL 2 contains findings
 I        similar to NSL l (Id), NSLs remain an indispensable investigative tool that significantly
          advance the progre,ss of national security investigations. us the Report details in Chapter 5, and,
          in almost a!J cases. potential errors or policy vil>lati\1ns involving NSLs relate to information tfolt
  I       the FBI was tawfuBy entitled to obtain (Report at 137).                                    ·

                         The Report also revie\.ved compliance with the non.,disdosure and confidentiality
  I       provisions nflhe Patriot Reauthorization Act and found that~ thanks to prompt and recurring
          guidance, the ~·vast majorit.i" of sarnpled NSLs (97 percent) complied with the .Act in imposing
          non-disdosure and confidentiality obligations on NSL i'ecipients (Repmt at l 0),
  I                       As noted above. the FBI took very substantial corrective actions in the wake of
          NSL l. inch1ding pi'..llky changes, increased marid~ttory training and the deployment of an
   I      automated '>Vorkflow system for NSLs that is designed to facilitate compliance with statutes,
          guidelines an.d policies and to improve the accuracy of the FBl's Congressional reporting, Our
          most significant actions are discussed bdow:
   I             •    1Vfandated t.hat all infonnation n.!ceived in response to an NSL be reviewed prior to
                      uploading the .infonnation into FBI databases. Because a.fl reviews of the FB!'s NSL
   I                  usage (Le,, those conducted by FBl and 01G) have found frequent examples of
                      twerproduction of materials by NSL recipients~ this polic;y change alone should result
                      in substantially fe<.ver potential intelligence oversight board violations connected to
    I            •
                      the us~ of NSLs.
                      Prohibited the issuance of exigent letters, and issued dear policy, with audit trails, for
                      acquiring c-0nununications records in trnly exigent circumstances.
    I            •
                 •
                     Prohibited the issuance ofNSLs solely from control files.
                      Mandated !egat review of all NSLs either by attorneys in the Office of Oe:nera!
                     Counsel (OGC) or by Chief Division Counsel and cl.early ddineated the st'.ope of that
    I                review to include the predication for the NSL and the predication for the unde.r!ying
                     investigation.
                 •   Established an Office of Integrity and Compliance to facilitate the efforts of exeeutive
    I                management to identi.f)' and mitigate significant areas cJf risk. The OIC has been
                     functioning for approxi.rnately one year and has demonstrated its value in foc;using the
                     atlentlon of executive management on as~~ts of the H~I's operatiot1s and business
     I           •
                     processes that pose con1pHanc;e risks,
                     In conjunction \Vith DOJ, implemented a program fr:ir regular revie\vs ofnational
                     security investigations in FBI field offices and headquarters units, including but not
     I               limited to compliance \Vith NSL statutes, policies and procedures, Those revie\~'s,
                     Hke the a<::tivHks of the OIC, have proved valuable in uncovering policies and
                     procedures that pose compliance challenges,
     I
      I                                                   A-6
                                                                                                      -------------
                                                                                 ........... "_ .......
I
I
                         Following NSL l, all NSL policies and reqt1ind procedures \Yere combined into a
I        single document that provides dear and comprehensive guidance to FBI employees who issue
         and approve NSLs during national secmity investigations, Prior to its issuance, a draft of the
         ne\v "one-stop~' policy docurnent was briefod to Congn.~ssiona! staff and privacy groups and
 I       many ofthdr comments were incorporated into thi:.~ final version of the policy. We also
         instituted niandatory in-person NSL training and have developed .forther tn1ini1~g that is available
         on the FBl's Virtual A.cademy,
 I                       We also developed and fully deployed. enhanced information technology tools to
         automate the NSL workflow. including accumulating the data necessary for Congressional
 I      reporting. The system (called foe NSL Subsystem) is programmed with drop dcrwn inenus and
        other user~friendly foatures to make the NSL process less time intensive for agents and analysts
         while. simultaneously increasing the accuracy of the process and decreasing the sort of human
 I      errors noted by the OIG (e.g., foiling to cite the approprhtte statlite in the Electronic
        Communication ('•EC") requesting an NSL; inconsist,~ncy between the data requested u1 the EC
        and that t\.~uested in the NSL), No NSL <..-an now issue unless vital information is included such
  I     as: the subject ofihe NSL~ the predication fbr the NSL~ the type of NSL, the recipient~ and the
        specific targets ofthe NSL In other words. the automa.ted system captures all the infonnation
        rt>.quired for Congressional reporting befbre generating the NSL In addition to improving the
  I     accuracy of Congressional reporting, the system ensures that each NSL receives the required
        legal review and each level of required supervisory revie\.V, Providing one database for
        automated ge.neration of NSLs also re<luces the time consuming manual process fur generating
  I     the required documentation and ensures consistency between fhe docum,ents rev1e.,..,.·ed and the
        NSL actually issued, After a pilot project, the NSL Subsystem became operational in all FB.I
        field offices: and Headquarters un January I, 2008.
  I                      Finally, as suggested by the OIG in NSL t, wt.~ isstle,d comprehensive guidance to
        a<:>sist our employees in effectuating the requirernent that the FBI use, if possihh.\ the "lea.st

   I    intrusive alternative" when conducting investigations.· We hdieve this guidru1t}e will be valuable
        in pointing employees to the sort~ of considerations they should balance when deciding between
        investigative alternatives that have differing levels of intrusiveness.

   I
         ·FBl's Response to Specific Recommendations
   I          Overview: the FBI agrees with all of the OlG's recommendations in the Report and \'viU
        implement each recommendation as discussed below.

   I    Reconm1endatfon #1; Create bfonk mandatory fields in the software supporting the N SL data
        system for entering the U.S. person/non-US. person status of the target of NS Ls and for entering

    I   the number of NSL requests in order to prevent inaccmacies that may otherwise result from the
        current default settings,


    I                  The FBI agrees with th.is recommendation: To hnprove the accuracy ofNSL
        Congressional reporting, the FBI will modify foe NSL Subsystem to require the: user to select
        one of the U.S, pe-rson status options before an NSL may be approve<L

    I
    I                                                  A- '7.I
                                                       '
I         Honorable Glenn A, Fine

I
         Recommendation #2: Jmplement rneasures to verify the accuracy of data entry imo the new
I        NSL data system by including periodic reviews of a sample of NS Ls in the database: to ensure
         that the training provided on data entry to the suppo1t staff of the FBI {)(}C National Security
         Law Brnnch, \)tber Headquarters divisions, and field perso1mel is successfuUy applied in practice
 I       and has .reduced or e.liminated data entry errors. These periodic review·s should also draw upon
         resources available from the FBI lnspecti~)n Division and the FBP s new Office of Integrity and
         Complia.tlC:e (OIC),
 I                       The FBI agrees ·wiih this recommendation: The FBr agrees that there should
         be periodic spot checks to ensure that infonnation is being properly reported and to make s~'i:em
  I      improvements where issues are identified, The FBI will utilize the resomces of the Inspection
         Division to conduct stu::h periodic reviews and the resources of OIC to assist in man~tging the
         policy and training changes imlkated by the results of such revit:w.,rs:, rn addition, it is important
  I      to note that the data from which Congressional reports will be pre~pared will come solely fmm
         data c:ontained within the NSL Subsystem. Thus, NSL data. will no longer be c-uHed from ECs
         and transferred manually to a standalone database (a process that generated many data entry
  I      errors) but instead will be recorded autnmatically upon the creation of the NSL. As a result, the
         data entry rnle of the support staff of the National Security Law Branch is greatly diminished,
         and the process under the ne\V system is designed to minimize the likelihood of data entry errors.
  I      Recommeml.ation #3: 1mp1ement measures h.i verify that data requested in NSLs is checked
         against sericli7...ed source dncuments: to vedf)--- that the data extracted frnm the source doi;mnent
   I     and used in. the NSL (such as the telephone number or e-mail address) is accurately recorded on
         the NSL and the approval EC


   I                    The F'BI agrees with this recommendation: Data such as a telephone numbers
         or email addresses that are the basis for NSLs shnuld be verified against authoritative documents,
         Such an authoritative document \.Vill frequently~ althcmgh not ah\.'ays, be a serialized document

   I     The FBI will continue to train and advise its employees regarding their d:uty to accurately
         prepare NSLs and to verify critical data against authoritative documents to avoid clerical errors,

         Recommendation #4: Regulari>t monitor the p.repru:-ation ofNSL~related documents and the
    I    handling ofNSL-derived infunnatfon \Vithperiodfo reviews and inspections. This includes
         requiring th.at during quarterly fik revie\vs. squad supervisors should conduct, at a minimum~
         spot checks ofNSL related documents in investigative files to ensure adherence to NSL
    I    authorities:, Attorney General Guidelines, lUld internal p<Jlicies governing use ofNSL authorities:.

                        The FBI •~grccs with this recommendation; The FBI requires            examination of
    I
                                                                                            ru1
         NSL~related documents and return information during quarterly file reviews, t\foreover, the
         National Security Reviews conducted by DOJ-NSD and FBI-Office of General Counsel ("OGC'Y)
         will help ensure udherence to la\Vs, policies and procedures ~ith respect to all investigative toQlS
    I    in the national security atea.

         Recommendation #5: Assign NSLB attorneys to participate in pertinent rneetin.gs of operational
     I   and operational s:u:pport units in the Count-erterrorism and Ci::n.interintelligencc Divisions,


     I
     I                                                   A-8
------------·-··""···
I        Honorable Gleim A. Fine

I                       The FBl agrees with this recommendation: NSLB will continue the weH-

I        estahhshed practice of requiring ~1ttomeys to ;:1ttend meetings of operational and operational
         support units.

         Recommendation #6: Consider in'-:reasing the staffing level. of OIC so that it can develop the
 I       suffi.cfont skills, k.nnwledge, and independence to fead or directly carry out critical elements of
         the OlC's work.

 I                        The FBl agrees with this reconnnendation: The miss.ion of the OIC is to
         di.wek'lp, irnpkment, and oversee a progxam that ensures that there are processes and procedures
         in place that facilitate FBI compliance \Vlth both the letter and the spirit of all applicable hiws,
 I       regulations, ru.les and policies. The OIC 'tViH cultivate an environr:nent con:rmitted to these
         principles, serve as a focal po.int for the compliance program, and ~issist FBI management at all
         levels in maintaining a culture \Vhere et.Mes and C{Jn1pliance a.re emphasized as paranwunt
 I       considerations in decisions th.roughoutthe FBL

                        OIC staff engages the leadership of the FBI in integrating the Integrity and
  I      Compliance Program into all FBI operations. programs, and activities and protnoting a ci.ilture of
         ethic.al e(m-~p!iance throughout the FBL The Ofiice is responsible frir establishing policy and
         methodology fbr compliance standards, risk assessmerit, world.low, monitoring m)d auditing, as
  I      well as establishing baseline standards for measuring the effoctiveness of risk mitigation
         measures, OIC's responsibilities also indude working 'With the Inspection Division to develop
        appropriate inspection protocols and procedures, tasking the Inspection Division ·with cnn<lucting
  I     targeted audits as needed, and analyzing the results and recommending such actions as may be
        necessary or appropriate to mitigate identified ri.sks, OJC is also ta~ked with developing
        effective and open channels for receiving report<;, in duding anonymous rep1)rts. of potential
  I     compliance risks; receiving, reviewing and analyzing data from a variety of sot1rces to identify
        compliance trends, problems, and best pmctkes; delivering training on the Integrity and
        Compliance Program; and supporting and facilitating the wc~rk of the Integrity and Compliance
   I    Council. and the Integrity and Compliance Executive M.anagement Committees. OIC also
        coordinates and manages the FBl Standards of Conduct ru)d Etl)ics Program tu include efiecting
        liaison with the Oftlce of Government Ethics and the DOJ Ethics Office, the review of financial
   I    disclosure repents, the ]njtiation and maintenance of ethics education and training programs, and
        the provision ofethics advice and counsel to individual officers and t.!mployt>cs.


   I                     The OIC is making steady progress in each of these areas of responsibility, and
        the office \\'Orkfoad i.s increasing as the program matures. 'J11e OJC expects hvo additional
        personnef to report in t11e near foture -- one attorney and one Special Agent ~~· which will bring

   I    the office up to its cutrently--authorized perso1me1 complement The Fm wiU contim.ie to
        evaluate OIC's personnel needs as the program ev·ofves,


   I    Recommend.atfon. #7~ Reinforce the distinction betwt:.en the FEff's t\vo NSL authorities pursuant
        tn the Fair Credit Reporting /\ct (FCRA) throughout all kvt.ds of the FBJ>s Natio.nal Security
        Branch at FBI Headquarters~ in ne•N agent training~ in advanced training provided tn agents and

    I   supervisors assig11ed to counterterror.ism an.d counterinteHigence programs, and in training
        provided to Assistant Special Agent<; in Charge and Special. Agents in Charge.


    I
    I                                                    A.~9
I   Honorable Glenn A. Fine

I                  The FBI agrees with this recommendation: ]11e FBI will continue to train
    employees involved in the issuance of NSLs on the distinction between FRCAv and FCRA_u
I   NSLs, In addition, the new NSL subsystem will not allow a 1681 v NSL to be issued from a
    counterintelligence investigation further ensuring that agents do not use FCRA NSLs contrary to
    the authorizing statute.
I   Recommendation #8; A.dd procedures to include reviews ofFCRA NSLs in counterintelligence
    investigations to the FBI Inspection Division's periodic reviews and the National Security
I   Division's national security revi_ews.

                  The li'Bl agrees with this recommendation: The Inspection Division is currently
I   undergoing a redesign of its inspection process and will incorporate a review of NSLs, to_ include
    FCRA NSLs, in the new inspection protocol for NSB programs.

I   Recommendation #9: Clarify in its continuing discussions with major credit agencies that the
    credit agencies should not pmvide consumer full credit reports in response to FCRAu NSLs and
    should ensure that they provide only tequested infomwtion in response to all FCRA NSLs,
I                   The :FlU agrees with this recommemlation: The FBI continues to have
    conversations with credit bureaus regarding responses to FCRA NS Ls. The c.redit bureaus have
I   bee11 asked to carefully review NSL requests and to provide only fonited credit information in
    response to a FCRA 1681uNSL request The appropriate Chief Division Counsels w.111 continue
    to communicate with the credit bureaus regarding overproduction in response to NSLs. It is
I   important to note that 01ir ability to work collegially with the credit bureaus on an attomey-to-
    attorneybasis has, in recent years, resulted in fewer oveiprodu1:>tions by the credit bureaus.

I   Recommendation #10: Ensure that guidance and training contim~e to identify the circumstances
    under 'vvhich FC:RA NSL matters must be reported to the FBI OGC as possible intelligence
    violations~
I                  The F.BI agrees with this recommendation: CmTent FBI training_ and policies

I   identify matters that must be reported to OGC as potential Intelligence Oversight Board (IOB)
    matters. Following receipt of a report identifying a potential IOB matter, OGC reviews the
    conduct described in the repmt to determine whether the IOB must be notified of the reported

I   error. 111e FBI will continue to provide such training mid will update guidance relating to IOB
    matters as appropriate.


I   Recommendation #11: Issue additional guidance addressing the filing and retention ofNSL-
    derived information that will imp.rove the ability to locate NSL~derived in:fonnation. The
    guidance should require all NSL-derived infommtion be appropriately documented, stored, easily

I   identified 1 -and readily available for internal and external audit.

                     The FBI agrees with this recommendation: FBI will coordinate any guidance

I   on filing and retention of NSL infonnation \\'ith the NSL working group as it continues to
    consider whether NSL·derived data should be tagged or labeled or otherwise subject to new rules
    to limit retention or dissemination of NSL-derived data. In addition~ the .FBI now requires all
I   NSLs, NSLapproving ECs, and records produced in response to an NSL to be maintained in a
    HNational Security Letter" subfile of the investigative file.

I                                                  '6 -

                                                  A-10
I
          Hi::morahle Glenn A. Fine

I
I         Recomm.end.ation #12: Include in its 90-day case file revievvs and the National Security
          Division's national sec,urity reviews an analysis nf the FBI's cornplhnce with requirements
          grweming the fifing and retention of NSL~derived information.

 I                       The FBI agrees w.ith this   recommcndatfon~      The FBI now requires supervisors
          to, inter alia, exm:nine c.ompliance v.:Hh requirements governing filing and retentkm ofNSL-
          derived infl.Jm1ation during regular quarterly file reviews. ln addition, an analysis of c.ompliance
 I        with FBI requirements gnvern.ing the filing and retention ofNSL-derived information wiU occur
          in connection with the Nation.al Security Re~~ews.

 I        Reeommendation #B: Periodically reissue guida11ce and training materials reminding case
          agents and supervisors assigned to national security investiga.tions that they must: carefully
          examine the circmnstances surrounding the issuance (}[each NSL to determine v..11ether there is
 I        adequate justification for impc1sing non~disclosure and confidentiality requirements on the NSL
          recipient.

  I                     The FBI ag.rees \\-1th this recommendation: 111e FBl wit! continue to issue
         guidance and training materials. as appropriate in order to rernind employees involved in the
         issuance ofNSLs that the non-disdosuxe provision of an NSL is not automatic and that anon~
  I      disclosure determination must be ma.de for each NSL. In addition, the NSL Subsystem has a
         banner reminding the user that the deten.ninatkm to impose a non-disclosure <)bligation must be
         made on a case~by~case basis for each NSL
  I      Recommendation #14: Periodically reinforce training and guidance provided to case agents and
         supervisors assigned to national sec:urity investigations the FBI OGC directive t<.1 timely report to
   I     the FBI OGC possible intelligence violations arising from the use ofNSL authorities.

                          The FBI agrees with th~ recommendation: Current FBI training and policies
   I     identify 11iatters that must be reported to OGC as potential JOB matters, Following receipt of a
         report identifying a potential IOB matter, OGC revie•Ns the conduct described in the report to
         determine •Nhet11er the reported error requ.ires r.wtification to the IOB. The FBI will continue to
   I     provide training and update guidam::e relating to 108 matters as appropriate.

         Recommendation #15: Require case agents and supervisors assigned to national security

   I     invel;l:tiga.tions to specify in any reports to FBI OGC the precise remedial measures employed to
         handle any unauthorized information they obtain in re,<)poilSe tn NS Ls and to address whether the
         inappropriately provid¢d inJormation w~~ used or uploaded into FBI databases.
    I                     The FBI agrees with this recommendation: 'The FBI cummtly .requires remedial
         measures to be induded in the electronic c-0nummicatio11 that reports to FBl OGC possible

    I    ittteUigenc-e violations. In future tmining and guidance, the FBI will continue to emphasize the
         requirement that such ren1edial mea.'>ures be included with the reporting EC.


    I    Recommendation #16: Periodically provide case agents and supervisors assigned to national
         security investigations with exarnples of common errors in the use ofNSLs. such as the


    I
     I                                                  A-11
I
         Honorable Glenn A.      Fint.~

I
         examples used in the November 30, 2006, FBI OGC guidance memonrndum regarding possibl.e

I        NSLNn.:latt~l   intelligence violations,

                           The FBI agrees with this recommendation: The FBf will continue the practice

 I       of incorporating anecdotal infonnahon regarding comxnon errors in the use of NS Ls in its NSL
         and intelligence overnight bNmi training, The FBI: will update examples of ·common em.)ts in
         training .as ne"\v issues arise, in addition, the FBI is hopeful that the NSL Subsystem ">Vnl greatty

 I       diminish the number ofem)rs in the use and issuance of NS Ls, many of which came from
         inadvertent errors, routing mistakes and typographical errors.

         Recommendation #17; Direct the NSL Working Group. \~·ith the FBI's and the NSD's
 I       participation, to re-examine measures for (a) addressiug the _privacy interests associated with
         NSL$derived information, including the benefits and feasibility of labeling or tagging NSLft
         derived infomw:tion, and (b) minimiziug the retention and disseminadtm of such infonnatil)n,
 I                    The Department of Justke and FBI agree with this recommendation: The
         Attorney General has directed th(~ working group to continue its 'l..vork
  I
  I
  I
                                                        17/k!!k~
                                                               Robert S, Mudler, HI
                                                                      Director

   I
   I
   I
   I
    I
    I
    I
    I
     I                                                 A-12
I                                                                                   U.S. Department of ,Justice

I                                                                                   Office of the De.1.)utv
                                                                                                     t    • Attornev
                                                                                                                   .. General




I   ~·-·---------·········-'··············--····--·--·········-················--············-···················--··········-------------~·--~----------




                                                                                    March 7~ 2008

I   The Honorable Gleim A. Fine
    Inspector General
    United States Departtm:.nt of Justic.e
I   950 Penn.sybnmia Avenue, N\V
    ,..., as1m1gton~
    \'I'      ' . . !)('"...·'1.::..l')-"0'
                                      .,::ij



I   Dear Mr. Fine:

    Thank you for the opportlmity to comment on behalf of the National Security Letter (NSL)
I   Working Group, on your report e.ntitled "'A Review of t11e FBI's Use of National Security
    Letters: Corrective Actions and Use in 2006.~' \Ve \Vekome the reconrmendation in your .report
    m1d are pleased that you consider the NSL Working Gwup an appropriate vehicle to continue to
I   examine and develop further safoguards for privacy and civil liberties,

    The NSL \Vorking Group worked with dedication and commhment over the past year to
I   strengthen S}lfoguards for individiials' privacy and civil liberties in connection with the .FBrs use
    nfNSLs. We believe that your recommendation, combined with the \Nork that the group bas
    <'lready done and \Vil! do going fonvard,. '.Vill he.Ip ac:hieve the goal we all share - to make certain
I   that the FBI is carrying out Hs vital nat1ona~ st~cur.ity mission under the rule oflaw and in a
    mm1ner that p.rotects the privacy and civil liherties of Americans.

I   As you note in your report, the NSL Working Group analyzed additional protective measures
    including new minim.ization procedures for the FBL To do this, the group examined an array of

I   issues concerning the use, storage, and dissemination ofNSL-derived i11Jbrmation to indmk~
    conside.ratkrn of tagging and labeling, potential tetentinn periods for each category nf NSL-
    derived data, ~md the privacy concerns associated \.\'ilh the type ofinfomrntion collected.

I   Additionally, the group met with FBI operational, policy~ and tec.hnology personnel to hette.r
    understand the operational and technical feasibility of different options, The group has also
    received feedback from outside privacy advocates, As we move ahead and take on your

I   recommendatio11, we look forward to sharing with your office greater detail about the NSL
    Working Group's activities and progress.


I   Again, 'Ne ~lppreciate your recommendation and i:.~ommit that the NSL \.Vorking Group \-Vill
    continue to address these important issues and keep your office infi.)rmed. \\le look fbn-vard t<.1
    continuing this important effort to emmre that the FBI\~ policies and procedures regarding the

I   use ofNSLs safoguard privac.y and civil liberties in a manner that is consistent with the FBI's
    critical mission to protect the Nation from threats to our national security.


I                                                                          /.Sincerdy~,
                                                                            /.-~\).    ()\
                                                                                                         1 ,0-...
                                                                          :
                                                                          ~/    .     . t. . . . ./ _,.
                                                                                                 .       ·.
                                                                                                            . ~" --~-

I                                                                         !\ ..4 l \.  1                  '·
                                                                          i'-· ·~ l                     ' "")
                                                                          <·F.~t        }p·'·          \-----
                                                                          ''-..~"'ilnCt 1    .   Morten-sen
                                                                               Acting Chief Privacy and Civil Liberties Officer
I                                                                      A-13
- - - -...............       .......
                     ===~·---~,        ............................ .


I
I
I
I
I
I
I
I
I
I                CLASSIFIED APPENDIX
I
I
I
I
I
I
I
I
I
I
I
                             CLASSIFIED APPENDIX                   (U)
I          In t ·111s
                   , appenrn.x,
                           .i •          . 1
                                w·e prov1c     ·i   ··i d
                                            e cietaJ.le      . . . . H)r
                                                        . · statistics r     I CJt,. t.h e t'our
                                                                         eac.1
    t~ypes of NS Ls that the FBI issued from calendar yea.rs 2003 through 2006 in
I   counterterrorism, counterintelligence, and foreign computer intrusion cyber
    investigations. l The data in this appendix is dassified because it discloses

I   the actual n1Jmber of investigations of t:.~ach typei as \.:i.'ell as the nurnber of
    NSLs issued under each of the NSL authorities. (U)
                                                                                                   bl

I                                                                                                  b3




I
I
I                                                 x
I
                                                                                                   bl

I                                                                                                  b3




I
I                                                                                           s
I
I
I                   Source: FBI OGC NSL database m:id f.8! HQ Dlvis:ions (U)


I            Thfa <'lppendix induck~s: dat;:i from 200:3 through 2005 induded in the Cbssified
    Appendix to the OlG's Review of the Federal Bureau of Investigation's Lh;e of Naiionn(
    Security Letten; {March 9., 20(}7)!NSL J), (Uj

I
I
I                           ~··(U)
                                                                                           bl

I                                                                                          b3




I
                                                                                 •
I
                                                                    x
I   Investigations, NSLs, and NSL Requests in 2006
              by Type of Investigation (U}

I               [ch             . 1s
                  . art . b e 1ow . ~.:-.~:
                                     ~~"•'"~        . .-.~,·~"]
                                           .,~. .--·:~{. . ~:.~·&
                                                                                           bl
                                                                                           b3

I
I
I
                                                                                ······ s
I
I
I
                                                                            -
I
                                                                        •
I
I               SQlirce: FBl OGC NSL database (IJ}




I
I
I                           B-2
                            ~
I
I
I                       'C
                        \i.!
                               bl
                               b3


I
                    i
I
I
    x
I
I
I
I
I
I
I
I
I                   \S
                               bl
                               b3


I           x
I               •

I
        x
I
I
-------------------
                          Numbers of FBI National Security Letter Requests Issued
                                             From 2003 Through 2006 (U)
                                               i Cha.r t be low 1s
                                               1                . ~:kA,--,K~~'
                                                                   ''<1';"'''<'''""''''"""''
                                                                                        ,f,
                                                                                                                                   bl
                                                                                                                                   b3




  :::>onrce: lJU,J semm.n:nual clasmtl{~Cl reports tD ci.:ingrnss ~m<l
             FBI OGC NSL datab<:1-S\~ c.ui of t,,h:('/ 2006 (for 15 U,~::LC § 168lv NSL requests in   200~-3   through 2005) {U)
I
I
    I.   Right to Financial Privacy Act (RFPA} National Security Letters
I        f U\
                                                                                            bl
                                                                                    s       b3

I
I
                 x
I                                                                                           bl
                                                                                            b3

I
I
I
I
I                                                                                           bl
                                                                                        s   b3

I
                                                                                    •
I                                                                     x
I                                                                                           bl
                                                                                            b3
                                                                               \S
I
I                                                                            •
I
I               S6urn>: DOJ s(:rnian.nual dassi:fied n~port:s to C<._ingress {U)


                                              B-5

I
I
I   II.     Electronic Communications Privacy Act (ECPA) Nation.al Security
            I&ttets {U)

I                                                                                                               bl
                                                                                                                b3



I
I
I                     x
I           A.       Telephone Subscriber Information {U)
                                                                                                                bl
                                                                                                                b3

I
I
I
I
I
I                                                                     x
I           '~ In the semiannual classified reportsi the Depart111e1lt co.mbi:ned requests for
    telephone and electnrnk cmm:nunication subscriber (e-mailj record inforrnatirn:i <;ti.1d,

I   separately, co:mhined requests for telephont~ toll billi:n.g and electro:nic con:mrunic<ition
    trn.nsactional (('.~n1aiJ} :reci::irds, .As a resl1lt, \Ve :relied on th1C'. OOC dat:abHse instead of the
    reports w deten:oine th<~ U.S. JX~rson/t:H)n-LLS. pcr::ion status for requests pursuant to ea.ch
    of the fcittr types of ECPA NSLs. (U)
I             :; FBl official$ stated that they may never k:a.rn the r.rs. person/m.:m·U.S. ix:~:rnon
    status of £Ul NSL request issued for subscriber infonnation rt.~que'.sts (telephone or e-mail),
    Ho\vevt.~l\ thi:.~ FB1 is n.,quired to identi(y the status of the su!zject of the investigative case
I   file for these NSL requests as either a U.S. person {or presu:med U.S, pe:rnn:n) or as a non~
    lJ.S, pf.:rson (or presumed non-U,S. person). This information is not reported to Congress
    for telephone and e-mail (eledronk) subscriber infon:n.ation, (U)

I
                                                      B-·6

I                                                ~
I
                                                                   bl
I                                                                  b3



I
I
I        x
I                                                                  bl
                                                         s         b3

I
I
I
I                     Source: FBI OGC NSL database ltn

    B.       Electronic Communication Subscriber Records (U)
I                                                              s
I
I
I                                                              bl
                                                               b3



I
I
I
I
                                    B-7
I
I
I                                                                                     s
                                                                                          bl
                                                                                          b3



I
I
I
I                                       Soun::<::: FBJ OGC NSL database fUl



I   c.   Telephone Toll Billing Records (U)


I                                                                                 s

I
                                                                                          bl

I                                                                                         b3




I
I                                I    Source: FBI OGC NSL database {Ul


I                                                                   I~
                                                                              I
                                                                              I
I
I                                                                                         bl
                                                                                          b3


I
I                                     Soun:.:t~:   FBJ OGC NSL database fU}
               x
I
I
I                                           s

I          D.     Electronic Communication Transactional Records (U)
                                                                                                        bl
                                                                                                    s
I
                                                                                                        b3




I
I
I
I
I                                      ~)
                                                      Source: FBI OGC NSL database (Ul



I                                                                                              IS
                                                                                               I
                                                                                                        bl
                                                                                                        b3



I
I
I
I
                          x
I   III.   Fair Credit Reporting Act (FC RA) National Security Letters (U)

I         Fair Credit Reporting Act (FCRA) NSLs fall under two statutes:
    15 U.S.C. §§ 1681u(a) and (b) and 15 u ,._.,
                                             ~ C.. R    r •"' ' 'V. (TU.
                                                   ~ •lOt'J.1          ")

I          A.     16Slu(a) and (b) (U)

          Section 1681u authorizes the FB r to issue NSLs to obtain information
I   regarding: {1) identity of financial insti l:t.1.tio.ns
    information, (U)
                                               ·            and (2) consl.l.mer identit~ving


I
                                                B-:
I
I
I       1.   Identity of Financial Institutions (U)
                                                                                          bl
                                                                              s
I                                                                                         b3




I
I
I
I
                               ,.,ource:   l-'V>J   semu:i.nntH:H Ciassrneu

I                                          reports to Congress (U)


    x
I                                                                                 i
                                                                                          bl
                                                                                          b3


I
I
I
I
                               Source; DOJ semiannual classified

I            x                         reports to Congress (U)


                                                                                          bl

I                                                                                     s   b3




I
I
I
I
I
I                                                                                                bl
                                                                                                 b3


I
I
I
I          Source: DOJ sernlanm1al classified reports to   Cm:l;;tt\~ss   {'U)
                                                                                                 bl
I                                                                                    IS          b3




I
I
I
                                           Souru:: DOJ se1niannual classified
I          x
                                                   reports t<i Cc>ngress (U)



I   B.   1681v (Consumer Full Credit
         Reports) (U}
                                                                                                 bl

I                                                                                          Is
                                                                                                 b3




I
I
I
I                          x
                                  SolW:'.e< OGC <latabase a.sot May 2Uvb and DOd
                                           S<~miannual   dassi.fied :reports to Congress ( lJ)


I
                                   B-11
I                              ~
I
I                                                                   l\S   bl
                                                                          b3



I
I
I
I                           x                                   x

I   IV.   National Securitv Act National Seeuritv Letters tU\
                                                                          bl
                                                                          b3


I
I
I
I
I
I
I
I
I
I
I
I
